                           U.S. DEPARTMENT OF ENERGY
                          OFFICE OF INSPECTOR GENERAL




                                    AUDIT OF

                       THE U.S. DEPARTMENT OF ENERGY'S

                     CONSOLIDATED FINANCIAL STATEMENTS

                               FOR FISCAL YEAR 1998




Report Number: IG-FS-99-01                            Capital Regional Audit Office
Date of Issue: February 25, 1999                      Germantown, MD 20874
              AUDIT OF THE U.S. DEPARTMENT OF ENERGY'S
                CONSOLIDATED FINANCIAL STATEMENTS
                        FOR FISCAL YEAR 1998



                        TABLE OF CONTENTS


                                                         Page

REPORT OF THE OFFICE OF INSPECTOR GENERAL……………………………….. 1


REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
THE DEPARTMENT'S INTERNAL CONTROLS…………………………………….….5


REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
COMPLIANCE WITH LAWS AND REGULATIONS………………………………….15



ATTACHMENT: U.S. DEPARTMENT OF ENERGY FISCAL YEAR 1998
ACCOUNTABILITY REPORT
                                    U.S. Department of Energy
                                    Office of Inspector General
                                     Office of Audit Services




             REPORT OF THE OFFICE OF INSPECTOR GENERAL



The Secretary
U.S. Department of Energy

We have audited the accompanying consolidated balance sheets of the U.S. Department of Energy
(Department) as of September 30, 1998 and 1997, and the related consolidated statements of net
cost, changes in net position, budgetary resources, financing, and custodial activity for the years
then ended. These financial statements are the responsibility of the Department’s management.
Our responsibility is to express an opinion on these financial statements based on our audits.

Except as discussed in the following paragraph, we conducted our audits in accordance with
generally accepted auditing standards; Government Auditing Standards issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 98-08,
Audit Requirements for Federal Financial Statements, as amended. Those standards require that
we plan and perform the audit to obtain reasonable assurance about whether the financial
statements are free of material misstatement. An audit includes examining, on a test basis, the
evidence supporting the amounts and disclosures in the financial statements. An audit also
includes assessing the accounting principles used and significant estimates made by management,
as well as evaluating the overall presentation of the financial statements. We believe that our
audit provides a reasonable basis for our opinion.

We were unable to satisfy ourselves as to the recorded balance for the Department’s
environmental liabilities (described in Note 13) on the balance sheet as of September 30, 1998,
and related effects on the accompanying statements for the year then ended based on the
Department’s records. Nor were we able to satisfy ourselves as to the balances by other auditing
procedures. The uncertainty over the balances resulted from a material weakness in the
Department’s internal controls over estimating environmental liabilities. This weakness is
addressed in our audit report on the Department’s internal controls.

In our opinion, except for the qualification discussed above, the consolidated financial statements
present fairly, in all material respects, the financial position of the U.S. Department of Energy as
of September 30, 1998 and 1997, and its consolidated net cost, changes in net position, budgetary
resources, financing activities, and custodial activities for the fiscal years then ended in conformity
with Federal accounting standards.


                                                                                                          1
    Our audit was made for the purpose of forming an opinion on the Department’s consolidated
    financial statements. The information presented in management’s Overview, the Supplemental
    Financial Information, and the Performance Measure Information are not required parts of the
    principal statements, but are supplementary information required by OMB Bulletin No. 97-01,
    Form and Content of Agency Financial Statements, as amended. We have considered whether
    this information is materially inconsistent with the consolidated financial statements. Such
    information has been subjected to limited procedures. However, we did not audit the information,
    and accordingly, we do not express an opinion on it. The performance information included in
    management’s Overview is addressed in our audit report on the Department’s internal controls.

    Management has chosen for purposes of additional analysis to incorporate information on the
    Department’s compliance with the Federal Managers’ Financial Integrity Act of 1982 (FMFIA)
    and the Inspector General Act within the Overview to the consolidated financial statements. This
    information is not a required part of the Department’s consolidated financial statements. While
    the FMFIA information has been reviewed separately by the Office of Inspector General, neither it
    nor the Inspector General Act information relating to audit followup has been subjected to
    auditing procedures applied in the audit of the consolidated financial statements, and accordingly,
    we do not express an opinion on it.



                                       MATTERS OF EMPHASIS



    The Department is a party to various administrative proceedings, legal actions, and tort claims that
    may ultimately result in settlements or decisions adverse to the Government, as discussed in Note
    16 of the financial statements. The Office of General Counsel, in responding to our inquiries
    about these matters, was generally not able to form a conclusion as to the likely outcome or
    potential loss resulting from many of the claims and assessments against the Department. Readers
    of the Department’s consolidated financial statements should, therefore, be aware that the
    statements may be affected by uncertainties concerning the outcome of claims described in Note
    16, which are not currently susceptible to reasonable estimation.

    In addition, the Year 2000 (Y2K) issue represents a significant challenge to the Federal
    Government. The Department has developed a plan to address and remediate these challenges. If
    the plan is successfully implemented, management believes that its mission critical systems will
    not experience adverse effects of the Y2K issue. However, due to the complexities of the Y2K
    issue, there can be no assurance that the Department is or will be Y2K compliant on a timely
    basis. Failure of the Department, or other entities with which the Department does business, to
    successfully address the Y2K issue may result in changes in the Department’s structure,
    operations, and mission; affect its ability to provide goods and services or perform its mission in a
    timely manner; and cause other operating disruptions.




2
                            REFERENCE TO OTHER REPORTS



In accordance with Government Auditing Standards, we have also issued a report on our
consideration of the Department’s internal controls and a separate report on its compliance with
laws and regulations. Both reports are dated January 5, 1999.




                                                    January 5, 1999




                                                                                                   3
                                            U.S. Department of Energy
                                             Office of Inspector General
                                              Office of Audit Services


                  REPORT OF THE OFFICE OF INSPECTOR GENERAL
                   ON THE DEPARTMENT'S INTERNAL CONTROLS

The Secretary
U.S. Department of Energy

We have audited the accompanying consolidated balance sheets of the U.S. Department of Energy (Department) as of
September 30, 1998 and 1997, and the related consolidated statements of net cost, changes in net position, budgetary
resources, financing, and custodial activity for the years then ended and have issued our report thereon dated January 5,
1999. We conducted our audits in accordance with generally accepted auditing standards; Government Auditing
Standards issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 98-08, Audit Requirements for Federal Financial Statements, as amended.

In planning and performing the audit, we considered the Department's internal controls over financial reporting by
obtaining an understanding of the significant internal control policies and procedures, determining whether they had
been placed in operation, assessing control risk, and performing tests of controls in order to determine our auditing
procedures for the purpose of expressing our opinion on the financial statements. Our procedures were not designed to
provide assurance on the internal controls over financial reporting. Consequently, we do not provide an opinion on
internal controls.

Our consideration of the internal controls over financial reporting would not necessarily disclose all matters that might
be reportable conditions. Under standards issued by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or operation of the
internal controls that, in our judgment, could adversely affect the Department's ability to record, process, summarize,
and report financial data consistent with the assertions by management in the financial statements. Material
weaknesses are reportable conditions in which the design or operation of one or more of the internal control
components does not reduce to a relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a timely period by employees in
the normal course of performing their assigned functions.

We noted certain matters, discussed in Exhibits I and II to this report, involving the system of internal controls and its
operation that we consider to be reportable conditions. We considered the condition reported in Exhibit I to be a
material weakness.

In addition, we considered the Department's internal controls over Required Supplementary Stewardship Information
(RSSI). Our consideration included determining whether the internal controls over RSSI had been placed in operation,
assessing control risk, and performing tests of controls as required by OMB Bulletin No. 98-08, as amended. Our
procedures were not designed to provide assurance on the internal controls over RSSI. Accordingly, we do not provide
assurance on such controls.

Finally, with respect to internal controls related to performance measures reported in the Overview to the FY 1998
consolidated financial statements, we obtained an understanding of the design of significant internal controls relating



                                                                                                                             5
to the existence and completeness assertions as required by OMB Bulletin No. 98-08, as amended. Our procedures
were not designed to provide assurance on internal controls over reported performance measures, and accordingly, we
do not provide an opinion on such controls. However, we noted certain significant deficiencies in the presentation of
reported performance measures, which are discussed in Exhibit II. In our judgment, these deficiencies could adversely
affect the meaningfulness of the programmatic performance measures presented in the FY 1998 consolidated financial
statements.

The audit also disclosed a number of other conditions relating to the Department's internal controls that we did not
consider to be reportable conditions and that did not materially affect the Department's financial statements. These
matters will be communicated to the Chief Financial Officer and to the heads of field elements in separate reports. The
recommendations made in these reports are designed to strengthen internal controls or improve operating efficiencies.

In evaluating internal controls, we considered matters reported by the Department in compliance with the Federal
Managers' Financial Integrity Act of 1982, our prior and current audit reports, and other independent auditor reports on
financial matters and internal accounting control policies and procedures. The Appendix to this report lists operational
audit reports published by the Office of Inspector General during Fiscal Year 1998 that were considered in our
evaluation of internal controls.

This report is intended for the information of the management of the U.S. Department of Energy, OMB, and the
Congress. However, this report is a matter of public record and its distribution is not limited.




                                                                    January 5, 1999




6
                                                Exhibit 1.
                             Material Weakness Finding and Recommendations


                                 Environmental Remediation Liabilities


Background: The Department's estimate of environmental liabilities should reflect future costs associated with
remediation of environmental contamination existing as of the last day of the fiscal year. As of September 30, 1998,
the Department reported total environmental liabilities of $186 billion. The Environmental Management (EM) portion
of this environmental liabilities estimate accounts for over $145 billion in liabilities. The EM portion of the estimate
was primarily based on an analysis of the technical scope, cost, and schedule required to complete remediation of
environmental contamination. This estimate was communicated in June 1998 by EM's Accelerating Cleanup: Paths
to Closure (Paths to Closure). Paths to Closure includes cost estimates for completing 353 separate projects at 12
different Departmental sites.

Paths to Closure reflects the most recent evolution of the Department's efforts to estimate the scope, cost, and schedule
to complete the cleanup program. The Department deserves much credit for its efforts; however, additional
improvements are needed. These efforts began with the first Baseline Environmental Management Report (BEMR)
issued in 1995. This was the first systematic effort to document the scope and life-cycle costs of the cleanup program
and formed the basis for the Department's environmental liabilities estimate for the Fiscal Year 1995 consolidated
financial statements. A second BEMR was issued in 1996 and was the basis for Fiscal Year 1996 consolidated
financial statements.

During the latter part of Fiscal Year 1996, the Department embarked on a new vision and strategy for addressing the
environmental cleanup of its sites. This new strategy was reported in a June 1997 Discussion Draft, Accelerating
Cleanup: Focus on 2006 (2006 Plan). The 2006 Plan followed up on efforts to improve the BEMR process and was
designed to accelerate cleanup and reduce costs. The 2006 Plan, which evolved into the Paths to Closure, provided
project-by-project work plans at each site. Compared to the original BEMR effort, the 2006 Plan and the Paths to
Closure were more project-driven and used site-specific, end-state assumptions.

Although efforts were made to improve the 2006 Plan over the BEMR, last year the Office of Inspector General
reported a material weakness regarding the controls over estimating the Department's environmental liabilities.
Specifically, the 2006 Plan data was not updated to fiscal yearend. Also, Headquarters' comments questioning the
completeness and accuracy of the 2006 Plan were not addressed, and the 2006 Plan did not contain provisions for
uncertainties surrounding potential delays and capacity issues at planned waste disposal sites and the availability of
privatization funding.




                                                                                                                         7
                                          Exhibit 1 (continued).
                             Material Weakness Finding and Recommendations



                               Finding 1: Cost Estimates for Environmental Liabilities

The Department's estimate of environmental liabilities should be adequately supported, complete, and updated
periodically when there is evidence that a material change has occurred. As a component of its overall system of
internal controls, the Department is responsible for establishing controls to provide reasonable assurance that estimates
supporting accruals of unfunded environmental liabilities are complete and readily verifiable. The Department's
system for estimating environmental remediation costs did not completely and accurately capture the Department's
environmental liabilities as of September 30, 1998. EM cost estimates were not always supported, complete, or
updated. The following are examples of the problems our audit identified.

At the time of our review, the Department could not provide adequate documentation to support the cost estimates and
    cost estimating methodologies for 7 out of 28 project cost estimates tested. The seven project cost estimates had
    insufficient or no support. Specifically, management could not determine the method used to create the estimate or
    the support provided differed materially from the Paths to Closure estimates. In response to this finding, the
    Department developed new estimates for three of the seven projects that were not adequately supported.

Valid environmental liabilities were excluded from the estimate. These costs were for security, waste disposal, long-
    term storage of surplus special nuclear materials, long-term surveillance and monitoring, and decontamination and
    decommissioning. In addition, we identified costs that should not have been included in the environmental
    liabilities estimate. These costs were primarily for non-EM newly generated waste. In addition, the environmental
    liabilities estimate contained costs that were also reported in a separate financial statement line item as contractor
    post-retirement benefits. In response to this finding, the Department made several adjustments to the
    environmental liabilities estimate to address these issues.

Paths to Closure project cost estimates were based on data submitted to Headquarters in February 1998. They were
    not fully updated through the end of the fiscal year for significant changes. Changes have been made in
    contracting strategies and technical approaches since the February submittal. However, the Department had not
    adequately evaluated the impacts or made appropriate adjustments. Also, the approval process used to update the
    cost estimate at four of the six operations/field offices tested was either not in place or was not operating
    effectively. In response to this finding, the Department made several adjustments that addressed updating the
    environmental liabilities estimate.

Established cost estimating guidelines were not consistently applied. Such guidelines were not always used for
    calculating contingency and site overhead costs.

While the Department has taken some corrective action, enhancements to the overall system of internal controls are
still necessary. The Department needs to ensure that its environmental liabilities estimate is fully supported, complete,
and updated for material changes. Without such enhancements, there is increased risk that a material misstatement of
the Department's environmental liabilities estimate existed and was not detected.




8
                                           Exhibit 1 (continued).
                              Material Weakness Finding and Recommendations



Recommendations:
The Acting Assistant Secretary for Environmental Management should institute a system of internal controls over the
Paths to Closure project cost estimates that will ensure the estimates are adequately supported, complete, and updated.
Specifically, the Acting Assistant Secretary for Environmental Management should:

1. Include in its Paths to Closure update guidance the following requirements:

    Cost estimates must be accompanied by adequate support that will be maintained throughout the audit cycle.
    Cost estimates must be complete.
    Before providing cost estimates to the field financial personnel, cost estimates must be updated to fiscal yearend
       for material changes in scope, costs, or schedule.

2. Clarify guidance on the use of contingencies in cost estimates.

3. Institute a quality assurance or validation process at each site for the Paths to Closure process to ensure that the
   guidance is being followed.

In addition, the Chief Financial Officer should direct field financial personnel to:

Review EM Program estimates and site specific Paths to Closure documentation to identify valid costs excluded and
   invalid costs included in site estimates in accordance with Federal accounting standards.

Work with site program officials to identify material changes in scope, costs, or schedule for cleanup and initiate
   adjustments to the site liabilities as appropriate.

Ensure baseline changes are incorporated in site estimates.


Management Reaction:
Management generally concurred with the audit recommendations. The EM program indicated that it is actively
working to improve the quality of data to support the environmental liabilities cost estimate by implementing a more
formal change control process to document revisions to project baselines and other supporting documentation. EM is
also pursuing various baseline validation strategies. EM recognizes that more rigor is needed regarding the level of
detail and inconsistencies of data supporting the life-cycle cost estimate. The iterative nature of this process will lead
to improved data quality and internal control systems. In addition, the Office of Chief Financial Officer (CFO) has
agreed to collaborate with EM and bring an accounting perspective to identifying the Department's environmental
liabilities. EM and the CFO intend to place additional emphasis on updating site estimates through yearend where
material adjustments have occurred.

Auditor Comments:
The Office of Inspector General recognizes the difficulties associated with estimating the Department's environmental
liabilities. Management's planned actions are responsive to our recommendations.




                                                                                                                             9
                                                Exhibit 2.
                            Reportable Condition Finding and Recommendation


                                  Performance Measurement Reporting


Background: In accordance with OMB Bulletin No. 97-01, Form and Content of Agency Financial Statements, as
amended, each annual financial statement should include a narrative overview of the reporting entity. This overview
should provide a clear and concise description of the reporting entity, its mission, activities, accomplishments, and
overall financial results and condition. It should also include information on whether and how the mission of the
reporting entity is being accomplished.

The Department's FY 1998 consolidated financial statements presented performance measure data for each of the
Department's business lines in the Overview section. The performance data presented in FY 1998 was based primarily
on commitments drawn from the Department's Strategic Plan and the Secretary's Performance Agreement with the
President. The Overview presented the Department's commitments, planned goals necessary to accomplish the
commitments, and results achieved during the fiscal year.

Our FY 1997 audit of the Department's consolidated financial statements identified that in many cases the usefulness
of the programmatic performance measures presented in the Overview to the financial statements was limited. (See
Office of Inspector General Report No. IG-FS-98-01.) Management generally concurred with the recommendation and
agreed to take corrective action to improve the presentation of the Overview and performance measures. Despite
efforts to improve the Overview, problems with its presentation continued.

Finding 2: Performance Measure Reporting

OMB guidance requires the Overview to the financial statements to communicate whether and how the Department is
accomplishing its missions using explicit measures of performance. OMB Bulletin No. 97-01, as amended, and
Statement of Federal Financial Accounting Concepts No. 2 (SFFAC) require that measures presented in the financial
statements contain certain attributes in order to be useful to its readers. In addition, OMB guidance requires that (1)
programmatic measures be organized to show how the program's major objectives and most valued attributes have
been achieved and (2) entities should strive to develop and report objective measures that, to the extent possible,
provide information about the cost effectiveness of programs. However, in many cases the meaningfulness of the
programmatic performance measures presented in the Overview was limited. For example, the Overview generally
excluded:

Information regarding the Federal Energy Regulatory Commission and the Department's Power Marketing
    Administrations;

Cost-effectiveness attributes, as costs were not tied to outputs; and

Explanatory information needed to help readers understand the significance of the measures.

We also found instances where the results reported in the Overview were not consistent with the financial statements as
follows:




10
                                         Exhibit 2 (continued).
                           Reportable Condition Finding and Recommendation


The total FY 1998 budgeted amount presented in the Overview did not agree with the Department's statement of
budgetary resources.

The Overview explained that methods were used to control the life-cycle costs of environmental cleanup as well as the
    operating costs for the Department. However, the financial statements showed that both the overall environmental
    liabilities and the associated operating costs increased during the fiscal year.

The meaningfulness of the performance measures was limited because the Department's method of summarizing data
from the Strategic Plan and the Performance Agreement with the President did not focus on the measurement of
performance against goals and, in many cases, eliminated essential detailed goal information. As a result, the
Department's presentation method for the Overview limited the readers' ability to assess the Department's performance
during Fiscal Years 1997 and 1998.

Recommendation:
The Chief Financial Officer, in conjunction with the Office of Policy, should ensure that the Overview communicates
whether and how the Department is accomplishing both its long-term and short-term goals and objectives.

Management Reaction:
Management generally concurred with the recommendation. The Department is committed to improving the Overview
and believes that the presentation of the 1998 performance information is an improvement over 1997. The
Department intends to improve future reports and increase the usefulness of the performance information presented in
the Overview. The Department's next step is to develop performance measures that better present trend data as part of
the strategic planning effort in FY 1999.

Auditor Comments:
Management's planned actions are responsive to our recommendation.




                                                                                                                   11
                                       Appendix.
               Office of Inspector General Fiscal Year 1998 Audit Reports



     Report
     Number                             Report Title                           Date Report Issued

     IG-0412   Audit of the Contractor Incentive Program at the Nevada         October 20, 1997
               Operations Office

     IG-0413   Audit of Funding for Advanced Radioisotope Power Systems        October 17, 1997

     IG-0414   Audit of the Department of Energy's Management of Field         December 5, 1997
               Contractor Employees Assigned to Headquarters and Other
               Federal Agencies

     IG-0415   Audit of Departmental Receipt of Final Deliverables for Grant   December 4, 1997
               Awards

     IG-0416   Audit of Support Services Subcontracts at Argonne National      December 23, 1997
               Laboratory

     IG-0417   Audit of the Department of Energy's Management of Research      March 13, 1998
               and Development Integration

     IG-0418   Audit of Alternatives to Testing at the Tonopah Test Range      March 13, 1998

     IG-0419   The Department of Energy's Peer Review Practices                April 6, 1998

     IG-0420   The U.S. Department of Energy's Solar Enterprise Zone           April 24, 1998

     IG-0421   The Department of Energy's Interagency Agreement With the       July 17, 1998
               National Institute of Environmental Health Sciences

     IG-0422   The U.S. Department of Energy's Participation in the            July 21, 1998
               Partnership for a New Generation of Vehicles Program

     IG-0423   Review of the U.S. Department of Energy's Information           August 7, 1998
               Management System

     IG-0424   Architect and Engineering Costs at Los Alamos and Sandia        August 7, 1998
               National Laboratories

     IG-0425   The U.S. Department of Energy's Facility Reuse at the Rocky     August 20, 1998
               Flats Environmental Technology Site

     IG-0426   Disposal of Low-Level and Low-Level Mixed Waste                 September 3, 1998

     IG-0427   Department of Energy's Prime Contractor Fees on                 September 11, 1998
               Subcontractor Costs


12
                                     Appendix.
             Office of Inspector General Fiscal Year 1998 Audit Reports



Report
Number                                Report Title                           Date Report Issued

CR-B-98-02   Audit of Management of the Laboratory Directed Research and     November 14, 1997
             Development Program at the Lawrence Livermore National
             Laboratory

ER-B-98-01   Audit of the Deactivation, Decontamination, and Disposal of     October 23, 1997
             Surplus Facilities at the Savannah River Site

ER-B-98-02   Audit of Environmental Monitoring and Health Physics            November 3, 1997
             Laboratories at the Savannah River Site

ER-B-98-03   Audit of the Union Valley Sample Preparation Facility at Oak    November 7, 1997
             Ridge

ER-B-98-04   Audit of Selected Government-funded Grants and Contracts at     December 2, 1997
             Princeton University

ER-B-98-05   Audit of the Department of Energy's Contracts With Envirocare   December 10, 1997
             of Utah, Inc.

ER-B-98-06   Audit of Fluor Daniel Fernald's Use of Temporary Service        April 6, 1998
             Subcontractors

ER-B-98-07   Audit of Personal Property at the Oak Ridge Operations Office   April 6, 1998
             and the Office of Scientific and Technical Information

ER-B-98-08   Audit of the Cost Reduction Incentive Program at the Savannah   June 2, 1998
             River Site

ER-B-98-09   Audit of Disposal of Tritium Residues at the Los Alamos         July 20, 1998
             National Laboratory

WR-B-98-01   Audit of the Radioactive Liquid Waste Treatment Facility        November 19, 1997
             Operations at the Los Alamos National Laboratory

WR-B-98-02   The U.S. Department of Energy's Management of Associated        April 8, 1998
             Western Universities Grant Programs

HQ-B-98-01   Audit of the U.S. Department of Energy's Value Engineering      July 17, 1998
             Program




                                                                                                  13
                                                U. S. Department of Energy
                                                 Office of Inspector General
                                                   Office of Audit Services


                 REPORT OF THE OFFICE OF INSPECTOR GENERAL ON
                    COMPLIANCE WITH LAWS AND REGULATIONS

The Secretary
U.S. Department of Energy

We have audited the accompanying consolidated balance sheets of the U.S. Department of Energy (Department) as of September
30, 1998 and 1997, and the related consolidated statements of net cost, changes in net position, budgetary resources, financing, and
custodial activity for the years then ended and have issued our report thereon dated January 5, 1999.

We conducted our audit in accordance with generally accepted auditing standards; Government Auditing Standards
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
98-08, Audit Requirements for Federal Financial Statements, as amended. Those standards require that we plan and
perform the audit to obtain reasonable assurance about whether the financial statements are free of material
misstatements. Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion.

The management of the Department is responsible for complying with applicable laws and regulations. As part of
obtaining reasonable assurance about whether the financial statements were free of material misstatements, we
performed tests of compliance with certain provisions of laws and regulations, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts, and certain other laws and regulations
specified in OMB Bulletin No. 98-08, as amended, including the requirements referred to in the Federal Financial
Management Improvement Act (FFMIA) of 1996.

The results of our tests of compliance with the laws and regulations described in the preceding paragraph, exclusive of
FFMIA, disclosed no instances of noncompliance required to be reported under Government Auditing Standards and
OMB Bulletin No. 98-08, as amended.

Under FFMIA, we are required to report whether the Department's financial management systems substantially comply
with the Federal financial management systems requirements, applicable accounting standards, and the United States
Government Standard General Ledger at the transaction level. To meet this requirement, we performed tests of
compliance using the implementation guidance for FFMIA included in Appendix D of OMB Bulletin No. 98-08, as
amended. The results of our tests disclosed no instances where the Department's financial management systems did
not substantially comply with these three requirements.

This report is intended for the information of the U.S. Department of Energy, OMB, and the Congress. However, this
report is a matter of public record, and its distribution is not limited.




                                                                                     January 5, 1999



                                                                                                                                   15
DOE/CR-0067




              U.S. Department of Energy




                     Fiscal Year 1998
                   Accountability Report
          U.S. Department of Energy




                          Fiscal Year 1998
                        Accountability Report




DOE is interested in the comments and suggestions of those who read this
document. The Reader Response Sheet at the end of this document is designed
to provide information on ways to improve this report and make it more useful
to you, our valued customer. Please take a few minutes to complete the response
sheet and forward it as indicated.



        More information relating to the Department of Energy is available
                       on our home page at www.doe.gov

                                  February 1999
                                                            Contents
Message from the Secretary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Overview
     Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
     Energy Resources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
     National Security . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
     Environmental Quality . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
     Science and Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
     Corporate Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
          Status of Year 2000 Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34
          Management’s Response to Inspector General Audit Reports . . . . . . . . . . . . . . . . . . . . 35
          Summary of Departmental Challenges and Emerging Issues . . . . . . . . . . . . . . . . . . . . . . 36
     Message from the Chief Financial Officer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
     Financial Overview . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

Appendices
    Principal Financial Statements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45
    Supplemental Financial Information . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 91
    Performance Measure Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 97
    Mapping of Legal Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 147
    Reference Index . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 148
    Reader Response Sheet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 151
The Clinton Administration is committed to increasing government
accountability to the American taxpayer. This report, the
Department of Energy's first Accountability Report, is part of our
effort to better measure how we at the Department of Energy are
serving the American taxpayers; the results we’ve achieved; and the
cost-effectiveness of our work. By integrating the Department’s
FY 1998 performance results, financial status, and management
controls, this report is a useful tool and provides a status report on
the Department’s performance in FY 1998. It presents a clearer
picture of the return on the investment of the resources entrusted to
this agency.

After thorough review by the Office of the Inspector General, with one exception, our financial
statements have been found to present fairly the financial position of the Department in
conformity with Federal accounting standards. Overall, the Department has reasonable assurance
that we have management controls in place to ensure that our operational activities are efficient
and effective and comply with the law. We have identified ten challenges where management
controls can be strengthened.

The exception identified by the Inspector General is in the estimate of our environmental
liabilities. The Department’s work to address the environmental consequences of the nuclear
weapons mission is recognized as the largest remediation program of its kind ever undertaken.
With regard to our efforts to provide detailed estimates and schedules for each of our 353 cleanup
projects, the Office of Inspector General said “the Department deserves much credit for its
efforts; however, additional improvements are needed.” I take this finding seriously and have
directed the Acting Assistant Secretary for Environmental Management to put a system in place
by June 30, 1999, to ensure our environmental liability estimates are adequately supported,
completed and updated. I have also asked the Office of Inspector General to conduct a second
review in July of representative environmental projects to ensure the accuracy and completeness
of the environmental remediation liability estimates to ensure that this problem gets corrected.
This will be conducted in addition to the audit of the Department’s FY 1999 financial statement.

The Clinton Administration continues to work to make a Federal government that works better
and costs less. This report will help guide our efforts to increase accountability and performance
in the coming year.




                                       Bill Richardson
Overview
                                               Introduction
The Department of Energy (DOE) serves the Nation by              significant price to the environment. While it is a
providing innovative science and technology solutions to         daunting challenge, minimizing the environmental risks
some of the foremost energy, national security,                  posed by more than 50 years of operating weapons-
environmental, and scientific challenges facing America.         related facilities is also one of our greatest commitments.
A successful comprehensive energy strategy ensures that          Science and technology have evolved as the core of
clean, secure, affordable energy supplies are available to       virtually every mission-related activity the Department of
all Americans. Our Nation's economic prosperity                  Energy undertakes, from the study of global climate
depends on the abundance of energy resources, and a              change to advancing nuclear nonproliferation worldwide.
clean environment is dependent upon energy efficiency            Although the Cold War has left a legacy of
and clean production technologies. The Department’s              environmental risks and continued threats to our national
role in the U.S. energy outlook is to facilitate the efficient   security, it has also produced a legacy of world-class
transition to a long-term pattern of energy supply and use       scientific and technological accomplishments.
that is consistent with the Nation's goals of national
                                                                 The Department's science and technology-related
security, environmental responsibility, and economic
                                                                 endeavors have fostered much of our Nation's economic
prosperity.
                                                                 prosperity over the past half century. We anticipate our
The Department of Energy and its predecessor agencies            role in promoting economic growth will continue as
have long played a critical role in the United States            science and technology continue to be an integral
national security mission. From the cutting-edge atomic          component of the global economy.
energy research and developments of the earliest days of
the Manhattan Project to the stockpile stewardship and           Our History
international nonproliferation efforts, DOE's activities in
                                                                 The Department of Energy was created as a cabinet-level
coordination with the Department of Defense and other
                                                                 agency in 1977; yet, its history can be traced back to the
agencies with a national security mission have ensured
                                                                 days of the Manhattan Project in 1942, when security
we live in a safe and secure world.
                                                                 requirements led to the establishment of the Manhattan
We have witnessed profound change in the United States           Engineering District, under the U.S. Army Corps of
national security policies in the post-Cold War era, but         Engineers, to manage the development of the first atomic
our commitment to a secure national defense remains as           bomb. After World War II, with atomic weapons a new
strong as ever. The Department of Energy and its                 reality, Congress created the Atomic Energy Commission
predecessor agencies have played a key role over the past        (AEC) in 1946 to direct the design, development, and
50 years in supporting our national security through             production of nuclear weapons. The AEC's mission also
emphasis on a strong nuclear deterrent. Our focus has            encompassed the development of nuclear reactors,
shifted dramatically in the last decade, however, as new         initiation of the commercialization of nuclear power, and
and evolving geopolitical factors continue to change and         regulation of the growing industry.
redefine the world in which we live. We no longer face
                                                                 In 1975, Congress replaced the AEC with two separate
the threats we did during the Cold War. Instead, new
                                                                 agencies: the Nuclear Regulatory Commission, which
threats to our national security exist; threats that pose an
                                                                 was assigned the licensing and regulatory functions of
equal, and in some instances greater, level of danger to
                                                                 the abolished AEC, and the Energy Research and
global security as those before.
                                                                 Development Administration, created to manage the
Perhaps the greatest challenge that has faced the                nuclear weapons, naval reactors, and energy development
Department of Energy this decade is the monumental               programs, as well as to research the environmental and
task of cleaning sites across the Nation that supported          safety aspects of energy technologies. During this period,
the research, production, and testing of nuclear weapons.        the United States found itself faced with an energy crisis,
Our nuclear deterrent has proved successful, but at a            emphasizing the need for one cabinet-level department to



                                                                                                                            3
Department of Energy FY 1998 Accountability Report




coordinate all Federal energy policy and programs.           energy, environmental, economic, and national security
Congress passed legislation to create the Department of      by being:
Energy in October 1977, bringing together many
                                                             •   A key contributor to ensure that the United States
important functions under one agency. Today, the
                                                                 has a flexible, clean, efficient, and equitable system
Department manages a vast array of energy programs
                                                                 of energy supply and end-use with minimal
and a nationwide complex including headquarters
                                                                 vulnerability to disruption;
organizations, operations offices, field offices, national
laboratories, power marketing administrations, special       •   A vital contributor to reducing the global nuclear
purpose offices, and sites now dedicated to                      danger through its national security, nuclear
environmental cleanup.                                           safety, and nonproliferation activities;

Our Mission and Vision                                       •   A world leader in environmental restoration,
                                                                 nuclear materials stabilization, waste management,
The Department of Energy mission is:                             facilities decommissioning, and pollution
To foster a secure and reliable energy system that is            prevention;
environmentally and economically sustainable, to be a        •   A major partner in world class science and
responsible steward of the Nation's nuclear weapons,             technology through its National Laboratories,
to clean up our own facilities and to support continued          research centers, university research, and its
United States leadership in science and technology.              educational and information dissemination
We aspire to achieve the following vision:                       programs; and

The Department of Energy, through its leadership in          •   A safe and rewarding workplace that is recognized
science and technology, will continue to advance U.S.            for business excellence, nurtures creativity, is
                                                                 trusted, and delivers results.

                           Major Department of Energy Field Facilities




            LEGEND:




4
                                                                                                                                    Introduction




Since the publication of the Department of Energy's first
                                                                                          Our Resources
Strategic Plan in April 1994, our activities have been                            FY 1998 Budget by Business Line
conducted within a framework and vision for                                                     (Dollars in Millions)
                                                                                                Total: $16,859
accomplishing our overall agency mission. In FY 1997,
the Department undertook a planning effort to produce a               Energy Resources                                  National Security
new Strategic Plan to take us into the 21st century. This                  $1,976                                            $5,718
                                                                                                               33.9%
plan also meets the requirements of the Government                                         11.7%
Performance and Results Act. The updated plan, released
on September 30, 1997, was significantly improved                                                                                  Corporate
                                                                                        14.8%                            2.0%
                                                                        Science                                                   Management
through a very close consultation process with Congress,             & Technology                                               & Other Programs
our customers, and our stakeholders. Based on the plan,                  $2,502
                                                                                                           37.5%                      $339
the Department began conducting its activities in 1998
within a new framework of four business lines and a
corporate management function, each with a strategic                                                    Environmental Quality
goal:                                                                                                          $6,324


Energy Resources: Encourage efficiency and advance
                                                                                   FY 1998 Operational Net Costs
alternative and renewable energy technologies; increase
                                                                                         by Business Line
energy choices for all consumers; ensure adequate                                              (Dollars in Millions)
supplies of clean, conventional energy; and reduce U.S.                                         Total: $10,439
vulnerability to external events.
                                                                        National Security
National Security: Support and maintain the safety and                       $5,723
reliability of the enduring nuclear stockpile without                                                  54.8%
nuclear testing; safely dismantle and dispose of excess                                                                          Corporate Management
weapons; and provide the technical leadership for                                                                        0.8%
                                                                                                                                   & Other Programs
                                                                                                                         3.3%             $84
national and global nonproliferation activities.
                                                                                                                                Environmental Quality
Environmental Quality: Reduce the environmental,                                               16.5%           24.6%                    $341
safety, and health risks and threats from DOE facilities
                                                                    Energy Resources
and develop the technologies and institutions required for               $1,721                                       Science
solving domestic and global environmental problems.                (Excludes $2,848 Net Gain
                                                                                                                   & Technology
                                                                        from the Sale of                               $2,570
                                                                    Naval Petroleum Reserve)
Science and Technology: Use the unique resources of
the laboratories and the country’s universities to
maintain U.S. leadership in basic research; increasingly
focus applied research to support the Department's other                     FY 1998 Number of Federal Employees
business lines; and maintain world technical leadership                      (As Represented by Full-Time Equivalents - FTEs)
through long-term, systemic reform of science and                                                Total: 16,275
mathematics education.
                                                                      Energy Resources
                                                                            6,263
                                                                                                                             National Security
                                                                                                38.5%
                                                                                                                                   2,484
                                                                                                                    15.3%

Note: The costs shown in this report differ from budgeted
amounts due to items such as: environmental cleanup costs that        Science
are not included in current year because they were accrued in                   2.6%
                                                                   & Technology
                                                                                                                 23.1%
prior years with the environmental liabilities; expenditures for        418                     20.6%                       Corporate
large acquisitions that are recorded as assets, not costs;                                                                 Management
depreciation and other costs that do not require funds; and the                                                          & Other Programs
allocation of overhead to business lines.                                   Environmental Quality                             3,759
                                                                                    3,351




                                                                                                                                                   5
Department of Energy FY 1998 Accountability Report




Corporate Management: We recognized, through our             the Government Performance and Results Act of 1993,
strategic planning process, that a streamlined               which requires agencies to consider program outcomes,
Department required the key elements of successful           establish measurable annual performance goals that link
business practices. Determining how we conduct our           to long-term goals, develop budgets based on planned
business is as essential to our success as determining the   performance, and report results. Other laws, such as the
missions themselves. These elements are critical to our      Chief Financial Officers Act of 1990, Government
success and support every business line: environment,        Management Reform Act of 1994, and the Clinger-
safety and health; communication and trust; and good         Cohen Act of 1996, call for additional management
management practices.                                        activities and reports. This document meets these new
                                                             reporting requirements as well as the previous reporting
Report Background                                            requirements of the Department of Energy Organization
                                                             Act of 1977 and the Federal Managers’ Financial
In the past few years, the President and the Congress
                                                             Integrity Act of 1982.
have enacted laws and policies to reform management
throughout the government. Paramount among these is




6
                                                                Energy Resources
            FY 1998 Budget by Business Line                                            A successful comprehensive energy strategy ensures that
                         (Dollars in Millions)                                         clean, secure, affordable energy supplies are available to
                          Total: $16,859                                               all Americans. Our Nation's economic prosperity
  ENERGY                                                                               depends on the abundance of energy resources, and a
RESOURCES                                                National Security             clean environment is dependent upon energy efficiency
   $1,976                                 33.9%                                        and clean production technologies. The Department's role
                   11.7%
                                                                                       in the U.S. energy strategy is to facilitate the efficient
                                                                                       transition to a long-term pattern of energy supply and use
   Science        14.8%                                 2.0%       Corporate           that is consistent with the Nation's goals of national
                                                                 Management
& Technology                                                                           security, environmental responsibility, and economic
                                                               & Other Programs
                                        37.5%
                                                                                       prosperity.
                                                                                       In 1997, the Department of Energy developed the
                                                                                       following strategic goal for its energy resources business
                                 Environmental Quality                                 line as part of the Strategic Plan:
                  FY 1998 Energy Resources
                    Operational Net Costs
                           (Dollars in Millions)                                        ER GOAL: The Department of Energy and its
                            Total: $10,439                                              partners promote secure, competitive, and
    National Security                                                                   environmentally responsible energy systems that
                                                                                        serve the needs of the public.
                                 54.8%

                                                                Corporate Management   The Strategic Plan also outlined the following five
                                                        0.8%      & Other Programs
                                                        3.3%
                                                                                       objectives to support the achievement of our strategic
                                                                                       goal described above:
                                                               Environmental Quality
                         16.5%
                                           24.6%
     ENERGY                                                                            ER1:    Reduce the vulnerability of the U.S. economy
   RESOURCES                                         Science
      $1,721                                      & Technology
                                                                                               to disruptions in energy supplies.
   (Excludes $2,848 Net Gain from the
    Sale of Naval Petroleum Reserve)                                                   ER2:    Ensure that a competitive electricity
                                                                                               generation industry is in place that can
                 FY 1998 Energy Resources                                                      deliver adequate and affordable supplies with
                Number of Federal Employees                                                    reduced environmental impact.
          (As Represented by Full Time Equivalents - FTEs)
                             Total: 16,275                                             ER3:    Increase the efficiency and productivity of
                                                                                               energy use, while limiting environmental
      ENERGY                                                                                   impacts.
    RESOURCES
       6,263              38.5%                             National Security          ER4:    Support U.S. energy, environmental, and
                                                  15.3%                                        economic interests in global markets.
                                                                                       ER5:    Carry out information collection, analysis,
    Science   2.6%                                                                             and research that will facilitate development
 & Technology                                   23.1%                                          of informed positions on long-term energy
                           20.6%                           Corporate                           supply and use alternatives.
                                                          Management
            Environmental                               & Other Programs
               Quality


                                                                                                                                                7
Department of Energy FY 1998 Accountability Report




To meet the five objectives described above and to            drawdown capability, the Department degassed 13
accomplish the energy resources strategic goal, the           million barrels of oil that had higher-than-normal gas
Department developed and executed a Performance               content, two million more than originally planned. This
Agreement between the Secretary and the President for         action completed the year’s oil degassification effort
FY 1998.                                                      ahead of schedule, bringing the total amount degassed to
                                                              172 million barrels. In addition, in FY 1998, the planned
The Performance Agreement included 19 commitments
                                                              work on the life extension program baseline was
in support of the Energy Resources objectives of the
                                                              completed, bringing total execution of the $320 million
Strategic Plan and 46 measures associated with them.
                                                              program to 92 percent.
The Department was fully successful in meeting nine of
these commitments and successful in 10 commitments.           Declining Oil Import Protection                Emerging
Our performance in meeting each objective, based on the                                                       Issue
                                                              The United States is bound by treaty to
results against the Performance Agreement, follows.
                                                              maintain strategic inventories of
More detailed data is contained in the supplemental
                                                              petroleum, either Government or privately held,
information at the back of this report.
                                                              equivalent to 90 days of net imports. In direct response
ER 1: Reduce the vulnerability of the U.S. economy to         to the OPEC oil embargo of 1973-74, we built the
disruptions in energy supplies.                               Strategic Petroleum Reserve and acquired as much as
                                                              592 million barrels of oil. It is the only contingency
The Department is pursuing several strategies to reduce
                                                              program, outside of military response, that the United
U.S. vulnerability to energy supply disruptions. One is to
                                                              States has to respond to international energy supply
support research and development policies and improved
                                                              disruptions. However, in recent years, the import
regulatory practices that can lead to improved utilization
                                                              protection provided by the Reserve has dropped.
of our domestic petroleum resources, and minimize our
                                                              Imports have risen, oil purchases for the Reserve were
reliance on foreign supplies and potential disruptions due
                                                              discontinued, and as part of budget- balancing efforts,
to economic and political factors. The Department took
                                                              Congress directed us to sell oil in each of fiscal years
many actions in FY 1998 to boost the Nation's
                                                              1996 and 1997. At the end of 1997, the oil in the
production of domestic oil, which has been on the
                                                              Reserve equated to 63 days of imports, and that is
decline. The goal is to end the decline in domestic oil
                                                              projected to keep falling as imports increase and oil
production before 2005 through research and
                                                              sales from the Reserve occur. Moreover, the protection
development, policy changes, and favorable regulatory
                                                              afforded by private industry inventories, while
practices.
                                                              substantial, is declining significantly.
In the technology area, DOE developed and transferred
                                                              The continuing decline in the number of days of net
six new characterization technologies, as planned, and
                                                              imports held in the Reserve could jeopardize our
demonstrated five advanced production enhancement
                                                              national energy security and the U.S. ability to meet its
technologies to the oil industry, adding 17 million barrels
                                                              treaty obligations. While the U.S. can rely on privately
of reserves in FY 1998 and we expected to reach the
                                                              held stocks to satisfy its treaty obligation, the Reserve
planned goal of 27 million barrels by FY 2002.
                                                              is the only direct deterrent to politically motivated
In the regulatory area, the Department completed work in      disruptions. U.S. international leadership in this area
four States to provide the capability to establish            and the deterrent effect of the Reserve depend upon our
variances for oil and gas injection wells in areas of low     maintaining the Reserve of Government-held stocks at
environmental risk. In addition, risk-based data              the 90-day net import level.
management systems for improved regulatory decision-
                                                              In light of the current market conditions of cheap,
making were implemented in 12 States. These data
                                                              plentiful oil, it appears that the U.S. economy is in good
management systems will help reduce cumulative
                                                              position to continue to grow. However, the nation is still
industry compliance costs by $16 billion by 2010.
                                                              quite vulnerable to energy supply disruptions. The
The Strategic Petroleum Reserve continued to serve as a       Department made great strides in mitigating the potential
key component of our energy security strategy. In             impacts of such disruptions. Management considers that
FY 1998, facing a gas-in-oil impediment to the rated          our efforts in meeting objective ER 1 were successful.


8
                                                                                                                                                            Energy Resources




ER 2: Ensure that a competitive electricity generation         installed in several demonstration projects, which is a
industry is in place that can deliver adequate and             very important milestone in the use of photovoltaic
affordable supplies with reduced environmental                 technology.
impact.
                                                               In FY 1998, the Department continued implementation,
The U.S. is entering a time of tremendous change in the        in coordination with industry and other partners, of the
area of electricity generation. During the next decade, our    President's Million Solar Roofs Initiative. The Federal
citizens will begin to experience a competitive electricity    government alone has already committed to installing
generation market, in parallel with increased awareness        20,000 solar energy systems on Federal buildings by
of environmental impacts of electricity generation, and        2010. In addition, DOE established nine State and
increased choice of alternative energy supplies such as        Community Partnerships as part of the initiative in
natural gas. With all of these factors altering the business   FY 1998, which have developed preliminary plans to
environment for the electricity generation market,             install over 500,000 solar energy systems.
industry will mobilize many resources to educate
consumers on all parts of this complex infrastructure.
These efforts will result in increased awareness by                                                    Solar Systems Installed (cumulative)
consumers, and market forces will dictate the energy                                 1,200,000

options of choice. In this environment, "clean" energy                               1,000,000
generation such as natural gas, nuclear power, and             Total Installations    800,000
renewables may assume a higher profile role. The                                      600,000
Department is working to ensure that the options that
                                                                                      400,000
benefit the nation, as a whole, are available for consumer
choice.                                                                               200,000

                                                                                            0
The Department believes promoting energy security                                               1997   1998   1999   2000   2001   2002   2003    2004   2005   2006   2007   2008   2009   2010

requires increased investments in a wide range of energy                                        Actual                                           Projected
technology developments, including renewable
technologies. One of the Department's strategies is to
                                                               To promote the development of clean power plants to
develop renewable technologies and support policies
                                                               supplement the Nation's electrical capacity and reduce
capable of doubling non-hydroelectric renewable energy
                                                               costs, DOE continued several successful elements of the
generating capacity by 2010.
                                                               Clean Coal Technology Demonstration Program. The
The Federal government is leading the way in the use of        Department initiated the construction of a coal-fired
renewable energy technologies through the Federal              diesel engine project for small utility and industrial
Energy Management Program (FEMP). DOE has                      applications. In addition, the operations of a processing
increased the use of these technologies through the            facility producing a coal product fuel with a sulfur
completion of government-wide solar technology Super-          content as low as 0.3 percent and heating value up to
Energy Savings Performance Contracts. In addition,             12,000 Btu/lb was completed. The goal is to significantly
FEMP completed assessments of renewable energy                 reduce emissions from current and new fossil fuel plants
potential at 13 sites and has in progress six model            by 2010.
delivery orders integrating cost-effective solar
                                                               In the nuclear area, the goal is to improve the operation
technology and energy efficiency.
                                                               and extend the useful life of existing nuclear power
DOE is also promoting the use of renewable domestic            plants and maintain nuclear power as a viable option for
energy through the U.S. retail market. In FY 1998, two         the future. Through the use of advanced electronics, the
U.S. manufacturing facilities, Solar Cells Inc. of Toledo,     nuclear industry should see continued improvement in
Ohio, and BP Solar of Fairfield, California, began the         the availability of existing plants from the 1996 average
process of introducing commercial cadmium telluride            of 76 percent to 85 percent over the next decade. In
large area photovoltaic modules. The modules are               FY 1998, the Department worked with industry to



                                                                                                                                                                                              9
Department of Energy FY 1998 Accountability Report




facilitate Nuclear Regulatory Commission final approval      The homes were designed to save 50 percent of energy
of the Westinghouse AP600 design for a passively safe        use for heating, cooling, and hot water at no incremental
nuclear reactor.                                             costs.
Management considers the Department successfully on
track toward meeting this strategic objective.                                                   Homes Weatherized
                                                                                160,000
ER 3: Increase the efficiency and productivity of                               140,000




                                                              Number of Homes
                                                                                120,000
energy use, while limiting environmental impacts.
                                                                                100,000
                                                                                 80,000
The Department's activities to increase the efficiency and
                                                                                 60,000
productivity of energy use, with minimal impact to the                           40,000
environment, span a wide range of energy consumption,                            20,000
including transportation, buildings, and manufacturing.                               0
                                                                                          1993   1994     1995   1996   1997    1998

The "vehicles of the future" campaign is on track to                                                    by DOE      by Others
develop and deploy vehicles, fuels, and systems to
improve energy efficiency in the transportation sector.
                                                             The Department added 55 new community partnerships
This program contributes to the Administration's
                                                             to our Rebuild America program, which now has
Partnership for a New Generation of Vehicles to develop,
                                                             community partnerships in 47 States and three U.S.
by 2004, prototype mid-sized cars capable of 80 miles
                                                             territories. The ENERGY STAR program was expanded
per gallon of gasoline. These cars will reduce NOx and
                                                             to include windows in the portfolio of energy efficient
CO2 emissions by two-thirds compared to today's new
                                                             products. DOE signed three appliance manufacturers and
car average without compromising safety, comfort or
                                                             20 window and glass manufacturers to label and promote
cost. Other clean transportation technologies include
                                                             Energy Star products. The number of stores labeling
fuel-cell powered vehicles. In FY 1998, the Department
                                                             Energy Star appliances doubled in FY 1998, when DOE
achieved 50 percent fuel efficiency at full power in
                                                             signed a major retailer buyers group representing over
laboratory validation tests on hydrogen-fueled full-scale
                                                             1,200 stores nationwide.
proton exchange membrane fuel cell propulsion systems.
                                                             Based on the Department's focused approach and the
In the most energy intensive industries, the goal is to
                                                             increased public awareness of energy efficiency, the
reduce industrial energy use per unit of output by 25
                                                             Nation is moving forward to becoming an efficient
percent by 2010. These energy intensive industries
                                                             energy user. The Department's commitments in meeting
include aluminum, chemical, forest products, glass,
                                                             Objective ER 3 were successfully fulfilled in FY 1998.
metal- casting, and steel production. The Department's
efforts involve industry/ government/academia                ER 4: Support U.S. energy, environmental, and
partnerships in research and development. In FY 1998,        economic interests in global markets.
DOE supported 30 Industrial Assessment Centers' work
                                                             The Department's efforts in FY 1998 to support U.S.
at 30 participating universities. These Centers conducted
                                                             interests in global markets have proven successful. To
more than 725 combined energy, waste, and productivity
                                                             plan for energy-related greenhouse gas reductions, the
assessments. The Department also developed roadmaps
                                                             Department developed and assessed options for
that will drive our research and development portfolio for
                                                             implementing the new international agreement proposed
five of the most energy intensive industries.
                                                             at the Kyoto Conference of the Parties to the U.N.
In the buildings sector, the goal is to improve the energy   Framework Convention on Climate Change. The
efficiency of the existing U.S. building stock and           Department maintained partnerships with more than 650
increase the efficiency of new homes by 30 percent and       electric utilities through the Climate Challenge program.
other new buildings by 20 percent, compared to 1996          These utilities are now on target to deliver a total pledged
averages. In FY 1998, DOE with its industrial partners       amount of 47 million metric tons of voluntary
completed construction of 300 energy efficient homes.        greenhouse gas reductions in the year 2000.



10
                                                                                                    Energy Resources




In the international arena in FY 1998, the Department led   December 1997, which presents midterm forecasts of
the efforts to cooperate with foreign governments to        energy supply, demand, and prices through 2020 based
remove policy, regulatory, and fiscal barriers to U.S.      on results from our National Energy Modeling System.
companies in energy efficiency, renewables, oil and gas,
                                                            In addition, the Department completed several activities
clean coal, and nuclear energy markets. The Department
                                                            for the production of the Comprehensive National
also continued coordination of the Russian-American
                                                            Energy Strategy (CNES). A Departmental group was
Fuel Cell Consortium to open the Russian markets to
                                                            formed under the leadership of the Energy Resources
U.S. manufactured fuel cells.
                                                            Board to create the CNES. This group was staffed by
Management considers agency efforts to support energy,      representatives from the participating programs.
environmental, and economic interests abroad were           Comments were sought and received from the involved
successful in FY 1998.                                      programs and other Federal agencies to produce an
                                                            Administration-approved document for submission to
ER 5: Carry out information collection, analysis, and
                                                            Congress. The team held public hearings in three major
research that will facilitate development of informed
                                                            cities to collect comments which were used to shape the
positions on long-term energy supply and use
                                                            Strategy. The final document was published in April
alternatives.
                                                            1998.
The most effective decision-making on long-term energy
                                                            Given the changing landscape in energy production and
supply and use alternatives can only be performed with
                                                            usage, the collection, storage, and distribution of
appropriate information. The Department's expertise in
                                                            information has become even more critical than before.
energy information must be shared with our stakeholders
                                                            In this environment, the Department must lead in the
to assist in making decisions. As part of its continuing
                                                            efforts to cooperate, educate, and disseminate. Every area
effort to expand public access to energy data, forecasts,
                                                            from power production to market deregulation to
analysis, and education material, the Department
                                                            international climate protection will rise and fall based
promised to achieve an average of 85,200 unique
                                                            on the quality and availability of information. In this
monthly users to its Energy Resources Board Web Sites.
                                                            arena, the Department has been successful at leading the
FY 1998 results indicated this goal was exceeded by
                                                            national and international community.
nearly threefold. In addition, the Department committed
to continue to publish its “Annual Energy Outlook” in




                                                                                                                   11
                                                           National Security
          FY 1998 Budget by Business Line                                          The Department of Energy and its predecessor agencies
                      (Dollars in Millions)                                        have long played a critical role in the United States
                         Total: $16,859                                            national security mission. From the cutting-edge atomic
                                                      NATIONAL                     energy research and developments of the earliest days of
                                                      SECURITY                     the Manhattan Project to the stewardship of the Nation's
      Energy                                            $5,718
     Resources                         33.9%                                       nuclear weapons stockpile and international
                    11.7%                                                          nonproliferation efforts, DOE's activities in coordination
                                                                                   with the Department of Defense and other agencies with
                                                    2.0%       Corporate           a national security mission have helped to ensure that we
   Science       14.8%
                                                             Management            live in a safe and secure world.
& Technology
                                                           & Other Programs
                                   37.5%                                           We have witnessed profound changes in the United
                                                                                   States national security policies in the post-Cold War
                                                                                   era, but our commitment to a secure national defense
                                      Environmental                                remains as strong as ever. The nuclear deterrent remains
                                         Quality
                                                                                   a cornerstone of our national security policy. However,
                                                                                   the nuclear deterrent is represented by a smaller, aging
                 FY 1998 National Security                                         weapons stockpile maintained without underground
                  Operational Net Costs
                                                                                   testing. Our stockpile stewardship programs are utilizing
                          (Dollars in Millions)
                          Total: $10,439
                                                                                   advances in science and technology to ensure the safety
                                                                                   and reliability of the stockpile. International cooperative
        NATIONAL
        SECURITY
                                                                                   efforts improve the safety and minimize the risks of
          $5,723               54.8%
                                                                                   aging nuclear power plants in the nations of the former
                                                                                   Soviet Union.
                                                            Corporate Management   In 1997, the Department of Energy developed the
                                                    0.8%      & Other Programs
                                                    3.3%                           following strategic goal for its National Security business
                                                                 Environmental     line as part of the Strategic Plan:
                         16.5%          24.6%                       Quality

          Energy
         Resources                                   Science                           NS GOAL: Support national security, promote
                                                  & Technology                         international nuclear safety, and reduce the
                                                                                       global danger from weapons of mass
                                                                                       destruction.
                 FY 1998 National Security
               Number of Federal Employees
          (As Represented by Full-Time Equivalents - FTEs)
                            Total: 16,275                                          The Strategic Plan also outlined the following seven
                                                                                   objectives to support the achievement of our strategic
         Energy
                                                           NATIONAL                goal described above:
        Resources
                                                           SECURITY
                          38.5%
                                                             2,484
                                              15.3%



     Science   2.6%
  & Technology                             23.1%
                          20.6%                         Corporate
                                                      Management
          Environmental                             & Other Programs
             Quality



   12
                                                                                                         National Security




                                                               final reports provided to the Secretaries of Energy and
  NS1:    Maintain confidence in the safety, reliability,      Defense in August 1998.
          and performance of the nuclear weapons               DOE's efforts in maintaining the nuclear stockpile
          stockpile without nuclear testing.                   include the alteration, modification, and surveillance of
  NS2:    Replace nuclear testing with a science-based         stockpile weapons. Surveillance is essential to assess the
          Stockpile Stewardship and Management                 safety and reliability of the Nation's stockpile and
          Program.                                             includes tests on weapon components and flight tests of
                                                               unarmed weapons to examine performance of the
  NS3:    Ensure the vitality of DOE's national security       delivery systems. Alterations and modifications are
          enterprise.                                          conducted when surveillance activities indicate the need
  NS4:    Reduce nuclear weapons stockpiles and the            for updating weapons to meet higher safety standards,
          proliferation threat caused by the possible          replace faulty components, or to meet changed military
          diversion of nuclear materials.                      requirements. In FY 1998, DOE conducted weapons
                                                               alterations of eight weapons systems and a modification
  NS5:    Continue leadership in policy support and            of one system. We also conducted 40 flight tests;
          technology development for international             however, we are behind schedule on laboratory tests,
          arms control and nonproliferation efforts.           conducting only 82 of the 100 scheduled. As of the end
  NS6:    Meet national security requirements for naval        of the fiscal year, DOE was aggressively pursuing the
          nuclear propulsion and for other advanced            completion of these tests.
          nuclear power systems.                               In order to maintain confidence in the nuclear weapons
  NS7:    Improve international nuclear safety.                stockpile, the Department of Energy has to address the
                                                               issue of a reliable source of tritium, a radioactive isotope
                                                               of hydrogen necessary for the proper function of all U.S.
The Performance Agreement included 16 commitments              nuclear weapons. Since tritium decays at about five
in support of the seven National Security objectives of        percent per year, it must be replaced in weapons to
the Strategic Plan and 44 measures associated with them.       ensure their reliability. The U.S. has not produced new
The Department's performance was fully successful in           tritium for the past ten years and has used recycled
meeting six of these commitments, successful in meeting        tritium from dismantled weapons to meet stockpile
seven commitments and partially successful in meeting          requirements. Three years ago, DOE announced it would
only three commitments. Our performance in meeting             explore a dual track strategy to meet new tritium
each objective, based on the results against the               production requirements. This strategy included the
Performance Agreement, follows. More detailed data is          possible purchase of an existing or partially complete
contained in the supplemental information at the back of       commercial reactor or irradiation services therefrom or
this report.                                                   the construction of an accelerator. DOE completed a
                                                               number of significant milestone activities on both tracks
NS 1: Maintain Confidence in the Safety, Reliability,
                                                               of the strategy and in December 1998 made a decision
and Performance of the Nuclear Weapons Stockpile
                                                               selecting irradiation services from an existing light water
Without Nuclear Testing
                                                               reactor as the primary source of tritium. Consistent with
In pursuit of the Comprehensive Test Ban Treaty,               our dual strategy, the accelerator option has been
President Clinton directed the establishment of an annual      designated a “backup” technology.
review and certification process of the safety, reliability,
                                                               Management considers that this objective was met
and performance of the nuclear weapons stockpile. In
                                                               successfully.
FY 1998, the third annual certification process was
initiated. The nine active and inactive weapons systems
were reviewed by DOE's national weapons laboratories
and joint Project Officers Groups led by the Department
of Defense. Pre-decisional draft Annual Certification
Technical Reports on each system were completed and


                                                                                                                         13
Department of Energy FY 1998 Accountability Report




                                                             Subcritical experiments are providing an improved
                                                             understanding of certain dynamic material properties of
                                                             plutonium, the fissile material in most nuclear weapons
                                                             primaries, and are considered essential for assessing
                                                             nuclear warhead reliability and safety in the absence of
                                                             nuclear testing. These experiments also make a
                                                             significant contribution to maintaining nuclear testing
                                                             readiness. Only two experiments were conducted in FY
                                                             1998 although extensive preparatory work was
                                                             completed for additional experiments expected to be
                                                             executed early in FY 1999.
                                                             Management considers the Department successfully on
                                                             track toward meeting this strategic objective.

National Ignition Facility                                   NS 3: Ensure the Vitality of DOE's National Security
                                                             Enterprise
                                                             Meeting national security requirements in this post Cold-
                                                             War era has required the Department to reevaluate its
NS 2: Replace Nuclear Testing with a Science-Based
                                                             nuclear weapons complex. Downsizing and
Stockpile Stewardship and Management Program
                                                             modernization activities at several DOE sites will ensure
Since the United States stopped nuclear testing in 1992,     that the U.S. maintains an appropriately-sized, cost-
the Department of Energy has been working on replacing       effective, safe, secure, and environmentally sound
underground testing with a science-based program of          national security enterprise. Two key activities were
stockpile stewardship. The Accelerated Strategic             underway in FY 1998. The first, the reestablishment of
Computing Initiative is a program being developed to         the Pit Production Program at the Los Alamos National
help maintain our existing aging stockpile through           Laboratory, is on schedule, and in February 1998, the
advanced simulation and modeling. In FY 1997, a major        first early development unit pit was successfully
milestone was achieved with the installation of a one-       produced. A certified war reserve W88 pit is scheduled
trillion operations per second computer system. In 1998,     to be available in FY 2000 to meet DoD requirements.
DOE developed a three-trillion operations per second         The second activity, the resumption of Enriched Uranium
computer system which will provide weapons                   Operations at the Y-12 Plant in Oak Ridge, began in FY
simulations that are larger and more complex than ever       1997. Scheduled activities in FY 1998 were partially
before. DOE’s objective is to have a 100 trillion            delayed until FY 1999 when the final phase of the
operations per second capability in place by 2004.           resumption is expected to be completed.
The National Ignition Facility, an experimental physics      Counterintelligence
facility, is now under construction at the Lawrence                                                         Emerging
                                                             In 1998, President Clinton mandated               Issue
Livermore National Laboratory in California. This
                                                             immediate and significant changes to the
facility will enable scientists to achieve the highest
                                                             Department’s Counterintelligence Program. This
possible temperatures and densities attainable in a
                                                             mandate was the result of over half a dozen substantive
laboratory, simulating those that occur in the detonation
                                                             studies critical of the Department’s policies and
of a nuclear weapon. Completion of the new facility,
                                                             procedures for handling foreign national presence at
which was on schedule and on cost at the end of
                                                             the national laboratories and our measures to counter
FY 1998, is planned for October 2003 although the first
                                                             the threats posed by these visitors. In response to the
experiments are expected to be conducted in the facility
                                                             President’s mandate, the Department created an
by 2001. Project activities in FY 1998 included final site
                                                             independent Office of Counterintelligence and
preparation, the award of two building construction
                                                             launched a major initiative to enhance the protection
contracts, and the establishment of manufacturing
                                                             of sensitive technologies against foreign intelligence
capacity at optic vendors.


14
                                                                                                                                                                 National Security




and terrorist attempts to acquire nuclear secrets and          NS 4: Reduce Nuclear Weapons Stockpiles and the
other sensitive information from DOE laboratories. A           Proliferation Threat Caused by the Possible Diversion
90-Day study conducted in FY 1998 resulted in a                of Nuclear Materials
classified report with major findings and
                                                               The Department takes an active role in reducing the
recommendations focused on:
                                                               global danger from weapons of mass destruction by
1) accountability of laboratory directors for                  reducing inventories of surplus weapons-usable fissile
   counterintelligence activities at their locations;          materials worldwide. Such efforts entail reducing our
2) organization and management of the                          own weapons stockpile as well as international
   counterintelligence program;                                cooperation to dispose of surplus fissile materials, place
3) security programs that support the                          excess materials under safeguards of the International
   counterintelligence mission;                                Atomic Energy Agency, and reduce the demand for
4) weaknesses related to foreign visits and                    highly enriched uranium in civilian programs.
   assignments;
                                                               Since 1993, the U.S. has dismantled a total of 6,942
5) the counterintelligence-cyber threat; and
                                                               nuclear warheads that have been removed from the U.S.
6) FBI and intelligence community relationships.
                                                               nuclear weapons stockpile. During FY 1998, 1,062
The Department has delivered an action plan to the             nuclear warheads were dismantled, meeting our detailed
Assistant to the President for National Security Affairs       dismantlement schedules in a safe and secure manner.
that commits to achieving significant improvements in
                                                               On the international front, DOE has been working
its counterintelligence program by adopting virtually
                                                               closely with Russia to dispose of surplus Russian
all of the report recommendations.
                                                               plutonium that is a potential threat to global security. In
Maintaining the capability to resume nuclear testing,
consistent with Presidential direction, requires DOE to                                                       Dismantlement of Nuclear Warheads
maintain test facilities and equipment at the Nevada Test                                      2,000
                                                               Number of Warheads Dismantled




Site and the nuclear testing skills of personnel at both the                                   1,800
test site and the nuclear weapons laboratories. Subcritical                                    1,600

experiments, two of which were conducted this year at                                          1,400
                                                                                               1,200
the Nevada Test Site, and specially designed test
                                                                                               1,000
readiness exercises maintain test readiness skills. In                                          800
September 1998, a major exercise, that simulated a mass                                         600
venting of an underground nuclear test at the site,                                             400
exercised emergency response systems that could be                                              200
needed during a nuclear test. Hundreds of experiments                                             0
                                                                                                       1990   1991   1992   1993   1994   1995   1996   1997   1998   1999   2000   2001   2002

were conducted at weapons laboratory facilities during
                                                                                                                               Actual                                        Projected
the year which exercised testing related skills and
technologies.
                                                               FY 1998, 24 metric tons of Russian highly enriched
The Department's Emergency Response program
                                                               uranium were converted to low enriched uranium under
provides a national capability to respond to any
                                                               DOE monitoring. Monitoring trips to Russian facilities,
radiological emergency or nuclear accident within the
                                                               where U.S. officials observed facility operations subject
United States and abroad. During FY 1998, DOE
                                                               to our agreement with Russia, have been successful.
radiological emergency response assets participated in 32
U.S. and Overseas exercises and 17 real-world events.
Radiation accident management training was provided to
399 health professionals, and there was response to 224
calls for medical assistance.
Management considers our efforts in meeting objective
NS3 to be on track.



                                                                                                                                                                                              15
Department of Energy FY 1998 Accountability Report




Surplus Fissile Materials                                    into the wrong hands. Our objective is to strengthen the
                                            Departmental
                                              Challenge      nuclear nonproliferation regime and advance arms
The United States and Russia have
                                                             control through support of treaties and international
extensive inventories of fissile nuclear
                                                             agreements. Since the end of the Cold War, an important
materials that are no longer needed for defense
                                                             component of our nonproliferation programs has been
purposes due to the end of the Cold War. A danger
                                                             our work with states of the former Soviet Union to
exists in the potential global proliferation of nuclear
                                                             minimize the risks of proliferation. We have completed
weapons and in the potential for environmental, safety
                                                             many security upgrades at Russian reactor sites and in
and health consequences if surplus fissile nuclear
                                                             the Russian infrastructure that support the manufacture,
materials are not properly managed. The Department
                                                             transportation, and storage of weapons-usable nuclear
could save storage, security, maintenance, and
                                                             materials. For example, in FY 1998, our nonproliferation
handling costs associated with these assets.
                                                             and technical experts successfully tested the operation of
We are reducing our surplus fissile nuclear materials        a prototype railcar during a five-day trip over Russian
through various priority actions. In 1998, we made           railroads. Upon completion of the test, the program
available to the United States Enrichment Corporation        moved forward to upgrade 31 of the 35 railcars used to
the first installment on 50 metric tons of surplus highly    transport the nuclear materials.
enriched uranium for down blending and subsequent
                                                             In Russia, Ukraine, and Kazakhstan, core technical
sale. With regard to surplus plutonium, we are
                                                             experts at technical institutes were named to lead their
continuing to pursue a hybrid strategy that calls for
                                                             nations in support of nonproliferation activities. In FY
immobilization of some plutonium in ceramic form and
                                                             1998, the experts conducted workshops in their countries
burning of some as mixed oxide fuel in existing,
                                                             for government officials, technical experts, and exporters
domestic commercial reactors. We will decide on the
                                                             to educate them on the importance of export controls,
site(s) for disposition of our surplus plutonium in 1999.
                                                             including national and international export control
We are working with Russia to attain reciprocal
                                                             procedures. In Russia, these experts implemented a
actions for the disposition of Russian plutonium and
                                                             computer system to facilitate the reviews of nuclear
will not construct new facilities for the disposition of
                                                             export applications and employed the Russian customs
United States plutonium unless there are significant
                                                             personnel to assist them in preventing leakage of nuclear
procedures with Russia on plans for plutonium
                                                             materials and other sensitive commodities.
disposition.
                                                             The Department also supported the International Atomic
DOE successfully completed irradiation of the advanced
                                                             Energy Agency and the United Nations Special
low enriched uranium fuel test assembly at the Advanced
                                                             Commission in performing monitoring and intrusive
Test Reactor. The development of alternative low
                                                             inspections in North Korea and Iraq.
enriched uranium fuels for research reactors and targets
for medical isotope production will reduce the need for      The Department is meeting its objective to continue
highly enriched uranium and the potential for it to pose a   leadership in this area.
threat to national security.
                                                             NS 6: Meet National Security Requirements for Naval
Management is concerned with the danger that these           Nuclear Propulsion and for Other Advanced Nuclear
nuclear materials may fall into the hands of terrorists or   Power Systems
non-nuclear nations, but believes adequate plans are in
                                                             Due to its nuclear expertise and state-of-the-art nuclear
place to address the issue.
                                                             facilities, the Department of Energy is charged with
NS 5: Continue Leadership in Policy Support and              providing the U.S. Navy with safe, militarily-effective
Technology Development for International Arms                nuclear propulsion plants and ensuring their continued
Control and Nonproliferation Efforts                         safe and reliable operation in Navy warships. In
                                                             FY 1998, development of the next generation plant for
Ensuring our national security requires much more than
                                                             the Navy's New Attack Submarine proceeded with the
maintaining a strong nuclear deterrent. It also requires
                                                             testing and development of components and systems,
that we work on an international scope to minimize the
                                                             such as the mechanical test cell and control drive
threat of nuclear weapon technology and materials falling


16
                                                                                                      National Security




mechanism units, to demonstrate design acceptability.       industry. In FY 1998, new safety systems, providing
Reactor assessments continued as well to support the        plant operators a tool to safely control the plant in the
Navy's Analysis of Alternatives for a new nuclear           event of an abnormal situation, were installed at the
powered aircraft carrier.                                   Zaporizhzhya plant in Ukraine and the Novovorenezh
                                                            plant in Russia.
During this fiscal year, the Department's Naval Reactors
Program celebrated its 50th anniversary, and                The Department of Energy and the U.S. Agency for
management is confident this strategic objective is being   International Development have been working over the
met successfully.                                           past several years on a multi-national effort to shutdown
                                                            the Chornobyl nuclear power plant in Ukraine to reduce
NS 7: Improve International Nuclear Safety
                                                            further safety and environmental risks. In FY 1998, DOE
In our endeavor to advance nonproliferation cooperation     reached an agreement with Ukraine on the defueling of
worldwide, DOE assisted countries of the former Soviet      Unit 1 and an overall decommissioning strategy for the
Union in reducing the safety risks from Soviet-designed     three reactors was established.
nuclear power plants and implementing safety programs
                                                            This objective is being met.
to meet international safety practices in the nuclear




                                                                                                                        17
                                            Environmental Quality
          FY 1998 Budget by Business Line                                        The Environmental Management Program, charged with
                     (Dollars in Millions)                                       the weapons complex cleanup effort, began the
                         Total: $16,859                                          implementation of its cleanup plan, "Accelerating
                                                   National                      Cleanup - Paths to Closure." This plan has become
      Energy
     Resources                                     Security                      known as the "2006 Plan," and it was a path to complete
                                       33.9%
                   11.7%                                                         the cleanup of many of the contaminated sites within the
                                                                                 next eight years. The "2006 Plan" provides the basis for
                                                             Corporate
                                                                                 much of the environmental quality strategic vision and
                 14.8%                            2.0%
   Science                                                 Management            planning.
& Technology                                             & Other Programs
                                                                                 The Department of Energy has the following strategic
                                    37.5%
                                                                                 goal for its environmental quality business line:

                                            ENVIRONMENTAL
                                                QUALITY                            EQ GOAL: Aggressively clean up the
                                                 $6,324                            environmental legacy of nuclear weapons and
           FY 1998 Environmental Quality                                           civilian nuclear research and development
               Operational Net Costs                                               programs, minimize future waste generation,
                         (Dollars in Millions)
                                                                                   safely manage nuclear materials, and
                         Total: $10,439
                                                                                   permanently dispose of the Nation's radioactive
       National                                                                    wastes.
       Security
                               54.8%
                                                          Corporate Management   The Strategic Plan also outlined the following seven
                                                  0.8%
                                                            & Other Programs     objectives to support the achievement of our strategic
                                                      3.3% ENVIRONMENTAL         goal described above:
                                                               QUALITY
                     16.5%             24.6%                    $341             EQ1: Reduce the most serious risks from the
        Energy                                                                        environmental legacy of the U.S. nuclear weapons
       Resources                               Science                                complex first.
                                            & Technology
                                                                                 EQ2: Clean up as many as possible of the Department's
                                                                                      53 remaining contaminated geographic sites by
           FY 1998 Environmental Quality
           Number of Federal Employees                                                2006.
       (As Represented by Full-Time Equivalents - FTEs)                          EQ3: Safely and expeditiously dispose of waste generated
                          Total: 16,275                                               by nuclear weapons and civilian nuclear research
      Energy
                                                                                      and development programs and make defense high-
     Resources                                                                        level radioactive wastes disposal-ready.
                                                         National
                         38.5%
                                                         Security
                                                                                 EQ4: Prevent future pollution.
                                               15.3%
                                                                                 EQ5: Dispose of high-level radioactive waste and spent
                                                                                      nuclear fuel in accordance with the Nuclear Waste
   Science
                                                                                      Policy Act as amended.
             2.6%
& Technology
                                          23.1%                                  EQ6: Reduce the life-cycle costs of environmental
                                                     Corporate                        cleanup.
                    20.6%
                                                    Management                   EQ7: Maximize the beneficial reuse of land and
                                                  & Other Programs
                                                                                      effectively control risks from residual
     ENVIRONMENTAL                                                                    contamination.
         QUALITY
          3,351


18
                                                                                                   Environmental Quality




The Performance Agreement included 11 commitments              found several deficiencies, impacting the schedule even
in support of the Environmental Quality objectives of the      further. The Idaho National Engineering Laboratory has
Strategic Plan and 26 measures associated with them.           been working to correct the deficiencies identified in the
The Department's performance was fully successful in           system.
meeting six of these commitments, successful in meeting
                                                               The project to stabilize and store plutonium waste was
three commitments, and partially successful in meeting
                                                               designed to eliminate the serious risk posed by U.S.
only two commitments. Our performance in meeting each
                                                               inventories of this radioactive material. The Department
objective, based on the results against the Performance
                                                               stabilized only 3,000 of the 7,000 liters of plutonium
Agreement, follows. More detailed data is contained in
                                                               solution identified for this project in FY 1998. The lower
the supplemental information at the back of this report.
                                                               number results from termination of a draining operation
EQ 1: Reduce the most serious risks from the                   at one of the Rocky Flats facilities in FY 1998 due to
environmental legacy of the U.S. nuclear weapons               unexpected safety issues. At the Savannah River Site, we
complex first.                                                 successfully met our target of closing one high-level
                                                               waste storage tank in FY 1998.
Environmental Compliance
                                              Departmental
                                               Challenge
                                                               Although cleaning our sites and protecting the
The Department faces significant long-
                                                               environment is one of the Department of Energy's
term environmental compliance and
                                                               highest priorities, our progress in FY 1998 indicated that
waste management problems at its facilities due to past
                                                               we only partially met Objective EQ 1, raising the issue
operations that left a legacy of unacceptable risk to the
                                                               that the serious environmental risks posed by our sites
environment. These circumstances dictate that
                                                               must be addressed more effectively in the future if we are
continued high priority be given to evaluating and
                                                               to meet environmental compliance requirements.
correcting the impacts of past practices and
characterizing and minimizing the possible adverse             EQ 2: Clean up as many as possible of the
impacts of present and future activities. We are acting        Department's 53 remaining contaminated geographic
aggressively in the cleanup of our sites; however, the         sites by 2006.
final completion is a long-term, costly effort. Through
                                                               As of the end of FY 1997, there were 53 remaining
FY 1998, we have completed cleanup actions at 65
                                                               contaminated sites requiring cleanup. In order to meet the
sites. Substantial actions to correct the overall
                                                               ambitious plan for completing many of these projects by
environmental compliance challenge will be completed
                                                               2006, the Department accelerated cleanup efforts by
in 2006 with the execution of our approach to bring
                                                               allocating additional funding. Remediation progress is
103 of the 113 waste sites and facilities into regulatory
                                                               measured by the completion of release sites, where there
compliance.
                                                               are discrete areas of contamination, and contaminated
In FY 1998, the Department committed to cleaning up as         facilities that will ultimately lead to the completion of the
many of the contaminated sites in the nuclear weapons          entire geographic site. In FY 1998, the Department
complex as possible by 2006. We prioritized our cleanup        completed remediation at five geographic sites rather
actions to identify and complete the projects representing     than six as planned. This brings the total number of
the most serious risks to workers, the public, and the         completed geographic sites to 65 of a total of 113
environment first. Preventing further increases in risk to     contaminated geographic sites. We also completed 89
the environment at all sites is also a top priority.           facility decommissioning assessments and 82 facility
                                                               decommissionings, bringing the number of completed
Among our clean up efforts, stabilizing and safely
                                                               facility decommissionings to 532 out of a total inventory
storing spent nuclear fuel was identified as a serious risk.
                                                               of 2,950 facilities.
The Department's target for the amount of spent nuclear
fuel to be stabilized and placed in interim storage was        While performing the cleanup activities critical to this
approximately 3.7 metric tons for FY 1998. The                 program's success, management must take great
stabilization at the Idaho National Engineering                measures to ensure that all stakeholders are included in
Laboratory was stalled, due to delays in equipment             the negotiation and site cleanup process; moreover, all
delivery. Once the equipment arrived, functional testing       sides share the goal of placing public safety, worker



                                                                                                                          19
Department of Energy FY 1998 Accountability Report




safety, and environmental protection before all cleanup    Department also disposed of nearly 30,000 cubic meters
activities. Therefore, management must strike a balance    of low-level waste and 4,000 cubic meters of mixed low-
between how much to cleanup and on what schedule.          level waste. The Defense Waste Processing Facility at
Given the resources expended during FY 1998,               the Savannah River Site in South Carolina made ready
management believes that we are on track in meeting this   228 canisters of high-level waste, 28 more canisters than
objective.                                                 the FY 1998 target.
EQ 3: Safely and expeditiously dispose of waste            Although the delays in opening the WIPP were due to
generated by nuclear weapons and civilian nuclear          circumstances beyond control of the agency, thereby
research and development programs and make                 causing the Department to fall short of its objectives, we
defense high-level radioactive wastes disposal-ready.      cannot consider our efforts to meet this objective a
                                                           success. Delays must be taken into account during
Waste Isolation Pilot Plant
                                            Departmental   planning phases. We must overcome the obstacles in
The Department is not able to                 Challenge    order to carry out the Department's mission. Our efforts
permanently dispose of the transuranic                     in meeting this objective were only partially successful in
radioactive waste generated by its weapons complex.        FY 1998, and the Department considers this objective a
The schedule for opening the Waste Isolation Pilot         management challenge and concern.
Plant (WIPP), the Nation’s first research and
                                                           EQ 4: Prevent future pollution.
development facility to demonstrate the safe geological
disposal of transuranic waste, has continued to            The Department of Energy's commitment to preventing
experience delays due to litigation. In 1998, the          future pollution was intended to ensure that we do not
Environmental Protection Agency certified that WIPP        compound our future cleanup work from ongoing agency
complies with its radioactive disposal regulations and     activities. In fact, pollution prevention, including waste
the Department informed Congress of its intent to          minimization, recycling, and reuse of materials, was
begin disposal operations. However, the State of New       incorporated into all DOE activities.
Mexico has not issued the final Resource Conservation
                                                           Our efforts to prevent pollution in FY 1998 resulted in
and Recovery Act permit required for disposal of mixed
                                                           the reduction of radioactive, mixed, and hazardous waste
transuranic waste. The opening of WIPP is now
                                                           generation by 14,000 cubic meters. Overall, as of the end
scheduled for 1999 as the Department continues to
                                                           of FY 1998, we were on track to reduce routine waste
work with the State of New Mexico to resolve the
                                                           generation by 54 percent, compared with 1993 waste
remaining legal challenges. Until WIPP is open,
                                                           generation rates.
transuranic radioactive waste is being stored
temporarily at numerous Departmental facilities across     Management recognizes that pollution prevention,
the country.                                               recycling, and waste minimization are the key to meeting
                                                           our future national objectives while preserving our
In FY 1998, DOE planned to ship between 388 and 592
                                                           natural resources. Based on current successes in these
cubic meters of transuranic waste from Los Alamos
                                                           areas, management considered that this objective was
National Laboratory, Rocky Flats Environmental
                                                           successfully met.
Technology Site, and the Idaho National Engineering and
Environmental Laboratory. However, since the opening       EQ 5: Dispose of high-level radioactive waste and
of WIPP was delayed until FY 1999, these targets were      spent nuclear fuel in accordance with the Nuclear
missed.                                                    Waste Policy Act as amended.
Despite the delays in the WIPP facility, the Department    The DOE Civilian Radioactive Waste Management
did make progress in other areas related to its            Program is charged with disposing of the Nation's spent
commitment of safely and expeditiously making waste        nuclear fuel and high-level radioactive waste as outlined
disposal-ready and disposing of waste generated during     in the Nuclear Waste Policy Act as amended. In FY
past and current DOE activities. In FY 1998, the West      1998, viability assessment analyses for licensing and
Valley Demonstration Project in New York prepared 75       constructing a geologic repository at the Yucca Mountain
canisters of existing high-level waste for disposal. The   Site were completed. The four key components of the



20
                                                                                                 Environmental Quality




analyses were: design and operational concept;
performance of that concept in the geologic setting; a
cost plan and estimate to construct and operate the
repository; and an estimate and plan of the costs to
complete a license application.
Anticipating potential statutory direction that may
include transportation of spent nuclear fuel and high-
level waste to a designated interim storage facility, the
Civilian Radioactive Waste Management Program
completed safety analyses for the Centralized Interim
Storage Facility. The Department also revised and
submitted the Topical Safety Analysis Report to the
Nuclear Regulatory Commission. In addition, the policy
and procedure for implementation of Section 180 of the
Nuclear Waste Policy Act was revised.
                                                             Yucca Mountain Tunnel
Yucca Mountain
                                           Departmental
In accordance with the Nuclear Waste         Challenge
                                                             utilities with shutdown reactors. There is an ongoing
Policy Act (NWPA), as amended, the
                                                             process to determine the damages the Government must
Department has been studying Yucca Mountain,
                                                             pay these utilities. Other cases involving utilities, most
Nevada, to determine its suitability for a permanent
                                                             with operating reactors, are currently pending in the
repository. Litigation, funding shortfalls, and the need
                                                             Court of Federal Claims. The Government has argued
for scientific characterization well beyond the levels
                                                             that these utilities must first exhaust administrative
envisioned when the NWPA was initially passed in
                                                             remedies at the Department before filing suit in court.
1982, necessitated a change to the schedule and in
                                                             We expect a decision in the first of these cases in 1999.
1989 the Department fixed the schedule for start of
                                                             While it is too early to evaluate the ultimate impact of
repository operations as 2010. Until a permanent
                                                             claims based on these cases, the Department has
repository is open, high-level radioactive waste and
                                                             estimated possible damages to be between $500 million
spent nuclear fuel are being stored temporarily at
                                                             and $1 billion if all utilities filed claims. Some utilities’
numerous Departmental facilities and individual
                                                             representatives have estimated damages totaling $45
utilities around the country.
                                                             billion.
Progress is being made. A viability assessment of the
                                                             EQ 6: Reduce the life-cycle costs of environmental
Yucca Mountain site was completed in 1998. Future
                                                             cleanup.
actions are to complete an environmental impact
statement in 2000, and, if the site is suitable,             Because the scope of the Department's cleanup effort is
recommend it to the President in 2001, submit a license      so large, we have taken steps to ensure that the costs are
application to the Nuclear Regulatory Commission in          minimized through enhanced performance and increased
2002, and begin repository operations in 2010.               efficiency. We have used many methods to control our
                                                             costs, including the use of fixed-price competitive
In the meantime, a U.S. Court of Appeals recently ruled
                                                             contracting, optimized project sequencing, privatization,
that the Department had an unconditional obligation to
                                                             systems engineering, and bench marking. Recycling and
initiate waste acceptance by January 31, 1998. Because
                                                             waste minimization efforts have also helped the
a Federal receipt facility constructed under the NWPA
                                                             Department control operating costs, resulting in a two-
is not yet available, the Department is unable to initiate
                                                             fold benefit as they also keep risks to the environment at
waste acceptance. As a result, several utilities have
                                                             a minimum.
brought suit against the Department and in the first
three cases, the Court of Federal Claims found that the      FY 1998 accomplishments include vendor selections and
Department has breached its contracts with three             awards for the Oak Ridge TRY (transuranic) Waste



                                                                                                                       21
Department of Energy FY 1998 Accountability Report




Treatment Privatization contract, the Hanford Tank          Management has considered numerous proposals to
Waste Remediation System contract, and the Carls bad        reduce life-cycle costs. Some have been chosen and
Area Office Contact-Handled TRY Waste                       others rejected. Based on these decisions, management
Transportation Privatization contract.                      considered this objective successfully on track to lead to
                                                            greater reductions in the overall life-cycle cost of the
Developing and deploying innovative environmental
                                                            Department's environmental cleanup.
cleanup, nuclear waste, and spent fuel technologies have
contributed significantly to reducing our costs as we       EQ 7: Maximize the beneficial reuse of land and
provide greater protection to our workers and the           effectively control risks from residual contamination.
environment. In FY 1998, DOE developed and actually
                                                            The Department is working very closely with
deployed 119 innovative technologies across its
                                                            stakeholders to develop comprehensive land use plans
complex. The Department conducted 35 full scale
                                                            for many DOE sites following their cleanup. These land
demonstrations of alternative technology systems that
                                                            use plans address future alternative uses, environmental
meet the performance specification needs at lower costs
                                                            requirements, and implementation schedules for land use.
as identified by the Site Technology Coordinating Group.
                                                            The Department had committed to providing Congress,
In addition, the Environmental Management program           by March 1998, as outlined in the 1997 National
made 40 alternative technology systems available for        Defense Authorization Act, a "future use" plan for many
implementation with full cost and engineering               DOE sites, including the specific plans for Hanford Site,
performance data.                                           the Savannah River Site, the Rocky Flats Environmental
                                                            Technology Site, and the Idaho National Engineering and
When performing life cycle analysis, management must
                                                            Environmental Laboratory. The Department was
consider which interventions are appropriate and when.
                                                            subsequently granted an extension and plans for all sites,
A decision to clean one site completely before beginning
                                                            except Hanford, were submitted in October 1998. The
another site may not be popular. However, if specific
                                                            plan for the Hanford site will be submitted to Congress
"maintenance" activities can be halted based on that
                                                            when it is published.
cleanup, the unpopular decision may be the best decision.
                                                            Management is concerned with the agency's initial
                                                            delays, but believes it is successfully on track with this
                                                            objective.




22
                                            Science and Technology
                  FY 1998 Budget by Business Line                                The successful performance of virtually every mission
                             (Dollars in Millions)                               activity at the Department of Energy is based on the
                              Total: $16,859
                                                                                 scientific leadership of our national laboratories and
          Energy                                         National                industrial research partners. From the study of global
         Resources                                       Security                climate change to advancing nuclear nonproliferation
                                            33.9%
                           11.7%                                                 worldwide, science is at the heart of the Department's
                                                                                 work. Although the Cold War has left a legacy of
                                                      2.0%      Corporate        environmental risks and threats to our national security,
    SCIENCE         14.8%                                      Management
 & TECHNOLOGY
                                                                                 it has also left a legacy of world-class scientific and
                                                             & Other Programs
     $2,502                              37.5%                                   technological accomplishments.
                                                                                 In addition to the scientific nature of our mission, the
                                               Environmental                     Department is also responsible for sustaining the
                                                  Quality                        Nation's science leadership in the basic research areas,
                                                                                 such as chemistry, physics, and materials science. The
                                                                                 Department's science and technology-related endeavors
                  FY 1998 Science & Technology                                   have fostered much of our Nation's economic prosperity
                      Operational Net Costs
                             (Dollars in Millions)
                                                                                 over the past half century, and we anticipate our role in
                             Total: $10,439                                      promoting economic growth will continue to be an
                                                                                 integral component of the global economic community in
               National
               Security                                                          the future.
                                    54.8%
                                                                                 Year after year, the Department of Energy's contributions
                                                          Corporate Management   to cutting-edge technological developments earn
                                                     0.8%   & Other Programs
                                                     3.3%
                                                                                 worldwide recognition. In FY 1998, R&D Magazine
                                                                Environmental    awarded 33 R&D 100 Awards to the Department’s
                            16.5%                                  Quality       laboratories, bringing the total number won by our
                                             24.6%
                Energy                                                           national laboratories since the program began 25 years
               Resources                                SCIENCE                  ago to 486. This is a remarkable achievement
                                                     & TECHNOLOGY                considering that this is the most awarded by far to any
                                                         $2,570
                                                                                 single organization, private or government, and amounts
                                                                                 to twice as many awards as those received by all other
                                                                                 government agencies combined.
                  FY 1998 Science & Technology
                  Number of Federal Employees                                    In 1997, the Department of Energy developed the
           (As Represented by Full-Time Equivalents - FTEs)                      following strategic goal for its science and technology
                             Total: 16,275                                       business line as part of the Strategic Plan:
          Energy
         Resources
                                                         National
                             38.5%
                                                         Security                    ST GOAL: Deliver the scientific understanding
                                                 15.3%
                                                                                     and technological innovations that are critical
                                                                                     to the success of DOE's mission and the
   SCIENCE
                 2.6%
                                                                                     Nation's science base.
& TECHNOLOGY                                 23.1%
     418                     20.6%                       Corporate
                                                        Management
                                                      & Other Programs
                Environmental
                   Quality



                                                                                                                                           23
Department of Energy FY 1998 Accountability Report




The Strategic Plan also outlined the following four         the groundwork for developing an advanced research
objectives to support the achievement of our strategic      program that will capitalize on the recent advances in
goal described above:                                       molecular and structural biology. These researchers will
                                                            produce the next generation of molecular imaging probes
                                                            for nuclear medicine.
ST1:    Develop the science that underlies DOE's
                                                            In FY 1998, the Department's Brookhaven National
        long-term mission.
                                                            Laboratory in New York, in coordinated efforts with the
ST2:    Deliver leading-edge technologies that are          Beth Israel Deaconess Medical Center, completed early
        critical to the DOE mission and the Nation.         clinical trials of Boron Neutron Capture Therapy, a
                                                            potential method of treating cancer, including brain
ST3:    Improve the management of DOE's research
                                                            cancer and melanoma, that resist conventional methods
        enterprise to enhance the delivery of leading-
                                                            of treatment. During FY 1998, a total of 53 patients have
        edge science and technology at reduced costs.
                                                            been treated at the two cooperating facilities. Ultimately,
ST4:    Assist in the government-wide effort to             the results of this research will be made available via the
        advance the Nation's science education and          World Wide Web.
        literacy.
                                                            The Department of Energy Joint Genome Institute's
                                                            human genome project continued to make progress in FY
                                                            1998. The three organizations who have combined their
The Performance Agreement included 12 commitments
                                                            unique capabilities to form the Joint Genome Institute for
in support of the Science and Technology objectives of
                                                            work on this ground-breaking endeavor, Los Alamos,
the Strategic Plan and 32 measures associated with them.
                                                            Lawrence Livermore, and Lawrence Berkeley National
The Department's performance was successful in meeting
                                                            Laboratories, reduced their costs and increased the speed
11 of these commitments, and partially successful in
                                                            and quality of DNA sequencing. They established
meeting one commitment. Our performance in meeting
                                                            ambitious DNA sequencing goals and were five percent
each objective, based on the results against the
                                                            over target for unique DNA sequence completed in FY
Performance Agreement, follows. More detailed data is
                                                            1998. These goals were based on international standards
contained in the supplemental information at the back of
                                                            for DNA sequence quality agreed upon by the
this report.
                                                            international scientific community. The Joint Genome
ST 1: Develop the science that underlies DOE's long-        Institute submitted 20 million bases of high quality,
term mission.                                               unique DNA sequence to public data bases in FY 1998.
The Department's efforts to develop the science that        To further the knowledge of energy and matter, the
supports our long-term mission produces the knowledge       Department began fully operating all three experimental
and understanding that will allow scientists to make        halls at the Thomas Jefferson National Accelerator
breakthroughs in other fields.                              Facility in Newport News, Virginia. The laboratory can
                                                            deliver simultaneous beams of widely differing energies
DOE-sponsored researchers have applied technological
                                                            and currents to each hall and is also able to deliver a
advances from other research areas, such as the semi-
                                                            polarized beam to any of them.
conductor field, to develop very small data processing
components used to process medical imaging data in          International collaboration on science projects allows
record time. A major accomplishment in FY 1998 was          scientists from other parts of the world to leverage their
the use of high performance computing to better             research opportunities to reach a synergistic relationship
understand and model the molecular mechanisms of            that has the potential to break new ground in their fields.
scintillator fluorescence. This scientific advancement      Under the Russian-American Fuel Cell Consortium,
resulted in new technologies for breast cancer detection.   scientists designed and developed advanced catalysts,
In the Department's effort to continually support the       electrodes, and membranes in support of the
development of new highly-specific radio tracer probes      development of fuel cell technology as an efficient and
to detect and treat disease, a joint workshop was held      reliable energy resource. In FY 1998, we funded nine
with the National Institutes of Health. The workshop laid   research and development projects covering the full array


24
                                                                                                  Science and Technology




of key fuel cell technologies. The overall goal of these      On the domestic front, DOE executed a multi-year
projects was to reduce the cost of fuel cell technology by    contract for development of highly efficient radioisotope
testing less expensive materials to make up the               power systems in support of the National Aeronautics
component parts of fuel cells. An additional benefit of       and Space Administration's (NASA) future mission
the collaborative projects was the useful employment of       requirements. Lockheed Martin Astronautics was
former Russian nuclear weapons scientists in commercial       selected as the system integration contractor to develop
research and development activities, rather than in           an advanced radioisotope power system for potential use
military applications, thus promoting global                  on the Europa Orbiter, Pluto-Kuiper Express and other
nonproliferation efforts.                                     future NASA missions. Work began in FY 1998 on the
                                                              new conversion technology and system design to meet
The U.S. began cooperative research efforts with Russia
                                                              requirements.
on fundamental properties of matter, fusion energy
science, nuclear reactor safety, environmental restoration,   Although DOE's own research and development
and nuclear waste management under the umbrella               capabilities are world-renowned, we recognized that the
Peaceful Uses of Atomic Energy Agreement 25 years             pursuit of new technologies can be accomplished more
ago. The agreement covered hundreds of activities under       effectively and efficiently through partnerships with
four major memoranda of cooperation. In FY 1998,              industry, academia, and other government agencies. In
major progress continued in high energy and nuclear           FY 1998, the Department selected 17 multi-year
physics, fusion science, nuclear safety upgrades at           laboratory technology research projects in the areas of
Russian reactors built in the Soviet era, and research on     advanced materials, biotechnology, intelligent processes
environmental restoration and waste management of             and controls, applied mathematics, and catalysis. These
materials associated with nuclear fission.                    areas represented our top priorities for science and
                                                              technology, and the projects were 50 percent cost-shared
In the area of science, the U.S. has a broad responsibility
                                                              with industry partners. Research began on eight of the 17
to expand the knowledge of our planet for constructive
                                                              projects during FY 1998.
purposes. The Department's role is to advance the
scientific domain within our mission areas. At the same       Considering the successful deployment of so many
time, the Department must remain vigilant to ensure that      mission-critical technologies in FY 1998, management
the expenditures in the area of general science are           believes the Department is successfully on track toward
controlled and efficient. Based on the numerous               meeting this strategic objective.
accomplishments during FY 1998, management
                                                              ST 3: Improve the management of DOE's research
considers that our efforts in FY 1998 toward meeting
                                                              enterprise to enhance the delivery of leading-edge
this objective were successful.
                                                              science and technology at reduced costs.
ST 2: Deliver leading-edge technologies that are
                                                              The Department of Energy operates one of the largest
critical to the DOE mission and the Nation.
                                                              scientific research and development enterprises in the
As our mission has evolved during the past half century,      world, supporting a network of national laboratories and
so have our scientific and technical capabilities. As we      user facilities employing more than 30,000 scientists and
approach the 21st century, we must ensure that our            engineers who conduct world-class basic and applied
mission critical capabilities continue to support emerging    research.
energy, national security, and environmental quality
                                                              Given the immensity of the laboratory complex, it is the
goals.
                                                              Department's role to ensure that the laboratories, user
The Department continued to pursue international              facilities, and other DOE research providers are managed
collaborations in FY 1998 on large-scale science projects     in an integrated, responsive, and cost-effective manner,
to explore the frontiers of high-energy physics. Over the     building on unique core strengths and corresponding
course of FY 1998, we established cost and schedule           roles and minimizing duplicative activities.
baselines for the three components of the U.S.
                                                              As planned, the Department completed a draft facilities
contribution to the Large Hadron Collider.
                                                              roadmap which will determine the needs for and provide
                                                              direction to the scientific facilities through the year 2020.


                                                                                                                        25
Department of Energy FY 1998 Accountability Report




The Department also made progress on the development        ST 4: Assist in the government-wide effort to advance
of new facilities. DOE initiated the assembly and           the Nation's science education and literacy.
installation of the National Spherical Tokomak
                                                            Just as science education and literacy was essential to our
Experiment at the Princeton Plasma Physics Laboratory.
                                                            Nation's past successes, it will play an even larger role in
DOE's user facilities provided access to our cutting-edge   our Nation's future successes. If the United States is to
scientific and technological resources. During FY 1998,     retain its global leadership in science and technology, we
however, the Department determined it must improve the      must give our youth the best possible tools in math and
management, dissemination, sharing, and use of              science. The Department of Energy is committed to
scientific and technical information. In FY 1998, the       developing and promoting the technologies and programs
DOE Office of Scientific and Technical Information and      that provide information and contribute to learning in
the U.S. Government Printing Office unveiled a new          science, math, and engineering. In addition, DOE
information tool that made DOE research and                 committed to expand access to DOE's vast quantity of
development report literature available on the world wide   technical information. Our extensive network of human
web. Named the "DOE Information Bridge," the tool           and physical resources has been leveraged, in conjunction
became available with a world wide web address and          with the National Science Foundation and other Federal
required no passwords or other entry requirements. The      agencies, to promote science awareness and interest.
system can be used to access, locate, search, and           Recognizing the power of diversity, we also committed
download full-text and bibliographic information            to improving educational opportunities for minorities
electronically. At the end of FY 1998, the site included    who have traditionally been under represented in math
the full-text of more than 27,000 DOE-sponsored             and science-related fields.
research and development reports and their bibliographic
                                                            In FY 1998, the Department supported the Hollaender
records and abstracts.
                                                            post-doctoral fellowship program through 10 awards
On another front, the longstanding issue of the             involving collaborations between minority students, their
evaluation process for DOE's research programs showed       faculty advisors, and scientists in DOE laboratories. The
signs of improvement in FY 1998. The Fusion Energy          Department also supported the multi-agency Significant
Sciences Advisory Committee was charged to review the       Opportunities in Atmospheric Research and Science
advanced fusion materials program and a panel of            Program through sponsorship of five of the 19 program
specialists was appointed to conduct the review. The        proteges, who are predominantly minority students. Our
High Energy Physics Advisory Panel's Subpanel               efforts enhanced diversity while recruiting well-qualified
completed its study, and the resulting report, entitled     students for careers in the atmospheric sciences and
"Planning for the Future of U.S. High-Energy Physics,"      global climate change.
was published in February 1998.
                                                            The Department of Energy considers science awareness
In balancing the competing needs of the Department's        events an effective means to attract the most promising
various stakeholder groups, a successful scientific         and qualified individuals to mathematical and scientific
program was established that addressed those needs          career fields. In FY 1998, more than 8,000 students from
within the constraint of our budget environment. By         1,600 high schools participated in 48 regional science
relying on peer review and national professional            bowl competitions across the country and in the Virgin
societies, the Department has been able to identify the     Islands. These figures represent a growing interest in the
top scientific objectives and organized the resources to    science bowl events and the support of both the DOE and
meet those objectives. The efforts to date will keep the    non-DOE sites for this effort. More than 5,000
Department on track to achieve our strategic objective of   volunteers from DOE sites, other Federal agencies, local
improving the management of our research enterprise.        colleges and universities, technology companies and
                                                            sponsors served as officials for the competitions. For the
                                                            first time in the history of the competition, the winning




26
                                                                                       Science and Technology




team from the 1998 National Science Bowl event in
Washington, D.C. was invited to attend the 48th Meeting
of Nobel Laureates in Chemistry held in Lindau,
Germany.
Our activities in FY 1998 in promoting science and math
education and science awareness helped the Department
successfully fulfill its commitments from the
Performance Agreement. Management believed our
accomplishments indicated we were on track to
successfully meet our strategic objective.



                                                          1998 National Science Bowl Winning Team




                                                                                                          27
                                         Corporate Management

           FY 1998 Budget by Business Line                                  Corporate Management encompasses functions that
                        (Dollars in Millions)                               apply to all business lines within the Department.
                            Total: $16,859                                  Recognizing that sound management is the key to the
                                                    National
                                                                            agency's success in achieving the strategic objectives for
        Energy                                                              its diverse portfolio of programs, it is identified
                                                    Security
       Resources
                                       33.9%                                separately. It not only includes the administrative, staff,
                     11.7%
                                                              CORPORATE
                                                                            and operational functions traditionally associated with a
                                                             MANAGEMENT     large organization, but also encompasses the crosscutting
                    14.8%                                2.0% & OTHER       activities related to the environment, safety and health of
   Science                                                    PROGRAMS
& Technology                                                                our workers and the public ongoing in all our program
                                                                 $339
                                    37.5%                                   activities; effective communication and trust with our
                                                                            stakeholders; and highly efficient managerial practices.
                                                                            In FY 1997, the Department of Energy developed the
                                    Environmental
                                       Quality                              following strategic goal for its Corporate Management as
                                                                            part of the Strategic Plan:

 FY 1998 Corporate Management & Other Programs
              Operational Net Costs
                                                                                CM GOAL: The Department of Energy will
                        (Dollars in Millions)
                            Total: $10,439
                                                                                strive to demonstrate organizational excellence
                                                                                in its environment, safety and health practices,
         National
         Security
                                                                                in its communication and trust efforts, and in its
                               54.8%                         CORPORATE          corporate management systems and approaches.
                                                            MANAGEMENT
                                                         & OTHER PROGRAMS
                                                         0.8%   $84
                                                  3.3%
                                                                            The Strategic Plan outlined the following three objectives
                                                         Environmental
                       16.5%                                Quality
                                                                            to support the achievement of our strategic goal
                                       24.6%
                                                                            described above:
         Energy
        Resources                               Science
                                             & Technology
                                                                              CM1: Ensure the safety and health of the DOE
                                                                                   workforce and members of the public, and
                                                                                   the protection of the environment in all
     FY 1998 Corporate Management & Other Programs                                 Departmental activities.
              Number of Federal Employees
          (As Represented by Full Time Equivalents - FTEs)                    CM2: As a good neighbor and public partner,
                             Total: 16,275                                         continually work with customers and
                                                                                   stakeholders in an open, frank, and
         Energy
                                                                                   constructive manner.
        Resources
                                                         National
                            38.5%
                                                         Security             CM3: Use efficient and effective corporate
                                                15.3%
                                                                                   management systems and approaches to
                                                                                   guide decision making, streamline and
    Science   2.6%
                                                                                   improve operations, align resources and
 & Technology                                                                      reduce costs, improve the delivery of
                                            23.1%
                            20.6%                                                  products and services, and evaluate
                                                        CORPORATE
                                                       MANAGEMENT
                                                                                   performance.
           Environmental                            & OTHER PROGRAMS
              Quality                                     3,759


28
                                                                                            Corporate Management




The Performance Agreement included 15 commitments          senior technical managers from every program
in support of the Corporate Management objective of the    throughout the agency to produce the Implementation
Strategic Plan and 44 measures associated with them.       Plan for the Technical Qualification Program (TQP). The
We were fully successful in meeting eight commitments,     TQP is the Department's method of ensuring that
successful in meeting four commitments, and only           workers whose jobs affect the safety and health of other
partially successful in three commitments.                 workers, the public, and the environment are fully
                                                           qualified to perform their work. This program was first
CM 1: Ensure the safety and health of the DOE
                                                           developed in FY 1993 in response to a recommendation
workforce and members of the public, and the
                                                           from the Defense Nuclear Facilities Board. The
protection of the environment in all Departmental
                                                           Department met its goal of increasing the percentage of
activities.
                                                           employees certified through this program from 65
The Department has maintained stewardship of some of       percent in FY 1997 to 75 percent in FY 1998. By the
the most hazardous materials known to mankind. As a        year 2000, our goal is to have 90 percent certification of
result, environment, safety and health concerns are some   the more than 1,700 employees covered by the program.
of our highest priorities. The commitment in FY 1998
                                                           Safety and Health
was to reinforce a culture of sound environment, safety                                                 Departmental
and health practices into our day-to-day operations.       The Department of Energy is tasked with        Challenge
                                                           simultaneously addressing the
Using independent oversight, the Department collected
                                                           consequences of past activities, managing current
information and analysis on the Department's
                                                           operations, and preventing future human and
environment, safety, health, and safeguards and security
                                                           environmental problems. The Department is attempting
policies and programs. This information was provided to
                                                           to meet these challenges through implementing a
the Secretary and senior line managers. During FY 1998,
                                                           variety of initiatives, including Integrated Safety
we successfully completed one Integrated Safety
                                                           Management (ISM). The Department has demonstrated
Management Evaluation of the Lawrence Livermore
                                                           its commitment to the principles of ISM and has
National Laboratory and three special reviews at
                                                           evidenced this commitment by establishing safety and
Albuquerque.
                                                           health programs that protect its workers, the public,
As part of the effort to emphasize safety, the Secretary   and the environment. The challenge remains that
ordered a complex-wide review of emergency                 improvements in worker safety are being offset by
management. As a result, the Department completed          adverse trends in safety records related to construction
reviews of the Nevada Test Site, the Savannah River        and industrial service. Also, while the principles of
Site, and the Los Alamos and Sandia National               work planning and hazard analysis have been
Laboratories. At Brookhaven National Laboratory, the       established at some sites, at many others these
Department implemented a comprehensive follow-up           principles are limited in their implementation,
program of Groundwater Tritium Plume Recovery              especially where subcontractor personnel are involved.
Activities to address public health concerns.              A need to improve accountability for safety
                                                           management performance is apparent in the
In FY 1998, the Department developed and completed
                                                           Department’s self-assessment and corrective action
the fourth update of 20 environment, safety and health
                                                           processes and in the under-utilization of “lessons
profiles describing and monitoring the most significant
                                                           learned” information.
environment, safety and health issues at DOE sites. The
Department developed oversight analyses for 17             Through 1998, 64 of the 106 vulnerabilities identified
programmatic and technical areas and 20 sites which        with our storage of spent nuclear fuel had been
have been integrated into an assessment of complex-wide    corrected. In addition, four independent oversight
safety performance.                                        evaluations were conducted in FY 1998 which support
                                                           the Department’s ability to monitor the implementation
DOE believes that environment, safety and health issues
                                                           of current safety standards and provide feedback
can only be successfully addressed with appropriately
                                                           critical in completing the nuclear safety standards
trained and technically competent employees. In
                                                           upgrade project.
FY 1998, our Office of Human Resources worked with


                                                                                                                  29
Department of Energy FY 1998 Accountability Report




The Department’s long-term plan for correcting these        In FY 1998, the Department successfully involved
deficiencies includes the ongoing evaluation of internal    stakeholders in the policy-making process through the
operations; the final publication of remaining Nuclear      Environmental Management Program's public
Safety Management Rules during FY 2000; and the             involvement activities. National meetings for soliciting
completion of actions to correct deficiencies in the        public involvement in the program were conducted for
storage of spent fuel in 2005. In addition, the             Site-Specific Advisory Board Chairs, the State and
Department will address these challenges by ensuring        Tribal Government Working Group, the National
the implementation of ISM at all sites by September         Association of Attorneys General, and the National
2000; by inserting a clause into contracts that puts the    Governors’ Association. These meetings provided a
contractor’s entire performance-based fee at risk for       unique opportunity for stakeholders to discuss upcoming
poor safety performance; and by establishing a “Safety      DOE decisions on nuclear materials and waste
Council” that will ensure ISM targets are met.              management from a national perspective.
In addition, the primary challenge to the Department in     The DOE World Wide Web site has been a successful
the area of worker and public health is the lack of a       tool in increasing customer and public awareness of
consistent, complex-wide approach to performing             DOE's mission areas. In FY 1998, an increase of over 30
health studies. The Department is working closely with      percent in the number of DOE Home Page visits
public health agencies such as the Centers for Disease      occurred. The Department's efforts to improve the
Control and Prevention on a new effort to establish         information disseminated through the Home Page
clear, site-specific public health agendas that are         contributed to the increase in usage.
responsive to worker and public concerns. Stakeholder
                                                            Although not all parties agreed with all DOE decisions,
input is key to this initiative.
                                                            most groups feel that they were included in the process.
Meeting the challenge of maintaining adequate worker        This represents a significant improvement from only a
and public protection in an environment with aging          few years ago. In this environment, management must
facilities and uncertain future requirements is a great     continue to work to improve.
challenge. In addition, the resource constraints make the
                                                            Management considers the Department to be successfully
job even more difficult.
                                                            on track toward meeting this strategic objective.
Management considers that although we achieved several
                                                            CM 3: Use efficient and effective corporate
accomplishments in this area, our ongoing deficiencies
                                                            management systems and approaches to guide
indicate that our efforts in FY 1998 toward meeting
                                                            decision making, streamline and improve operations,
Objective CM 1 were only partially successful.
                                                            align resources and reduce costs, improve the delivery
CM 2: As a good neighbor and public partner,                of products and services, and evaluate performance.
continually work with customers and stakeholders in
                                                            Improving business practices throughout the Department
an open, frank, and constructive manner.
                                                            encompasses a variety of management issues, including
Since the end of the Cold War, the Department has           contracting, infrastructure, property control, information
undergone a transformation from a secretive, weapons-       management, financial management systems, managerial
producing agency to a results-driven, customer-focused      performance and accountability, and human resources.
leader in science, technology, and environmental            There are a number of Departmental challenges in these
management. This has been accomplished by                   areas.
emphasizing openness, enhancing communications, and
fostering trust among stakeholders. In addition, the
Department demonstrated its concern for public
participation in FY 1998 by conducting a needs
assessment at 11 Operations/Field Offices, and initiated
a public participation training program for Headquarters
and field managers, from Deputy Assistant Secretaries to
project managers to public affairs staff.



30
                                                                                                 Corporate Management




Contract Management                                            Inadequate Audit Coverage                   Departmental
                                              Departmental
                                               Challenge                                                    Challenge
The Department is reforming its                                There are deficiencies in the audit
contracting practices, which were                              coverage of the our major contractors
largely unchanged for more than 50 years. The                  that perform many of the functions integral to the
weaknesses in our contracting practices were                   Department’s mission. As a result, the Department
substantial and required major changes in such areas           lacks full assurance that its contractors are only being
as contractor performance and accountability. While            reimbursed for costs that are reasonable and
this reform effort is applicable to all our contracts, it is   allowable. The Inspector General has taken steps
especially pertinent to the large contracts we have with       towards the correction of this problem by implementing
companies managing and operating our major                     a revised audit strategy. While the strategy places
facilities to which we fund approximately $13 billion a        greater reliance on major contractor internal audit
year. To correct these problems we instituted an               staffs using a risk-based approach, contractor internal
extensive, multi-year contract reform initiative. The key      audit activities are assessed to ensure that professional
component of this initiative has been the                      auditing standards are followed, effectively expanding
implementation of performance-based contracts which            audit coverage of the Department.
emphasize results and performance incentives. In FY
                                                               While there have been improvements in audit coverage,
1998 we continued to refine this contracting
                                                               an Inspector General evaluation of the Department’s
mechanism and strengthen it by improving our use of
                                                               audit needs concluded that staffing and resource
performance-based incentives. We will assess the
                                                               limitations will continue to hinder audit efforts into the
effectiveness of these actions in FY 1999 through a
                                                               foreseeable future. The Department is working to
follow-up assessment.
                                                               resolve these staffing issues in order to accomplish an
Project Management                           Departmental
                                                               acceptable level of audits of our major contractors.
Credibility in the Department’s ability       Challenge        Unclassified Computer Security
                                                                                                            Departmental
to build new facilities or upgrade                                                                          Challenge
                                                               Internal and external reviews have made
existing systems has been adversely affected by reports
                                                               it apparent that there is an increase in
of cost overruns, schedule slippages, and other project
                                                               system and network vulnerabilities at the Department.
management problems. These issues have led to
                                                               These vulnerabilities, which have come under
Congressional concerns about the Department’s
                                                               Congressional scrutiny, increase the likelihood of
construction project management structure and
                                                               unauthorized intrusions into our publicly available
practices. To correct this problem, we assessed
                                                               systems. One of the primary causes is the lack of a
Department-wide policy and procedures in FY 1998
                                                               meaningful policy and program framework, while
and examined specific aspects of our defense-funded
                                                               another root cause is a lack of awareness of system
construction projects including overall project
                                                               vulnerabilities by employees, line managers, and upper
performance, organizational management structure,
                                                               management. Planned actions for addressing this
and personnel resources. We have initiated corrective
                                                               challenge include the issuance of technical security
actions as a result of these studies.
                                                               advisories, development of guidelines and policies, and
In FY 1999, in accordance with Congressional                   the commencement of awareness training and pilot
direction, we will procure services for independent            programs for network intrusion detection.
assessments of ongoing and planned projects
                                                               Financial Management Systems
Department- wide and an independent evaluation of                                                           Departmental
Departmental construction planning and management              The Department’s financial                 Challenge
practices. Although it is expected that completion of          management systems do not report
these actions in FY 1999 will bring correction of major        financial information in a manner needed to facilitate
project management deficiencies to near closure,               effective management of our programs and contractors.
potential follow-on actions may extend final closure           Departmental financial management systems also need
until FY 2000.                                                 to be upgraded to produce financial information
                                                               required to measure program and financial


                                                                                                                       31
Department of Energy FY 1998 Accountability Report




management performance. In order to address                    strengthened the capital asset management process for
identified deficiencies, the Office of the Chief Financial     the acquisition, maintenance, modernization, and/or
Officer has strengthened its planning and support for          eventual disposal of infrastructure. In addition, a
current and future financial system requirements. In FY        Functional Cost Reporting System, which includes
1998, the Department implemented a new Financial               maintenance data has been deployed and is providing
Data Warehouse prototype to address managers’ needs            information on infrastructure upgrade requirements.
for obligation and cost data. We also deployed the new         Potential enhancements to the available financial
Executive Information System to all Departmental               information will be addressed in the Department’s new
managers. In addition, to address future system needs,         Business Management Information System now under
a project to address the design, development, and              development. Due to the substantial nature of the
implementation of a new Business Management                    processes now in place to adequately maintain our
Information System was initiated. During FY 1999, the          infrastructure, this reportable problem is closed.
Department will identify functional and technical
                                                               Property Controls
system requirements, such as additional infrastructure                                                         Prior
and maintenance data needs, for evaluation during the          In the past, inadequate control over        Departmental
                                                                                                             Challenge
development of the Business Management Information             Government personal property by the
System. Full implementation of the Business                    Department's management and
Management Information System in 2002 will bring the           operating contractors had been identified as a
correction of financial system deficiencies to closure.        deficiency at some of the Department’s facilities. This
                                                               property included nuclear-related technology
To emphasize results and accountability in our business
                                                               equipment, vehicles, construction equipment,
management approaches, the Department sought to
                                                               computers, tools, and other items. The deficiencies
submit Department-wide audited financial statements,
                                                               identified included missing property, risk of
including performance against the FY 1997 Performance
                                                               unauthorized use, and improper disposal. These
Agreement with the President, with an unqualified audit
                                                               problems resulted from inadequate policies and
opinion to the Office of Management and Budget (OMB)
                                                               procedures as well as lack of adequate attention to
in FY 1998. This commitment was met in March 1998.
                                                               contractor personal property management systems. To
DOE was actually one of only two Federal agencies to
                                                               remedy this situation, Departmental policies were
receive an "A" grade from OMB for its financial
                                                               strengthened to provide increased emphasis on
statements.
                                                               property management by contractors, include extensive
In addition to our success in our financial statements in      coverage of high risk property and address critical
FY 1998, we also completed the correction of two prior         problems identified by audits and investigations. A
departmental challenges.                                       final rule formally revising the Department’s policies
                                                               was issued in FY 1998, completing the correction of
Infrastructure
                                                 Prior         this problem.
The Department lacked processes to            Departmental
                                               Challenge
                                                               In FY 1998, we reduced the Headquarters buildings
ensure its infrastructure was
                                                               inventory from eight to six locations and saved $3.83
adequately maintained. As a result, due
                                                               million in rent. Savings from reengineered information
to decades of deferred maintenance and upgrades,
                                                               management business processes were $69 million.
much of the Department’s infrastructure was in poor
                                                               Technical and support services contracts were reduced to
condition. This infrastructure consists of buildings,
                                                               $200 million, well below the goal of $610 million.
roads, utilities, and other facilities that are vital to the
                                                               Concerning asset sales, the sale of the Naval Petroleum
operations of the Department. Unsafe conditions, lost-
                                                               Reserve alone yielded over $3 billion and exceeded the
time delays, and more frequent and costly maintenance
                                                               original goal. The Deputy Secretary, refocused and
resulted from deferring maintenance at our aging
                                                               modified the original goals for this effort and has closed
facilities.
                                                               this out as of the end of FY 1998. Also in FY 1998, on-
To improve the condition of its infrastructure, the            board staffing, excluding the Power Marketing
Department implemented a long-range strategy that              Administrations and Federal Energy Regulatory



32
                                                                                            Corporate Management




Commission, was reduced to 10,355, 519 below the end-     implemented to address the recommendations of the
of-year goal of 10,874.                                   Defense Nuclear Facilities Safety Board, and our
                                                          newly-begun efforts to strengthen the Department’s
Workforce Planning                        Departmental    research and development management workforce.
Workforce planning remains a               Challenge
                                                          The Department has performed organizational and
significant challenge at the Department.
                                                          managerial assessments using the Malcolm Baldrige
In recent years, DOE lost a large number of staff
                                                          criteria for Performance Excellence. These criteria are
through reductions-in-force, buyouts, and attrition
                                                          used to recognize the finest organizations in the private
during a hiring moratorium to meet lowered budget
                                                          sector, those organizations achieving the highest levels of
levels. Collectively, these have created a need to
                                                          customer satisfaction and greatest value for their
redeploy staff, realign functions, retrain employees,
                                                          stakeholders. The Department of Energy has developed
and take other actions to maintain a viable, highly
                                                          the Energy Performance Excellence Award, based upon
skilled workforce in critical program areas. While we
                                                          the Baldrige model. Participant organizations within the
are hopeful that we can operate within available
                                                          Department have shown significant improvement over
resource limitations, the Department’s long period of
                                                          the four years the Award program has been in existence.
downsizing has created skill gaps, an aging workforce,
                                                          The Department will continue to strive for improved
and other workforce management challenges. In
                                                          performance by applying the principles of good
response, the Department has begun a Workforce for
                                                          leadership and good management practices.
the 21st Century Initiative that establishes a DOE-wide
workforce planning process which will become the          There are several Departmental challenges related to this
basis for addressing critical staffing and employee       objective. Our progress in FY 1998 indicates that we
development needs as well as utilizing other human        have only been partially successful in meeting this
resource management tools and authorities. This           objective, raising the issue that the reengineering of our
process coupled with existing management systems to       business and management systems must be addressed
support staffing decisions will help DOE rebuild a        more effectively in the future if we are to achieve the
talented and diverse workforce that is aligned with our   Department's strategic vision.
critical mission needs. This process complements the
Department’s ongoing initiative in technical training,




                                                                                                                  33
Department of Energy FY 1998 Accountability Report




Status of Year 2000 Actions                                 making adequate progress.” In addition, the Inspector
                                                            General has issued several advisory memoranda
The Year 2000 (Y2K) issue is of critical importance         expressing concerns in areas such as the need for: formal
Government-wide. At the Department of Energy, we            procedures to ensure identification of all data exchanges
have established critical milestones reflecting             and embedded systems that may have Y2K
Government-wide requirements that encompass the 420         consequences; formal procedures to ensure adequate
mission-critical systems being tracked. As of January 31,   management control and evaluation of system test plans;
1999, the Department has completed Year 2000                improved techniques to ensure accuracy and
compliance implementation for 85 percent of these           completeness of the Department’s inventory of mission
systems and we project that a 98 percent compliance rate    critical systems; a better methodology for prioritization
will be achieved by March 31, 1999. All but eight           of high-risk Y2K efforts and enhanced contingency plans
systems are scheduled to complete Y2K compliance prior      which will recognize that even systems converted to avert
to the Government-wide milestone of March 31, 1999.         Y2K problems may ultimately fail in spite of
All of these systems are scheduled to be compliant by       improvements. The Department is taking action to
October 1999. The worst case scenario involves four of      address these criticisms.
the seven systems that are behind schedule. These
systems are used in our waste processing activities. If     In December 1998, the Secretary established Year 2000
they are shut down due to Y2K problems, waste               Stretch Goals for the Department to achieve Year 2000
processing would be halted at one of our major waste        implementation. In addition to his stretch goal initiative,
processing sites. This shutdown would cost the taxpayers    the Secretary issued guidance requiring that continuity
an estimated $1 million for each day of the shutdown.       business plans be developed for each DOE mission area
However, the public is not at risk should any of these      and contingency plans for individual mission-critical
systems fail because of Y2K related issues. As              systems. Direction and guidance for external independent
                                                            verification and validation have been placed on the
summarized in Chart A, historical costs to address Year
                                                            Department’s Year 2000 website. The Department’s
2000 within the Department have amounted to $106.7
                                                            Y2K Council, composed of senior DOE managers,
million and future costs are estimated to be $99.9
                                                            continues to closely monitor this issue, as does the
million.
                                                            Departmental Internal Control and Audit Review
        YEAR 2000 Remediation Costs                         Council, which includes selected senior managers,
                                                            including the Inspector General. Although the
          and Future Estimates
                                                            Department has experienced rapid turnover in top
               (Dollars in Millions)                        management within our information management
     1996 1997 1998 1999 2000 Total                         organization, current management has placed a great deal
                                                            of emphasis on meeting the Y2K goals. The Department
  $1.0 $20.0 $85.7 $80.0 $19.9 $206.6                       requested and received additional funding which will be
                       Chart A                              used to provide support in completing independent
                                                            verification and validation and contingency/ continuity
Previous to our recent achievements, we received            planning activities. We continue to exceed the baseline
Congressional criticism for not progressing rapidly         plan for remediation of mission-critical systems
enough to solve the Y2K problem, and OMB stated that        established a year ago, and we expect successful
Energy, as well as some other Federal agencies, “are not    completion.




34
                                                                                                        Corporate Management




Management’s Response to Inspector                                    requires that we report on the status of our progress in
                                                                      implementing these corrective actions semiannually. A
General Audit Reports                                                 report was issued in May 1998 for the semiannual period
The Department responds to audit reports by evaluating                ended March 31, 1998. This section provides similar
the recommendations they contain, formally responding                 information for the second half of FY1998.
to the Inspector General (IG), and implementing agreed                During the semiannual period ended September 30,
upon corrective actions. In some instances, we are able to            1998, the Department took final action on 31 IG
take corrective actions immediately and in others, action             operational, financial, and preaward audit reports. At the
plans with long-term milestones are developed and                     end of the period, 72 reports awaited final action. Some
implemented. This audit resolution and follow-up                      of these reports contain recommendations to make
process is an integral part of the Department’s efforts to            changes to our operations in order to save funds that
deliver its priorities more effectively and at the least cost.        could be reapplied elsewhere in the future. The table
Actions taken by management on audit recommendations                  below provides more detail on the audit reports with
increase both the efficiency and effectiveness of our                 open actions and the dollar value of recommendations
operations and strengthen our standards of                            that funds “be put to better use” that were agreed to by
accountability. The Inspector General Act, as amended,                management.




                                  STATUS OF FINAL ACTION ON IG AUDIT REPORTS
                                       (For the Period April 1 - September 30, 1998)

                  Audit                                  Number of                    Agreed Upon Funds
                  Reports                                 Reports                      Put To Better Use

                  Pending final action                           80                       $ 359,882,695
                  at the beginning of the period
                  With actions agreed upon                       23                           7,161,683
                  during the period
                  Total pending final action                 103                            367,044,378
                  Achieving final action                      31                            237,439,084
                  during the period
                  Requiring final action                         72                         129,605,294
                  at the end of the period




                                                                                                                              35
Department of Energy FY 1998 Accountability Report




Summary of Departmental Challenges                                        money. As required by the FMFIA, the Department has
                                                                          evaluated its management controls to provide reasonable
and Emerging Issues                                                       assurance that they were working effectively, that
Departmental challenges and issues, emerging as                           program and administrative functions were performed in
potential problems, are identified in this report in                      an economical and efficient manner consistent with
accordance with the Federal Managers’ Financial                           applicable laws, and that assets were safeguarded against
Integrity Act (FMFIA). The objective of the FMFIA is to                   the potential for waste, fraud, abuse, or mismanagement.
identify areas of vulnerability in the operations of the                  The results of the evaluations indicate our system of
Government and, as a consequence, ensure that                             management controls provides reasonable assurance that
appropriate attention is given to ameliorating problems                   those objectives were achieved except for the problems
that may affect the wise expenditure of the taxpayers’                    identified as Departmental challenges in this report.




 Current                                                        Scheduled
 Departmental Challenges                                        Correction                        Statistical Status of
                                                                                               Departmental Challenges
 Surplus Fissile Materials                                           2000
                                                                                          Beginning of FY 1998          10
 Environmental Compliance                                            2006
                                                                                          New                           2*
 Waste Isolation Pilot Plant                                         1999
                                                                                          Closed                        2
 Yucca Mountain                                                      2002
                                                                                          End of FY 1998                10
 Safety and Health                                                   2005
 Contract Management                                                 1999
 Project Management                                                  2000
 Inadequate Audit Coverage                                           TBD
 Unclassified Computer Security                                      1999                      FY 1998 Emerging Issues
 Financial Management System Improvements                            2002                 Declining Oil Import Protection
                                                                                          Counterintelligence
 Prior Departmental Challenges Resolved in FY 1998                                        Workforce Planning
 Infrastructure
 Property Controls


     * In 1998, one previous Departmental challenge, “Nuclear Waste Storage and
       Disposal,” was split into two: Waste Isolation Pilot Plant and Yucca Mountain.




36
Message from the Chief Financial Officer
I am pleased to present the Department of Energy’s consolidated financial statements
and disclose our financial condition and results of operations for FY 1998 within the
Department of Energy’s first Accountability Report. As we strive to streamline and
improve Government financial management in a new era of accountability, the Office of
the Chief Financial Officer has prepared the following comprehensive Departmental
statements for FY 1998. These are in accordance with standards developed by the
Federal Accounting Standards Advisory Board, the requirements of the Office of
Management and Budget, the Chief Financial Officers Act of 1990, and the
Government Management Reform Act of 1994.
In addition, the Department has conducted an evaluation of its financial management
system using guidance issued by the Office of Management and Budget. This
evaluation indicates that the Department's financial management system is in general           Michael L. Telson
conformance with governmental financial system requirements except for one area.
That area is identified as a Departmental challenge under the Federal Managers’ Financial Integrity Act and described
within Corporate Management.
The Department of Energy is committed to professional excellence, accountability, and responsibility in the
administration of our programs and financial operations. Our financial management initiatives stress the need for
improvements if we are to be able to meet increasing requirements and expectations during a period of stable or
declining resources. In response to this need, an Executive Information System has been implemented to support
Departmental managers by providing financial information useful for making informed management decisions. Other
initiatives include: producing performance based budgets in accordance with the Government Performance and Results
Act; consolidating accounting centers; the monitoring of uncosted balances, construction project balances, and
functional support costs; and modernizing our financial systems. Another challenge that continues to significantly
impact our financial statements is the effect on unfunded liabilities of the Department moving toward an accelerated
cleanup approach for the Environmental Management program.
The Department, and the Federal government as a whole, continue to implement financial management changes
requiring us to become more efficient, effective, and accountable. These changes require our increasing diligence,
dedication, and the productive use of all our resources to ensure that the Department effectively supports our program
goals, while also maintaining our financial responsibilities to the American taxpayer, the Congress, and the President.
Our current financial initiatives are critical to the achievement of our Departmental missions and goals in an effective
and efficient manner. We appreciate the support of the President and the Congress in these efforts.




                                                                     Michael L. Telson




                                                                                                                       37
                                    Financial Overview
The financial overview section is intended to provide a     Statement of Budgetary Resources, a Statement of
concise description of the Department of Energy’s           Financing, and a Statement of Custodial Activity.
financial position and the results of financial             Overall, these statements summarize the financial
performance measures.                                       activity and financial position of the Department. The
                                                            following table highly summarizes these statements and
Balance Sheet                                               provides a quick overview of significant balances:

The Department prepares consolidated financial
statements that include a Balance Sheet, a Statement of
Net Cost, a Statement of Changes in Net Position, a


                                                                                        (Dollars in Billions)
ASSETS                                                                                 September 30, 1998
Fund Balances with Treasury                                                                       $ 11.2
      Primarily appropriated funds to pay current liabilities and finance
      authorized purchase commitments.
Investments                                                                                         10.5
      Primarily monies managed for the Nuclear Waste Fund and the Uranium
      Enrichment Decontamination and Decommissioning Fund. Fees paid by owners
      and generators of spent nuclear fuel and high-level radioactive waste, and fees
      collected from domestic utilities are deposited in the respective funds to pay
      current program costs, with any excess funds invested in Treasury securities.
Accounts Receivable                                                                                  5.1
      Intragovernmental - Primarily for reimbursable work performed for other
      Federal agencies.
      Governmental - Primarily for Nuclear Waste Fund and Uranium Enrichment
      Decontamination and Decommissioning Fund fees.
Inventory Materials                                                                                 37.3
      Crude oil at the Strategic Petroleum Reserve, Nuclear Materials and Other Inventory
General Property, Plant and Equipment                                                               19.8
      Includes over 126 million square feet of buildings located on over 2.6
      million acres of land.
Regulatory Assets                                                                                   13.2
      Associated with the Department’s power generation and management responsibilities.
      These assets represent the Bonneville Power Administration’s (BPA) right to future
      revenues generated from non-Federal power generator projects in return for BPA’s
      payment of debt issued to complete these projects.
 Other Assets                                                                                         .8
      TOTAL ASSETS                                                                                $ 97.9




                                                                                                                 39
Department of Energy FY 1998 Accountability Report




                                                                                            (Dollars in Billions)
LIABILITIES                                                                                September 30, 1998
Environmental Liabilities                                                                            $ 186.4
      Represents the Department’s obligation to correct the environmental damage incurred
      throughout the DOE complex while researching, producing, and testing nuclear weapons.
Debt and Appropriated Capital Owed To Treasury                                                          17.9
      Represent amounts which the Department has obligations to pay for borrowing
      from Treasury, refinanced appropriations, and non-federal projects.
Accounts Payable                                                                                         3.4
      Intragovernmental - Includes liability for allocation transfers, accrued expenses and interest
      Governmental - Includes contract holdbacks and accrued expenses.
Pensions and Other Actuarial Liabilities                                                                 6.5
      Represent amounts which the Department has obligations to pay for specified
      benefits to contractor employees having approved defined benefit pension plans
      and postretirement benefits other than pensions.
Other Liabilities, Including Other Unfunded Liabilities                                                 16.0
      Primarily, represents the amount of Nuclear Waste Fund revenues that exceed the
      Nuclear Waste Fund expenses and DOE’s unfunded environment, safety and
      health liability. Nuclear Waste Fund revenues are accrued based on fees assessed
      against owners and generators of high-level radioactive waste and spent nuclear
      fuel and are recognized as costs are incurred for Nuclear Waste Fund activities.
      The environment, safety and health liability represents those activities necessary
      to bring facilities and operations into compliance with existing laws and
      regulations.
      TOTAL LIABILITIES                                                                              $ 230.2
BEGINNING NET POSITION                                                                           ($ 125.0)
Net Costs of Programs                                                                                ( 20.9)
       Energy Resources (Includes $2.8 net gain on sale of NPR-1)                  ($ 1.1)
       National Security                                                              5.7
       Environmental Quality                                                            .3
       Science & Technology                                                           2.6
       Corporate Management & Other Programs                                            .1
             Total Business Line Costs                                                7.6
       Costs Not Assigned to Programs
       (Includes $10.1 environmental liability adjustment)                           13.3
 Financing Sources                                                                                     13.3
       Represents appropriations used, taxes, imputed financing, and transfers.
 Other Adjustments/Changes to Results of Operations                                                      .3
       Represents prior period adjustments, change in Nuclear Waste Fund
       deferred revenues, and decreases in unexpended appropriations.
       ENDING NET POSITION                                                                       ($ 132.3)
       TOTAL LIABILITIES AND NET POSITION                                                          $ 97.9
More detailed explanations of these and other balances on the consolidated financial statements are included in the Notes
to the Financial Statements.




40
                                                                                                                                                  Financial Overview




Financial Performance Measures                                                        payments made by EFT as of September 30, 1998, is 76
                                                                                      percent, which falls short of the established performance
Payment Performance                                                                   goal of 95 percent, but compares very favorably to the
                                                                                      Government-wide average of only 42 percent. As a result
Prompt Payment. The Department is committed to
                                                                                      of this EFT performance being so far ahead of most
meeting Federal government goals established by the
                                                                                      Federal agencies, the Department has been held out as a
Office of Management and Budget and enacted
                                                                                      model by the Department of the Treasury.
legislation related to payments made by Federal agencies.
Chart 1 displays the Federal government’s prompt
payment goal and the Department’s performance for FY
1994-FY 1998. The Department’s FY 1998 on-time                                                          Chart 2. Electronic Funds Transfer (EFT)
payment performance percentage rate was 94 percent,                                                          Percentage of commercial payments made via EFT
indicating a small decrease from the FY 1997                                                      100
                                                                                                             Departmental Goal                         95
performance. This decrease resulted primarily from                                                90
                                                                                                             Actual Payments Made
temporary staffing problems and process interruptions at                                          80                                                          76
one of the Power Marketing Administrations and from                                               70




                                                                                        Percent
                                                                                                  60                               60
final process changes associated with payment
                                                                                                  50             45                      45
consolidation efforts. The Department is committed to                                             40                                                                   *
meeting Federal government goals established by the                                               30
Office of Management and Budget and enacted                                                       20
legislation related to payments made by Federal agencies                                          10
                                                                                                   0
and will ensure that appropriate actions are taken to
                                                                                                         End of FY 1996          End of FY 1997      End of FY 1998
improve future payment performance.
                                                                                                                                                       * FY 1998
                                                                                                                                                     Governmentwide
                                                                                                                                                      Performance
                     Chart 1. Prompt Payment Percentage
                            Percentage of commercial payments made on time
           100                                                                        Reducing Functional Support Costs
                                                                                      Over the past several years the Department has made
                                                 95           95
               95      94                                                     94      significant progress in controlling functional support
           *                         93
                                                                                      costs across the complex. Functional support activities
 Percent




               90                                                                     are required to be performed, but are not directly tied to
                                                                                      mission activities and do not include the costs of capital
               85                                                                     equipment and construction. Examples of functional
                                                                                      support activities include: maintenance, procurement,
               80
                                                                                      information/outreach services, safeguards and security,
                    FY 1994       FY 1995      FY 1996      FY 1997       FY 1998     financial services, and safety and health. The Department
           * OMB Goal for Federal Government                 FY 1997 & 1998 data      has implemented a reporting system to compile, analyze
                                                             include BPA statistics
                                                                                      and monitor functional support costs provided by the
                                                                                      Department’s major contractors at 23 Departmental
                                                                                      sites. This reporting system accumulates data on
Electronic Funds Transfer. The Debt Collection
                                                                                      functional support costs for FY 1995 through FY 1998.
Improvement Act of 1996 requires the use of Electronic
                                                                                      System enhancements implemented during FY 1998
Funds Transfer (EFT) for all Federal payments made
                                                                                      have automated data input and improved the reporting
after January 1, 1999, with limited exceptions. The
                                                                                      format. Charts 3 and 4 display the downward trend as
results portrayed in Chart 2 demonstrate the
                                                                                      the Department focuses to control and monitor these
Department’s continued efforts to implement the
                                                                                      costs.
Government-wide mandate to fully utilize EFT for
payments. The Department’s percentage of commercial




                                                                                                                                                                      41
             Department of Energy FY 1998 Accountability Report




                                 Chart 3. Managing Functional Support Costs                                             uncosted obligation balances, control and reduce these
                                                     (23 Departmental Sites)                                            balances, and more actively consider these resources
                        $7.00
                                                                                                                        when determining budget estimates. Most notably, in FY
                        $6.50                                                                                           1996, the Department developed and has continued to
                                        6.00
Dollars (in Billions)




                        $6.00                                                                                           refine a comprehensive methodology for analyzing
                                                            5.57
                        $5.50                                                   5.35                5.35                uncosted balances. This methodology established dollar
                        $5.00                                                                                           level thresholds which are consistent with sound financial
                        $4.50                                                                                           management for specific types of financial/contractual
                        $4.00                                                                                           arrangements allowing the Department to evaluate its
                        $3.50                                                                                           overall performance based on the variance between the
                        $3.00                                                                                           calculated thresholds and actual balances. Additionally,
                        $2.50                                                                                           the Department has charted progress in reducing
                                      FY 1995             FY 1996             FY 1997             FY 1998               unobligated appropriations balances to ensure that
                        Costs have been estimated based on subsequent years actual costs for FY 1995 at the ANL site.
                                                                                                                        excess uncosted balances are being eliminated rather
                                    Chart 4. Functional Support Costs as a                                              than recategorized. The results of these internal
                                           Percentage of Total Costs                                                    evaluations indicate that the Department is operating at
                         60                                                                                             or near optimum uncosted levels. (NOTE: Charts 5 and 6
                                                    Goal: Maintain or Reduce                                            exclude data for the Bonneville Power Administration,
                                                                                                                        which is treated as a Government Corporation.)
                         50
       Percent




                                        44                                                                                                                    Chart 5. Uncosted Obligations by Fiscal Year
                                                             43                  43                   43
                                                                                                                                                                 (Excludes Bonneville Power Administration)
                         40                                                                                                                           10
                                                                                                                                                      9                                     Appropriated              Reimbursable
                                                                                                                                                                8.3
                                                                                                                                                      8
                                                                                                                                                                              7.3
                                                                                                                         Dollars (in Billions)




                                                                                                                                                      7                                                      42% Reduction in
                         30
                                                                                                                                                      6                                                      Appropriated Uncosted
                                    FY 1995              FY 1996              FY 1997             FY 1998                                                                                    5.2
                                                                                                                                                      5                                                       4.8             4.8
                                                                                                                                                      4
                                                                                                                                                      3
      Balances of Uncosted Obligations and Unobligated
                                                                                                                                                      2                1.7           1.6            1.4              1.4             1.4
      Appropriations
                                                                                                                                                      1
      The Department’s total uncosted obligation balance is                                                                                           0
      the lowest it has been in over 15 years. Over the past                                                                                                   FY 1994        FY 1995        FY 1996          FY 1997         FY 1998
      several years, the Department has made significant
      progress in analyzing and reducing the level of uncosted
      balances. Significant balances of uncosted obligations                                                                                          Chart 6. Unobligated Appropriations by Fiscal Year
      occur when a Federal agency contracts out much of its                                                                                                      (Excludes Bonneville Power Administration)
                                                                                                                                                          4
      appropriated funds, as does the Department. These
                                                                                                                                                                 3.5                         Appropriated              Reimbursable
      uncosted balances represent the portion of contract                                                                                             3.5
      obligations related to goods and services which have not                                                                                            3
                                                                                                                              Dollars (in Billions)




      yet been received. While balances of uncosted                                                                                                   2.5                                                  66% Reduction in
      obligations are natural and acceptable, it is incumbent                                                                                                                  2.0                         Appropriated Unobligated
                                                                                                                                                          2
      upon Federal agencies to evaluate these balances to                                                                                                                                     1.6              1.5
                                                                                                                                                      1.5
      ensure that the levels maintained are appropriate and                                                                                                                                                                    1.2
      consistent with good financial management.                                                                                                          1
                                                                                                                                                                                                                      0.7
                                                                                                                                                                        0.5           0.5            0.5                              0.6
                                                                                                                                                      0.5
      As reflected in Charts 5 and 6, the Department has
      taken aggressive actions to understand what drives                                                                                                  0
                                                                                                                                                                FY 1994        FY 1995        FY 1996          FY 1997        FY 1998




      42
                                                                                                                            Financial Overview




Effective Audit Resolution                                                            Chart 7. IG Audit Reports With Agreed-Upon Actions
                                                                                                      Open Over One Year
The Department receives an average of 100 Inspector                                                     (By Fiscal Year)
General and 80 General Accounting Office reports each                                 50
                                                                                      45
year. The CFO is responsible for liaison with both of                                         41          42
                                                                                      40
these audit organizations, for facilitating the preparation




                                                              Number of Reports
                                                                                                                           35        34
                                                                                      35
of management responses to their reports and resolving                                30
audit issues, and for tracking corrective actions through                             25
completion. A senior management oversight council, the                                20
Departmental Internal Control and Audit Review                                        15
                                                                                      10
Council, has the authority to challenge any office not
                                                                                       5
aggressively pursuing completion of audit related
                                                                                       0
corrective actions.                                                                         FY 1995     FY 1996       FY 1997      FY 1998

As illustrated in Charts 7 and 8, the Department has a
number of corrective actions that are incomplete after                            Chart 8. GAO Audit Reports With Agreed-Upon Actions
one year or more. Our goal is to complete these actions                                          Open Over One Year
                                                                                                        (By Fiscal Year)
as rapidly as possible. However, the amount of time it                                35
                                                                                              31
takes to properly correct a problem identified in an audit                            30
report varies according to the nature of the problem. For         Number of Reports   25                  24
example, some corrective actions could require the
                                                                                      20                                   19
completion of a construction project or the performance
of an audit by an outside organization. Others could be                               15

delayed by litigation or funding shortfalls. Nevertheless,                            10                                              9

we have decreased the number of reports open over one                                  5
year from 72 at the end of FY 1995 to 43 at the end of
                                                                                       0
FY 1998, a reduction of 40 percent.                                                         FY 1995     FY 1996       FY 1997      FY 1998




                                                                                                                                             43
Appendices
                                                                                     Principal Financial Statements




                     Principal Financial Statements
DOE’s financial statements have been prepared to report the financial position and results of operations of the
Department of Energy, pursuant to the requirements of the Chief Financial Officers Act of 1990 and the Govern-
ment Management Reform Act of 1994.

While the statements have been prepared from the books and records of DOE in accordance with the formats
prescribed by the Office of Management and Budget, the statements are different from the financial reports used to
monitor and control budgetary resources which are prepared from the same books and records.

The statements should be read with the understanding that they are for a component of a sovereign entity, that
liabilities not covered by budgetary resources cannot be liquidated without the enactment of an appropriation, and
that payment of all liabilities other than for contracts can be abrogated by the sovereign entity.




                                                                                                                  45
Department of Energy FY 1998 Accountability Report



          Consolidated Balance Sheet
          As of September 30, 1998 and 1997
                                                                                          (in millions)
                                                                                1998           1997
          ASSETS
          Intragovernmental
             Fund balance with Treasury (Note 2)                               $11,169       $10,546
             Investments (Note 3)                                               10,200         8,147
             Accounts Receivable, Net (Note 4)                                     482           556
             Regulatory Assets (Note 5                                           5,228         5,228
             Other Assets                                                            5             7
          Investments (Note 3)                                                     263           245
          Accounts Receivable, Net (Note 4)                                      4,583         4,649
          Inventory, Net (Note 6)
             Strategic Petroleum Reserve                                        15,087         15,087
             Nuclear Materials                                                  21,728         22,531
             Other Inventory                                                       504            521
          General Property, Plant, and Equipment, Net (Note 7)                  19,840         20,756
          Regulatory Assets (Note 5)                                             8,031          7,936
          Other Assets                                                             827            592

          Total Assets                                                         $97,947       $96,801

          LIABILITIES
          Liabilities Covered by Budgetary Resources
             Intragovernmental Liabilities
               Accounts Payable (Note 8)                                          $119          $140
               Debt (Note 9)                                                     8,906         9,083
               Appropriated Capital Owed to Treasury (Note 10)                   1,986         2,309
               Deferred Revenues (Note 11)                                         217           244
               Other Liabilities (Note 12)                                         260           250
          Accounts Payable (Note 8)                                              3,276         3,584
          Debt (Note 9)                                                          7,056         7,166
          Deferred Revenues (Note 11)                                           11,065         9,351
          Other Liabilities (Note 12)                                            2,030         1,423
          Funded Environmental Liabilities (Note 13)                               918         1,148
                    Total Liabilities Covered By Budgetary Resources           $35,833       $34,698
          Liabilities Not Covered By Budgetary Resources
             Environmental Liabilities (Note 13)                               185,495       179,466
             Pension and Other Actuarial Liabilities (Note 14)                   6,508         6,282
             Other Unfunded Liabilities (Note 15)                                1,934         1,332
             Contingencies (Note 16)                                               506            11
                 Total Liabilities Not Covered By Budgetary Resources         $194,443      $187,091
                    Total Liabilities                                         $230,276      $221,789

          NET POSITION
          Unexpended Appropriations (Note 17)                                     4,939        5,368
          Cumulative Results of Operations                                    (137,268)    (130,356)
            Total Net Position                                               ($132,329)   ($124,988)
               Total Liabilities and Net Position                               $97,947      $96,801


          The accompanying notes are an integral part of these statements.



46
                                                                     Principal Financial Statements



Consolidated Statements of Net Cost
For the Years Ended September 30, 1998 and 1997
                                                                              (in millions)
                                                                    1998           1997

Costs
  Energy Resources (Note 18)
      Program Costs                                                  $4,848        $4,834
      Net Gain on Sale of Naval Petroleum Reserves                 ($2,848)
      Earned Revenues                                               (3,127)       (3,727)
        Net Cost of Energy Resources Programs                      ($1,127)       $1,107
  National Security (Note 19)
      Program Costs                                                 $5,726         $5,876
      Earned Revenues                                                   (3)           (41)
        Net Cost of National Security Programs                      $5,723         $5,835
  Environmental Quality (Note 20)
      Program Costs                                                  $637          $1,246
      Earned Revenues                                                (296)          (248)
        Net Cost of Environmental Quality Programs                   $341           $998
  Science & Technology (Note 21)
      Program Costs                                                 $2,583         $2,562
      Earned Revenues                                                  (13)           (11)
        Net Cost of Science & Technology Programs                   $2,570         $2,551
  Other Programs (Note 22)
      Program Costs                                                 $2,255        $2,422
      Earned Revenues                                               (2,171)      (2,251)
        Net Cost of Other Programs                                      $84        $171
Costs Not Assigned to Programs (Note 23)                            13,379      (45,888)
Less Earned Revenues Not Attributable to Programs                      (14)          (23)
        Net Cost of Operations                                     $20,956     ($35,249)




The accompanying notes are an integral part of these statements.



                                                                                                 47
Department of Energy FY 1998 Accountability Report



          Consolidated Statements of Changes in Net Position
          For the Years Ended September 30, 1998 and 1997
                                                                                             (in millions)
                                                                                  1998            1997

          Net Cost of Operations                                                 ($20,956)      $35,249
          Financing Sources (Other Than Exchange Revenues)
             Appropriations Used                                                    16,861     17,550
             Taxes (and Other Non-Exchange Revenues)                                     2        (11)
             Imputed Financing                                                          79          97
             Transfers-in                                                                0       (100)
             Transfers-out                                                         (3,612)       (928)
          Net Results of Operations                                               ($7,626)    $51,857
          Prior Period Adjustments (Note 24)                                            37     (6,076)
          Net Change in Cumulative Results of Operations                          ($7,589)    $45,781
          Change in Nuclear Waste Fund Deferred Revenues                               945         211
          Increase (Decrease) in Unexpended Appropriations                           (697)       (533)
          Change in Net Position                                                  ($7,341)    $45,459
          Net Position - Beginning of Period                                     (124,988)  (170,447)
          Net Position - End of Period                                          ($132,329) ($124,988)



          Consolidated Statements of Budgetary Resources
          For the Years Ended September 30, 1998 and 1997
                                                                                             (in millions)
                                                                                  1998           1997

          BUDGETARY RESOURCES
          Budgetary Authority                                                     $17,103       $16,990
          Unobligated Balances - Beginning of Period                                2,464         2,651
          Spending Authority from Offsetting Collections                            4,696         4,640
          Adjustments                                                               (167)           (32)
            Total Budgetary Resources                                             $24,096       $24,249

          STATUS OF BUDGETARY RESOURCES
          Obligations Incurred                                                     21,921        21,429
          Unobligated Balances Available                                            2,690         3,358
          Unobligated Balances - Not Available                                      (515)         (538)
            Total, Status of Budgetary Resources                                  $24,096       $24,249

          OUTLAYS
          Obligations Incurred                                                     21,921        21,429
          Less Spending Authority from Offsetting Collections and Adjustments      (4,725)       (4,671)
          Obligated Balance, Net - Beginning of Period                               7,903         8,487
          Obligated balance Transferred, Net                                             2             2
          Less Obligated balance, Net - End of Period                              (8,072)       (7,903)
            Total Outlays                                                         $17,029       $17,344




          The accompanying notes are an integral part of these statements.



48
                                                                           Principal Financial Statements



Consolidated Statements of Financing
For the Years Ended September 30, 1998 and 1997
                                                                                    (in millions)
                                                                        1998            1997

OBLIGATIONS AND NONBUDGETARY RESOURCES
  Obligations Incurred
     Category A, Direct                                                 $19,897        $19,391
     Reimbursable                                                         2,024          2,038
  Less Spending Authority from Offsetting Collections and Adjustments
     Earned Reimbursements
       Collected                                                         (4,982)        (4,875)
       Receivable from Federal Sources                                         54              8
     Change in Unfilled Orders (Decreases) Increases                        (65)            163
     Recoveries of Prior-Year Obligations                                    (28)           (34)
  Financing Imputed for Cost Subsidies                                         78             82
  Transfers Out (Note 25)                                                (3,612)        (1,028)
  Exchange Revenues Not In the Budget                                      1,549          1,260
  Other                                                                    (212)          (248)
     Total Obligations as Adjusted, and Nonbudgetary Resources          $14,703        $16,757

RESOURCES THAT DO NOT FUND NET COST OF OPERATIONS
  Change in Amount of Goods, Services, and Benefits Ordered but
  Not Yet Received or Provided                                              102             374
  Costs Capitalized on the Balance Sheet
     General Property, Plant, and Equipment                              (1,274)        (1,595)
     Purchases of Inventory                                                (463)          (523)
  Financing Sources That Fund Costs of Prior Periods                     (6,301)        (6,037)
  Other                                                                  (1,410)        (1,565)
     Total Resources that Do Not Fund Net Cost of Operations            ($9,346)       ($9,346)

COSTS THAT DO NOT REQUIRE RESOURCES
  Depreciation and Amortization                                           1,875           1,902
  Revaluation of Assets and Liabilities                                   (161)             626
  Loss on Disposition of Assets                                             484              23
  Other                                                                     630           2,876
     Total Costs That Do Not Require Resources                           $2,828          $5,427

FINANCING SOURCES YET TO BE PROVIDED (Note 26)                           12,771        (48,087)

NET COST OF OPERATIONS                                                  $20,956      ($35,249)




The accompanying notes are an integral part of these statements.



                                                                                                       49
Department of Energy FY 1998 Accountability Report



          Consolidated Statements of Custodial Activities
          For the Years Ended September 30, 1998 and 1997
                                                                                       (in millions)
                                                                             1998          1997

          SOURCES OF COLLECTIONS (Note 27)
            Cash Collections
               Power marketing administrations                                 $428           $438
               Petroleum Pricing Violation Escrow Fund                           74             80
               Other                                                              3              3
            Net Collections                                                    $505           $521
            Accrual Adjustment
               Power marketing administrations                                    12              4
               Petroleum Pricing Violation Escrow Fund                          (50)           (53)
            Total Revenue                                                      $467           $472

          DISPOSITION OF REVENUE
            Transferred to Others
               Treasury                                                        (440)          (537)
               Other                                                            (57)           (51)
            Increase (Decrease) in Amounts to be Transferred                      53            148
            Collections Used for Refunds and Other Payments                      (2)             (2)
            Retained by DOE                                                     (21)           (30)
            Net Custodial Activity                                                $0             $0




          The accompanying notes are an integral part of these statements.



50
Notes to the Financial Statements



Notes to the Financial Statements

1. Significant Accounting Policies

A. Basis of Presentation                                           These contractors have unique contractual relationships with
                                                                   DOE. In most cases, their charts of accounts and accounting
These consolidated financial statements have been prepared to      systems are integrated with DOE’s accounting system through a
report the financial position and results of operations of the     home office-branch office type of arrangement. Additionally,
U.S. Department of Energy (DOE). They have been prepared           DOE is ultimately responsible for funding certain defined
from the books and records of DOE in accordance with the           benefit pension plans, as well as postretirement benefits such as
form and content for agency financial statements, specified by     medical care and life insurance, for the employees of these
the Office of Management and Budget (OMB) in OMB Bulletin          contractors. As a result, these statements reflect not only the
No. 97-01. Generally accepted accounting principles for the        costs incurred by these contractors, but also include certain
Federal government consist of the following hierarchy:             assets (i.e., employee advances and prepaid pension costs) and
                                                                   liabilities (i.e., accounts payable, accrued expenses including
!   Individual standards agreed to by the Director of OMB, the     payroll and benefits, and pension and other actuarial liabilities)
    Comptroller General, and the Secretary of the Treasury and     that would not be reflected in the financial statements of other
    published by OMB and the General Accounting Office;            Federal agencies that do not have these unique contractual
                                                                   relationships.
!   Interpretations related to the Statements of Federal
    Financial Accounting Standards issued by OMB;                  C. Basis of Accounting
!   Requirements contained in OMB Bulletin No. 97-01,              Transactions are recorded on an accrual accounting basis and a
    Form and Content of Agency Financial Statements; and           budgetary basis. Under the accrual method, revenues are
                                                                   recognized when earned and expenses are recognized when
!   Accounting principles published by other authoritative         liabilities are incurred, without regard to receipt or payment of
    standard-setting bodies and other authoritative sources.       cash. Budgetary accounting facilitates compliance with legal
                                                                   constraints and controls over the use of Federal funds. All
B. Description of Reporting Entity                                 material intra-agency balances and transactions have been
                                                                   eliminated in consolidation.
DOE is a cabinet level agency of the Executive Branch of the
U.S. Government. DOE’s headquarters organizations are              D. Revenues and Other Financing Sources
located in Washington, D.C. and Germantown, MD and consist
of an executive management structure that includes: the            DOE receives the majority of the funding needed to perform its
Secretary, the Deputy Secretary, and the Under Secretary;          mission through Congressional appropriations. These
Secretarial staff organizations; and program organizations that    appropriations may be used, within statutory limits, for
provide technical direction and support for DOE’s principal        operating and capital expenditures. Revenues are recognized
programmatic missions. DOE also includes the Federal Energy        when earned (i.e., goods have been delivered or services
Regulatory Commission, which is an independent regulatory          rendered.)
organization responsible for setting rates and charges for the
transportation and sale of natural gas and for the transmission    E. Funds with Treasury and Cash
and sale of electricity and the licensing of hydroelectric power
projects.                                                          Funds with Treasury represent appropriated funds, trust funds,
                                                                   and revolving funds that are available to pay current liabilities
DOE has a complex field structure comprised of operations          and finance authorized purchase commitments. Cash balances
offices, field offices, power marketing administrations,           held outside Treasury primarily represent trust fund balances
laboratories, and other facilities. The majority of DOE’s          held in minority financial institutions. (See Note 2)
environmental cleanup, energy research and development, and
testing and production activities are carried out by major
contractors. These contractors operate, maintain, or support
DOE’s government-owned facilities on a day-to-day basis and
provide other special work under the direction of field
organizations.




                                                                                                                                  51
                                                                           Department of Energy FY 1998 Accountability Report


F. Investments                                                        J. Accrued Annual, Sick and Other Leave
Investments in Treasury securities for the Nuclear Waste Fund         Federal employees’ annual leave is accrued as it is earned, and
are classified as available for sale and are reported at fair value   the accrual is reduced annually for actual leave taken and
in accordance with Statement of Financial Accounting                  increased for leave earned. Each year, the accrued annual leave
Standards (SFAS) No. 115, Accounting for Certain                      balance is adjusted to reflect the latest pay rates. To the extent
Investments in Debt and Equity Securities. All other DOE              that current or prior year appropriations are not available to
investments are reported at cost net of amortized premiums or         fund annual leave earned but not taken, funding will be
discounts, as it is DOE’s intent to hold the investments to           obtained from future financing sources.
maturity. Premiums or discounts are amortized using the
effective interest method. (See Note 3)                               Sick leave and other types of nonvested leave are expensed as
                                                                      taken.
G. Accounts Receivable, Net of Allowance
                                                                      K. Retirement Plans
The amounts due for governmental (non-Federal) receivables
are stated net of an allowance for uncollectible accounts. The        Federal Employees
estimate of the allowance is based on past experience in the
collection of receivables and an analysis of the outstanding          There are two primary retirement systems for Federal
balances. (See Note 4)                                                employees. DOE employees hired prior to January 1, 1984
                                                                      may participate in the Civil Service Retirement System
H. Property, Plant, and Equipment                                     (CSRS)and contribute 7% of pay to which DOE makes
                                                                      contributions equal to 8.51 percent of pay. On January 1,
Property, plant, and equipment that are purchased, constructed,       1984, the Federal Employees Retirement System (FERS) went
or fabricated in-house, including major modifications or              into effect pursuant to Public Law 99-335. Most employees
improvements, are capitalized at cost. Costs of construction are      hired after December 31, 1983, are automatically covered by
capitalized as construction work in process. Upon completion          FERS and Social Security. Employees hired prior to January 1,
or beneficial occupancy, the cost is transferred to the               1984, elected to either join FERS and Social Security or remain
appropriate property account. Property, plant and equipment           in CSRS. A primary feature of FERS is that it offers a savings
related to environmental management facilities storing and            plan to which DOE automatically contributes 1 percent of pay
processing DOE’s environmental legacy wastes are not                  and matches any employee contribution up to an additional 4
capitalized. (See Notes 7 and 24)                                     percent of pay. For most employees hired since December 31,
                                                                      1983, DOE also contributes the employer's matching share for
Depreciation expense is generally computed using the straight         Social Security. DOE does not report CSRS or FERS assets,
line method throughout DOE. The units of production method            accumulated plan benefits, or unfunded liabilities, if any,
may be used only in special cases where applicable, such as           applicable to its employees. Reporting such amounts is the
depreciating automotive equipment on a mileage basis and              responsibility of the Office of Personnel Management and the
construction equipment on an hourly use basis. The ranges of          Federal Employees Retirement System. DOE does report, as
service lives are generally as follows:                               an imputed financing source and a program expense, the
                                                                      difference between its contributions to Federal employee
     Structures            25 - 40 years                              pension and other retirement benefits and the estimated
     ADP Software           5 - 20 years                              actuarial costs as computed by the Office of Personnel
     Equipment              5 - 45 years                              Management.

I. Liabilities                                                        Contractor Employees

Liabilities represent amounts of monies or other resources            Most DOE contractors have a defined benefit pension plan
likely to be paid by DOE as a result of a transaction or event        under which they promise to pay specified benefits, such as a
that has already occurred. However, no liability can be paid by       percentage of the final average pay for each year of service.
DOE absent an authorized appropriation. Liabilities for which         DOE costs under the contracts include reimbursement of
an appropriation has not been enacted are, therefore, classified      annual employer contributions to the pension plans. Each year
as unfunded liabilities, and there is no certainty that the           an amount is calculated for employers to contribute to the
appropriations will be enacted. Also, liabilities of DOE arising      pension plan to ensure the plan assets are sufficient to provide
from other than contracts can be abrogated by the Government,         for the full accrued benefits of contractor employees in the
acting in its sovereign capacity.                                     event that the plan is terminated. The level of contributions is




52
Notes to the Financial Statements


dependent on actuarial assumptions about the future, such as    represent the full cost of the Department’s programs in
the interest rate, employee turnover and deaths, age of         accordance with the Department’s implementation of OMB’s
retirement, and salary progression. (See Note 13)               Statement of Federal Financial Accounting Standards Number
                                                                4, Managerial Cost Accounting Concepts and Standards for
L. Comparative Data                                             the Federal Government. A detailed breakdown of the
                                                                expenses for each business line is presented in the Notes.
Certain FY 1997 amounts have been reclassified to conform to
the FY 1998 presentation.                                       N. Use of Estimates

M. Program Expenses                                             DOE has made certain estimates and assumptions relating to
                                                                the reporting of assets and liabilities and the disclosure of
Program expenses are summarized in the Consolidated             contingent assets and liabilities to prepare these consolidated
Statement of Net Costs by business line, which represents the   financial statements. Actual results could differ from these
four major elements of the Department’s mission. The program    estimates.
expenses reported in the Consolidated Statement of Net Costs




                                                                                                                                  53
                                                                                    Department of Energy FY 1998 Accountability Report



2. Fund Balance with Treasury                                                                                                                      (In millions)

                                                           ---------------------FY 1998---------------------        ---------------------FY 1997---------------------

                                                                Agency           Custodial         Total Fund        Agency            Custodial          Total Fund
                                                                 Funds             Funds             Balance          Funds              Funds              Balance
              Trust Funds
              Advances for Co-sponsored Projects                                           $8                  $8                             $10                $10

              Revolving Funds
              Bonneville Power Administration Fund                  $526                                   526            $399                                   399
              Colorado River Basins Power Marketing Fund                 38                                    38             39                                  39
              U. S. Enrichment Corporation                                              484                484
              Other                                                      37                  1                 38             34                   1              35
                      Total Revolving Funds                         $601               $485             $1,086            $472                   $1            $473

              Appropriated Funds
              Fossil Energy Research and Development                  318                                  318             310                                   310
              Energy Conservation                                     537                                  537             574                                   574
              Naval Petroleum & Oil Shale Reserves                       99                                    99          512                                   512
              Science                                               1,060                                1,060             425                                   425
              Energy Supply                                           782                                  782           1,863                                 1,863
              Clean Coal Technology                                   860                                  860           1,038                                 1,038
              W e a p o n s A c t iv ities                          1,807                                1,807           1,613                                1,613
              Defense Environmental Restoration & Waste
              Management                                            2,063                                2,063           2,145                                2,145
              Other Defense Programs                                  773                                  773             768                                   768
              Other                                                   946                    6             952             560                     7             567
                      Total Appropriated Funds                    $9,245                   $6           $9,251          $9,808                   $7          $9,815

              Special Funds
              Elk Hills School Land Funds                                               298                298
              Construction, Rehabilitation, Operation, &
              Maintenance, Western Area Power
              Administration                                          166                                  166             189                                   189
              Other                                                      17                                    17             30                                  30
                      Total Special Funds                           $183               $298               $481            $219                   $0            $219

              Deposit Funds
              Naval Petroleum Reserve Fund                                              323                323
              Other                                                       3                17                  20              8                 21               29
                      Total Deposit Funds                                $3            $340               $343                $8              $21                $29

                              Total Funds in Treasury            $10,032             $1,137           $11,169         $10,507                 $39           $10,546



FY 1997 fund balances have been restated to include transfer appropriations received from other agencies.




54
Notes to the Financial Statements



3. Investments                                                                                                           (in millions)

                                                                                 Unamortized
                                                                                   Premium            Investments
                                                                  Face            (Discount)             Net             Market Value
               Fiscal Year 1998

               Agency Assets
                Intragovernmental Non-Marketable
                    Nuclear Waste Fund                              $11,169             ($3,453)               $7,716           $8,610
                       Net unrealized holding gains                                                              894
                    Uranium Enrichment D&D Fund                          1,280                 10              $1,290            1,314
                    Great Plains Gasification Plant Trust Fund             13                   0                $13                13
                        Subtotal                                    $12,462             ($3,443)               $9,913           $9,937
                Governmental Marketable Securities
                    Du Pont pension receipts                               50                                       50              50
                       Total agency investments                     $12,512             ($3,443)               $9,963           $9,987

               Custodial Assets
                Intragovernmental Non-Marketable
                    Petroleum Pricing Violation Escrow Fund               290                   (3)              287               287

                Governmental Marketable Securities
                    Petroleum Pricing Violation Escrow Fund               213                                    213               213
                       Total custodial investments                       $503                  ($3)             $500              $500

                        Total FY 1998 investments                   $13,015             ($3,446)           $10,463             $10,487


               Fiscal Year 1997

               Agency Assets
                Intragovernmental Non-Marketable
                    Nuclear Waste Fund                               $6,248               $579                 $6,827           $6,947
                       Net unrealized holding gains                                                              120
                    Uranium Enrichment D&D Fund                           880                    4               884               886
                    Great Plains Gasification Plant Trust Fund             14                                       14              14
                        Subtotal                                     $7,142               $583                 $7,845           $7,847
                Governmental Marketable Securities
                    Du Pont pension receipts                               45                                       45              72
                       Total agency investments                      $7,187               $583                 $7,890           $7,919

               Custodial Assets
                Intragovernmental Non-Marketable
                    Petroleum Pricing Violation Escrow Fund               303                   (3)              300               300
                    Low Level Radioactive Waste Fund                        2                                        2                  2
                       Subtotal                                          $305                  ($3)             $302              $302
                Governmental Marketable Securities
                    Petroleum Pricing Violation Escrow Fund               200                                    200               200
                       Total custodial investments                       $505                  ($3)             $502              $502

                        Total FY 1997 investments                    $7,692               $580                 $8,392           $8,421


Pursuant to statutory authorizations, DOE invests monies in        Fund. Fees paid by owners and generators of spent nuclear fuel
Treasury notes and commercial certificates of deposit which are    and high-level radioactive waste and fees collected from
secured by the Federal Deposit Insurance Corporation. DOE’s        domestic utilities are deposited into the respective funds. Funds
investments primarily involve the Nuclear Waste Fund and the       in excess of those needed to pay current program costs are
Uranium Enrichment Decontamination and Decommissioning             invested in Treasury securities. DOE also has non-Federal




                                                                                                                                            55
                                                                              Department of Energy FY 1998 Accountability Report


securities resulting from an over funded pension plan of a              Except for the Nuclear Waste Fund, DOE’s investments are
former contractor and the 1988 sale of the Great Plains Coal            valued at the amortized acquisition cost. The Nuclear Waste
Gasification Project to a private concern.                              Fund investments are reported at fair value in accordance with
                                                                        SFAS No. 115, which requires the valuation of investments at
DOE custodial investments are primarily Petroleum Pricing               fair value when there is an intent to sell the securities prior to
Violation Escrow Fund receipts collected as a result of consent         maturity. Based on past investment practices, the Nuclear
agreements reached with individuals or firms that violated              Waste Fund’s Treasury notes are routinely redeemed prior to
petroleum pricing regulations during the 1970s. These receipts          maturity in order to maximize the return on the Fund’s
are invested in Treasury securities and certificates of deposit at      investments and minimize uninvested cash balances. As a
minority financial institutions pending determination by DOE            result, the Nuclear Waste Fund’s investment balance includes
as to how to distribute the fund balance.                               net unrealized holding gains of $894 million and $120 million
                                                                        as of September 30, 1998, and 1997 respectively.

4. Accounts Receivable                                                                                                                         (in millions)
                                                                 -------------------FY 1998----------------        -------------------FY 1997------------------
                                                               Receivable       Allowance             Net          Receivable      Allowance            Net
          Agency Receivables

          Intragovernmental
             Accounts receivable                                     $374                                $374          $442                                 $442
             Interest receivable                                     $108                                   108         114                                 $114
                Subtotal                                             $482                                $482          $556                                 $556

          Governmental
            Nuclear W aste Fund receivables                          2,440                              2,440         2,316                               $2,316
            Uranium Enrichment D&D Fund receivables                  1,526                              1,526         1,662                               $1,662
            Power Marketing Administrations' receivables              343                                   343         371                                 $371
            Credit program receivables                                 62              ($26)                  36          66              ($26)               $40
            Other                                                     196               (68)                128         253               (123)             $130
                Subtotal                                           $4,567              ($94)           $4,473        $4,668             ($149)            $4,519
                    Total agency receivables                       $5,049              ($94)           $4,955        $5,224             ($149)            $5,075

          Custodial Receivables
            Petroleum Pricing Violation Escrow Fund                  2,404           (2,294)                110       2,449             (2,319)             $130

                                  Total Receivables               $7,453           ($2,388)            $5,065        $7,673           ($2,468)            $5,205


Intragovernmental accounts receivable primarily represent               Custodial receivables represent amounts owed as a result of
amounts due from other Federal agencies for reimbursable                consent agreements reached with individuals or firms that
work performed pursuant to the Economy Act, Atomic Energy               violated petroleum pricing regulations during the 1970s. The
Act, and other statutory authority. Interest receivable                 majority of these receivables are with individuals or firms that
represents earned revenues on investments held in Treasury              are in bankruptcy, or collection action is being taken by the
securities.                                                             Department of Justice. Many cases handled by the Department
                                                                        of Justice will result in complete write-offs or settlement
Governmental receivables represent amounts due primarily for            agreements for amounts significantly less than the original
Nuclear Waste Fund (NWF) and Uranium Enrichment                         consent agreement. Allowance accounts have been established
Decontamination and Decommissioning (D&D) Fund fees.                    to reflect the realistic potential for recovery of amounts owed.
NWF receivables are supported by contracts and agreements               The methodology used to calculate the allowance accounts was
with public utilities that contribute resources to the fund. D&D        derived through an intensive analysis of each case. The
Fund receivables from public utilities are supported by public          receivables were categorized based on the status of the case, the
law. Other receivables due from the public include                      financial condition of the debtor, the collections received to
reimbursable work billings and other amounts related to trade           date, and any pertinent information from the Office of General
receivables, overpayments, and other miscellaneous                      Counsel related to each case. Based on this analysis and
receivables.                                                            categorization, percentages for the probability of collection
                                                                        were determined. Percentages ranging from 7 to 100 were used
                                                                        to calculate the allowance account.




56
Notes to the Financial Statements



5. Regulatory Assets                                                                                                           (in millions)

                                                                                                               FY 1998            FY 1997


                                                          Intragovernmental
                                                             Appropriation refinancing asset                        $5,228            $5,228


                                                          Governmental

                                                             Operating regulatory assets                             2,930             2,775
                                                             Non-operating regulatory assets                         4,319             4,350

                                                             Conservation and fish & wildlife projects                   762                800
                                                             Other                                                        20                 11
                                                                Total governmental regulatory assets                $8,031            $7,936

                                                            Total                                                 $13,259            $13,164


DOE’s power marketing administrations record certain assets           Operating regulatory assets
in accordance with SFAS No. 71. The provisions of SFAS No.
71 require that regulated enterprises reflect rate actions of the     The Bonneville Power Administration (BPA) has acquired the
regulator in their financial statements, when appropriate. These      generating capability of one operating nuclear power plant, as
rate actions can provide reasonable assurance of the existence        well as several hydroelectric projects. BPA pays the annual
of an asset, reduce or eliminate the value of an asset, or impose     operating costs including debt service. These project costs are
a liability on a regulated enterprise. The Bonneville Power           recovered through BPA’s electric rates. Because these
Administration reclassified its FY 1997 regulatory assets             projects’ current and future costs can be recovered through
among the operating, nonoperating and other categories.               BPA’s electricity rates, the Balance Sheet includes a regulatory
                                                                      asset and an offsetting related debt.
Appropriation refinancing asset
                                                                       Non-Operating Regulatory Assets
The BPA Appropriations Refinancing Act of 1994 required
that the unpaid balance, as of September 30, 1996, of the             BPA has acquired all or part of the generating capability of four
Federal Columbia River Power System (FCRPS) capital                   terminated nuclear power plants. The government’s contracts
appropriations, which BPA is obligated to set rates to recover,       require BPA to pay all or part of the annual projects’ budgets,
be reset and assigned prevailing market rates. As a result, BPA       including debt service of the terminated plants. Because these
assumed the liability to repay the unpaid balance of capital          projects’ current and future costs can be recovered through
appropriations of the power generating assets of the Corps of         BPA’s electricity rates, the Balance Sheet includes a regulatory
Engineers and the Bureau of Reclamation associated with the           asset and an offsetting related debt.
FCRPS. In accordance with SFAS No. 71, offsetting regulatory
assets are recognized which represent the ability of BPA to           Conservation and fish and wildlife projects
repay this appropriated capital from the proceeds of power
sales generated from the Corps and Bureau of Reclamation              The conservation and fish and wildlife projects consist of
assets.                                                               facilities constructed by BPA for the protection, enhancement,
                                                                      and mitigation of fish and wildlife losses attributed to the
                                                                      development and operation of hydroelectric projects on the
                                                                      Columbia River and its tributaries pursuant to Section 4(h) of
                                                                      the Northwest Power Act. BPA pays for the construction of the
                                                                      facilities and recovers the costs in rates but does not retain
                                                                      ownership of the facilities. These facilities are amortized and
                                                                      recovered in rates over a 15 year period.




                                                                                                                                              57
                                                                                   Department of Energy FY 1998 Accountability Report



6. Inventory, Net


Inventory includes stockpile materials, consisting of crude oil                crude oil for the Department of Defense (DOD). The crude oil
held in the Strategic Petroleum Reserve and nuclear materials,                 purchased with DOD funding is commingled with DOE stock
and other inventory consisting primarily of operating materials                and is held for DOD’s future use. The historical cost of the
and supplies.                                                                  crude oil held for DOD is $106 million.

The Strategic Petroleum Reserve consists of crude oil stored in                Nuclear materials include weapons and related components,
salt domes, terminals, and pipelines. The Reserve contained                    including those in the custody of the Department of Defense
563 million barrels of oil as of September 30, 1998. The                       under Presidential Directive, and materials used for research
reserve provides a deterrent to the use of oil as a political                  and development purposes.
instrument and provides an effective response mechanism
should a disruption occur. Oil from the reserve may be sold                    Stockpile materials are recorded at historical costs in
only with the approval of Congress and the President of the                    accordance with Statement of Federal Financial Accounting
United States. During FY 1997, DOE sold 10.2 million barrels                   Standards No. 3, Accounting for Inventory and Related
of crude oil inventory from the reserve. No oil was sold from                  Property, except for certain nuclear materials which have been
the Reserve in FY 1998.                                                        identified as surplus or excess to DOE’s needs. These nuclear
                                                                               materials are recorded at their net realizable value.
The FY 1993 Defense Appropriations Act authorized DOE to
acquire, transport, store and prepare for ultimate drawdown of



7. Property, Plant and Equipment, Net                                                                                                                (in millions)

                                                                  -----------------FY 1998------------------           -----------------FY 1997------------------

                                                               Acquisition       Accumulated       Net Book         Acquisition      Accumulated        Net Book        Difference
                                                                  Costs           Depreciation        Value            Costs          Depreciation         Value

                                Land and land rights                 $460                 ($4)            $456             $497                ($4)             $493
                                Structures and facilities          29,245            (18,154)           11,091         $29,138            (17,664)            11,474
                                ADP software                              33               (7)                 26           $14                (13)                 1
                                Equipment                          14,065              (9,080)           4,985         $13,725              (8,493)            5,232
                                Natural resources                         66               (8)                 58           $11                  (2)                9
                                Construction work in process        3,224                   0            3,224           $3,547                  0             3,547

                                      Total                       $47,093           ($27,253)         $19,840          $46,932           ($26,176)          $20,756


In FY 1997, DOE raised its capitalization threshold from                       million. Another $34 million was charged to expense in
$5,000 to $25,000 for all field elements except the power                      FY 1998 as additional capitalized items under the new
marketing administrations. This change in accounting policy                    threshold were identified and written off. (See Note 23)
resulted in a charge to expense during FY 1997 of $694




58
Notes to the Financial Statements



8. Accounts Payable                                                                                                               (in millions)

                                                                                                        FY 1998                   FY 1997
                                        Intragovernmental
                                          Accounts payable                                                         $39                       $76
                                          Accrued expenses                                                          45                        24
                                          Accrued interest                                                          35                        40
                                                                                                                  $119                      $140
                                        Governmental
                                          Accounts payable                                                    $1,140                    $1,021
                                          Uranium inventories to be transferred to USEC (see Note 23)                                        416
                                          Contract holdbacks                                                        43                        61
                                          Accrued expenses                                                        2,093                     2,086

                                                                                                              $3,276                    $3,584

                                          Total accounts payable                                              $3,395                    $3,724


Certain FY 1997 amounts have been reclassified to conform to the FY 1998 presentation.



9. Debt                                                                                                                           (in millions)

                                                                                                                    FY 1998            FY 1997

                                                               Intragovernmental Debt
                                                                   Borrowing from Treasury                            $2,499            $2,499
                                                                   Refinanced appropriations                              6,407             6,584
                                                                     Subtotal                                         $8,906            $9,083
                                                               Governmental Debt
                                                                   Non-Federal projects                                   7,056             7,166

                                                                        Total debt                                   $15,962           $16,249



Borrowing from Treasury                                              Refinanced appropriations

To finance its capital programs, the Bonneville Power                The BPA Appropriations Refinancing Act of 1994 required
Administration is authorized to issue to Treasury up to $3,750       that the unpaid balance, as of September 30, 1996, of the
million of interest-bearing debt with terms and conditions           Federal Columbia River Power System (FCRPS) capital
comparable to debt issued by U.S. government corporations. A         appropriations, which BPA is obligated to set rates to recover,
portion ($1,250 million) is reserved for conservation and            be reset and assigned prevailing market rates. The majority of
renewable resource loans and grants. The average interest rate       the refinanced appropriations represent the unpaid capital
of BPA’s long-term debt exceeds the rate which could be              appropriations of the Corps of Engineers and the Bureau of
obtained currently. As a result, the fair value of BPA’s long-       Reclamation. (See Note 5)
term debt, based on discounting future cash flows using rates
offered by Treasury as of September 30, 1998 and 1997, for           Non-Federal projects
similar maturities, exceeds carrying value by approximately
$559 million and $303 million, respectively. BPA’s policy is         As discussed in Note 5, the non-Federal projects debt
to refinance debt that is callable when associated benefits          represents BPA’s liability to pay all or part of the annual
exceed costs of refinancing.                                         budgets, including debt service, of the generating capability of
                                                                     five nuclear power plants as well as several hydroelectric projects.




                                                                                                                                                59
                                                                        Department of Energy FY 1998 Accountability Report



10. Appropriated Capital Owed to Treasury

Appropriated capital owed to Treasury represents the balance        funds are not available for payment, such unpaid annual net
of appropriations provided to DOE’s power marketing                 deficits become payable from the subsequent years’ revenues
administrations for construction and operation of power             prior to any repayment of Federal investment. DOE treats these
projects which will be repaid to Treasury. The amount owed          appropriations as a borrowing from Treasury, and as such, the
also includes accumulated interest on the net unpaid Federal        Statement of Changes in Net Position does not reflect these
investment in the power projects. The Federal investment in         funds as appropriated capital used.
these facilities is to be repaid to Treasury within 50 years from
the time the facilities are placed in service or are commercially   Except for the appropriation refinancing asset described in
operational. Replacements to Federal investments are generally      Note 5, DOE’s financial statements do not reflect the Federal
to be repaid over their expected useful service lives. There is     investment in power generating facilities owned by the U.S.
no requirement for repayment of a specific amount of Federal        Department of Defense, Army Corps of Engineers; the U.S.
investment on an annual basis.                                      Department of Interior, Bureau of Reclamation; and the U.S.
                                                                    Department of State, International Boundary and Water
Each of the power marketing administrations, except the             Commission. DOE’s power marketing administrations are
Bonneville Power Administration, receives an annual                 responsible for collecting, and remitting to Treasury, revenues
appropriation to fund operation and maintenance expenses.           resulting from the sale of hydroelectric power generated by
These appropriations totaled $245 million and $229 million in       these facilities.
FY 1998 and FY 1997, respectively. These appropriated funds
are repaid to Treasury from the revenues generated from the
sale of power and transmission services. To the extent that

11. Deferred Revenues                                                                                                   (in millions)

                                                                                                      FY 1998           FY 1997
                          Intragovernmental
                             Nuclear Waste Fund                                                                 $198              $123
                             Other                                                                                19               121
                                                                                                                $217              $244
                          Governmental
                             Nuclear Waste Fund                                                                 9,795             8,891
                             United States Enrichment Corporation                                                482
                             Power Marketing Administrations                                                     437               277
                             Reimbursable work advances                                                          224               106
                             Other                                                                               127                77

                                                                                                           $11,065             $9,351

                             Total                                                                         $11,282             $9,595


Nuclear Waste Fund                                                  United States Enrichment Corporation

Nuclear Waste Fund revenues are accrued based on fees               Upon privatization of the United States Enrichment
assessed against owners and generators of high-level                Corporation (USEC) on July 28, 1998, OMB and the
radioactive waste and spent nuclear fuel and interest accrued on    Department of the Treasury designated DOE as successor to
investments in Treasury securities. These revenues are              USEC for purposes of disposition of balances remaining in the
recognized as a financing source as costs are incurred for          United States Enrichment Fund, including payment of final bills
Nuclear Waste Fund activities. Annual adjustments are made          associated with privatization. As of September 30, 1998, a
to defer revenues that exceed the Nuclear Waste Fund                total of approximately $484 million resided in the USEC-
expenses. FY 1997 balances were restated to reflect                 Government account. Of this amount, approximately $374
reclassifications between intragovernmental and governmental        million was retained for the treatment and recycling of depleted
components.                                                         uranium hexafluoride generated by USEC between July 1, 1993
                                                                    and the privatization date. A liability was established in FY




60
Notes to the Financial Statements


1998 for this amount. Pursuant to Public Law 105-204, the                management, and disposition of the transferred depleted
Secretary of Energy shall prepare and the President shall                uranium, research and development into the beneficial use of
include in the budget request for FY 2000, a plan and proposed           depleted uranium, and related activities and support services for
legislation for the use of these funds to commence construction          depleted uranium-related activities. A liability of $50 million
of, not later than January 1, 2004, and to operate an onsite             was established to record the advance payment received prior
facility at each of the gaseous diffusion plants at Paducah,             to the performance of services.
Kentucky, and Portsmouth, Ohio, to treat and recycle this
material. The law further provides that no amounts shall be              A third MOA between DOE and USEC, relating to the
withdrawn from this account until one year after the date on             administration of worker transition services at the two gaseous
which the President submits to Congress the budget request for           diffusion plants, was signed on June 30, 1998. Pursuant to the
FY 2000. The balance of approximately $109 million                       terms of the MOA, USEC paid DOE $20 million to administer
represents amounts available for DOE to pay privatization                worker transition services including enhanced benefits for
expenses on behalf of USEC.                                              workers, monies for buyouts and severance payments, other
                                                                         career transition assistance, as well as economic development
On May 18, 1998, DOE and USEC signed a memorandum of                     assistance to the affected communities. A liability of $20
agreement (MOA) establishing each organization’s                         million was established to record the advance payment received
responsibilities for the disposal of depleted uranium generated          prior to providing services.
by USEC between July 1, 1993 and the privatization date (pre-
privatization period). In accordance with the MOA, USEC                  Power Marketing Administrations
paid DOE $16 million in FY 1998 for storage, surveillance,
and maintenance of the depleted uranium generated by USEC                The power marketing deferred revenues represent primarily
during the pre-privatization period, and DOE established a               amounts paid to the Bonneville Power Administration (BPA)
liability to record the advance received prior to the performance        from participants under various AC intertie capacity
of services.                                                             agreements and load diversification fees paid to BPA by
                                                                         various customers. These one-time payments cover the
A second MOA between DOE and USEC, relating to depleted                  remaining term of the customer’s existing contractual
uranium generated by USEC after privatization, was signed on             agreement. FY 1997 balances were reclassified from other
June 30, 1998. Pursuant to the MOA, approximately 16.7                   liabilities and advances.
million kgU of depleted uranium will be transferred to DOE
thru FY 2004. In accordance with the MOA, USEC paid DOE
approximately $50 million in FY 1998 for storage,



12. Other Liabilities                                                                                                      (in millions)


                                                                                                          FY 1998           FY 1997
                             Intragovernmental
                               Oil held for DOD                                                                     $106              $106
                               Other                                                                                 154               144
                                                                                                                    $260              $250

                             Governmental
                               Accrued payroll and benefits                                                          659               683
                               Petroleum Pricing Violation Escrow Fund                                               548               583
                               Naval Petroleum Reserve Deposit Fund                                                  323
                               Elk Hills School Land Fund                                                            298
                               Other governmental liabilities                                                        202               157

                                                                                                                 $2,030           $1,423

                               Total                                                                             $2,184           $1,567




                                                                                                                                         61
                                                                               Department of Energy FY 1998 Accountability Report


Oil Held for DOD (See Note 6)                                              Naval Petroleum Reserve Deposit Fund

Accrued Payroll and Benefits                                               The balance in this fund represents proceeds from the sale of
                                                                           the Naval Petroleum Reserve at Elk Hills that are being held
Accrued payroll and benefits represent amounts owed to DOE                 until final disposition in accordance with the settlement.
and contractor employees.                                                  Approximately $288 million is being held for a contingency
                                                                           payment to Chevron, Inc., pending the outcome of equity
                                                                           finalization. The remaining $35 million is reserved for
Petroleum Pricing Violation Escrow Fund                                    anticipated adjustments to Occidental’s final payment and for
                                                                           possible reimbursement to the investment banker for an
Pursuant to the Emergency Petroleum Allocation Act of 1973,                advance of their commission (See Note 18) .
DOE is responsible for recovering oil pricing overcharges and
making restitution to injured parties. Monies received are                 Elk Hills School Land Fund
invested in Treasury securities and minority financial
institutions pending disbursement to injured parties or returned           This balance represents the portion of the Naval Petroleum
to the Treasury’s general fund.                                            Reserve at Elk Hills sales proceeds being retained for future
                                                                           disbursements to the State of California pending authorization
                                                                           of Congress.



13. Environmental Liabilities                                                                                                    (in millions)

                                                                                                                 FY 1998            FY 1997

                                                   EM facilities and legacy wastes                                   $145,108         $141,321
                                                   Active facilities                                                   19,572           20,708
                                                   Pipeline facilities                                                  7,828            8,758
                                                   High-level waste and spent nuclear fuel                             10,678            6,745
                                                   Other                                                                3,227            3,082
                                                   Total environmental liabilities                                   $186,413         $180,614
                                                   Amount funded by current appropriations                                 (918)        (1,148)

                                                       Total unfunded environmental liabilities                      $185,495         $179,466


                                                   Changes in environmental liabilities

                                                   Total environmental liabilities, beginning balance                $180,614         $229,114
                                                   Prior period adjustment                                                 (106)         5,271
                                                     A d justed beginning balance                                    $180,508         $234,385

                                                   Changes to environmental liability estimates
                                                     EM facilities and legacy wastes                                   $9,746         ($43,309)
                                                     Active facilities                                                 (1,120)          (1,409)
                                                     Pipeline facilities                                                   (795)        (2,662)
                                                     High-level waste and spent nuclear fuel                            4,169                 85
                                                     Other                                                                 181            (454)

                                                       Total changes in estimates                                     $12,181         ($47,749)

                                                   Operating expenditures related to legacy waste activities           (5,907)          (5,552)
                                                   Capital expenditures related to legacy waste activities                 (369)          (470)

                                                       Total environmental liabilities                               $186,413         $180,614




62
Notes to the Financial Statements


During World War II and the Cold War, the United States              most of the sites by 2006. These estimates, which were
developed a massive industrial complex to research, produce,         developed by the cognizant field offices, cover life cycle cost
and test nuclear weapons. The nuclear weapons complex                estimates to 2070. For financial statement reporting purposes,
included nuclear reactors, chemical processing buildings, metal      the Department deducted from the field estimates costs
machining plants, laboratories, and maintenance facilities that      associated with waste generated from current and future
manufactured tens of thousands of nuclear warheads, and              operations and FY 1998 costs incurred to arrive at the FY 1998
conducted more than one thousand nuclear explosion tests.            year-end liability.

At all sites where these activities took place, some                 The Paths to Closure cost, scope and schedules were based on
environmental contamination occurred. In this regard, the            meeting existing compliance agreements, including milestones
treatment and storage of radioactive and chemical waste              for as long as they were established, consistent with existing
resulted in contamination of soil, surface water, and                Federal, State and/or local statutes and/or regulations. For the
groundwater and an enormous backlog of waste and dangerous           Development of Paths to Closure estimates, sites received a
materials. The environmental legacy derived from the process         total funding guideline of $5,750 million per year. In some
of producing nuclear weapons includes thousands of                   cases, sites exceeded this funding guideline in order to meet
contaminated areas and buildings, and large volumes of waste         compliance commitments. The site estimates include cost and
and special nuclear materials requiring treatment, stabilization,    schedule estimates for environmental restoration; nuclear
and disposal. Approximately one-half million cubic meters of         material and facility stabilization; and waste treatment, storage,
radioactive high-level, mixed, and low-level waste must be           and disposal activities at each installation. The estimates also
stabilized, safeguarded, and dispositioned, including a quantity     include costs for related activities such as landlord
of plutonium sufficient to fabricate thousands of nuclear weapons.   responsibilities, program management, and legally prescribed
                                                                     grants for participation and oversight by native American tribes
The FY 1998 environmental liability estimate is largely based        and regulatory agencies.
on life cycle cost estimates which reflect a strategy for
accelerating our efforts to clean up most of DOE’s sites by          Active Facilities
2006. This strategy was reported in the Accelerating Cleanup:
Paths to Closure Report (published as a draft in February 1998       Environmental liabilities for active facilities represent
and as a final report in June 1998) and provides for a site by       anticipated remediation costs for those facilities that are
site project by project projection of the technical scope, costs,    conducting ongoing operations but will ultimately require
and schedule required to complete all 353 projects at DOE’s          stabilization, deactivation, and decommissioning. The FY 1998
53 remaining cleanup sites in the United States, while complying     environmental liability for active facilities is estimated at
with compliance agreements and other legal obligations.              $19,600 million. This estimate is not based on costs
Further, the strategy consists of detailed projections on the        determined by remediation/feasibility studies performed at the
scope, schedules, and costs at each site for the cleanup of          active sites. Rather, cost estimating models were used to
contaminated soil, groundwater, and facilities; treating, storing,   estimate costs of remediating sites with matching conditions.
and disposing of waste; and managing nuclear materials.              Such models were used to extrapolate stabilization,
                                                                     deactivation, and decommissioning costs for contaminated
Changes to FY 1997 Estimates                                         active facilities and structures not included in the Paths to
                                                                     Closure or the FY 1996 BEMR.
Changes to the FY 1997 estimates relate to: inflation
adjustments to reflect FY 1998 constant dollars; cleanup             BEMR (Pipeline Facilities/Activities)
activities performed during FY 1998; sale and transfers of
facilities to outside entities; changes to assumptions relating to   Environmental liabilities for these facilities represent
the treatment of wastes and long term surveillance and               deactivation and decommissioning costs of surplus “pipeline”
maintenance; and other scope changes relating to the                 facilities not managed by the Office of Environmental
refinement of estimates, including adjustments for efficiencies,     Management (EM) but which are generally excess to the
resequencing of activities, and other changes in the remediation     current mission of their programmatic owners. Although not
approach.                                                            under EM management, these facilities are assumed to be
                                                                     candidates for transfer to the EM work scope. The FY 1996
Legacy Wastes and Surplus Facilities 2006 Plan Estimate              Baseline Environmental Management Report (BEMR), which
(FY 1998)                                                            was superseded by the Paths to Closure Report, included costs
                                                                     for the “pipeline facilities.” In circumstances where additional
In FY 1998, the Department developed life cycle cost estimates       cost estimating techniques were not applied to the pipeline
consistent with its Paths to Closure strategic vision to cleanup     facilities/activities during FY 1998, the BEMR (adjusted for




                                                                                                                                    63
                                                                             Department of Energy FY 1998 Accountability Report


inflation) continues to be used as it reflects the most                 cycle costs associated with the disposal of its high-level waste
comprehensive analysis of life cycle costs. Where decisional            and spent nuclear fuel.
changes in assumptions resulted in a material difference from
the amounts in the BEMR, adjustments were made to reflect the           Since the last total-system life cycle cost estimate was prepared
assumptions. For example, in addition to the inflation                  in FY 1995, significant changes in the program resulted in
adjustment to FY 1998 constant dollars, the most significant            increased program costs including: additional waste quantities
factor in the change in last year’s estimate for pipeline facilities    and types; updates to the repository design basis; a reanalysis of
is a reduction related to the transfer of these facilities to the EM    cost uncertainties associated with waste transportation; and an
program, where they are covered under the Paths to Closure              extended monitoring period. These changes, reflected in the FY
effort.                                                                 1998 life cycle cost estimate, resulted in an increase in DOE’s
                                                                        liability for spent nuclear fuel and high-level waste disposal.
High-Level Waste and Spent Nuclear Fuel
                                                                        Other Unfunded Environmental Liabilities
The Nuclear Waste Policy Act of 1982 established DOE’s
responsibility to provide for permanent disposal of the Nation’s        Dispositioning of excess plutonium
high-level radioactive waste and spent nuclear fuel. The Act
requires that owners and generators of nuclear waste pay the            Based on a Nuclear Weapons Council declaration in December
full cost of the program and, to that end, establishes a fee on         1994, the Secretary of Energy announced in February 1996 that
civilian nuclear utilities which DOE must collect and annually          38.2 metric tons of weapons grade plutonium were excess to
assess to determine its adequacy.                                       national security needs. DOE also designated a quantity of non-
                                                                        weapons grade plutonium as excess. DOE has considered a
The most recent total-system life cycle cost estimate was issued        variety of disposition methodologies for this excess material.
in December 1998 for a surrogate single repository system               A formal record of decision regarding the storage and
without interim storage and was estimated at $43,700 million in         disposition methodology was announced by the Secretary of
constant FY 1998 dollars. Yucca Mountain, Nevada, was                   Energy in January 1997. The decision is to reduce, over time,
assumed as the location for the repository since it is the only         the number of locations where the various forms of plutonium
site that DOE is authorized by law to characterize, but this does       are stored, and to pursue a disposition strategy that allows for
not constitute a predecision that Yucca Mountain is an                  immobilization of excess plutonium in glass form and burning
acceptable site. Cost estimates for additional scenarios                of the excess material as mixed oxide fuel in existing reactors.
including a two-repository system with interim storage were not         DOE has recognized a $2,266 million unfunded liability in the
developed since DOE did not have current cost information or            FY 1998 financial statements to reflect the estimated
designs for a second repository or interim storage facility.            disposition cost in constant 1998 dollars of the preferred
                                                                        alternative. The estimated disposition cost is based on a current
To estimate the share of the total-system costs that should be          planning inventory of 43.2 metric tons of weapons and non-
allocated to the disposal of DOE’s high-level waste and spent           weapons grade plutonium. FY 1999 events including site
nuclear fuel, the methodology announced by DOE in the                   selection of the facilities that will be needed to disposition the
Federal Register in August 1987 was used. DOE’s share of                excess plutonium and the award of contracts for (1) fuel
the total-system life cycle cost in FY 1998 dollars is estimated        fabrication and irradiation services and (2) design services for a
to be $10,960 million (DOE/RW-0510, Analysis of the Total               pit disassembly and conversion facility may result in
System Life Cycle Cost of the Civilian Radioactive Waste                adjustments to the liability in subsequent fiscal years.
Management Program). DOE funding provided through
FY 1998 totaled $934 million, which is less than its share              Dispositioning of excess highly enriched uranium
($1,452 million) of the total system costs incurred through
September 30, 1998. Interest accruing on this outstanding               The Nuclear Weapons Council declared in December 1994,
balance totaled $652 million. As a result, DOE’s net unfunded           leading to the Secretary of Energy’s announcement in February
liability for its share of costs for the disposal of high-level waste   1996, that 174.3 metric tons of DOE’s highly enriched uranium
and spent nuclear fuel totaled $10,678 million as of                    (HEU) were excess to national security needs. Most of this
September 30, 1998.                                                     material will be blended for sale as low-enriched uranium
                                                                        (LEU) and used over time as commercial nuclear reactor fuel to
As of September 30, 1996, DOE accrued a liability totaling              recover its value. Material that could not be economically
$1,421 million. This primarily represented DOE’s share of               recovered was originally planned to be blended to LEU for
unpaid costs incurred for the program plus accrued interest.            disposal as low-level waste. DOE recorded a $592 million
During FY 1997, DOE recorded a prior period adjustment of               unfunded liability in FY 1996 for the disposition of 26.1 metric
$5,271 million to recognize its share of the total-system life          tons of surplus HEU estimated to be waste. After further




64
Notes to the Financial Statements


evaluation of the material in FY 1997, it has been determined          further along in the decommissioning process were used as a
part of this material will now be sold for use as reactor fuel.        basis for determining the estimate.
The remaining part, the majority of the material, is already in
the form of irradiated fuel, which requires no processing prior        Assumptions
to disposal. Therefore, the $592 million unfunded liability for
blending 26.1 metric tons of surplus HEU was reduced to zero           Estimating the cost of DOE’s environmental cleanup liability
in FY 1997.                                                            requires making assumptions about future activities and is
                                                                       inherently uncertain. The future course of DOE’s
Disposition of Depleted Uranium Generated by the United                environmental management program will depend on a number
States Enrichment Corporation                                          of fundamental technical and policy choices, many of which
                                                                       have not been made. Ultimately, these decisions will be made
Pursuant to Section 3109(a)(3) of the USEC Privatization Act           on the basis of fulfilling Congressional mandates, regulatory
of 1996, DOE is responsible for disposal of depleted uranium           direction, and stakeholder input. Congressional appropriations
generated by USEC between July 1, 1993 and the privatization           at lower than anticipated levels would cause increases in life
date (pre-privatization period). On May 18, 1998, DOE and              cycle costs.
USEC signed a memorandum of agreement (MOA)
establishing each organization’s responsibilities for fulfilling       The cost and environmental implications of alternative choices
the requirements of Section 3109(a)(3). Subsequently, on               can be profound. For example, many contaminated sites and
July 28, 1998, USEC was privatized. In accordance with the             facilities could be restored to a pristine condition, suitable for
MOA, USEC paid DOE $16 million in FY 1998 for storage,                 any desired use; they could also be restored to a point where
surveillance, and maintenance of the depleted uranium                  they pose no near-term health risks to surrounding communities
generated by USEC during the pre-privatization period.                 but are essentially surrounded by fences and left in place.
In December 1997, DOE published a Draft Programmatic                   Achieving pristine conditions would have a higher cost but may
Environmental Impact Statement for Alternative Strategies for          or may not warrant the costs and potential ecosystem disruption
the Long-Term Management and Use of Depleted Uranium                   or be legally required.
Hexafluoride (UF6). While this assessment did not specifically
address the USEC generated depleted uranium requiring                  The following key assumptions were used in estimating the
disposal because of uncertainties regarding its future                 environmental liability:
management, it did identify a preferred alternative strategy for
use of 100 percent of the Department’s depleted UF6 either as          !   DOE has identified approximately 10,500 potential release
uranium oxide, uranium metal, or a combination of both. Since              sites from which contaminants could migrate into the
the USEC generated material represents a relatively small                  environment. Although virtually all of these sites have
portion of the total UF6 inventory, its disposition cost is                been at least partially characterized, final remedial action
provided within the reported $1.6 billion - $3.9 billion                   and/or regulatory decisions have not been made for most
estimate. Once uncertainties regarding future management of                sites. Site specific assumptions regarding the amount and
the USEC generated depleted uranium are resolved, the                      type of contamination and the remediation technologies
Department may include this material in future assessments.                that will be utilized were used in estimating the
Such assessments could identify potential alternative uses for             environmental restoration costs.
the USEC generated depleted uranium. Accordingly, no
provision for the cost of disposal is included in these financial      !   The first geological repository for high-level radioactive
statements.                                                                waste will open in 2010. At that time, it will accept spent
                                                                           nuclear fuel from commercial utilities. In 2016, the
                                                                           repository will begin accepting defense high-level waste
Deactivation and decommissioning of inactive naval reactors                and will begin accepting DOE-owned fuel shortly
facilities                                                                 thereafter. An uncertainty relating to projected waste
                                                                           dispositioning costs is that current projections of legacy
Deactivation and decommissioning liabilities for inactive naval            waste volume exceed storage capacity. This could result
facilities represent anticipated remediation costs for those               in significant cost growth in out years as additional storage
facilities at the Pittsburgh and Schenectady Naval Reactors                capacity is acquired.
Offices that have ceased operations. The methodology used for
estimating the environmental liabilities for these facilities was      ! The Waste Isolation Pilot Plant (WIPP) will open in 1998.
similar to the approach used in estimating the liabilities for           DOE received the necessary certification from the United
active facilities in that experiences of similar types of facilities     States Environmental Protection Agency to open WIPP for
                                                                         waste storage. However, due to a court injunction, the




                                                                                                                                      65
                                                                                    Department of Energy FY 1998 Accountability Report


     opening of WIPP has been delayed. The Department of                            - nuclear explosion test areas (e.g., Nevada Test Site);
     Justice is currently working with the plaintiffs in this action                - large surface water bodies (e.g., Clinch and Columbia
     to lift the injunction. If the court refuses to lift the                          rivers); and
     injunction, WIPP may not open until the State of New                           - most contaminated ground water (even with treatment,
     Mexico issues the RCRA Permit for the disposal of mixed                          future use will remain restricted)
     transuranic waste, now expected in late 1999. Sites that
     would be most effected by the delay in the WIPP opening               !        Costs related to the disposition of depleted UF6 are
     are taking actions to mitigate any impact by assessing                         excluded from the estimate. DOE published a draft
     temporary storage alternatives and switching priorities to                     Programmatic Environmental Impact Statement (PEIS) in
     shipping waste not impacted by the injunction. It is                           December 1997, which assessed several strategies for the
     anticipated that the WIPP will be open for waste storage                       long-term management of approximately 560,000 metric
     before the end of 1999. The delay is not expected to have                      tons of depleted UF6 owned by DOE. The draft PEIS
     a significant impact on the environmental liability cost                       identified a preferred strategy that would use 100 percent
     estimate.                                                                      of the Department’s depleted UF6 either as uranium oxide,
                                                                                    uranium metal, or a combination of both. However, the
!    Project baselines anticipate savings from enhanced                             draft PEIS acknowledged that potential uses that are
     productivity. However, it is possible that some projected                      capable of consuming a substantial fraction or all of the
     savings may not be achieved.                                                   depleted uranium inventory are yet to be fully developed.
                                                                                    Recognizing this uncertainty, DOE estimated in its
!    Only existing technologies, such as pumping and treating                       September 1997, Cost Analysis Report for the Long-Term
     groundwater, are assumed to be available for estimating                        Management of Depleted Uranium Hexafluoride, that the
     cleanup costs. Estimates were based on remedies                                cost of depleted UF6 disposition under the preferred
     considered technically and environmentally reasonable and                      alternative would range from $1,600 million to $3,900
     achievable by local project managers and appropriate                           million. The cost estimate is being updated in conjunction
     regulatory authorities.                                                        with the final PEIS and Record of Decision, scheduled for
                                                                                    completion in March 1999.
!    Environmental cleanup will be considered substantially
     complete when all sites have been remediated and when                 In addition to the assumptions and exclusions identified above,
     wastes generated from previous activities and from                    another factor that could affect the certainty of the estimate
     remediation and stabilization activities are safely disposed.         includes the adjustment to FY 1998 dollars which is required
                                                                           under Federal accounting standards. Any potential increases
!    Projects with no current feasible remediation approach are            caused by future inflation could result in costs that are
     excluded from the estimate. The cost estimate would be                substantially higher than the recorded liability.
     higher if some remediation were assumed for these areas
     for which complete cleanup is not technically feasible with           The environmental liability estimates include some amounts for
     existing technologies. However, because no effective                  contractor pensions and postretirement benefits other than
     remedial technology could be identified, no basis for                 pensions (PRB). The liability for contractor pension and PRB
     estimating cost was available. Significant projects                   has been recorded separately from the environmental liability
     excluded are:                                                         and disclosed in Note 14.



14. Pension and Other Actuarial Liabilities                                                                                    (in millions)

                                                                                                                          FY 1998     FY 1997


                                                  Contractor pension plans                                                   $314        $283
                                                  Contractor postretirement benefits other than pensions                    6,187        5,987
                                                  Contractor disability and life insurance plans                               20          20

                                                      Total actuarial liabilities                                          $6,521       $6,290

                                                  Less funded actuarial liabilities                                           (13)          (8)

                                                      Total unfunded actuarial liabilities                                 $6,508       $6,282




66
Notes to the Financial Statements


Most of DOE’s contractors have defined benefit pension plans       Plan assets generally include cash and equivalents, stocks,
under which they promise to pay specified benefits to their        corporate bonds, government bonds, real estate, venture capital,
employees, such as a percentage of the final average pay for       international investments, and insurance contracts.
each year of service. DOE’s cost under the contracts includes
reimbursement of annual contractor contributions to these          Assumptions and methods
pension plans. DOE’s contractors also sponsor postretirement
benefits other than pensions (PRB) consisting predominantly of     In order to provide consistency among the various DOE
postretirement health care benefits. In the past, these costs      contractors, certain standardized actuarial assumptions were
were recognized on a pay-as-you-go or cash basis. Since DOE        used. These standardized assumptions include the discount
approves the contractors’ pension and postretirement benefit       rates, mortality assumptions, and an expected long-term rate of
plans and is ultimately responsible for funding the plans, the     return on plan assets, salary scale, and any other economic
responsibility for any related liabilities rests with DOE.         assumption consistent with an expected long-term inflation rate
                                                                   of 3.5 percent for the entire U.S. economy with adjustments to
DOE reimburses its major contractors for employee disability       reflect regional or industry rates as appropriate. In most cases,
insurance plans and estimates are recorded as unfunded             ERISA valuation actuarial assumptions for demographic
liabilities for these plans.                                       assumptions were used.

Contractor Pension Plans                                           The following specific assumptions and methods were used in
                                                                   determining the pension estimates:
DOE adopted SFAS No. 87, Employers’ Accounting for
Pensions, beginning in FY 1996 for contractor employees, for       The weighted average discount rates of 7.0 percent for FY
whom DOE has a continuing pension obligation. As of                1998 and 7.75 percent for FY 1997 were used, the average
September 30, 1998, DOE has prepaid pension costs of $554          long-term rate of return on assets was 8.3 percent in FY 1998
million and accrued pension costs of $314 million. DOE has a       and 8.2 percent in FY 1997, and the average rate of
continuing obligation for a variety of contractor-sponsored        compensation increase was 4.9 percent in FY 1998 and FY
pension plans (46 qualified and 8 nonqualified). In this regard,   1997 in determining the net periodic pension cost.
benefit formulas consist of final average pay (36 plans), career
average pay (9 plans), dollar per month of service (8 plans),      The weighted average discount rates used to determine the
and one defined contribution plan with future contributions for    vested benefit obligation, accrued benefit obligation, and
retired employees. Twenty-four of the plans cover nonunion         projected benefit obligation as of September 30, 1998 and
employees only, 13 cover union employees only, and 17 cover        1997 were 6.5 percent and 7.0 percent, respectively.
both union and nonunion employees.
                                                                   Straight line amortization of unrecognized prior service cost
For qualified plans, DOE’s current funding policy is for           over the average remaining years of service of the active plan
contributions made to a trust during a plan year for a separate    participants and the minimum amortization of unrecognized
defined benefit pension plan to not exceed the greater of: (1)     gains and losses were used. The transition obligation was
the minimum contribution required by Section 302 of the            amortized over the greater of 15 years or the average remaining
Employee Retirement Income Security Act (ERISA) or (2) the         service.
amount estimated to eliminate the unfunded current liability as
projected to the end of the plan year. The term “unfunded          Table 1 sets forth the vested benefit obligation, accrued benefit
current liability” refers to the unfunded current liability as     obligation, projected benefit obligation, plan assets, and a
defined in Section 302(d)(8) of ERISA. For nonqualified            reconciliation of the funded status to the prepaid/(accrued)
plans, the funding policy is pay-as-you-go.                        pension cost after minimum liability. Table 2 sets forth the
                                                                   components of net periodic pension cost.




                                                                                                                                  67
                                                                                            Department of Energy FY 1998 Accountability Report


                                                                                                                  (in millions)
     Table 1                                                                          September 30, 1998                   September 30, 1997
     Vested Benefit Obligation                                                                 ($12,008)                            ($10,475)
     Accrued Benefit Obligation                                                                ($12,735)                            ($11,354)
     Projected Benefit Obligation:
       Projected Benefit Obligation                                                                  ($14,908)                              ($13,462)
       Plan Assets                                                                                     20,135                                 17,584
       Funded Status                                                                                   $5,227                                 $4,122
       Unrecognized Transition Obligation/(Asset)                                                      (1,485)                                (1,590)
       Unrecognized Prior Service Cost                                                                     56                                     28
       Unrecognized (Gain)/Loss                                                                        (3,428)                                (2,438)
       Prepaid/(Accrued) Pension Cost                                                                    $370                                   $122
       Adjustment required to reflect minimum liability                                                  (130)                                  (122)
         Prepaid/(Accrued) pension cost after minimum liability                                          $240                                     $0
     Total Prepaid Pension Cost after minimum liability                                                  $554                                   $283
     Total (Accrued) Pension Cost after minimum liability                                               ($314)                                 ($283)

     In the interest of brevity, information regarding all defined benefit plans is summarized in a single table. Assets of one plan are not available to satisfy
     liabilities of another plan.
                                                                                                                        (in millions)
     Table 2                                                                                              FY 1998                                FY 1997
     Net Periodic Pension Cost:
      Service Cost                                                                                       $421                                  $367
      Interest Cost                                                                                       900                                    861
      Actual Return on Plan Assets                                                                     (1,311)                                (1,114)
      Net Amortization and Deferral                                                                      (209)                                  (150)
      Impact of Curtailment or Special Termination Benefits                                                 8                                     34
     Total Net Periodic Pension Cost                                                                    ($191)                                   ($2)

     In 1998, expense of $.13 million was recognized at Ames Laboratories for an early retirement window. The electrician’s retirement plan at Argonne National
     Laboratories was terminated resulting in a curtailment and settlement gain of $.02 million. The Bechtel Petroleum Operations, Inc. Pension Plan was
     terminated resulting in a curtailment and settlement gain of $2.97 million. Due to staff reductions, curtailment losses were recognized at Babcock & Wilcox,
     Hanford Environmental Health Foundation, and Sandia National Laboratories for $11.01 million, $.07 million, and $.25 million, respectively and a
     curtailment gain was recognized at Pantex for $.04 million. A curtailment gain of $.23 million was recognized at Ross Aviation due to a plan amendment
     eliminating future benefit accruals.

Contractor Postretirement Benefits Other Than Pensions (PRB)

DOE adopted SFAS No. 106, Employers’ Accounting for                                   traditional indemnity plan, a PPO, an HMO, or similar plan.
Postretirement Benefits Other Than Pensions, beginning in                             Eighteen of these also have a point of service plan, an HMO, or
FY 1994 for contractor employees for whom DOE has a                                   similar plan. Four additional contractors have only a point of
continuing obligation. SFAS No. 106 requires that the cost of                         service plan, an HMO, or similar plan.
PRB be accrued during the years that the employees render
service. As of September 30, 1998, DOE has an accrued PRB                             Assumptions and methods
liability of $6,187 million. Prior to FY 1994, PRB costs,
consisting of predominantly retiree health care, were                                 In order to provide consistency among the various DOE
recognized as expenses when claims were paid. Generally, the                          contractors, certain standardized actuarial assumptions were
PRB plans are unfunded, and DOE’s funding policy is to fund                           used. These standardized assumptions include medical and
on a pay-as-you-go basis. There are 9 contractors, however,                           dental trend rates, discount rates, and mortality assumptions.
that are prefunding benefits in part as permitted by law.
                                                                                      The following specific assumptions and methods were used in
DOE’s contractors sponsor a variety of postretirement benefits                        determining the PRB estimates:
other than pensions. Benefits consist of medical
(35 contractors), dental (14 contractors), life insurance                             The medical trend rates for under age 65 and the drug trend
(21 contractors), and Medicare Part B premium reimbursement                           rates for under age 65 and over age 64 for a point of service
(4 contractors). Thirty-one of the contractors sponsor a                              plan, an HMO, or similar plan, grade from 8.0 percent in 1997




68
Notes to the Financial Statements


down to 5.5 percent in 2002 and later, and the medical trend                   The weighted average discount rates used to determine the
rates for over age 64 grade from 6.75 percent in 1997 down to                  accumulated postretirement benefit obligation as of September
5.5 percent in 2002 and later. The medical trend rates for                     30, 1998 and 1997 were 6.5 percent and 7.0 percent,
under age 65 and the drug trend rates for under age 65 and over                respectively.
age 64 for a PPO, a traditional indemnity plan, or similar plan,
grade from 10.0 percent in 1997 down to 5.5 percent in 2002                    Straight line amortization of unrecognized prior service cost
and later, and the medical trend rates for over age 64 grade                   over the average remaining years of service to full eligibility for
from 8.75 percent in 1997 down to 5.5 percent in 2002 and                      benefits of the active plan participants and the minimum
later. The dental trend rates at all ages grade down from 7.0                  amortization of unrecognized gains and losses were used. DOE
percent in 1997 to 5.5 percent in 2002 and later.                              chose immediate recognition of the transition obligation
                                                                               existing at the beginning of FY 1994.
The weighted average discount rates of 7.0 percent for FY
1998 and 7.75 percent for FY 1997 were used, and the average                   Table 3 sets forth the components of the accumulated
long-term rate of return on assets was 7.11 percent in FY 1998                 postretirement benefit obligation, plan assets, and a
and 7.36 percent in FY 1997 in determining the net periodic                    reconciliation of the funded status to the accrued postretirement
postretirement benefit cost. The rate of compensation increase                 benefit liability. Table 4 sets forth the components of net
was the same rate as each contractor used to determine pension                 periodic postretirement benefit cost. Table 5 sets forth the
contributions.                                                                 effect of a one percentage point increase in the assumed health
                                                                               care cost trend rates for each future year.




                                                                                                                (in millions)
   Table 3                                                                          September 30, 1998                  September 30, 1997
   Accumulated Postretirement Benefit Obligation (APBO):
     Fully eligible actives                                                                         ($855)                               ($750)
     Other actives                                                                                 (1,950)                              (1,850)
     Retirees                                                                                      (2,588)                              (2,539)
   Total APBO                                                                                     ($5,393)                             ($5,139)
   Plan assets                                                                                         125                                  126
   Funded status                                                                                  ($5,268)                             ($5,013)
   Unrecognized prior service cost                                                                   (138)                                 (98)
   Unrecognized (gain)/loss                                                                          (781)                                (875)
   Accrued postretirement benefit liability                                                       ($6,187)                             ($5,986)



                                                                                                                (in millions)
   Table 4                                                                                        FY 1998                              FY 1997
   Net Periodic Postretirement Benefit Cost:
    Service cost                                                                                      $148                                $136
    Interest cost                                                                                      323                                  326
    Actual return on plan assets                                                                        (9)                                  (9)
    Net amortization and deferral                                                                      (84)                               (105)
    Impact of curtailment                                                                               (9)                                (68)
   Total Net Periodic Postretirement Benefit Cost                                                     $369                                $280

    In 1998, curtailment gains were recognized at Bechtel Petroleum Operations, Inc., $7.4 million; Hanford Environmental Health Foundation, $.58 million;
    Rust Geotech Grand Junction, $.03 million; and Lockheed Martin Corporation Sandia Laboratories, $.86 million. A curtailment loss of $.05 million was
    recognized at Iowa State University Ames Laboratories for an early retirement window.




                                                                                                                                                             69
                                                                                 Department of Energy FY 1998 Accountability Report


                                                                                  (in millions)
     Table 5
     Trend Rate Sensitivity
                                                                               Base                  1% Trend
                                                                           Valuation                  Increase
     Service Cost plus Interest Cost for health care benefits                  $427                      $506
     APBO as of Sep. 30, 1998 for health care benefits                       $4,829                    $5,587




15. Other Unfunded Liabilities                                                                                              (in millions)

                                                                                                                       FY 1998    FY 1997

                                                                Environment, safety and health compliance activities    $1,694       $796
                                                                United States Enrichment Corporation                         0        242
                                                                Capital leases                                              41        103
                                                                Accrued annual leave of Federal employees                   94         95
                                                                Other                                                      105         96

                                                                  Total other unfunded liabilities                      $1,934     $1,332


Environment, Safety and Health Compliance Activities                      Gaseous Diffusion Plants (GDPs) into compliance with Nuclear
                                                                          Regulatory Commission standards (i.e., nuclear safety
DOE’s unfunded environment, safety and health liability                   upgrades). DOE also agreed to assume the costs for closing
represents those activities necessary to bring facilities and             out the Determination Order transferring DOE’s uranium
operations into compliance with existing environmental, safety            enrichment function to USEC. Accordingly, a $242 million
and health (ES&H) laws and regulations (e.g., Occupational                liability was established in FY 1997. On May 18, 1998, DOE
Safety and Health Act; Clean Air Act; Safe Drinking Water                 signed an amendment to the December 1994, MOA whereby
Act). Types of activities included in the estimate relate to the          DOE would transfer 3.8 million KgU of natural uranium and 45
following: upgrading site wide fire and radiological programs;            metric tons of low enriched uranium to USEC in full
nuclear safety upgrades; industrial hygiene and industrial safety;        satisfaction of DOE’s liabilities with respect to the nuclear
safety related maintenance; emergency preparedness programs;              safety upgrades and the Determination Order. A second
life safety code improvements; and transportation of radioactive          amendment to the December 1994, MOA was also signed on
and hazardous materials. The estimate covers corrective                   May 18, 1998. This amendment provided for DOE to transfer
actions expected to be performed in future years for programs             an additional 0.8 metric tons of highly enriched uranium, valued
outside the purview of DOE's Environmental Management                     at approximately $35 million, to USEC. DOE in turn received
(EM) Program. ES&H activities within the purview of the EM                an offsetting credit against amounts owed USEC for services
program are included in the environmental liability estimate.             they provided at the two GDPs. Both transfers were effected in
The increase in the ES&H liability is largely attributable to (1)         May 1998.
additional corrective actions, activities, or programs, that are
required to improve the facilities’ state of compliance and move          Capital Leases
them toward full compliance or conformance with all
applicable ES&H laws, regulations, agreements, and DOE                    DOE’s contractors lease facilities, machinery, equipment and
Orders and (2) revised costs estimates for existing ES&H                  other assets. The assets under capital leases are recorded at the
activities.                                                               lesser of the present value of minimal lease payments or the fair
                                                                          value of the assets. Unfunded capital lease liabilities generally
United States Enrichment Corporation                                      reflect lease agreements in effect prior to FY 1993. Subsequent
                                                                          capital leases, except for telecommunications and certain
In December 1994, DOE and USEC signed a memorandum of                     computer leases, are required to be funded by existing
agreement (MOA) relating to the transfer of functions and                 appropriations.
activities from DOE to USEC. The MOA provides for DOE to
reimburse USEC for costs associated with bringing two




70
Notes to the Financial Statements



16. Contingencies

DOE is a party in various administrative proceedings, legal          obligation. Indiana Michigan Power Co. v. U.S.
actions and tort claims which may ultimately result in               Department of Energy, 88 F.3d 1272 (D.C. Cir. 1996). In
settlements or decisions adverse to the Federal government.          addition, the Northern States decision precludes DOE from
DOE has accrued contingent liabilities where losses are              invoking the unavoidable delays clause of the Standard
determined to be probable and the amounts can be estimated.          Contract; and from asserting traditional sovereign acts
Other significant contingencies exist where a loss is reasonably     defenses in any suits for damages in the Court of Federal
possible, or where a loss is probable and an estimate cannot be      Claims. DOE did not appeal the decision in the Indiana
determined. In some cases, a portion of any loss that may occur      Michigan case. DOE and the State of Michigan filed
may be paid from Treasury’s Judgment Fund. The following             petitions for certiorari in the Northern States case, which the
are other significant contingencies:                                 Supreme Court denied on November 30, 1998.

C Toxic Releases from DOE’s Facilities - DOE’s contractors           The Indiana Michigan and Northern States cases do not
  are defendants in a number of class action suits arising from      have a direct impact on the Nuclear Waste Fund (NWF)
  alleged environmental contamination of air, water, and soil        because no contractual damages were sought and the court
  affecting communities surrounding various DOE facilities.          denied equitable relief, such as an escrow of funds. All
  Collectively, in the most significant cases involving facilities   other cases discussed in this section, however, are based on
  at Rocky Flats, Colorado; Hanford, Washington;                     the holdings in these two cases. It is too early to evaluate
  Brookhaven, New York; Paducah, Kentucky; and Mound                 the ultimate impact on OCRWM of claims based on the
  and Piketon, Ohio, the claimants seek in excess of $2,100          decisions in the Indiana Michigan and Northern States
  million in damages. DOE’s contractors are vigorously               cases. Resolution of any such claims will involve highly
  contesting all of these cases, and an evaluation of the likely     fact-specific and individualized decisions about the costs
  outcome of these claims cannot be estimated at this time.          incurred by each contract holder as a result of the delay of
                                                                     the Department in meeting its obligation under the Standard
C Human Radiation Experiments - DOE and its contractors              Contract. The potential impact, however, is significant.
  are the defendants in a number of individual and class action      The Department has estimated possible damages to be
  suits, as well as administrative claims, arising from past         between $500 million and $1 billion if all utilities filed
  human radiation experiments allegedly sponsored or carried         claims. Some utilities’ representatives have estimated
  out by the Federal government. In the aggregate, the               damages totaling $45 billion.
  remaining claims seek more than $400 million in damages.
  Due to the preliminary nature of many of these matters, an         Claims based on the decisions in the Indiana Michigan and
  evaluation of the likely outcomes of these claims cannot be        Northern States cases could impact the NWF in one of two
  estimated at this time. While the cases will be vigorously         ways. First, if a court determines a contract holder can and
  contested, possibilities of settlement will also be pursued.       must pursue its contractual remedies and proceed under the
                                                                     delays clause of the Standard Contract, the contract holder
C DOE’s Waste Acceptance Obligation                                  may be found eligible to receive equitable adjustments of its
                                                                     on-going nuclear waste fees. This “equitable adjustment” of
   The Office of Civilian Radioactive Waste Management               fees would reduce revenues to the NWF. Alternatively, if a
   (OCRWM) is involved with various matters of litigation            court determines a contract holder can pursue a damage suit
   relating to its obligation in a standard contract (Standard       for breach of contract, the contract holder may obtain a
   Contract) with utilities to initiate waste acceptance by          judgment against the Department for money damages. It is
   January 31, 1998, the date specified in Nuclear Waste             unclear whether such a judgment would be paid out of the
   Policy Act of 1982 (NWPA), as amended. A summary of               Judgment Fund, the NWF, or some other source of funds. If
   those actions is included below.                                  a judgment were paid out of the Judgment Fund, there is a
                                                                     possibility the Judgment Fund would ultimately be
   Indiana Michigan and Northern States Cases                        reimbursed by the NWF or other funds appropriated to the
                                                                     Department. If the size of the NWF were to be substantially
   The Court of Appeals for the District of Columbia Circuit         affected by either equitable adjustments or payments of
   has ruled that the Standard Contract (1) imposes an               judgments, the Department might then be obligated to
   unconditional obligation on DOE to initiate waste                 propose fee adjustments pursuant to the NWPA’s “full cost
   acceptance by January 31, 1998, and (2) offers a potentially      recovery” provision, 42 U.S.C. 10222(a)(4). Any such fee
   adequate remedy for the failure of DOE to meet this




                                                                                                                                 71
                                                                           Department of Energy FY 1998 Accountability Report


     adjustments would be “across the board” and applicable to            administrative claim with the contracting Officer for the
     all utilities with currently operating reactors.                     Standard Contract.

     Pending Cases: U.S. Court of Appeals for the District of             Pending Cases: U.S. Court of Federal Claims
     Columbia Circuit
                                                                          As discussed in more detail below, several utilities have
     As discussed in detail below, several utilities have brought         brought cases in the U.S. Court of Federal Claims that
     cases in the U.S. Court of Appeals for the District of               contain claims based on the decisions in the Indiana
     Columbia that contain claims based on the decisions in the           Michigan and Northern States cases. In the first three cases,
     Indiana Michigan and Northern States cases. The                      the Court of Federal Claims has found that the Department
     Department believes that, after the exhaustion of any                has breached its contracts with the three utilities, each of
     administrative remedies under the Standard Contract, the             which has only one shutdown reactor, and that no
     U.S. Court of Federal Claims is the proper venue for claims          contractual remedy exists because these utilities are not
     based on the decisions in the Indiana Michigan and                   paying ongoing fees. The Department currently is engaged
     Northern States cases and anticipates that the Court of              in discovery to determine the amount of damages to be paid.
     Appeals will agree with this view. If, however, the Court of         It is too early to evaluate the ultimate amounts of the
     Appeals permits these claims to proceed, it is too early to          judgments against the Department in these cases. As
     evaluate their likely outcome. As discussed previously, a            discussed previously, these judgments could affect the
     judgment against the Department could affect the NWF.                NWF.

     Consolidated Edison Company of New York v. U.S.                      In the other seven cases, the Court of Federal Claims has not
     Department of Energy, case no. 98-1358.                              issued any final decisions. The Department is taking the
                                                                          position in these cases that the utilities, which have operating
     Several utilities filed a petition for review of the                 reactors and are subject to the payment of ongoing fees, must
     Department’s fee adequacy determination. In addition, they           exhaust the administrative process at the Department before
     sought leave to file a complaint in the D.C. Circuit seeking         filing suit in the Court of Federal Claims. It is unclear whether
     damages and specific relief for the Department’s failure to          there ultimately will be a contractual remedy or a court
     commence disposal of their spent nuclear fuel. These cases           judgment in any of these cases. As discussed previously, an
     were held in abeyance pending disposition by the U.S.                equitable adjustment of fees or a judgment against the
     Supreme Court of petitions for certiorari filed in Northern          Department could affect the NWF.
     States, as discussed above. The denial of certiorari on
     November 30, 1998, has revived the cases. The utilities              Yankee Atomic Electric Co. v. United States, case no. 98-
     have filed a motion for appointment of a special master to           126C, Connecticut Yankee Atomic Power Company v.
     hear the case which the Department opposed. Briefing of              United States, case no. 98-154C, and Main Yankee Atomic
     jurisdictional issues will begin in January 1999.                    Power Company v. United States, case no. 98-474C.

     General Electric Company v. U.S. Department of Energy,               On February 18, 1998, the Yankee Atomic Electric
     case no. 98-1356; Arizona Public Service Commission v.               Company filed suit for damages in the amount of $70
     U.S. Department of Energy, consol. cases no. 98-1346 and             million associated with the extended storage of 127 metric
     98-1348.                                                             tons of spent nuclear fuel onsite at its shutdown nuclear
                                                                          plant in Massachusetts. Yankee asserted that, while it had
     These cases involve petitions filed in the Court of Appeals          paid the contractual fees in full, the Department did not
     for review of the Department’s failure to commence                   commence disposal by January 31, 1998, and had thus
     disposal of spent nuclear fuel in an attempt to ensure that          breached the Standard Contract. The Department argued
     the decision in the Northern States case applies to utilities        that any delay in performance was redressable under the
     that were not parties to that case. On January 5, 1999, the          avoidable delays clause of the Standard Contract and that
     Court of Appeals ordered the petitioners to show cause why           Yankee’s sole remedy is a claim for equitable adjustment
     their petitions should not be dismissed in light of the              through administrative procedures described in the contract,
     decision in the Northern States case that the Standard               as opposed to a suit for damages based on a breach of
     Contract provides a potentially adequate remedy. While the           contract claim.
     Department believes it is likely the petitions will be
     dismissed, it is possible the utilities then will file suit in the   On October 29, 1998, the U.S. Court of Federal Claims
     United States Court of Federal Claims or pursue an                   found that the utility need not exhaust its contractual
                                                                          remedies and that the Department was in breach of contract.




72
Notes to the Financial Statements


It therefore granted summary judgment for Yankee on the issue           of these cases, the potential government liability from these
of the government’s liability. The Court also stated that, where        cases could be substantial but most likely considerably less
complete relief is not available under a contract, the                  than the $4 billion claimed in the complaints. As discussed
controversy is not limited to administrative remedies in the            previously, an equitable adjustment of fees or a judgment
contract (“Disputes” clause) and may be tried in court. The             against the Department could affect the NWF.
Court found that statutory restrictions on the adjustment of the
one-time fee precluded the Department from retroactively                Should the Department not prevail on its motion to dismiss
adjusting Yankee’s charges to reflect its onsite storage costs          for the utilities’ failure to exhaust their administrative
and that the Department’s authority to make expenditures from           remedies, it is likely that many more utilities will file similar
the NWF was restricted to specifically listed activities which do       suits for damages. If the Department does prevail, it is
not include paying the costs of onsite storage.                         likely that the seven utilities, as well as many other utilities,
                                                                        would file administrative claims with the Department’s
   Similar suits had been filed by Connecticut Yankee and               Contracting Officer.
   Main Yankee seeking $90 million and $128 million
   respectively for the Department’s failure to remove spent         C Natural Resource Damage Claims - DOE is disclosing a
   nuclear fuel from their shutdown reactor sites. On October          contingency for potential natural resource damage (NRD)
   30, 1998, and November 3, 1998, the U.S. Court of Federal           claims filed under the Comprehensive Environmental
   Claims issued orders finding that, for the same reasons             Response, Compensation, and Liability Act. Such liabilities
   stated in the Yankee Atomic decision, the Department is             could result from potential claims filed against DOE for
   contractually liable to the utilities.                              natural resource injuries, primarily those remaining at DOE
                                                                       facilities after cleanup. Although any estimate of such
   The next phase of the “Yankee” cases will determine the             liability is by necessity extremely speculative, the estimated
   damages payable. While it is not expected that the utilities        range of DOE’s NRD liability is $1,400 million to $2,500
   will receive all of the damages that they seek, potential           million.
   government liability from these three cases could be in the
   tens of millions of dollars. As discussed previously, these          Notwithstanding the potential for such claims, there neither
   judgments could affect the NWF.                                      are currently pending claims against DOE nor have there
                                                                        been any successful NRD claims against DOE. DOE’s
   Northern States Power Company v. United States, case no.             practice of addressing natural resource injuries during the
   98-484C; Commonwealth Edison Company v. United                       remedy selection process should limit the exposure to
   States, case no. 98-621C; Southern Nuclear Operating                 potential NRD claims. DOE has initiated other efforts as
   Company, including Alabama Power Company and Georgia                 well that are intended to minimize the potential for NRD
   Power Company v. United States, case no. 98-614C; Duke               claims. These efforts include: creating site-specific advisory
   Power, a Division of Duke Energy Corporation v. United               boards at its facilities; ensuring participation of interested
   States, case no. 98-485C; Florida Power and Light                    parties in the remedial planning process; and forming
   Company v. United States, case no. 98-483C; Indiana                  natural resource trustee councils at facilities where there is
   Michigan Power Company v. United States, case no. 98-                sufficient interest. In view of the foregoing, DOE currently
   486C; Sacramento Municipal Utility District v. United                considers estimating its potential NRD liability speculative
   States, case no. 98-488C.                                            and any potential payment less than probable but reasonably
                                                                        possible. Therefore, DOE has not recognized such a
   In addition to the “Yankee” cases, seven other utilities, most       liability in its financial statements to date.
   with currently operating reactors, have filed suits in the U.S.
   Court of Federal Claims seeking damages totaling over $4          C Tenaska Claim - In FY 1995, the Tenaska Washington
   billion. In several of these cases, the utilities have motions      Partners (Tenaska) and Chase Manhattan Bank (Chase)
   for summary judgment on contract liability pending that are         filed suit against the Bonneville Power Administration
   similar to those filed in the “Yankee” cases. In opposition,        (BPA) for breach of contract and lost revenues. In June
   the Department has filed motions to dismiss the cases on the        1996, BPA reached a settlement which resulted in a
   ground that the utilities have not exhausted their contractual      payment of $115 million by BPA to Chase. BPA settled
   remedies by applying for equitable adjustment of their              with several subcontractors of Tenaska for $38 million in
   ongoing fees. Depending on how the Court decides these              FY 1997. In FY 1998, BPA settled with Tenaska for
   cases, damages could be paid out of the Judgment Fund or            $158.6 million. BPA has now settled with all litigants of
   the NWF, or there could be an equitable adjustment of fees          the Tenaska suit and no further exposure exists.
   that would affect revenues currently being deposited into the
   NWF. While it is too early to evaluate the ultimate outcome




                                                                                                                                      73
                                                                              Department of Energy FY 1998 Accountability Report



17. Unexpended Appropriations                                                                                              (in millions)

                                                                                                          FY 1998            FY 1997
                                                   Unobligated
                                                      Available                                                 $2,690            $3,358
                                                     Unavailable
                                                      Bonneville
                                                       Unapportioned
                                                                 PowerNaval
                                                                      Administration
                                                                            Petroleum Reserves receipts          (890)            (1,012)
                                                      Reimbursable work orders accepted in excess of
                                                        Unobligated
                                                      apportionment   reimbursable work orders accepted
                                                                    authority                                       365                 38
                                                      Naval
                                                       OtherPetroleum Reserves                                        2                426
                                                      Other                                                          17                 11
                                                         Total unavailable unobligated                          ($506)             ($537)
                                                              Total unobligated                                 $2,184            $2,821
                                                   Undelivered orders                                            6,264             6,231
                                                   Unfilled customer orders                                     (1,706)           (1,664)
                                                   Advances                                                       (252)             (227)
                                                   Revolving funds                                                  (27)               (13)
                                                   Apportioned not available                                         85                 88
                                                   Power Marketing Administrations                                (691)             (720)
                                                   Funded environmental liabilities                               (918)           (1,148)
                                                     Total unexpended appropriations                           $4,939             $5,368


FY 1997 unobligated, unfilled and undelivered orders were restated as a result of corrections to a prior period misclassification of
non-Federal reimbursable work orders accepted without advances as budgetary resources.




74
Notes to the Financial Statements



18. Supporting Schedule of Net Cost for Energy Resources                                                                      (in millions)

                                                                                                      FY 1998                    FY 1997

                    Utility Technology
                       Program Cost                                                                 $329                        $326
                       Less Earned Revenues                                                          --                           (1)
                                                                                                                 $329                      $325
                    Building Technology                                                                           310                       144
                    Federal Energy Management Program                                                              23                        25
                    Industrial Technology                                                                         163                       148
                    Transportation Technology                                                                     256                       244
                    Coal Research and Development                                                                 116                       164
                    Petroleum Reseach and Development                                                              66                        86
                    Gas Reseach and Development                                                                   128                       147
                    Clean Coal Technology                                                                          93                       115

                    Strategic Petroleum Reserve
                       Operating Costs                                                              $209                        $216
                       Cost of Oil Sold                                                              --                          241
                       Less Earned Revenues                                                          --                         (220)
                           Net Cost of Strategic Petroleum Reserve                                                209                       237

                    Naval Petroleum Reserves
                       Operating Costs                                                                $47                       $187
                       Less Earned Revenues                                                           (11)                      (491)
                       Net Operating Revenue of Naval Petroleum Reserves                              $36                      ($304)
                       Less Net Gain from Sale of NPR-1                                            (2,848)
                           Net Revenue of Naval Petroleum Reserves                                              (2,812)                    (304)


                    Power Marketing Administrations
                       Cost of Sales                                                               $3,063                     $2,718
                       Less Earned Revenues                                                        (3,114)                    (3,015)
                           Net Revenue of Power Marketing Administrations                                         (51)                  ($297)
                    Other Energy Resources Activities                                                              45                      73
                    Less Other Earned Revenues                                                                      (2)                       0

                       Total Energy Resources Net Costs (Revenues)                                           ($1,127)                   $1,107




ENERGY RESOURCES ACTIVITIES - encourage energy efficiency; advance alternative and renewable energy technologies;
increase energy choices for all consumers; assure adequate supplies of clean, conventional energy; and reduce U.S. vulnerability to
external energy supply disruptions.

Utility Technology - research and development programs that                 Federal Energy Management Program - Reduction in the cost of
contribute to strengthening the Nation’s energy security,                   government by advancing energy efficiency and water
providing a cleaner environment, enhancing global sales of                  conservation, and the use of solar and other renewable energy
U.S. energy products, and increasing industrial competitiveness             as a means to reduce energy costs. Major emphasis is placed
and Federal technology transfer. Activities range from basic                on using private sector investments to retrofit Federal facilities
cost-shared research in universities and national laboratories to           using energy savings performance contracting, thus stretching
applied research, development, and field validations in full                Federal leveraging to the maximum.
partnership with private sector manufacturers.
                                                                            Industrial Technology - cost shared research in critical
Building Technology - research and development to improve                   technology areas identified by industry, with focus on high-risk
the energy efficiency of appliances, building equipment, and the            but promising technologies that decrease industry’s use of raw
building envelope complemented by programs designed to                      materials and depletable energy and reduce their generation of
move advanced technologies into the marketplace and produce                 wastes and pollutants.
near-term energy savings with associated economic and
environmental benefits.




                                                                                                                                              75
                                                                       Department of Energy FY 1998 Accountability Report


Transportation Technology - development and                        Net Gain from the Sale of (NPR-1)
commercialization of transportation technologies which can
radically alter current projections of U.S. and world demand for   As required by the FY 1996 National Defense Authorization
energy, particularly oil, and reduce the associated                Act, DOE sold its interest in NPR-1. It was originally set aside
environmental impacts such as greenhouse gas emissions.            to ensure a future source of crude oil for the U.S. Navy. The
                                                                   field no longer served a national security purpose and was in
Coal Research and Development - research and development of        commercial production since Congress authorized its
coal technologies to meet future national energy and               development in 1976.
environmental demands and to position the U.S. coal industry
to respond to growing export market opportunities while            The sale of NPR-1 to Occidental Petroleum Corporation was
maintaining our national energy security.                          completed in February 1998. The sale agreement provides that
                                                                   Occidental receive the net economic benefit of DOE’s
Petroleum Research and Development - research and                  continued operation of NPR-1 from October 1, 1998 until the
development of increased domestic oil production technology,       closing date of the transaction. As such, the $151 million of
enhanced processing and utilization technologies, and reservoir    revenue and $31 million of expenses related to DOE’s
life extension.                                                    operation of NPR-1 during FY 1998 are reflected as a
                                                                   component of the net gain on the sale. In addition, pursuant to
Gas Research and Development - research and development of         Congressional directive, 9 percent of the net sale proceeds was
natural gas exploration, production, processing, and storage       set aside in a special Treasury account (Elk Hills School Land
technologies.                                                      Fund) and will be paid out to the State of California over a
                                                                   seven-year period. DOE will adjust the amount in this fund
Clean Coal Technology - joint Federal and private industry         once all divestment related expenses have been paid. Also, as
development of promising advances in coal-based technologies       part of DOE’s termination agreement with Chevron, $323
and demonstration of commercial marketplace potential.             million of the sales proceeds were placed in an escrow fund.
                                                                   Likewise, Chevron has provided DOE with a $215 million
Strategic Petroleum Reserve - operation and maintenance of the     letter of credit. These two reserves will assure each party that
U.S.’s emergency stored oil supply at five sites in Texas and      funds will be available when a final determination is made on
Louisiana. During FY 1997, DOE sold 10.2 million barrels of        the settlement of NPR-1 partnership equities. The following
oil from the Strategic Petroleum Reserve. The $220 million         schedule reflects the computation of the net gain on this sale.
proceeds from this sale were returned to Treasury.
                                                                                                                          FY 1998

Naval Petroleum Reserves - The Naval Petroleum and Oil
                                                                              Sales price                                     $3,650
Shale Reserves consist of three government-owned oil fields
and three oil shale reserves in the western United States. Naval              Cost of sales

Petroleum Reserve No. 1, Elk Hills, is jointly owned by the                      Commissions and divestiture expenses            20
United States Government and Chevron USA Inc. (Chevron).                         Elk Hills School Land Fund                     298
It is located about 35 miles west of Bakersfield in Kern                         Net book value of assets sold                  484
County, CA, ranks among the 11 largest domestic producing oil                       Total cost of sales                        $802
fields in the lower 48 States, and is one of the Nation's top 10              Gain on Sale of Elk Hills                       $2,848
producing gas fields.

Crude oil, natural gas, and natural gas liquids produced from      Power Marketing Administrations
the Naval Petroleum Reserves are sold to public customers at
bid prices. Proceeds from these sales and royalties from leased    DOE’s power marketing administrations market electricity
acreage are returned to Treasury.                                  generated primarily by Federal hydropower projects.
                                                                   Preference for the sale of power is given to public bodies and
The Naval Petroleum Reserves’ lands were set aside in the          cooperatives. Revenues from selling power and transmission
early 1900's by the U.S. Government. Therefore, no value has       services are used to repay Treasury annual appropriations and
been recorded for the crude oil and gas reserves underlying        maintenance costs, repay the capital investments with interest,
these lands and no costs are reflected for the depletion of the    and assist capital repayment of other features and certain
reserves.                                                          projects.




76
Notes to the Financial Statements



19. Supporting Schedule of Net Cost for National Security                                                                     (in millions)

                                                                                                     FY 1998                 FY 1997

            Stockpile Stewardship                                                                     $ 1 ,6 8 6                    $1,514
            Stockpile Management                                                                        2,390                        2,678
            Verification and Control T echnology                                                           547                         494
            Uranium Programs - Downblend HEU at Portsmouth                                                   33                         19
            International Nuclear Safety                                                                     82                        104
            Naval Reactors                                                                                 680                         728
            Nuclear Safeguards and Security                                                                  96                         87
            Emergency Management/Preparedness                                                                31                         27
            Worker and Community Transition                                                                  69                         92
            Fissile Materials Disposition                                                                  109                          95
            Russian Origin Uranium Sales
                Cost of Sales                                                                  $3                            $38
                Less Earned Revenues                                                           (3)                           (41)
                                                                                                              0                         (3)

               To t a l N a t i o n a l S e c u r i t y N e t C o s t s                               $ 5 ,7 2 3                    $5,835


NATIONAL SECURITY ACTIVITIES - effectively support and maintain a safe and reliable enduring nuclear weapons
stockpile without underground nuclear testing; safely dismantle and dispose of excess weapons; and provide technical leadership
for national and global nonproliferation activities.

Stockpile Stewardship - research, development, and                        International Nuclear Safety - enhance the safety of Soviet-
engineering support necessary to maintain a safe and reliable             designed nuclear power plants, help host countries upgrade
U.S. nuclear weapons stockpile, which requires sustaining core            their nuclear safety cultures and supporting infrastructures,
competencies, nuclear weapons laboratories, and the Nevada                reduce the proliferation threats posed by plutonium and highly
Test Site, and enhancing computational and simulation                     enriched uranium (HEU) materials available in Russia and
capabilities.                                                             other states of the Former Soviet Union and cooperate and
                                                                          coordinate with other Departmental Offices and Government
Stockpile Management - physical maintenance of the U.S.                   Agencies in the implementation of U.S. Non-Proliferation
nuclear weapons stockpile, including: continual surveillance              Policy by increasing confidence that Russian Low Enriched
and retirement and disposal of weapons: pursuing a dual-track             Uranium (LEU) sold to the United States Enrichment
new tritium source: maintaining a worldwide                               Corporation (USEC) is derived from HEU removed from
nuclear/radiological accident response capability; and                    dismantled Russian nuclear weapons.
maintaining the infrastructure at the production plants.
                                                                          Naval Reactors - design, development, testing, and production
Verification and Control Technology - conduct research and                of safe, long-lived, militarily-effective nuclear power plants for
development to provide the science and technology required for            U.S. Navy ships and submarines, including over 120 operating
treaty monitoring, material control, and early detection and              reactors in nine different operational classes.
characterization of the proliferation of weapons of mass
destruction and special nuclear materials, including arms                 Nuclear Safeguards and Security - provide direction and
control treaty verification; intelligence collecting and                  training for protection of nuclear weapons, nuclear materials,
processing supporting Presidential arms control and                       classified information, and facilities, including related
nonproliferation initiatives; and provide intelligence support in         technology development, and directing classification and
assessing nuclear threats.                                                declassification activities.

Uranium Programs - Downblend HEU at Portsmouth -                          Emergency Management/Preparedness - control and direction
downblend HEU hexafluoride to low enriched uranium (LEU)                  to ensure comprehensive and integrated planning,
hexafluoride for use in filling the United States Enrichment              preparedness, and response capability for emergencies
Corporation (USEC) commercial orders for enrichment                       involving DOE operations or facilities.
services and safeguarding of all HEU material at the
Portsmouth site.




                                                                                                                                           77
                                                                            Department of Energy FY 1998 Accountability Report


Worker and Community Transition - mitigate adverse impact              purchased from the Russian Executive Agent. The Russian
on workers and communities resulting from restructuring,               HEU Agreement was executed to help meet U.S. nuclear
including local economic assistance for job-base conversion.           nonproliferation objectives as well as to provide greater
                                                                       economic stability to Russia A total of 5,521 metric tons of
Fissile Materials Disposition - provide safe, secure,                  natural uranium was transferred to DOE in December 1996, in
environmentally sound, and inspectable long-term storage of            accordance with a memorandum of agreement between USEC
weapons-usable fissile materials; disposal of surplus HEU and          and DOE.
plutonium; and technical support for U.S. initiatives to reduce
foreign surplus of weapons-usable plutonium.                           In accordance with the provisions of the Act, DOE must sell
                                                                       this uranium over a seven year period. During FY 1997, 1,446
Sale of Russian Origin Uranium                                         metric tons of this material were sold to Global Nuclear
                                                                       Services and Supply Limited (GNSS), the Russian Executive
Section 3112(b) of the USEC Privatization Act of 1996                  Agent’s representative. An additional 296 metric tons (99
provided that the United States Enrichment Corporation                 metric tons in FY 1998 and 197 metric tons as of November
(USEC), pursuant to the Russian HEU Agreement, transfer to             1998) has subsequently been sold to GNSS.
DOE the natural uranium equivalent associated with at least 18
metric tons of Russian origin highly enriched uranium



20. Supporting Schedule of Net Cost for Environmental Quality                                                             (in millions)

                                                                                              FY 1998                      FY 1997



                  Environmental Restoration                                                             $1,951                       $1,994
                  Waste Management                                                                       1,966                        2,044
                  Nuclear Materials and Facilities Stabilization                                         1,308                        1,455
                  Uranium Enrichment Decontamination and Decommissioning
                      Program Costs                                                          $298                         $234
                      Less Earned Revenues                                                    (98)                         (86)
                                                                                                          200                          148
                  Facility Safety                                                                          88                          103
                  Health Studies                                                                           75                           69
                  Civilian Radioactive W a s t e M a n a g e m e n t
                      Program Costs                                                          $406                         $342
                      Less Earned Revenues                                                   (198)                        (162)
                                                                                                          208                          180
                  Nuclear Technology Research and Development                                              14                           26
                  Termination Costs                                                                       108                          125
                  Uranium Programs                                                                         55                           60


                  Legacy Waste Cleanup Adjustment                                                       (5,632)                      (5,206)

                      Total Environmental Quality Net Costs                                              $341                         $998



ENVIRONMENTAL QUALITY ACTIVITIES - understand and reduce environmental, safety, and health risks and threats and
develop the technologies and institutions required for solving domestic and global environmental problems.

Environmental Restoration - in accordance with Federal and             Waste Management - provides for the safe treatment, storage,
State laws and other legal agreements, protects human health           and disposal of waste from operations. The different categories
and the environment from risks posed by inactive, surplus DOE          of waste managed by this program include high-level,
facilities and contaminated areas; conducts remediation                transuranic, mixed transuranic, low-level, mixed low-level,
activities, including both cleaning-up or containment of               uranium mill tailings, hazardous, sanitary, and special case
contamination including soil, ground water, and surface water;         waste.
and performs decommissioning of contaminated facilities
including reactors and chemical processing buildings.                  Nuclear Materials and Facilities Stabilization - provides for:
                                                                       stabilizing, consolidating, and storing special nuclear materials,




78
Notes to the Financial Statements


including plutonium and highly enriched uranium prior to final      Islands, the former Soviet Union, and Japan through the
disposition; deactivating surplus facilities to a safe and low      Radiation Effects Research Foundation.
maintenance condition while awaiting final decommissioning;
and managing spent nuclear fuel, including treatment and            Civilian Radioactive Waste Management - development and
storage. Integral to these functions is continuous surveillance     management of a permanent Federal depository for spent
and maintenance, which is required for safety and security.         nuclear fuel from civilian reactors and high-level radioactive
                                                                    waste from atomic energy defense activities in a manner that
Uranium Enrichment Decontamination and Decommissioning -            assures public and worker safety and protects the environment.
consists of remedial action and other related environmental         The Nuclear Waste Policy Act of 1982 requires DOE to assess
clean-up activities at sites leased and operated by the United      fees against owners and generators of high-level radioactive
States Enrichment Corporation, including DOE facilities at          waste and spent nuclear fuel to fund the costs associated with
these sites, and, additionally, provides for partial                management and disposal activities under Titles I and II of the
reimbursement of remediation costs attributable to other            Act. Fees assessed in FY 1998 and FY 1997 totaled $608
uranium and thorium purchased by the Federal government.            million and $585 million, respectively. An additional $5
Revenue from assessments against domestic utilities is              million was earned in FY 1997 from the net gains from
recognized when such assessments are authorized by                  activities related to the investment of Treasury securities.
legislation. Revenue recognized includes known adjustments          Adjustments are made annually to defer the recognition of
for transfers between utilities and other reconciliation            revenues until earned (i.e, as costs are incurred for the Civilian
adjustments. Increases in current and future assessments due to     Radioactive Waste Management program).
changes in the Consumer Price Index are recognized in each
fiscal year as such changes occur.                                  Nuclear Technology Research and Development - development
                                                                    of electrometallurgical technology for the treatment of DOE
Facility Safety - provides Departmental management with             spent nuclear fuel.
technical assistance and conducts independent oversight in
areas of nuclear safety, occupational health and safety,            Termination Costs - cost-effectively shut down terminated
environmental compliance implementation assistance including        Federal programs and conduct the activities necessary to place
the National Environmental Policy Act activities, safeguards        unneeded Federal nuclear research facilities into an industrially
and security, and safety assistance. These are the bases for such   and radiologically safe shutdown condition.
initiatives as the Integrated Safety Management System
formulated for improving safety DOE-wide.                           Uranium Programs - manage the Department’s excess uranium
                                                                    and depleted uranium hexafluoride inventories, pre-existing
Health Studies - include Occupational Medicine which is             contractual liabilities, and maintain nonleased facilities in a safe
medical surveillance of current and former workers,                 and environmentally sound condition.
Epidemiologic Studies which is surveillance of worker injury
and illnesses, Public Health Activities which encompasses           Legacy Waste Cleanup Adjustment - operating expenditures
health studies, health education, and other health related          related to legacy waste cleanup activities which represent a
activities at DOE sites, International Health Programs which        reduction of DOE’s environmental liabilities. These costs are
provide health related studies and activities in the Marshall       excluded from current year program expenses since the
                                                                    expense was accrued in prior years when DOE recorded the
                                                                    environmental liabilities.




                                                                                                                                     79
                                                                         Department of Energy FY 1998 Accountability Report



21. Supporting Schedule of Net Cost for Science and Technology                                                          (in millions)


                                                                                    FY 1998                      FY 1997


        Biological and Environmental Research                                                  $387                         $366
        Fusion Energy Sciences
           Program Costs                                                           $233                        $246
           Less Earned Revenues                                                      (1)                        --
                                                                                                232                          246
        Basic Energy Sciences                                                                   655                          671
        High Energy Physics                                                                     639                          596
        Nuclear Physics                                                                         258                          275
        Computational and Technology Research                                                   156                          157
        Superconducting Super Collider                                                             6                          (17)
        Small Business Innovative Research/Technology Transfer                                   94                           93
        University and Science Education                                                           4                          14
        Technical Information Management Program                                                 10                           13
        University Nuclear Science and Reactor Support                                             8                            4
        Advanced Radioisotope Power System                                                       32                           38
        Isotope Production and Distribution
           Program Costs                                                            $34                          $31
           Less Earned Revenues                                                     (12)                         (11)
                                                                                                 22                           20
        Technology Development                                                                  261                          357
        Environmental Sciences                                                                   79                           60
        Other Energy Research Activities                                                          2                            4

        Legacy Waste Cleanup Adjustment                                                         (275)                        (346)

           Total Science and Technology Net Costs                                             $2,570                       $2,551



SCIENCE AND TECHNOLOGY ACTIVITIES - provide science and tools needed to develop energy technology options, to
understand the health and environmental implications of energy activities, and to understand the fundamental nature of energy and
matter; provide large scale facilities required in natural sciences to ensure U.S. leadership in the search for knowledge; and apply
research and development competencies to help ensure the availability of scientific talent.

Biological and Environmental Research - fundamental science         High Energy Physics - research to understand the nature of
in the pursuit of understanding the consequences to health and      matter and energy at the most fundamental level, as well as the
the environment of energy production, development, and use,         basic forces which govern all processes in nature, that requires
including DOE’s support of the national Human Genome and            accelerators and detectors utilizing state-of-the-art technologies
Global Climate Change programs, and providing unique                in many areas, including fast electronics, high speed computing,
national user facilities for the scientific community.              superconducting magnets, and high power radio-frequency
                                                                    devices.
Fusion Energy Sciences - research and development needed for
an economically and environmentally attractive fusion energy        Nuclear Physics - research to understand the structure and
source, namely advancing plasma science, developing fusion          properties of atomic nuclei and the fundamental forces between
science, technology, and plasma confinement innovations, and        the constituents that form the nucleus. Nuclear processes
pursuing fusion energy science and technology as a partner in       determine essential physical characteristics of our universe and
the international effort.                                           the composition of the matter that forms it.

Basic Energy Sciences - fundamental research on materials           Computational and Technology Research - research that
sciences, chemical sciences, geosciences, biosciences, and          extends from fundamental investigations to technology
engineering sciences that underpins the DOE missions in             development, which includes high performance computing and
energy and the environment, that advances energy related basic      communications, information infrastructure, advanced energy
science on a broad front, and that provides unique national user    concepts, and technology transfer research.
facilities for the scientific community.




80
Notes to the Financial Statements


Superconducting Super Collider - expenditures are for the          Advanced Radioisotope Power System - development,
orderly termination of this activity.                              demonstration, testing, and delivery of radioisotope power
                                                                   systems.
Small Business Innovative Research/Small Business
Technology Transfer - DOE-supported research and                   Isotope Production and Distribution - serve the national need
development of energy related technology that will significantly   for a reliable supply of isotope products and services for
benefit U.S. businesses, including a pilot technology transfer     medicine, industry, and research by developing new or
program initiative.                                                improved isotope products and services that enable medical
                                                                   diagnoses and therapy, and other applications that are in the
University and Science Education - provides assistance in          national interest.
science education (precollege through postdoctoral), including
reactor fuel assistance, scientific instrumentation, and           Technology Development - research and development of new
technology transfer.                                               more effective and less expensive technological remedies to the
                                                                   environmental and safety problems of the Environmental
Technical Information Management Program - activities to           Management Program. The new technologies are necessary to
direct, coordinate, and implement the management and               reduce risks to humans and the environment, reduce cleanup
dissemination of scientific and technical information resulting    cost, and resolve significant related problems for which no
from DOE research and development and environmental                solutions currently exist. Operating expenditures related to
programs. The program also provides worldwide energy               legacy waste cleanup activities represent a reduction of DOE’s
information to the DOE, U.S., industry, academia, and the          environmental liabilities and are therefore reflected as a legacy
public through scientific and technical information exchange       waste cleanup adjustment. These costs are excluded from
agreements.                                                        current year program expenses since the expense was accrued
                                                                   in prior years when DOE recorded the environmental liabilities.
University Nuclear Science and Reactor Support - maintain the
capability in the U.S. to conduct research, address pressing       Environmental Sciences Program - provides strategic basic
environmental challenges, and preserve the nuclear energy          research to strengthen the Office of Environmental
option.                                                            Management’s basic science and engineering activities through
                                                                   a competitive process offered to the DOE national laboratories,
                                                                   academic, and industrial organizations. The program will lead
                                                                   to long-term reduced cleanup costs and risks to workers and the
                                                                   public.




                                                                                                                                   81
                                                                         Department of Energy FY 1998 Accountability Report



22. Supporting Schedule of Net Cost for Other Programs                                                                     (in millions)

                                                                                      FY 1998                      FY 1997


            Inspector General                                                                   $27                             $31
            Energy Information Administration                                                    68                              75
            Federal Energy Regulatory Commission
               Program Costs                                                         $192                         $185
               Less Earned Revenues                                                  (192)                        (208)
                                                                                                  0                             (23)


            Reimbursable W o rk Programs
               Program Costs
                   Intragovernmental                                                $1,300                      $1,321
                   Public                                                              212                         136
               Less Earned Revenues
                  Intragovernmental                                                 (1,258)                      (1,249)
                   Public                                                             (210)                       (127)
                                                                                                 44                              81
            Services Provided for the U.S. Enrichment Corporation
               Program Costs                                                         $323                         $521
               Less Earned Revenues
                   Intragovernmental                                                 (324)                        (515)
                                                                                                 (1)                              6
            Technology Transfer Activities
               Program Costs                                                          $82                          $66
               Less Earned Revenues                                                   (85)                         (60)
                                                                                                 (3)                              6
            Other Goods and Services Provided
               Program Costs
                  Intragovernmental                                                   $22                          $20
                   Public                                                              39                           54
               Less Earned Revenues
                   Intragovernmental                                                   (29)                         (30)
                   Public                                                              (48)                         (55)
                                                                                                (16)                            (11)
            Other Programs
               Program Costs                                                          ($10)                        $13
               Less Earned Revenues                                                    (25)                          (7)
                                                                                                (35)                              6

               Total Other Programs Net Costs                                                   $84                            $171




Office of Inspector General                                         and the general public. Information disseminated includes data
                                                                    on energy reserves, production, distribution, consumption,
The Office of Inspector General conducts investigations, audits,    prices, technology, and related international economic and
and inspections to detect and prevent fraud, abuse, and             financial market information.
violations of law, and promotes economy, efficiency, and
effectiveness of DOE operations.                                    Federal Energy Regulatory Commission

Energy Information Administration                                   The Federal Energy Regulatory Commission (FERC) is an
                                                                    independent regulatory organization within DOE which is
The Energy Information Administration functions as an               responsible for setting rates and charges for the transportation
independent statistical/analytical agency, develops and             and sale of natural gas and for the transmission and sale of
maintains a comprehensive energy database, publishes a wide         electricity and the licensing of hydroelectric power projects.
variety of energy reports and analysis as required by law, and      FERC assesses most of its administrative program costs as an
responds to energy information inquiries from DOE decision-         annual charge to each regulated entity. These revenues are
and policy-makers, the Congress, other government entities,         returned to Treasury when collected.




82
Notes to the Financial Statements


Reimbursable and Cooperative Work                                              Sources, requires that when goods and services are provided to
                                                                               the public or another Federal agency, reporting entities should
DOE performs work for other Federal agencies and private                       disclose practices where revenue received is less than the full
companies on a reimbursable work basis and on a cooperative                    cost of the goods and services provided, as well as an estimate,
work basis. Whereas reimbursable work is generally not                         if practicable, of the amount of revenue foregone. The amount
DOE’s direct mission, but part of the customer’s mission,                      for reimbursable and cooperative work was estimated by
cooperative work is part of DOE’s direct mission.                              computing the difference between the full cost reported for the
Reimbursable work is financed by funds of Federal agencies                     financial statement purposes, including appropriate allocations
ordering the work or by cash advances from non-Federal                         of costs, and the revenue reported for financial statement
customers, and DOE receives no appropriated funds for such                     purposes, including the collection of Departmental overhead
work or services. Cooperative work, however, is financed by                    and depreciation. Accordingly, DOE estimates revenue
funds appropriated to DOE that may be used in a cooperative                    foregone for reimbursable and cooperative work activities for
effort with one or more Federal or non-Federal participants.                   FY 1998 and FY 1997 of $44 million and $81 million,
Authorities for DOE to perform reimbursable work include the                   respectively.
Economy Act of 1932, the Atomic Energy Act of 1954,
Intergovernmental Cooperation Act of 1968, Intergovernmental                   Services Performed for the U.S. Enrichment Corporation
Personnel Act of 1970, and DOE Organization Act of 1977.                       (USEC)
Authorities for performance of cooperative work include
Public Law 98-438, the Energy Reorganization Act of 1974,                      USEC leases DOE’s gaseous diffusion plants. While DOE
section 107(a), and Public Law 95-224, the Federal Grant and                   does not receive payment from USEC for the lease, USEC does
Cooperative Agreements Act of 1977.                                            pay for all services provided by DOE or its contractors. Most
                                                                               of the reimbursements are for the cost of providing electricity to
DOE’s policy is to establish prices for materials and services                 operate the gaseous diffusion plants.
provided to public entities at the Department’s full cost and to
other Federal agencies at the Department’s full cost less                      Technology Transfer Program
depreciation. In some cases, the full cost information reported
by DOE in accordance with OMB’s Statement of Federal                           DOE has entered into cooperative research and development
Financial Accounting Standards Number 4, Managerial Cost                       agreements to increase the transfer of Federally funded
Accounting Concepts and Standards for the Federal                              technologies to the private sector for the benefit of the U.S.
Government, exceeds revenues. This results from                                economy. This program is primarily implemented through
implementation of provisions contained in the Economy Act of                   Cooperative Research and Development Agreements between
1932, as amended, the Atomic Energy Act of 1954, as                            DOE’s laboratories and the private sector (may include
amended, and a conditional waiver granted by OMB, which                        industry, non-profits, universities, state or local governments,
provide DOE authority to charge customers an amount less                       or individuals). The non-Federal party may provide funds,
than the full cost of the product or service.                                  personnel, services, facilities, equipment or other resources to
                                                                               conduct specific research and development work consistent
OMB’s Statement of Federal Financial Accounting Standards                      with the mission of the laboratory.
Number 7, Accounting for Revenue and Other Financing

23. Costs Not Assigned to Programs                                                                                                     (in millions)

                                                                                                                     FY 1998             FY 1997


                                          Excess nuclear materials and weapons components                                      ($12)           $1,259

                                          Change in capitalization threshold                                                    34                 694

                                          Provision for net loss on USEC inventory transfers                                                       184

                                          Changes in unfunded environmental liabilities estimates (see Note 13)           12,181              (47,749)

                                          Change in unfunded safety and health liabilities (see Note 15)                       898                 (346)

                                          Change in unfunded liability for USEC (see Note 15)                                  (242)

                                          Contingent liability for NWF (see Note 16)                                           500

                                          Other costs                                                                           20                  70

                                             Total                                                                       $13,379             ($45,888)




                                                                                                                                                      83
                                                                               Department of Energy FY 1998 Accountability Report


Excess nuclear materials and weapons components                          Provision for net loss on USEC inventory transfers

DOE reduced the value of the nuclear materials stockpile in FY           DOE recognized an estimated loss of $184 million during
1995 and 1996 based on materials that were declared excess to            FY 1997 related to nuclear materials inventory transfers
national security needs and for which there was no non-defense           mandated by Public Law 104-134, the United States
programmatic requirement for the materials within the                    Enrichment Corporation Privatization Act of 1996. Pursuant to
Department. During FY 1997, a determination was made that                the law, the United States Enrichment Corporation (USEC)
additional nuclear materials and weapon components were                  transferred uranium hexafluoride with a carrying value of $143
excess to national security and programmatic needs, which                million to DOE for sale to Russia and others. The law also
resulted in a loss of $1,259 million.                                    required DOE to transfer up to 50 metric tons of highly
                                                                         enriched uranium and up to 7,000 tons of natural uranium to
Change in capitalization threshold                                       USEC. Pursuant to Section 3112 of the USEC Privatization
                                                                         Act of 1996, DOE transferred 50 metric tons of highly enriched
In FY 1997, DOE raised its capitalization threshold from                 uranium and 7,000 metric tons of natural uranium to USEC on
$5,000 to $25,000 for all field elements except the power                April 21, 1998. The historical cost of the uranium transferred
marketing administrations. This change in accounting policy              was approximately $416 million. This amount was recorded as
resulted in a charge to expense during FY 1997 of $694                   a liability on DOE’s FY 1997 financial statements and
million. An additional $34 million was charged to expense in             represented an increase of $327 million from the FY 1996
FY 1998.                                                                 estimated liability balance. The net of the $327 million
                                                                         increase in the liability and the $143 million carrying value of
                                                                         uranium transferred from USEC to DOE resulted in the net loss
                                                                         of $184 million in FY 1997.

24. Prior Period Adjustments                                                                                                   (in millions)

                                                                                                                 FY 1998        FY 1997


                                             Environmental liabilities                                                 $106         ($5,271)
                                             Correction of prior accumulated depreciation expense                          0          (174)
                                             Fast Flux Test Facility                                                       0           136
                                             W rite-down of legacy waste facilities and equipment                      (173)          (749)
                                             Other                                                                      104             (18)

                                                Total                                                                   $37         ($6,076)




Environmental liabilities                                                1997, DOE directed that the FFTF be held in standby until a
                                                                         final decision could be made as to whether or not it was needed
As discussed in Note 13, DOE accrued an environmental                    for tritium and/or medical isotope production. The decision to
liability totaling $1,421 million in FY 1996 for its share of            place the FFTF in standby resulted in an increase to capitalized
unreimbursed nuclear waste fund program costs incurred, plus             property, plant, and equipment and invested capital.
accrued interest. During FY 1997, DOE recorded a prior
period adjustment of $5,271 million to recognize its share of            Write-down of legacy waste facilities and equipment
the total-system life cycle costs associated with the disposal of
its high-level waste and spent nuclear fuel.                             DOE changed its capitalization practices related to
                                                                         environmental management processing facilities and equipment
Correction of prior period accumulated depreciation expense              during FY 1995. DOE implemented the guidance of the
                                                                         Financial Accounting Standards Board (FASB) Emerging
Errors in recording depreciation and related capitalization              Issues Task Force Issue 90-8, Capitalization of Costs to Treat
entries in prior years were corrected in FY 1997.                        Environmental Contamination. This guidance requires the
                                                                         expensing of facilities that treat, store, or dispose of existing
Fast Flux Test Facility (FFTF)                                           wastes generated by past operations (legacy facilities and
                                                                         equipment). Analysis conducted in FY 1997 and FY 1998
The FFTF was written off in FY 1995 after DOE determined                 identified additional facilities and equipment resulting in write-
that the FFTF had no further research mission. In January                downs of capitalized property.




84
Notes to the Financial Statements




25. Transfers Out                                                                                                                (in millions)

                                                                                                                FY 1998          FY 1997


                                                        Proceeds from the sale of NPR-1                            ($3,341)
                                                        Proceeds from the sale of oil
                                                            Naval Petroleum Reserves                                      (21)       ($513)
                                                            Strategic Petroleum Reserve                                                (220)
                                                        Federal Energy Regulatory Commission Revenues                 (192)            (205)
                                                        Other                                                             (58)             (90)

                                                            Total                                                  ($3,612)         ($1,028)




26. Financing Sources Yet to Be Provided                                                                                         (in millions)

                                                                                                                 FY 1998         FY 1997


                                    Changes in unfunded environmental liabilities estimates (see Note 13)         $12,181         ($47,749)
                                    Change in unfunded safety and health liabilities (see Note 15)                     890             (346)
                                    Change in unfunded liability for USEC (see Note 15)                               (242)
                                    Other unfunded liability changes                                                   (58)                 8

                                       Total                                                                      $12,771         ($48,087)




27. Custodial Activities                                                                                                         (in millions)

Power Marketing Administrations                                            Petroleum Pricing Violation Escrow Fund

The Southeastern, Southwestern, and Western Area power                     Custodial revenues for the Petroleum Pricing Violations Escrow
marketing administrations are responsible for collecting and               Fund result primarily from interest earned from investment of the
remitting to Treasury revenues attributable to the hydroelectric           fund balance, which is invested in U.S. Treasury Bills and
power projects owned and operated by the U.S. Department of                Certificates of Deposit with minority owned financial institutions,
Defense, Army Corps of Engineers; the U.S. Department of                   pending determination of the disposition of the funds. Funds are
Interior, Bureau of Reclamation; and the U.S. Department of                disbursed to individuals and groups who are able to provide proof
State, International Boundary and Water Commission. These                  of financial injury related to the violations of Petroleum Pricing
revenues are reported as custodial activities of DOE.                      Regulations during the 1970's and early 1980's.                The
                                                                           Department’s Office of Hearings and Appeals also distributes
                                                                           funds to the U.S. Treasury and to the States, Possessions and
                                                                           Territories of the United States.




28. Other Matters

Formerly Utilized Sites Remedial Action Program                            effective October 1997. The estimated remediation costs included
                                                                           in DOE’s environmental liability as of September 30, 1997,
DOE transferred the Formerly Utilized Sites Remedial Action                totaled $1.4 billion.
Program (FUSRAP) to the U.S. Army Corps of Engineers




                                                                                                                                                  85
     Consolidating Schedules - Balance Sheet




86
     As of September 30, 1998 and 1997                                                             FY 1998                                                                            FY 1997

                                                                     Federal
                                                                                    Power                                                          Federal Energy
                                                                     Energy                        All Other DOE                                                    Power Marketing   All Other DOE
                                                                                   Marketing                        Eliminations   Consolidated      Regulatory                                        Eliminations    Consolidated
                                                                    Regulatory                       Programs                                                       Administrations     Programs
                                                                                 Administrations                                                    Commission
                                                                   Commission

     ASSETS
     Intragovernmental
        Fund balance with Treasury                                         $36             $777          $10,356             $0         $11,169               $36              $671          $9,839              $0          $10,546
        Investments                                                          0                 0          10,200               0         10,200                 0                 0           8,147               0            8,147
        Accounts Receivable, Net                                             0               14            1,658         (1,190)            482                 0                18           1,595          (1,057)            556
        Regulatory Assets                                                    0             5,228               0               0          5,228                 0             5,228               0               0            5,228
        Other Assets                                                         0                 0               7             (2)              5                 0                 0               10             (3)              7
     Investments                                                             0                 0             263               0            263                 0                 0              245              0             245
     Accounts Receivable, Net                                                8              343            4,232              0           4,583                 6               371           4,272               0            4,649
     Inventory, Net
        Strategic Petroleum Reserve                                          0                 0          15,087               0         15,087                 0                 0          15,087               0           15,087
        Nuclear Materials                                                    0                 0          21,728               0         21,728                 0                 0          22,531               0           22,531
        Other Inventory                                                      0                89             415               0            504                 0                98              423              0             521
     General Property, Plant, and Equipment, Net                            19             5,004          14,817               0         19,840                18             5,361          15,377               0           20,756
     Regulatory Assets                                                       0             8,031               0               0          8,031                 0             7,936                0              0            7,936
     Other Assets                                                            0              216              611               0            827                 0               237              355              0             592

     Total Assets                                                          $63           $19,702         $79,374        ($1,192)        $97,947               $60           $19,920         $77,881         ($1,060)         $96,801

     LIABILITIES
                                                                                                                                                                                                                                       Department of Energy FY 1998 Accountability Report




     Liabilities Covered by Budgetary Resources
        Intragovernmental Liabilities
            Accounts Payable                                                $1              $43              $89           ($14)           $119                $0               $46             $112           ($18)           $140
            Debt                                                             0             8,906               0               0          8,906                 0             9,083                0              0            9,083
            Appropriated Capital Owed to Treasury                            0             1,986               0               0          1,986                 0             2,309                0              0            2,309
            Deferred Revenues                                                                  2           1,393         (1,178)            217                 0                 0           1,286          (1,042)            244
            Other Liabilities                                                0                42             218               0            260                 1                22              227              0             250
        Accounts Payable                                                     6              290            2,980              0           3,276                 5               221           3,358               0            3,584
        Debt                                                                 0             7,056               0               0          7,056                 0             7,166                0              0            7,166
        Deferred Revenues                                                    0               437          10,628               0         11,065                 0               277           9,074               0            9,351
        Other Liabilities                                                   28              121            1,881               0          2,030                24                70           1,329               0            1,423
        Funded Environmental Liabilities                                     0                 0             918              0             918                 0                             1,148               0            1,148

            Total Liabilities Covered by Budgetary Resources               $35          $18,883          $18,107        ($1,192)        $35,833               $30           $19,194         $16,534         ($1,060)        $34,698

     Liabilities Not Covered By Budgetary Resources
        Environmental Liabilities                                            0                 0         185,495               0        185,495                 0                 0         179,466               0          179,466
        Pension and Other Actuarial Liabilities                              0                 0           6,508               0          6,508                 0                 0           6,282               0            6,282
        Other Unfunded Liabilities                                           9                 9           1,916               0          1,934                 9                 8           1,315               0            1,332
        Contingencies                                                        0                 0             506               0            506                 0                 0               11              0              11
            Total Liabilities Not Covered By Budgetary Resources            $9               $9         $194,425             $0        $194,443                $9                $8        $187,074              $0        $187,091
                Total Liabilities                                          $44          $18,892         $212,532        ($1,192)       $230,276               $39           $19,202        $203,608         ($1,060)       $221,789

     NET POSITION
     Unexpended Appropriations                                               9                18           4,912               0          4,939                12                 0           5,356               0            5,368
     Cumulative Results of Operations                                       10              792         (138,070)             0        (137,268)                9               718       (131,083)               0        (130,356)
        Total Net Position                                                 $19             $810       ($133,158)             $0       ($132,329)              $21              $718      ($125,727)              $0       ($124,988)
            Total Liabilities and Net Position                             $63          $19,702          $79,374        ($1,192)        $97,947               $60           $19,920         $77,881         ($1,060)         $96,801
     Consolidating Schedules of Net Cost
     For the Years Ended September 30, 1998 and 1997                                           FY 1998                                                                               FY 1997

                                                               Federal
                                                                               Power                                                            Federal Energy
                                                               Energy                         All Other DOE                                                       Power Marketing    All Other DOE
                                  (in millions)                               Marketing                          Eliminations   Consolidated      Regulatory                                           Eliminations    Consolidated
                                                              Regulatory                        Programs                                                          Administrations      Programs
                                                                            Administrations                                                      Commission
                                                             Commission
     Costs
        Energy Resources
             Program Costs                                            $0             $3,063          $1,785               $0          $4,848                $0             $2,718           $2,116               $0           $4,834
             Net Gain on Sale of Naval Petroleum Reserves                                           ($2,848)                         ($2,848)
             Earned Revenues                                           0            (3,114)               (13)              0         (3,127)                0             (3,015)             (712)              0          (3,727)
                Net Cost of Energy Resources Programs                 $0              ($51)         ($1,076)              $0         ($1,127)               $0              ($297)          $1,404               $0           $1,107
        National Security
             Program Costs                                            $0                             $5,726                 0          5,726                $0                              $5,876                0           $5,876
             Earned Revenues                                           0                                   (3)              0             (3)                0                                  (41)              0             (41)
                Net Cost of National Security Programs                $0                 $0          $5,723               $0          $5,723                $0                 $0           $5,835               $0           $5,835
        Environmental Quality
             Program Costs                                            $0                             $1,025             (388)            637               $-0                              $1,623             (377)          $1,246
             Earned Revenues                                           0                                 (296)              0           (296)                0                                 (248)              0            (248)
                Net Cost of Environmental Quality Programs            $0                $0               $729          ($388)           $341                $0                 $0           $1,375            ($377)           $998
        Science & Technology
             Program Costs                                            $0                             $2,602              (19)          2,583                $0                              $2,575              (13)          $2,562
             Earned Revenues                                           0                                  (13)             0             (13)                0                                  (11)              0             (11)
                Net Cost of Science & Technology Programs             $0                $0           $2,589             ($19)         $2,570                $0                 $0           $2,564             ($13)          $2,551
        Other Programs
             Program Costs                                          $192                             $2,143              (80)          2,255              $185                              $2,326              (89)          $2,422
             Earned Revenues                                        (192)                            (2,059)              80          (2,171)             (208)                             (2,132)              89          (2,251)
             Net Cost of Other Programs                               $0                 $0               $84             $0             $84              ($23)                $0              $194              $0            $171
     Costs Not Assigned to Programs                                    0                             13,379                0          13,379                 0                            (45,888)                0         (45,888)
     Less Earned Revenues Not Attributable to Programs                 0                                  (14)              0            (14)                0                                  (23)              0             (23)
             Net Cost of Operations                                   $0              ($51)         $21,414            ($407)        $20,956             ($23)              ($297)       ($34,539)            ($390)       ($35,249)




87
                                                                                                                                                                                                                                       Notes to the Financial Statements
     Consolidating Schedules of Changes in Net Position




88
     For the Years Ended September 30, 1998 and 1997                                           FY 1998                                                                               FY 1997

                                                           Federal Energy                                                                       Federal Energy
                                                                            Power Marketing   All Other DOE                                                       Power Marketing    All Other DOE
                                    (in millions)            Regulatory                                          Eliminations   Consolidated      Regulatory                                           Eliminations       Consolidated
                                                                            Administrations     Programs                                                          Administrations      Programs
                                                            Commission                                                                           Commission
     Net Cost of Operations                                           $0                $51        ($21,414)            $407        ($20,956)              $23               $297          $34,539             $390             $35,249
     Financing Sources (Other Than Exchange Revenues)
         Appropriations Used                                         168                  6          17,075             (388)         16,861               161                  7           17,759             (377)             17,550
        Taxes (and Other Non-Exchange Revenues)                        0                  0                 2               0              2                 0                  0               (11)                  0            (11)
        Imputed Financing                                              8                  7                64               0             79                 8                 23                66                   0              97
        Transfers-in                                                   0                  0          (1,167)            1,167              0                 0                  0           (1,297)           1,197               (100)
        Transfers-out                                               (175)              (15)          (2,236)          (1,186)         (3,612)             (196)               (26)              504          (1,210)              (928)
     Net Results of Operations                                        $1               $49          ($7,676)               $0        ($7,626)              ($4)              $301          $51,560                $0           $51,857
     Prior Period Adjustments                                          0                 26                11               0             37                 0                (12)          (6,064)                   0         (6,076)
     Net Change in Cumulative Results of Operations                   $1               $75          ($7,665)              $0         ($7,589)              ($4)              $289          $45,496               $0            $45,781
     Change in Nuclear Waste Fund Deferred Revenues                                                       945                            945                                                    211                                 211
     Increase (Decrease) in Unexpended Appropriations                 (3)               17               (711)              0           (697)              (12)                 0              (521)                  0           (533)
     Change in Net Position                                          ($2)               $92         ($7,431)               $0        ($7,341)             ($16)              $289          $45,186                $0           $45,459
     Net Position - Beginning of Period                               21               718        (125,727)                 0       (124,988)               37                429        (170,913)                    0       (170,447)
     Net Position - End of Period                                    $19              $810       ($133,158)                $0      ($132,329)              $21               $718       ($125,727)                $0         ($124,988)


     Consolidating Schedules of Budgetary Resources
     For the Years Ended September 30, 1998 and 1997                                           FY 1998                                                                               FY 1997
                                                                Federal              Power    All Other DOE      Eliminations   Consolidated    Federal Energy    Power Marketing    All Other DOE     Eliminations       Consolidated
                                                                                                                                                                                                                                             Department of Energy FY 1998 Accountability Report




                                                                Energy           Marketing         Programs                                        Regulatory      Administrations        Programs
                                    (in millions)
                                                             Regulatory     Administrations                                                       Commission
                                                            Commission


     BUDGETARY RESOURCES
                                                                    $165              $245          $17,164            ($471)        $17,103              $149               $229          $17,080            ($468)           $16,990
     Budgetary Authority
     Unobligated Balances - Beginning of Period                        6               511            1,947                 0          2,464                13                362              2,276                  0           2,651
     Spending Authority from Offsetting Collections                     0             2,637              2,059              0           4,696                 0              2,471             2,169                  0           4,640
     Adjustments                                                       1                (7)              (161)              0           (167)                1                 51               (84)                  0            (32)
        Total Budgetary Resources                                   $172             $3,386         $21,009            ($471)        $24,096              $163             $3,113          $21,441            ($468)           $24,249


     STATUS OF BUDGETARY RESOURCES
                                                                     169              2,843          19,380             (471)         21,921               157               2,545          19,195             (468)             21,429
     Obligations Incurred
     Unobligated Balances Available                                    3              1,433           1,254                 0          2,690                 6               1,578             1,774                  0           3,358
     Unobligated Balances - Not Available                              0              (890)               375               0           (515)                0             (1,010)              472                   0           (538)
        Total, Status of Budgetary Resources                        $172             $3,386         $21,009            ($471)        $24,096              $163             $3,113          $21,441            ($468)           $24,249


     OUTLAYS
                                                                     169              2,843          19,380             (471)         21,921               157               2,545          19,195             (468)             21,429
     Obligations Incurred
     Less Spending Authority from Offsetting Collections
        and Adjustments                                               (1)           (2,639)          (2,085)                0         (4,725)               (1)            (2,476)          (2,194)                   0         (4,671)
     Obligated Balance, Net - Beginning of Period                     19               211            7,673                 0          7,903                24                224              8,239                  0           8,487
     Obligated balance Transferred, Net                                0                  0                 2               0              2                 0                  0                 2                   0                  2
     Less Obligated balance, Net - End of Period                     (21)             (342)          (7,709)                0         (8,072)              (19)              (211)          (7,673)                   0          (7,903)
        Total Outlays                                               $166                $73         $17,261            ($471)        $17,029              $161                $82          $17,569            ($468)           $17,344
     Consolidating Schedules of Financing
     For the Years Ended September 30, 1998 and 1997                                                           FY 1998                                                                               FY 1997

                                                                           Federal Energy                                                                       Federal Energy
                                                                                            Power Marketing   All Other DOE                                                       Power Marketing    All Other DOE
                                   (in millions)                             Regulatory                                          Eliminations   Consolidated      Regulatory                                           Eliminations       Consolidated
                                                                                            Administrations     Programs                                                          Administrations      Programs
                                                                            Commission                                                                           Commission
     OBLIGATIONS AND NONBUDGETARY RESOURCES


     Obligations Incurred
        Category A, Direct                                                          $169             $2,669         $17,530            ($471)        $19,897              $157             $2,402          $17,300            ($468)           $19,391
        Reimbursable                                                                   0               174            1,850                 0          2,024                 0                143              1,895                  0           2,038
     Less Spending Authority from Offsetting Collections and Adjustments
        Earned Reimbursements
             Collected                                                                 0            (2,613)          (2,452)               83         (4,982)                0             (2,471)          (2,495)               91            (4,875)
             Receivable from Federal Sources                                           0                (1)                55               0             54                 0                 (1)                9                   0                  8
             Change in Unfilled Orders (Decreases) Increases                           0                (1)               (64)              0            (65)                 0                 2               161                   0            163
             Recoveries of Prior-Year Obligations                                     (1)               (2)               (25)              0            (28)               (1)                (5)              (28)                  0            (34)
     Financing Imputed for Cost Subsidies                                              8                  6                64               0             78                  8                 8                66                   0              82
     Transfers Out                                                                  (175)              (15)          (3,403)             (19)         (3,612)             (196)               (26)             (793)            (13)            (1,028)
     Exchange Revenues Not In the Budget                                               0                  0           1,549                 0          1,549                 0                  0              1,260                  0           1,260
     Other                                                                             0              (212)                 0               0           (212)                0               (248)                0                   0           (248)
     Total Obligations as Adjusted, and Nonbudgetary Resources                        $1                $5          $15,104            ($407)        $14,703              ($32)             ($196)         $17,375            ($390)           $16,757


     RESOURCES THAT DO NOT FUND NET COST OF OPERATIONS


     Change in Amount of Goods, Services, and Benefits Ordered but Not
     Yet Received or Provided                                                          0                (3)               105               0            102                 5                (43)              412                   0            374
     Costs Capitalized on the Balance Sheet
        General Property, Plant, and Equipment                                        (3)              (37)          (1,234)                0         (1,274)               (1)              (319)          (1,275)                   0         (1,595)
        Purchases of Inventory                                                         0                  0              (463)              0           (463)                0                 (9)             (514)                  0           (523)
     Financing Sources That Fund Costs of Prior Periods                                0               (27)          (6,274)                0         (6,301)                0                (14)          (6,023)                   0         (6,037)
     Other                                                                             0              (339)          (1,071)                0         (1,410)                0               (291)          (1,274)                   0         (1,565)
     Total Resources that Do Not Fund Net Cost of Operations                         ($3)            ($406)         ($8,937)               $0        ($9,346)               $4              ($676)         ($8,674)               $0           ($9,346)


     COSTS THAT DO NOT REQUIRE RESOURCES


     Depreciation and Amortization                                                     2               414            1,459                 0          1,875                 2                491              1,409                  0           1,902
     Revaluation of Assets and Liabilities                                             0                  0              (161)              0           (161)                1                  0               625                   0            626
     Loss on Disposition of Assets                                                     0                  0               484               0            484                 0                 (1)               24                   0              23
     Other                                                                             0               (65)               695               0            630                 2                 77              2,797                  0           2,876
     Total Costs That Do Not Require Resources                                        $2              $349           $2,477                $0         $2,828                $5               $567           $4,855               $0             $5,427


     FINANCING SOURCES YET TO BE PROVIDED (Note 26)                                    0                  1          12,770                 0         12,771                 0                  8          (48,095)                   0        (48,087)


     NET COST OF OPERATIONS                                                           $0              ($51)         $21,414            ($407)        $20,956              ($23)             ($297)       ($34,539)            ($390)          ($35,249)




89
                                                                                                                                                                                                                                                             Notes to the Financial Statements
90
     Consolidating Schedules of Custodial Activities
     For the Years Ended September 30, 1998 and 1997                                      FY 1998                                                                              FY 1997

                                    (in millions)         Federal
                                                                          Power                                                           Federal Energy
                                                          Energy                         All Other DOE                                                      Power Marketing    All Other DOE
                                                                         Marketing                         Eliminations   Consolidated      Regulatory                                          Eliminations   Consolidated
                                                         Regulatory                        Programs                                                         Administrations      Programs
                                                                       Administrations                                                     Commission
                                                        Commission
     SOURCES OF COLLECTIONS


     Cash Collections
        Power marketing administrations                          $0              $428                $0             $0            $428                $0               $438               $0              $0           $438
        Petroleum Pricing Violation Escrow Fund                   0                  0               74               0             74                 0                  0               80               0             80
        Other                                                     3                  0                0               0              3                 3                  0                0               0              3
           Net Collections                                       $3              $428               $74             $0            $505                $3               $438              $80              $0           $521
     Accrual Adjustment
        Power marketing administrations                                             12                0                             12                 0                  4                0                              4
        Petroleum Pricing Violation Escrow Fund                   0                                 (50)                           (50)                0                                 (53)                           (53)
           Total Revenue                                         $3              $440               $24             $0            $467                $3               $442              $27              $0           $472


     DISPOSITION OF REVENUE


     Transferred to Others
        Treasury                                                 (3)             (440)                3               0           (440)               (3)              (437)             (97)              0           (537)
        Other                                                     0                  0              (57)              0            (57)                0                  0              (51)              0            (51)
     Increase (Decrease) in Amounts to be Transferred             0                  0               53               0             53                 0                 (5)             153               0            148
     Collections Used for Refunds and Other Payments              0                  0               (2)              0             (2)                0                  0               (2)              0             (2)
                                                                                                                                                                                                                               Department of Energy FY 1998 Accountability Report




     Retained by DOE                                              0                  0              (21)             0             (21)                0                  0              (30)              0            (30)
           Net Custodial Activity                                $0                $0                $0             $0              $0                $0                 $0               $0              $0             $0
            Required Supplementary Stewardship
                   Information Reporting
This section of the report provides information for the Department on stewardship and deferred maintenance.
Stewardship information is a requirement of OMB’s Statement of Federal Financial Accounting Standards (SFFAS)
No. 8, “Supplementary Stewardship Reporting,” which is a new reporting requirement for FY 1998. Currently,
deferred maintenance information is a requirement under OMB’s SFFAS No. 6, “Accounting for Property, Plant and
Equipment.”




                                                                                                                 91
Department of Energy FY 1998 Accountability Report




Stewardship Information
SFFAS No. 8 requires Federal agencies to report on certain resources entrusted to it, identified as stewardship
property, plant, and equipment and stewardship investments. To meet this requirement, the Department is reporting
the following information on its research and development activities.


                 Required Supplementary Stewardship Report for Research and Development
                                          (Dollars in Thousands)
                                                  Direct         Allocable   Total    Total Business
BASIC                                              Costs           Costs     Costs      Line Costs
Energy Resources                                                                         $43,128
Coal R&D                                           1,943             383      2,326
Other Fossil Energy Activities                     1,371             215      1,586
Power Marketing Administrations                        –               –      3,016
Utility Technology                               26,969            9,231     36,200

National Security                                                                                    $11,257
Verification and Control Technology                    9,582           1,675          11,257

Science and Technology                                                                            $2,414,343
Basic Energy Science                             571,788              82,257        654,045
Biological and Environmental Research            303,722              31,019        334,741
Computational and Technology Research            121,857              13,294        135,151
Environmental Sciences Program                    57,386               9,377         66,763
Fusion Energy Sciences                           202,857              21,968        224,825
High Energy Sciences                             494,312             144,555        638,867
Nuclear Physics                                  205,695              51,338        257,033
Small Business Innovative Research Technology     90,186               4,133         94,319
Superconducting Super Collider                     4,379               1,852          6,231
Other Energy Research Activities                   2,008                 360          2,368
      Total Basic                             $2,094,055            $371,657     $2,468,728

APPLIED
Environmental Quality                                                                              $306,522
Civilian Radioactive Waste Management                299,529           6,993        306,522

Energy Resources                                                                                   $370,444
Building Technology                                    4,021             478          4,499
Coal R&D                                              48,582           9,585         58,167
Gas R&D                                               43,759           7,480         51,239
Industrial Technology                                 29,280           2,921         32,201
Other Fossil Energy Activities                         5,274             818          6,092
Other Nuclear Energy Activities                          106             447            553
Petroleum R&D                                         22,989           3,257         26,246
Transportation Technology                             51,803           5,184         56,987
Power Marketing Administrations                            –               –         10,470
Utility Technology                                   112,086          11,904        123,990




92
                                                  Required Supplementary Stewardship Information Reporting




                 Required Supplementary Stewardship Report for Research and Development
                                          (Dollars in Thousands)

                                                 Direct       Allocable      Total      Total Business
(APPLIED Continued)                              Costs          Costs        Costs       Line Costs
National Security                                                                       $1,332,293
Stockpile Management                            36,709         20,890         57,599
Stockpile Stewardship                          985,968        155,347      1,141,315
Verification and Control Technology            113,727         19,652        133,379

Science and Technology                                                                    $221,501
Biological and Environmental Research           49,411         3,799          53,210
Computational and Technology Research           19,553         1,018          20,571
Technology Development                         115,141        28,891         144,032
University and Science Education                 3,409           279           3,688
      Total Applied                         $1,941,347      $278,943      $2,230,760

DEVELOPMENT
Environmental Quality                                                                        $6,246
Uranium Programs - All Other                     5,880            366          6,246

Energy Resources                                                                          $691,876
Building Technology                             16,161          1,656        17,817
Clean Coal Technology                           84,795          8,639        93,434
Coal R&D                                        46,639          9,202        55,841
Gas R&D                                         65,638         11,221        76,859
Industrial Technology                           91,686         10,099       101,785
Other Fossil Energy Activities                   7,045          1,090         8,135
Other Nuclear Energy Activities                  1,937            761         2,698
Petroleum R&D                                   34,483          4,886        39,369
Transportation Technology                      150,534         15,697       166,231
Power Marketing Administrations                     --              --       17,144
Utility Technology                             102,005         10,558       112,563

National Security                                                                        $1,238,034
Fissile Materials Disposition                   49,533          8,580        58,113
Naval Reactors                                 588,534         33,603       622,137
Stockpile Stewardship                          410,294         75,079       485,373
Verification and Control Technology             58,660         13,751        72,411

Science and Technology                                                                    $102,764
Advanced Radioisotope Power System              27,931         3,892          31,823
Technology Development                          56,711        14,230          70,941
      Total Development                     $1,798,466      $223,310      $2,038,920

TOTAL
RESEARCH & DEVELOPMENT                      $5,833,868      $873,910      $6,738,408




                                                                                                         93
Department of Energy FY 1998 Accountability Report




Required Supplementary Stewardship                         Petroleum R&D Applied & Development - Activities
                                                           conducted to support advanced technologies for the
Report for Research and Development                        petroleum and oil from oil shale recovery of oil and
                                                           natural gas.
                                                           Power Marketing Administrations Basic, Applied &
Environmental Quality
                                                           Development - Research activities primarily supported
Civilian Radioactive Waste Management Applied -            the Fish and Wildlife programs at Bonneville Power
Research activities were carried out in support of the     Administration.
Yucca Mountain Site Characterization Program.
                                                           Transportation Technology Applied & Development -
Uranium Programs Development - Activities involved         Activities conducted in support of energy conservation
the development and demonstration of enrichment related    for the transportation sector, including automotive
technologies and the conversion or alternative uses of     alternative fuels and electric vehicles.
depleted uranium hexafluoride.
                                                           Utility Technology Basic, Applied & Development -
Energy Resources                                           Research activities included investigations of new ideas
                                                           related to Photovoltaic research, geothermal electric
Building Technology Applied & Development -                deployment, high temperature superconductivity, and
Activities included strategies and techniques for the      other solar energy projects.
integration of conversion and renewable measures for
new and existing residential and commercial buildings.     National Security
Clean Coal Technology Development - Activities             Fissile Materials Disposition Development - Activities
conducted in support of the clean coal                     included the development and demonstration of
technology/innovative clean coal technology                technologies that enable the Department and the world to
development and demonstration projects.                    dispose of surplus weapons effectively.
Coal R&D Basic, Applied & Development - Activities         Naval Reactors Development - Activities included
related to improving acceptable technology for             development, demonstration, improvement, and safe
converting coal to liquid and gaseous fuels, improving     operation of nuclear propulsion plants and reactor cores
methods for the direct combustion of coal, and advancing   for application to submarines and surface ships.
power conversion systems for generating electricity from
                                                           Stockpile Management Applied - Research activities
coal.
                                                           supporting new technological capabilities necessary to
Gas R&D Applied & Development - Activities carried         maintain the nuclear weapons stockpile’s safety and
out in support of natural gas recovery methods.            reliability.
Industrial Technology Applied & Development -              Stockpile Stewardship Applied - Research activities
Activities conducted to support energy conservation and    supporting new or upgraded experimental,
energy supply for the industry sector.                     computational, and simulation capabilities necessary to
                                                           maintain the nuclear weapons stockpile’s safety and
Other Fossil Energy Activities Basic, Applied &
                                                           reliability. Development - Development activities
Development - Cooperative research activities carried
                                                           supporting the technical, experimental, and physical
out as a result of awards from competitive solicitations
                                                           infrastructure necessary to maintain the nuclear weapons
initiated under the Fossil energy Federal/State Program.
                                                           stockpile’s safety and reliability.
Applied & Development - Also included research
conducted on the mining safety and health programs.        Verification and Control Technology Basic, Applied &
                                                           Development - This program utilizes unique science and
Other Nuclear Energy Activities Applied - Research
                                                           technology development capabilities at the Department’s
activities were carried out in support of the Space
                                                           National Laboratories to reduce the threat to U.S.
Reactor Program. Development - Activities were carried
                                                           National Security posed by weapons of mass destruction.
out in support of the Light Water Reactors Program.



94
                                                              Required Supplementary Stewardship Information Reporting




Science and Technology                                           Fusion Energy Sciences Basic - Broad-based,
                                                                 fundamental research efforts aimed at producing
Advanced Radioisotope Power System Development -                 knowledge on fusion.
Activities provided compact, safe nuclear power systems
and related technologies to space, national security and         High Energy Sciences Basic - Fundamental research
other customers.                                                 activities directed at understanding the nature of matter
                                                                 and energy.
Basic Energy Science Basic - Research activities were
directed at fostering and supporting fundamental                 Nuclear Physics Basic - Research activities were
research in natural sciences and engineering. As part of         directed at understanding the fundamental forces and
its mission, the program planned, constructed and                particles of nature as manifested in nuclear matter.
operated major scientific user facilities to serve               Other Energy Research Activities Basic - The Energy
researchers at universities, national laboratories, and          Research Analyses program evaluated the quality and
industry.                                                        impact of DOE research programs and projects.
Biological and Environmental Research Basic -                    Small Business Innovative Research Technology Basic
Research activities developed knowledge needed to                - Activities supported the Department’s science and
identify, understand, and anticipate the long term health        technology missions with small businesses.
and environmental consequences of energy production,
development, and use. Applied - Research activities              Superconducting Super Collider Basic - This program
included developing beneficial applications of nuclear           continued to incur termination costs from the Super
and other energy-related technologies for medical                Conducting Super Collider, a high energy physics
diagnosis and treatment.                                         facility.
Computational and Technology Research Basic -                    Technology Development Applied & Development -
Fundamental research was conducted in advanced                   Research activities were conducted to obtain fundamental
computing research relevant to complex problems of the           scientific and technical knowledge to meet the needs of
Department. Provided world class supercomputer and               environmental restoration and waste management. In
networking facilities for scientists working on problems         addition, other activities ensured that private industry
important to the Department. Conducted activities to             and other federal agencies were participants in
establish the feasibility of novel, energy related concepts      developing and deploying such technologies.
spanning the Department’s mission. Applied - Research            University and Science Education Applied - This
activities supported high risk, energy-related research to       program had responsibility for ensuring the Department
advance science and technology to enable applications            effectively utilized and leveraged the resources of its
impacting energy economy.                                        laboratory based system to support mathematics and
Environmental Sciences Program Basic - Activities                science education.
supported the long term basic research necessary for the
Office of Environmental Management’s Technology
Focus areas.




                                                                                                                         95
Department of Energy FY 1998 Accountability Report




Deferred Maintenance                                          •   An amount of $925 million of deferred maintenance
                                                                  was estimated to return the assets to acceptable
SFFAS No. 6 requires an amount for deferred                       operating condition. The percentage of active
maintenance to be disclosed as of the end of the fiscal           buildings above acceptable operating condition is
year. Deferred maintenance is defined in SFFAS No. 6              estimated at 86 percent.
as “maintenance that was not performed when it should
have been or was scheduled to be and which, therefore, is     Capital Equipment.
put off or delayed for a future period.” Deferred             •   Pursuant to the cost/benefit considerations provided
maintenance estimates were developed for (1) structures           in SFFAS No. 6, the Department has determined
and facilities and (2) capital equipment as follows:              that the requirements for deferred maintenance
Structures and Facilities.                                        reporting on personal property (capital equipment)
                                                                  is not applicable to property items with an
•    The condition assessment survey (periodic                    acquisition cost of less than $100,000, except in
     inspections) method was used in measuring a                  situations where maintenance is needed to address
     deferred maintenance estimate for buildings and              worker and public health and safety concerns.
     other structures and facilities except for some
     structures and facilities where a physical barrier was   •   Various methods were used for measuring deferred
     present (e.g., underground pipe systems). In those           maintenance for capital equipment including
     cases, where a deficiency is identified during normal        condition assessment survey, inspection and
     operations and correction of the deficiency is past          maintenance contracts, inspection and review of
     due, a deferred maintenance estimate would be                work orders, statistical sampling and extrapolation,
     applicable. In situations where complete condition           and other methods as appropriate.
     assessments were not available for all assets,           •   The requirements and standards used in determining
     estimates were extrapolated from results of                  acceptable operating condition for capital equipment
     condition assessments performed on similar assets.           include the use of equipment indices, manufacturer
     Also, where appropriate, results from previous               and engineering specifications, and user
     condition assessments have been adjusted to                  recommendations.
     estimate current plant conditions. Deferred
     maintenance for excess property was reported only        •   An amount of $2 million of deferred maintenance
     in situations where maintenance is needed for                was estimated to return the assets to acceptable
     worker and public health and safety concerns.                operating condition.

•    In accordance with standards identified in the
     National Association of College and University
     Business Officers, in managing the facilities
     portfolio, the acceptable operating condition
     standard is equal to a Facility Condition Index (FCI)
     of # 5 percent.




96
                       Performance Measure Results
The following pages contain the detailed performance
results for all commitments contained in the Secretary’s
FY 1998 Performance Agreement with the President.




                                                           97
Department of Energy FY 1998 Accountability Report




Energy Resources                                             Results: A group of seven research projects that were
                                                             competitively selected in 1996 have yielded innovative
                                                             modeling tools for use by industry in finding and
ER 1-1 BOOSTING THE NATION'S                                 developing fractured reservoirs that only produce about
       PRODUCTION OF DOMESTIC OIL                            10 percent of original oil in place using current
Assessment: Fully Successful                                 technology. Involvement of industry partners throughout
                                                             the projects assures that the techniques are being applied
Description: Support research and development,               in producing fields, a foundation for future production
policies, and improved regulatory practices capable of       benefits.
ending the decline in domestic oil production before
2005.                                                        - 3-D Hierarchial Fracture Model, developed by Golder
                                                               Associates, facilitates generation of geologically
”    Success will be measured by:                              realistic models of fractured reservoirs and use of the
•    Demonstrating advanced production enhancement             models with computer simulations of oil recovery
     technologies for shallow-shelf carbonate                  processes such as Thermally Assisted Gravity
     reservoirs, adding 27 million barrels of reserves.        Drainage (TAGD.) Use of the model for fluid-contact
                                                               reservoir management in advance of TAGD increased
Results: Advanced technologies for improved seismic            production 20 percent in Yates field, Texas.
imaging, geologic modeling of complex carbonate strata,
innovative CO2 injection design, and use of horizontal       - TerraTek, working with the University of California at
wells are boosting oil recovery while cutting production       Berkeley and the Utah Geological Survey, has
costs in the Permian, Williston, and Paradox basins.           developed strategies to boost well productivity by
                                                               modeling stress-sensitive reservoir permeability
Five demonstration projects in shallow shelf carbonate         associated with surface expressions of the Duchesne
reservoirs have achieved important production and              Fault Zone.
reserves increases even though the full benefits will not
be achieved until the projects are completed in              - Science Applications International Corporation,
1999-2000. Reserve additions were 17 million barrels in        working with Indiana University and Phillips
early 1998 and are expected to reach 27 million barrels        Petroleum, has modified CIRF.B for use in carbonate
by 2002. In 1998, production increases for the five            reservoirs and tested the modeling package in Andector
projects totaled over 2.3 million barrels per year.            (Ellenburger) field, Texas. This software allows use of
                                                               conventional subsurface and geophysical information
One project alone has located an additional 12 million         to make quantitative predictions of fracture locations
barrels of original oil in place (in Foster and South          and characteristics.
Cowden Fields, Texas.) In this project, advanced seismic
technology is providing increased reserves at a cost of 20   - Southwest Research Institute, working with Texas
cents per incremental barrel.                                  A&M University and Union Pacific Resource Corp.,
                                                               developed a model to integrate seismic data into
Assessment: Fully Successful                                   reservoir models to increase the accuracy of fracture
                                                               related permeability estimates. The model was
•    Developing and transferring to industry six new           validated using data from Lodgepole (Wyoming) and
     technologies to characterize the heterogeneity in         Buena Vista Hills (California) fields.
     naturally fractured reservoirs.                         - University of Utah used fracture data from an exhumed
                                                               mining district that is analogous to many fractured
                                                               petroleum reservoirs to develop an improved finite
                                                               element model of multiphase flow.
          Results are classified as “FULLY SUCCESSFUL”,
“SUCCESSFUL”, “PARTIALLY SUCCESSFUL”, or                     - The Geological Survey of Alabama and the University
“UNSUCCESSFUL” for performance judged to be effectively        of Alabama used area balancing techniques to model
100% or better, 80-100%, 50-80%, or less than 50%              geology and recovery in the fractured Gilbertown field.
respectively.                                                  The study determined that recompletion of existing



98
                                                                     Performance Measure Results: Energy Resources




wells has the potential to add up to 60 feet of additional   The Risk-Based Data Management System (RBDMS)
productive section.                                          was developed to provide States with a way to gather and
                                                             evaluate data for Underground Injection Control (UIC)
- University of Texas Bureau of Economic Geology
                                                             programs. RBDMS saves money for both the States and
  using core and outcrop fracture analysis has developed
                                                             the operators by allowing the regulators to quickly and
  a method to relate microfracture observations in
                                                             effectively analyze large volumes of data that previously
  inexpensively collected sidewall-cores to
                                                             required hours of manual data gathering from scattered
  microfractures that control reservoir productivity.
                                                             and inconsistent paper files. To date, 12 States and one
Assessment: Fully Successful                                 Environmental Protection Agency (EPA) region have
                                                             implemented RBDMS. Three other states and at least
• Completing work in four States, giving them the            one other EPA Regional office are evaluating whether to
  capability to establish variances for oil and gas          adopt RBDMS.
  injection wells in areas of low environmental risk,        The value of RBDMS is demonstrated by the fact that
  and implementing risk-based data management                States have invested their own money to customize the
  systems for improved regulatory decision-making in         system for their use and to develop additional
  10 States, towards overall program objective of            capabilities that are then shared, without charge, with
  reducing cumulative industry compliance costs by           other users. The States have developed an RBDMS users
  $16 billion by 2010.                                       group to share information, experiences, and ideas for
Results: Area of Review Variance projects were               implementing and enhancing the system.
completed in California, Kansas, Oklahoma, and Texas.        DOE has recently developed a generic version of
These projects provided each of the participating States     RBDMS that is available on CD-ROM. The generic
with the capability to implement programs to waive the       version builds on the developments and ideas of the 12
Area of Review (AOR) requirements for new injection          user States. It is designed to be user friendly and to
wells where it can be demonstrated that the risk of          require minimal changes to meet a given State's specific
contamination is small.                                      needs.
Under the current requirements, an operator who wishes       Assessment: Fully Successful
to install an injection well must review all other wells
within a quarter-mile radius to ensure that the injection
                                                             ER 1-2 MAINTAINING AN EFFECTIVE
well will not contaminate an underground source of
                                                                    STRATEGIC PETROLEUM RESERVE
drinking water (USDW). Performing the review and
correcting problems with existing wells can cost an          Assessment: Fully Successful
operator $2,500 to $5,000 per injection well.
                                                             Description: Maintain an effective Strategic Petroleum
With the variance program developed and demonstrated         Reserve (SPR) to deter and respond to oil supply
through these projects, States now have a mechanism to       disruptions, and act cooperatively with the importing
evaluate the potential for contamination and grant           member nations of the International Energy Agency.
variances to the review requirements where there is little
                                                             ”    Success will be measured by:
or no possibility of contaminating a USDW. For
example, if there is no groundwater suitable for drinking    • Degassing 11 million barrels of additional oil
water in the area of the injection well, then there is no      inventory to complete the degasification effort at a
reason to impose protection requirements.                      total of 169 million barrels, thus increasing oil
                                                               availability for drawdown to the total SPR inventory
At the close of these projects, DOE sponsored a
                                                               amount.
workshop for all oil and gas producing States. At the
workshop, representatives from all four states explained     Results: Degassified an additional 13 million barrels of
their projects and provided information and advice to        oil inventory with higher-than-normal gas content by
other states on implementing an AOR Variance Program.        December 13, 1998. This completed the oil
A written summary of the workshop will be prepared and       degassification effort ahead of schedule, bringing the
distributed to all oil and gas States.                       total amount degassed to 172 million barrels and thereby


                                                                                                                    99
Department of Energy FY 1998 Accountability Report




removing the gas-in-oil impediment to the drawdown of             (such as those fostered by Binational
the total SPR oil inventory.                                      Commissions of Russia, Ukraine, and South
                                                                  Africa, the Caspian working group, Summit of the
Assessment: Fully Successful
                                                                  Americas, Asia Pacific Economic Cooperation
                                                                  (APEC), U.S.-China Energy and Environment
• Performing an annual assessment of commercial                   Initiative as well as key bilateral relationships
  systems' capability to distribute SPR crude into the            with China, Mexico, Venezuela, Brazil, India, and
  marketplace, defined as 120 percent of SPR                      others), that are instrumental in developing,
  drawdown rate capability.                                       through government- to-government efforts, an
Results: While the SPR is continually monitoring the              effective legal and regulatory framework for
U.S. commercial oil distribution system, it will also be          private sector energy investment and policies to
performing an annual, comprehensive assessment of the             encourage development of a broad portfolio of
present and projected commercial system capability to             fuel supplies.
distribute SPR crude oil into the marketplace. Adequate      Results: DOE efforts to diversify the international
SPR connectivity to the marketplace, at a minimum, is        supply of oil and gas through continued leadership in
defined as off-site commercial distribution capability for   international energy initiatives are firmly "On-Track."
the SPR complex at the maximum drawdown rate plus            DOE leadership was particularly effective in promoting
redundancy of at least 20 percent so sustainable             progress in the past year in the U.S.- Russia and U.S.-
drawdown and distribution program performance                Mexico Binational Commissions; in the U.S.-China
objectives can be achieved. The annual assessment on         Energy and Environmental Cooperation Initiatives; in the
SPR connectivity to the commercial distribution system       APEC, Summit of Americas, and G-8 Energy
was conducted and finalized by the fiscal year end.          Ministerials; in support for the President's trips to Africa
Assessment: Fully Successful                                 and Latin America; and in support for the
                                                             Administration's Caspian region energy development and
                                                             transportation initiatives. In addition, the Department
• Initiating an additional 17 percent of the
                                                             took the lead in coordinating, developing, and improving
  infrastructure life extension program to maintain
                                                             our overall international oil supply emergency
  SPR systems' reliability, bringing implementation to
                                                             preparedness policy in response to the Iraq sanction
  93 percent.
                                                             crises, the sale of oil from the Strategic Petroleum
Results: Successfully initiated the full complement of       Reserve, and the lapse of the antitrust provisions of
planned FY 1998 life extension projects, thereby             Energy Policy and Conservation Act.
executing another 16 percent of the $320 million
                                                             Assessment: Fully Successful
program baseline and bringing total execution to 92
percent. Slight difference in planned versus actual
percentage of projects initiated (six tenths of one          ER 1-4 DEVELOPING ALTERNATIVE
percent) is due to rounding and does not represent                  TRANSPORTATION FUELS AND MORE
material differences in the projects executed.                      EFFICIENT VEHICLES

Assessment: Fully Successful                                 Assessment: Successful
                                                             Description: Develop alternative transportation fuels
ER 1-3 DIVERSIFYING THE INTERNATIONAL                        and more efficient vehicles that can reduce year 2010
       SUPPLY OF OIL AND GAS                                 projected oil (crude plus refined products) imports of 12
                                                             million barrels per day by 10 percent.
Assessment: Fully Successful
                                                             ”    Success will be measured by:
Description: Diversify the international supply of oil
and gas.                                                     • Developing technologies to convert fossil and waste
                                                               fuels to high quality transportation fuels at costs of
”     Success will be measured by continuing DOE
                                                               $20-$25 per barrel. Specifically,
      leadership in international energy initiatives



100
                                                                    Performance Measure Results: Energy Resources




  - developing a conceptual process design for              ER 1-5 MAXIMIZING THE PRODUCTIVITY OF
    oxygen separation using a new type of ceramic                  FEDERAL OIL FIELDS
    membrane to advance Fischer-Tropsch
                                                            Assessment: Fully Successful
    technology for conversion of remote low-valued
    natural gas to high quality alternate liquid            Description: Maximize the productivity of Federal oil
    transportation fuels, and                               fields, consistent with Congressional legislation.
  - initiating development of catalysts for                 ”    Success will be measured by carrying out the sale
    coproducing chemical feedstocks and premium,                 of the Elk Hills oil field at maximum market value
    ultra low emission diesel fuels from solid                   by February 1998.
    carbonaceous feedstocks.
                                                            Results: On February 5,1998, DOE concluded sale of
Results: A six month delay in finalizing contractual        the Elk Hills Naval Petroleum Reserve to Occidental
arrangements with the prime contractor, subcontractors,     Petroleum Corporation for $3.65 billion. Based on
and cooperating National Laboratories will delay            estimates made by outside experts, the Department is
completion of the conceptual process design until FY        confident that it received maximum value for this asset.
1999. The major development of baseline operating
                                                            Assessment: Fully Successful
pressures, temperature regimes, and ceramic
compositions necessary for conceptual process design
began in June 1998. Finalization of all elements of the     ER 1-6 TAKING MEASURES TO AVOID
7-8 year work effort is projected for December 1998.               DOMESTIC ENERGY DISRUPTIONS
The prime Contractor is making up delays by aggressive      Assessment: Successful
action and believes that its team will make up the time
lost because of contract delays within three years.         Description: Take measures to avoid, but when needed,
                                                            respond to domestic energy disruptions.
Assessment: Successful
                                                            ”    Success will be measured by:
• Expanding the Clean Cities program to more than 65        • Completing the development of a modeling capability
  participating communities.                                  and performing analyses to guide the design of
Results: The Department exceeded the 65 participating         legislative options regarding reliability under
communities goal by the end of FY 1998.                       electric utility restructuring.
Assessment: Successful                                      Results: The Department has developed a modeling
                                                            capability and performed analyses that has guided the
• Completing the design of a 10 million gallons of          development of legislative language regarding advancing
  ethanol per year first-of-a- kind refinery for            competition in the electric power industry that will lead
  producing ethanol from agricultural crop waste.           to improved efficiency, enhanced environmental
                                                            performance, and reduced costs to customers. The
Results: Additional equipment has been purchased for        Electricity Modeling System has been used to estimate
the front-end hydrolysis step. Financial arrangements are   the impact that competition will have on the electric
70 percent completed.                                       power industry and has been used to evaluate items such
Assessment: Successful                                      as the renewables portfolio standard, the public benefit
                                                            fund, and other changes in the industry inherent with
• Completing initial performance specifications for the     competition. The results of these analyses are embodied
  high efficiency diesel to replace current low             in the Comprehensive Electricity Competition Act
  efficiency engines in class 1and 2 trucks.                (CECA) submitted to the Congress in June 1998. The
                                                            results of the analysis can be found on the DOE home
Results: The Department exceeded the goal of 35 percent
                                                            page at http://198.124.130.244/ceca/ceca.htm.
efficiency improvement by obtaining 50 percent efficiency
improvement. Emission goals have not been reached.          Assessment: Successful
Assessment: Successful


                                                                                                                  101
Department of Energy FY 1998 Accountability Report




• Ensuring that each power system control area              gas supplies, moderate future price increases, and fuel 25
  operated by a Power Marketing Administration              percent of the anticipated 6 TCF increase in natural gas
  receives, for each month of the fiscal year, a Control    demand (of which 3.5 TCF is for electricity generation)
  Compliance Rating of "Pass" using the North               through 2010.
  American Electric Reliability Council performance
                                                            ”    Success will be measured by:
  standard.
                                                            • Demonstrating three advanced drilling and well
Results: Bonneville Power Administration, Western
                                                              completion technology systems that could contribute
Area Power Administration, Southeastern Power
                                                              an additional 6 TCF to domestic gas reserves.
Administration, and Southwestern Power Administration
all received “Pass” ratings.                                Results: Following successful field demonstration of the
                                                            Light Weight Solid Additives (LWSA), additional lab
Assessment: Fully Successful
                                                            testing of the glass beads was conducted to investigate
                                                            the edge of the performance envelope of this material for
ER 2-1 ESTABLISHING A MORE OPEN,                            potential use in offshore drilling muds. The LWSA could
       COMPETITIVE ELECTRIC SYSTEM                          potentially be a key factor in the utilization of riserless
Assessment: Fully Successful                                drilling in the Gulf of Mexico. The final report on this
                                                            project will be available after December 31, 1998.
Description: Propose legislation and support
administrative actions to promote establishment of a        A paper was presented on the field test results at the
more open, competitive electric system, with improved       Society of Petroleum Engineers (SPE) annual conference
environmental performance.                                  and exhibition. Industry's recognition of the potential of
                                                            this technology was acknowledged by the SPE
”     Success will be measured by completing the            subsequently publishing the paper in the November issue
      development of a modeling capability and              of their archive journal, Journal of Petroleum
      performing analyses to guide the design of            Technology.
      legislative options regarding electric industry
      competitiveness, environmental performance, and       The electromagnetic-measurement while drilling
      affordable customer service.                          (EM-MWD) prototype tools have been demonstrated to
                                                            the California oil and gas industry. Several complete
Results: The Department has developed an Electricity        commercial field kits (systems) for use in the
Modeling System and has used it to perform analyses         Midcontinent area of the U.S. have also been developed.
that have guided the development of the Administration's    The system included downhole sensors, telemetry and a
Comprehensive Electricity Competition Act. These            steerable mud motor. These kits represent the beginning
analyses, which were critical to achieving Administration   of commercialization/implementation of this EM-MWD
consensus on the detailed provisions of our proposal, are   technology. The technology is an essential element of
summarized in a "Supporting Analysis" report published      the ability to economically explore for and develop U.S.
and released on the DOE website in July 1998. The           gas resources. It can also be viewed as an "enabling"
analysis quantifies the benefits of competition in the      technology which makes it possible for underbalanced
electric power industry that will lead to improved          drilling technology to be utilized in a wider range of
efficiency, enhanced environmental performance, and         directional and horizontal drilling environments.
reduced costs to customers.
                                                            The prototype High Pressure Simulator (HPS) has been
Assessment: Fully Successful                                built and tested to better study the performance of
                                                            hydraulic fracturing fluids under dynamic conditions, and
ER 2-2 BOOSTING THE NATION'S                                to prove the feasibility of the Fracture Fluid
       PRODUCTION OF NATURAL GAS                            Characterization Facility (FFCF) concept. Fluid
                                                            rheology R&D studies at the FFCF to date have shown
Assessment: Fully Successful
                                                            that effective viscosity measurements of cross-linked
Description: Support R&D policies and improved              gels by standard industry tests are in error by as much as
regulatory practices that can increase domestic natural     250 percent. Similarly, perforation friction loss of



102
                                                                      Performance Measure Results: Energy Resources




crosslinked fluids was found to be significantly higher       • Initiating the government, industry, and State
than reported by standard industry measurements.                partnership to put solar panels on one million roofs.
Several large-scale demonstrations have been conducted
                                                              Results: On April 27, 1998, the Assistant Secretary for
for understanding the flow mechanisms and initiation
                                                              Energy Efficiency and Renewable Energy released the
point of back production of proppant by utilizing the
                                                              Million Solar Roofs Draft Action Plan that contains 10
unique capabilities of the HPS. Three technical papers
                                                              points for accomplishing the goals of the initiative.
were presented at the annual and region SPE conferences.
                                                              Activity is underway on each of the 10 points in the
Two additional peer-reviewed papers were selected and
                                                              Draft Action Plan, and the Department has conducted
published by SPE.
                                                              two quarterly progress meetings of all Million Solar
Assessment: Fully Successful                                  Roofs stakeholders to assess progress and inform
                                                              stakeholders. As of September 30, 1998, the Department
• Conducting feasibility studies and developing               of Energy has received written expressions of interest for
  conceptual designs for alternative storage                  526,000 solar roofs, including a commitment from the
  technologies for the power generation markets in the        Federal government to install 20,000 solar energy
  Northeast and South Atlantic regions.                       systems on Federal buildings by 2010. Nine
                                                              partnerships have been identified.
Results: In FY 1998, work was initiated on four
alterative gas storage projects. The projects investigated    Assessment: Fully Successful
the feasibility and commercialization potential of storing
natural gas in "Lined Rock Caverns" (LRC), in                 • Achieving retail sales by U.S. industry of eight
"Refrigerated-Mined Cavern Storage" (RMC), "Natural             percent efficient cadmium telluride large area
Gas Hydrates as a Storage Medium" (Hydrates), and               photovoltaic modules.
"Improved Modeling of Salt Cavern Design and
                                                              Results: Solar Cells Inc. (Toledo, OH) has introduced
Integrity" (Salt Cavern). The "Lined Rock Cavern"
                                                              commercial cadmium telluride modules. They now
project is exploring the engineering and economics of
                                                              produce 8.1 percent efficient 6700 cm2-area cadmium
constructing facilities in Atlanta, Georgia, (4 Bcf of
                                                              telluride modules on their commercial manufacturing
working gas), and in Boston, Massachusetts, (2 Bcf of
                                                              line. Solar Cells Inc. has fabricated over 100 kW of
working gas). The "Refrigerated-Mined Cavern Storage"
                                                              these commercial modules that have been used for
study was completed for a 5 Bcf working gas facility in
                                                              product introduction. The modules are in several
the Baltimore/Washington D.C. metropolitan area that
                                                              demonstration projects, including 10 kW with Toledo
shows that the concept is economically competitive with
                                                              Edison and 25 kW at the Air Force's China Lake facility
Liquified Natural Gas (LNG) storage. Initial results
                                                              in California. Solar Cells Inc. is also shipping product to
from the "Improved Modeling of Salt Cavern Design"
                                                              various vendors to finalize initial product specifications.
study indicate that minimum working gas pressures in
                                                              Solar Cells Inc.'s R&D in CdTe device and process
most existing salt cavern storage facilities can be lowered
                                                              development has been funded as part of DOE's Thin
10 percent without compromising cavern stability.
                                                              Film PV Partnership since SCI's inception about a
Assessment: Successful                                        decade ago. In addition, it has also received more recent
                                                              support for manufacturing optimization through the PV
ER 2-3 DEVELOPING RENEWABLE DOMESTIC                          Mat program. Another manufacturer, BP Solar
       ENERGY                                                 (Fairfield, CA) is also developing a commercial cadmium
                                                              telluride process line.
Assessment: Successful
                                                              Assessment: Fully Successful
Description: Develop renewable energy technologies
and support policies capable of doubling non-
                                                              • Completing 100-hour acceptance test for Solar Two
hydroelectric renewable energy generating capacity by
                                                                power tower in California, achieving 90 percent
2010.
                                                                system availability and producing 1,500 MW- hours
”    Success will be measured by:                               of electricity for a one-month period.



                                                                                                                     103
Department of Energy FY 1998 Accountability Report




Results: The 100-hour acceptance test was successfully       25, which requires the testing organization to develop a
completed on January 21, 1998. Since then, the               management quality assurance procedure, and
performance at Solar Two has met or exceeded                 procedures for conducting certification tests. These
expectations. The performance measure to achieve 90          procedures must be accredited according to ISO Guide
percent system availability was based on running the         25 to assure that the test results will be accepted by
plant for two years. Startup issues delayed the initiation   international certification bodies. The National Wind
of operational testing, resulting in only one year of        Technology Center (NWTC) has drafted ISO Guide 25
operation by the end of FY 1998 instead of the planned       procedures which conform to the International
two years. Nevertheless, the plant did achieve the design    Electrotechnical Commission (IEC) 61400-12 (Power
goal of 80 percent system availability during the first      Performance Measurements) and IEC 61400-11
year of operation, during June and July 1998, when Solar     (Acoustic Emission Measurements) standards. American
Two operated for 32 out of 39 (82 percent) consecutive       Association for Laboratory Accreditation (A2LA) has
days. Solar Two also exceeded its long-term DOE              completed their evaluation of these procedures and has
performance measure of 1500 megawatt-hours in a              issued a certificate of accreditation for performing tests
30-day period by generating 1633 megawatt-hours              at the NWTC according to these procedures.
between June 14 and July 13, 1998.
                                                             Assessment: Fully Successful
Assessment: Successful
                                                             • Increasing the routine use of renewable energy
• Completing gas analysis and operational testing of           technologies at Federal facilities through the
  the Vermont biomass gasifier.                                completion of one government-wide solar technology
                                                               Super-Energy Savings Performance Contract (Super
Results: The gasifier construction and preliminary
                                                               ESPC);assisting 10 sites in assessing renewable
testing of subsystems have been completed. As of
                                                               potential; and completing two model delivery orders
September 30, 1998, 75 percent of the parametric testing
                                                               integrating cost-effective solar technology and
had been completed. The gasifier has been operated at
                                                               energy efficiency.
100-150 tons/day (designed for 200 tons/day).
                                                             Results: (1) FEMP awarded the Photovoltaics Super
Assessment: Partially Successful
                                                             ESPC in August 1998. (2) FEMP has completed
                                                             assessments of renewable energy potential at 13 Federal
• Beginning construction of multi-megawatt                   facilities (EPA labs in ADA OK, Gulf Breeze FL,
  geothermal demonstration power plant based on              Research Triangle Park NC, Golden CO; NOAA sites on
  advanced heat recuperation technology.                     Maui, Oahu and Guam; NPS sites in Kona HI, Cleveland
Results: Preliminary engineering on the 5-MWe Kalina         OH, Yosemite CA, Tumacacoli NM and Fort Baker, CA;
Cycle plant at Steamboat, Nevada, is complete except for     and USCG Air Station San Francisco). (3) At least six
negotiation of cost of construction. The DOE Golden          Super ESPC delivery orders integrating solar and energy
Field Office has received comments on its pre-decisional     efficiency are in progress. Requests-for-Proposals have
draft Environmental Assessment of the project and is         been sent to Super ESPC contractors including
preparing a final determination of either a Finding of No    photovoltaics at Yosemite NP, CA, and solar water
Significant Impact (FONSI) or that an Environmental          heating at Bliss Army Community Hospital, AZ. Site
Impact Statement is needed.                                  data package (delivery order documentation) is complete
                                                             for solar ventilation preheat deliver order at National
Assessment: Partially Successful                             Renewable Energy Lab, Golden, CO. Other deliver
• Completing requirements for International Standards        orders, integrating solar and energy efficiency, are under
  Organization accreditation for wind turbine                development for solar ventilation preheat at the Waste
  certification testing at the National Wind Technology      Isolation Pilot Plant in Carlsbad, NM, and for solar
  Center.                                                    thermal rehabilitations at Job Corps, Gary TX and Indian
                                                             Health Service Hospital, Talequa OK.
Results: International Standards Organization (ISO)
accreditation requirements are specified by ISO Guide        Assessment: Fully Successful



104
                                                                      Performance Measure Results: Energy Resources




ER 2-4 REDUCING EMISSIONS FROM                                  - Commencing construction of a Coal- fired Diesel
       EXISTING FOSSIL FUEL POWER                                 Engine Project for small utility and industrial
       PLANTS AND DEVELOPING CLEAN                                applications.
       HIGH EFFICIENCY FOSSIL FUELED
                                                                - Completing operations of a processing facility
       POWER PLANT FOR THE 21ST
                                                                  producing a coal product fuel with a sulfur
       CENTURY
                                                                  content as low as 0.3 percent and heating value
Assessment: Successful                                            up to 12,000 btu/lb.
Description: By 2010, significantly reduce emissions            - Commencing operations of commercial-scale,
from currently existing fossil fuel powerplants, and from         advanced combustor facility (Healy) for electrical
new plants by: (1) developing market-ready coal power             power generation with reductions greater than 70
systems with efficiencies over 60 percent (new plants are         and 90 percent, respectively, for NOx and SO2.
currently about 35 percent), emissions to less than 1/10
                                                              Results: Initiated designs of the Jacksonville project in
of New Source Performance Standards (NSPS), and CO2
                                                              September 1997 and the Lakeland project in January
emissions 45 percent below conventional plants; and (2)
                                                              1998. Coal processing facility has delivered over
integrating advanced turbine and fuel cell technology to
                                                              220,000 tons of enhanced low-rank western coals.
achieve market-ready gas-fueled powerplants with
                                                              Coal-fired Diesel Engine Project construction
efficiencies over 70 percent.
                                                              commenced on August 1997. Healy Project commenced
”     Success will be measured by:                            operation on April 1998.
• Completing milestones, including initiation of              Assessment: Successful
  gasification testing and completion of the
  pressurized fluidized bed combustion (PFBC) test            • Completing the scheduled test runs of the first
  module, at the Wilsonville, AL, Power Systems                 complete natural gas fueled solid oxide fuel cell
  Development Facility, leading to development of               power plant, and continuing the product
  advanced integrated gasification combined cycle               improvement and cost reduction of molten carbonate
  (IGCC) and PFBC systems with efficiencies over 60             fuel cell (MCFC) power plants leading to 60 percent
  percent, 30-50 percent lower CO2 emissions, and up            efficient systems that will be market-ready in the year
  to 20 percent lower electricity costs.                        2002 time frame and capable of achieving
                                                                competitive costs in distributed power generation.
Results: PFBC test module was completed in April
1998. Gasification testing delayed due to decision to         Results: Scheduled test runs successfully completed -
continue testing on the transport reactor to get additional   3,360 hours of operation with the generation of 398
hot gas filter data in support of Lakeland Clean Coal         megawatt hours of electricity. MCFC activities are
Technology project.                                           continuing on schedule.
Assessment: Successful                                        Assessment: Fully Successful

• Continuing accomplishments in the Clean Coal                • Completing Phase III Advanced Turbine System
  Technology Demonstration Program, including:                  technology readiness testing for utility-scale
                                                                turbines, and initiating prototype tests of a 60
    - Initiating the design of one commercial-scale
                                                                percent efficient, ultra-low NOx emissions advanced
      Circulating Atmospheric Fluidized Bed
                                                                gas turbine system for market applications in the
      Combustion Project (Jacksonville) and one
                                                                year 2000 time frame.
      Advanced Circulating Pressurized Fluidized Bed
      Project (Lakeland) capable of achieving SO2             Results: General Electric completed activities as planned
      reductions of at least 95 percent and NOx               on time. Westinghouse slightly behind schedule because
      reductions of at least 80 percent.                      of transaction with Siemens which were completed in
                                                              August 1998.
                                                              Assessment: Successful



                                                                                                                      105
Department of Energy FY 1998 Accountability Report




ER 2-7 IMPROVING EXISTING NUCLEAR                           Results: A test was successfully conducted for 3,000
       POWER PLANTS AND MAINTAINING                         hours, achieving the general technical objective.
       NUCLEAR POWER AS A VIABLE
                                                            Assessment: Successful
       OPTION FOR THE FUTURE
Assessment: Fully Successful                                ER 3-1 DESIGNING AND DELIVERING THE
Description: Improve nuclear power plant reliability and           VEHICLES OF THE FUTURE
availability to increase the capacity factor of existing    Assessment: Successful
nuclear power plants from the 1996 average of 76
percent to 85 percent by 2010. Maintain a viable nuclear    Description: Develop and deploy vehicles, fuels, and
option for future, carbon-free baseload electricity         systems of the future, contributing significantly to the
through cooperative technical development activities        Partnership for a New Generation of Vehicles to develop,
with U.S. electric industry, national laboratories, and     by 2004, prototype mid-sized cars capable of 80 miles
universities that would maintain domestic nuclear           per gallon that will reduce NOx and CO2 emissions by
capabilities and that would facilitate a U.S. order of an   two-thirds compared to today's new car average without
advanced nuclear power plant by 2010.                       compromising safety, comfort, and cost.

”     Success will be measured by working with              ”    Success will be measured by completing
      industry to facilitate NRC final design approval of        laboratory validation tests on hydrogen-fueled 50
      the Westinghouse AP600 design by September                 kW (full-scale) proton exchange membrane fuel
      1998 for passively safe nuclear reactors.                  cell propulsion systems that can be tested under
                                                                 automotive drive cycle requirements.
Results: The Nuclear Regulatory Commission (NRC)
issued a final design approval (FDA) for the                Results: Preliminary tests achieved 50 percent fuel
Westinghouse AP600 standard nuclear reactor design on       efficiency at full power and 60 percent fuel efficiency at
September 3, 1998. The design was developed in              one-quarter power, which exceeded expectations.
partnership with DOE. Issuance of the FDA completed         Assessment: Successful
the NRC's technical review. Formal design certification
by the NRC is expected in 1999. The Department and
                                                            ER 3-2 IMPROVING EFFICIENCY OF ENERGY
the U.S. nuclear industry also cooperated in successful,
                                                                   INTENSIVE INDUSTRIES
cost-shared efforts to develop two other Advanced Light
Water Reactor plant designs. The other two plant            Assessment: Successful
designs--the Combustion Engineering System 80+ design
                                                            Description: By 2010, reduce industrial energy use per
and the General Electric ABWR design--were certified
                                                            unit of output by 25 percent by supporting industry/
by the NRC in 1997.
                                                            government/academia partnerships in R&D to improve
Assessment: Fully Successful                                efficiency of the Nation's energy intensive industries.
                                                            ”    Success will be measured by:
ER 2-9 DEVELOPING ADVANCED TURBINES
       FOR COGENERATION                                     • Initiating work on facilitating a Mining and
                                                              Agriculture Industry Vision, and facilitating
Assessment: Successful                                        development of selected State-wide Industries of the
Description: Develop and introduce advanced turbines          Future strategies. Roadmaps will be completed in
for cogeneration that can reduce annual industrial energy     the Aluminum, Chemical, Forest Products, Glass,
costs by $500 million and carbon emissions by nearly          Metalcasting, and Steel Industries, and will drive the
1.7 million metric tons in 2010.                              DOE R&D portfolio.

”     Success will be measured by field testing of          Results: Agiculture Vision "Plant/Crop Based
      ceramic components for an advanced industrial         Renewable Resources 2020" completed. Mining Industry
      turbine for 4,000 hours.                              vision is in draft. Roadmaps completed for aluminum,




106
                                                                     Performance Measure Results: Energy Resources




forest products, glass, metalcasting and steel industries.   Star appliances. Recruited "Home Base," a major
First chemical roadmap released in final by industry.        California retail chain, to promote ENERGY STAR
                                                             products.
Assessment: Fully Successful
                                                             Assessment: Successful
• Continuing support for Industrial Assessment
  Centers operating at 30 participating universities         • Recruiting 55 new Rebuild America partnerships to
  that will conduct approximately 750 combined                 join the program, increasing the total number of
  energy, waste and productivity assessments.                  Rebuild America communities to 195, representing
                                                               all 56 States and territories.
Results: Thirty Centers conducting assessments. One
center dropped out of the program which reduced the          Results: During FY 1998, the Rebuild America program
number of assessments performed in FY 1998 to about          added 55 new community partnerships. The program
725. A replacement center, an historical black college       has community partnerships in 47 States and three U.S.
(Prairie View), began operating in late 1998.                territories. Of these, 28 States and territories are
                                                             partnerships themselves. In FY 1998, 19 partnerships
Assessment: Successful
                                                             have completed Action Plans for implementing building
                                                             energy retrofits, while another five partnerships have
ER 3-3 IMPROVING THE ENERGY                                  begun to conduct multi-building retrofits.
       EFFICIENCY OF BUILDINGS
                                                             Assessment: Successful
Assessment: Successful
Description: By 2010, improve the energy efficiency of       • Building 200 energy efficient homes in partnership
the existing U.S. building stock, and increase the energy      with industry. These homes will be designed to save
efficiency of new homes by 30 percent and other new            50 percent of energy used for heating, cooling, & hot
buildings by 20 percent, compared to 1996 average new          water at no incremental costs. Activities will be
buildings.                                                     coordinated with the public and private Partnership
                                                               for Advanced Technology in Housing.
”    Success will be measured by:
                                                             Results: In FY 1998, 300 energy efficient holmes were
• Weatherizing approximately 63,335 low-income
                                                             built, leading to a total of 605 houses since program
  homes.
                                                             inception under partnerships with the Building America
Results: Weatherized 63,389 low-income homes through         program..
September 30, 1998.
                                                             Assessment: Successful
Assessment: Successful
                                                             ER 4-1 PLANNING FOR ENERGY RELATED
• Adding windows to the Energy Star product                         GREENHOUSE GAS REDUCTIONS
  portfolio; doubling the number of retail stores
                                                             Assessment: Successful
  labeling Energy Star appliances to 2,400 nationwide;
  recruiting four major appliance manufacturers to           Description: Develop policies, programs, and
  label Energy Star appliances at the factory; and           information to facilitate energy sector reductions in
  increasing sales of Energy Star appliances by 30           greenhouse gas emissions.
  percent over 1997.
                                                             ”    Success will be measured by:
Results: Launched Energy Star windows program,
                                                             • Completing a climate change technology strategy in
March 1998. Signed three appliance manufacturers and
                                                               partnership with national laboratories, private
20 window and glass manufacturers to label and promote
                                                               industry and top universities as part of the
ENERGY STAR products. Signed a major retailer
                                                               President's Climate Change Technology Initiative to
buyers group representing over 1,200 stores nationwide,
                                                               develop path-breaking technologies to address
which will double the number of stores labeling Energy
                                                               climate change.


                                                                                                                     107
Department of Energy FY 1998 Accountability Report




Results: In FY 1999, the Department's civilian energy         monitoring and verification of the Kyoto Protocol in
R&D budgets, as appropriated by Congress, witnessed           January 1998 in New Mexico. Participated in workshops
the addition of a number of new R&D initiatives aimed         in Moscow and meetings with "umbrella" group
at expanding and accelerating research in renewables,         countries on emissions trading. Participated in
efficiency, fossil energy, and nuclear energy, the goals of   interagency meetings to develop the U.S. position on
which, although not focused explicitly on climate change,     emissions trading and other flexibility mechanisms. Also
are expected to contribute to increased energy efficiency     participated in the June 1998 Bonn Subsidiary Body
and enhanced use of zero or low carbon emission energy        meetings where these issues were discussed and
technologies in the future.                                   negotiated. Analyzed proposed Brazilian methodology
                                                              for determining future emission budgets for developing
Assessment: Fully Successful
                                                              and developed countries, and participated in international
                                                              meetings reviewing this proposal. Supported analysis of
• Maintaining our 600+ existing Climate Challenge             negotiation and implementation issues concerning the
  partnership agreements supporting integration of            treatment of carbon sinks, and monitoring and
  energy efficiency and renewable energy technologies         verification methods. Led development of International
  into our partner's carbon abatement programs.               Climate Technology Initiative. Obtained financial
Results: The Climate Challenge electric utility partners      support from other developed countries and active
now numbers 651. These utilities are on target to deliver     interest of many developing countries. Actively
a total pledged amount of 47.6 MMTCE of voluntary             participated in the technical and negotiating sessions of
greenhouse gas reductions in the year 2000.                   the fourth Conference of the Parties (COP IV) in Buenos
                                                              Aires.
Assessment: Fully Successful
                                                              Assessment: Successful
• Developing and assessing options for implementing
  the new international agreement proposed at the             ER 4-2 COOPERATING INTERNATIONALLY
  Kyoto Conference of the Parties to the U.N.                        TO DEVELOP OPEN ENERGY
  Framework Convention on Climate Change by:                         MARKETS

  - Supporting, through quantitative analyses and             Assessment: Successful
    international contacts, Administration efforts to         Description: Cooperate with foreign governments and
    obtain meaningful commitments for reducing                international institutions to develop open energy markets,
    greenhouse gas emissions from developing                  and facilitate the adoption and export of clean, safe, and
    countries.                                                efficient energy technologies and energy services.
  - Providing institutional arrangements and                  ”    Success will be measured by:
    technologies for the Monitoring and Verification
    of treaty compliance under the Framework on               • Assisting to remove policy, regulatory and fiscal
    Climate Change.                                             barriers to U.S. companies in energy efficiency,
                                                                renewables, oil and gas, coal bed methane and clean
  - Completing assessments of alternative                       coal technology, and nuclear energy markets, in
    approaches for implementing domestic and                    China, India, Indonesia, the Philippines, Mexico,
    international greenhouse gas emissions trading.             Venezuela, Argentina, Chile, Brazil, Russia, Ukraine,
Results: Conducted a study of the cost effectiveness of         Caspian countries, South Africa, and in other
policies to achieve GHG reductions. Participated in             developing economies.
workshops on the Clean Development Mechanism in               Results: The Department has continued to engage the
Brazil, India, and China. Provided members to U.S.            international marketplace throughout FY 1998 with a
delegations visiting various developing countries to          view toward removing barriers to trade and investment,
discuss climate change and the benefits of taking on          and the deployment of new energy technologies. The
meaningful commitments. Conducted a workshop with             Department's efforts have been successful in many parts
the U.S. national laboratories on methodologies for           of the Asia-Pacific region, the Caspian, and in Latin


108
                                                                    Performance Measure Results: Energy Resources




America. Unforseen political and economic instabilities     • Completing by April 1998, for submission to
in a number of countries, in particular Russia, Ukraine,      Congress, an initial Comprehensive National Energy
India, Pakistan, and Indonesia have severely retarded our     Strategy that integrates major Federal government
reform efforts.                                               energy-related activities.
Assessment: Successful                                      Results: The Comprehensive National Energy Strategy
                                                            was completed and published in April; subsequently,
• Continuing coordination of the Russian-American           distributed to Congress; and also made available to the
  Fuel Cell Consortium (RAFCO) which has as one of          public on the Department's Internet Home Page.
  its primary goals the opening up of the Russian           Assessment: Fully Successful
  market to U.S. manufactured fuel cells.
Results: Nine R&D projects have been funded and are         • Publishing domestic and international Annual
underway, one demonstration project for fuel cells in         Energy Outlooks, forecasting future energy supply
Arctic Regions has been funded and is beginning, and a        and consumption through the year 2020.
joint venture proposal to manufacture fuel cell
                                                            Results: "Annual Energy Outlook 1998" was released on
components (separator plates for molten carbonate fuel
                                                            December 18, l997. The release of "Annual Energy
cells) in a former nuclear weapons warhead
                                                            Outlook 1999" was released in December 1998.
manufacturing facility at Arzamas-16 has been submitted
for funding under the Nuclear Cities Initiative. In         Assessment: Fully Successful
addition, through RAFCO consultations and good
offices, the Russian market for American fuel cells has     ER 5-2 DEVELOPING INNOVATIVE OPTIONS
been opened up with the purchase of an International               FOR 21ST CENTURY ENERGY
Fuel Cells PC25 phosphoric acid fuel cell to Gazprom.              MARKETS
Assessment: Successful                                      Assessment: Fully Successful
                                                            Description: Carry out research and scenario analysis to
ER 5-1 EXPANDING PUBLIC ACCESS TO
                                                            help identify and understand options that could
       ENERGY INFORMATION
                                                            revolutionize 21st century energy markets.
Assessment: Fully Successful
                                                            ”    Success will be measured by completing analysis
Description: Develop and expand public access to                 of data from test well in Mackenzie Delta to help
energy data, forecasts, analyses, and educational                define the volume and production characteristics
materials.                                                       of Arctic methane hydrates.
”    Success will be measured by:                           Results: Preliminary analyses of data and samples
                                                            collected in March 1998 from Mallik 2L-38 well,
• The average number of unique monthly users of the
                                                            Mackenzie Delta, N.W.T., Canada, the first documented
  Energy Resources Board Web Sites
                                                            natural gas hydrate samples from beneath permafrost
  (http://www.eia.doe.gov/, and
                                                            collected in the world, were presented on October 20-22,
  http://www.eren.doe.gov/) will grow at least 20
                                                            1998, in Chiba City, Japan, at the Conference on
  percent per year through 2003 (from about
                                                            "Methane Hydrates: Resources in the near future?" The
  71,000/month in 1997).
                                                            well and the subsequent studies represent a unique
Results: The monthly averages for users of the sites        collaborative effort including the Japan National Oil
specified are as follows: FY 1998 EIA Average-              Corporation (JNOC), the Geological Survey of Canada
192,132; FY 1998 EREN Average-62,564; and FY 1998           (GSC), the U.S. Geological Survey, and the DOE.
Energy Resources Board Web Site Average-254,696.            Geochemical, sample, and well log analysis as well as
                                                            studies of sediment-hydrate interactions will be reported
Assessment: Fully Successful
                                                            at the conference, then made public.
                                                            Assessment: Fully Successful



                                                                                                                  109
Department of Energy FY 1998 Accountability Report




National Security                                               Committee for their use in preparing the 3rd NWC
                                                                Annual Stockpile Certification report.

NS 1-1 MAINTAINING THE ENDURING                                 Assessment: Fully Successful
       STOCKPILE
                                                                • Meeting all DoD annual weapons alteration,
Assessment: Successful
                                                                  modification, and surveillance schedules.
Description: Extend the life of U.S. nuclear weapons by
                                                                Results: Surveillance activities are required to properly
continuing the Stockpile Life Extension Program and
                                                                assess the safety and reliability of weapons in the
Stockpile Maintenance activities. Improve detection and
                                                                Nation's stockpile. Surveillance includes both tests on
prediction capabilities for assessing nuclear weapon
                                                                weapon components at DOE's nuclear weapons
component performance and the effects of aging, and
                                                                laboratories and flight tests of unarmed weapons to
continually evaluate the safety, reliability, and
                                                                examine delivery performance. During FY 1998, the
performance of the nuclear weapons stockpile.
                                                                Department completed 40 of the 45 planned flight tests
”     Success will be measured by:                              and 82 of the planned 100 laboratory tests. The flight
                                                                test shortfall was due to logistics issues between the DoD
• Certifying nuclear weapons stockpile safety,
                                                                and DOE. The laboratory test shortfall was due to an
  reliability, and performance according to DOE/DoD
                                                                expiration of the W62 Nuclear Explosive Safety Study
  procedures.
                                                                and other facility related issues. Weapon alterations and
Results: The establishment of an annual process for the         modifications are crucial to upgrade the stockpile to meet
review and certification of the safety and reliability of the   higher safety standards, replace faulty components, meet
nuclear weapons stockpile was directed by President             changed military requirements, or extend the life of the
Clinton and is crucial to this Nation's pursuit of the          weapon. During FY 1998, the Department had eight
Comprehensive Test Ban Treaty. The Secretaries of               weapon alterations and modification ongoing (either
Defense and Energy must advise the President each year          research and development activities or refurbishment).
whether the nuclear stockpile has any safety or reliability     The alterations were for the B61 (three), W87 (two), B83
concerns that require underground testing. In reaching          (two), and the W76. The modification was for the B83.
their conclusion they are advised by the Directors of           All of these activities were performed on schedule. The
DOE's national weapons laboratories, the Commander of           one modification this year was completed on schedule.
the U.S. Strategic Command, and the joint Nuclear               DOE plans to complete the remaining required tests next
Weapons Council.                                                fiscal year. Even with this shortfall, the DOE was able to
                                                                give the DoD a reliability assessment.
Two annual certifications have been successfully
completed, the latest submitted to Congress by the              Assessment: Successful
President on February 12, 1998. The DOE portion of the
                                                                NS 1-4 DEVELOPING A REPLACEMENT
3rd Annual Certification was completed on July 31,
                                                                       SOURCE OF TRITIUM
1998. Final 1998 DOE laboratory reports, reviewing the
status of the nine types of warheads in the enduring            Assessment: Successful
stockpile, were published during July 1998, and signed
                                                                Description: Provide a reliable source of tritium as
out by Defense Programs for distribution to the members
                                                                required for the nuclear weapons stockpile by FY 2005
of the Nuclear Weapons Council Standing and Safety
                                                                or FY 2007 depending on the production option selected.
                                                                ”    Success will be measured by completing the
                                                                     analysis to support the selection by December
                                                                     1998 of a new production source for tritium.
          Results are classified as “FULLY SUCCESSFUL”,
“SUCCESSFUL”, “PARTIALLY SUCCESSFUL”, or                        Results: Tritium, is a radioactive isotope of hydrogen
“UNSUCCESSFUL” for performance judged to be effectively         essential to the proper function of all U.S. nuclear
100% or better, 80-100%, 50-80%, or less than 50%               weapons. Tritium decays at about five percent per year
respectively.                                                   and must, therefore, be replaced in weapons periodically.


110
                                                                     Performance Measure Results: National Security




No new tritium has been produced by the U.S. since          Accelerator Production of Tritium (APT) activities this
1988. Tritium is recycled from dismantled weapons to        fiscal year include the following: An engineering
meet stockpile requirements. A reliable source of tritium   development and demonstration program successfully
production for the stockpile must be available by FY        demonstrated key elements of a tritium production
2005 or FY 2007 depending on the technology selected.       accelerator. Performance testing of a laser beam through
In late 1995, DOE announced it would pursue a dual          the Chalk River Injector Test Stand radio-frequency
track approach to examine and demonstrate the two most      quadrupole (RFQ) was successfully completed and
promising supply alternatives, the purchase of an           exceeded requirements. Fabrication and assembly of the
existing or partially complete commercial light water       copper RFQ for the Low Energy Demonstration
reactor (CLWR) or purchase of irradiation services          Accelerator was completed. Installation of the RFQ and
therefrom or the design and construction of an              preparations for tests of beam through the RFQ were
accelerator for the production of tritium (APT). In         nearly completed. Preliminary engineering design of the
January 1998, the Tritium Supply Program completed          APT plant was initiated in October 1997. An APT
the analysis of the primary tritium source options          Modular Design Study, optimizing plan configurations
necessary to support a possible 2nd Qtr. FY 1998            for START-I and START II stockpile requirements, was
technology decision by the Secretary. A decision,           completed in May 1998. Safety presentations to
however, was not made at that time. Both projects           independent reviewers and the Defense Nuclear Facilities
continued development, demonstration, and design            Safety Board (DNFSB) were conducted throughout the
activities through FY 1998; and the analysis was updated    year. Issues raised by these reviewers have resulted in
for a decision expected by the end of December 1998.        features being incorporated into the APT design to
CLWR activities during this fiscal year include the         increase its safety. A draft Environmental Impact
following: In October 1997, 32 tritium-producing rods       Statement to construct and operate the APT at the
were placed in the Tennessee Valley Authority's (TVA)       Savannah River Site was completed and approved,
Watts Bar reactor for an irradiation demonstration. Two     public hearings were held, and the final EIS was
draft environmental impact statements were completed        completed for review. In keeping with the Secretary’s
and issued for public comment: Draft Environmental          decision to use irradiation services as the primary source
Impact Statement for the Production of Tritium in a         of tritium, the accelerator option has been designated the
Commercial Light Water Reactor and Draft                    backup technology.
Environmental Impact Statement for Construction and
                                                            Assessment: Successful
Operation of a Tritium Extraction Facility at the
Savannah River Site. Preliminary design of the Tritium
Extraction Facility, a FY 1998 milestone, has been          NS 2-1 REPLACING UNDERGROUND TESTING
completed and an independent, parametric cost estimate             WITH SCIENCE
conducted. As required by Congress, an interagency          Assessment: Fully Successful
review of nonproliferation policy issues has been
completed. A technical report has been prepared and         Description: Develop the advanced simulation and
submitted to the Nuclear Regulatory Commission. DOE         modeling technologies necessary to confidently mitigate
received a proposal from the TVA for the Department to      the loss of underground testing by FY 2004.
provide funds for completion of TVA's Bellefonte Unit 1     ”    Success will be measured by meeting established
reactor in exchange for long-term irradiation services.          schedules for the development and installation of a
An interagency agreement for irradiation services                3- trillion operations per second computer system.
without completion of Bellefonte was also a possibility.
Concluding an agreement with TVA, a FY 1998                 Results: The Accelerated Strategic Computing Initiative
milestone, was delayed until FY 1999, pending the           (ASCI) is a time-critical, essential element of the
Secretary's selection decision. In December 1998, the       Department of Energy's Stockpile Stewardship Program.
Secretary made a decision selecting irradiation services    ASCI will enable DOE to develop the advanced
from TVA’s Watts Bar and Sequoyah reactors to meet          simulation and modeling technologies necessary to shift
the Department’s tritium needs.                             from the past stockpile management approach based on
                                                            new weapon development and nuclear testing to a



                                                                                                                  111
Department of Energy FY 1998 Accountability Report




science-based approach based on maintenance of the            completion date is being held. The critical task for the
existing stockpile through advanced simulation and            remainder of this year is to get the roofing and siding
fundamental experiments. Specifically, ASCI will create       completed by the start of the next rainy season. Design
and provide to all stewardship activities the leading-edge    and procurement of special equipment and materials are
weapon simulation capabilities that are essential for         the most challenging aspects of the NIF Project. Design
maintaining the safety, reliability, and performance of the   reviews continue to be successfully completed and
nation's nuclear stockpile under the current nuclear test     production of engineering drawings continues, although
moratorium and to meet the challenge set forth by the         at a slower rate than planned. The beam transport
Comprehensive Test Ban Treaty. Currently, ASCI is             system procurement was awarded in June, and the target
meeting all established schedules for the development         chamber contract is on schedule. Establishment of
and installation of a 3-trillion operations per second        needed manufacturing capacity at optics vendors is
computer system. The initial delivery of a computer           proceeding well as they prepare for pilot production
system was received in FY 1997, and the technology            beginning in early FY 1999. More information on the
refresh was installed in the first half of FY 1998. Code      NIF project can be obtained at
development teams, including weapons designers, at the        http://lasers.llnl.gov/lasers/nif.html
national weapons laboratories are using the system
                                                              Assessment: Fully Successful
performing at a level of between 400-900 billion
operations per second and running weapons simulations
that are larger and more complex than was possible on         NS 2-3 CONDUCTING EXPERIMENTS TO
previous machines. These simulations include higher                  ADVANCE OUR UNDERSTANDING OF
resolution, improved physics models, and more robust                 WEAPONS BEHAVIOR
computational math. At the end of September 1998,             Assessment: Partially Successful
three months ahead of schedule, IBM benchmarked the
3-teraflops computer system at a sustained 1-teraflops        Description: Advance our understanding of the
calculation.                                                  fundamental characteristics of weapons behavior through
                                                              systems engineering and advanced experiments and
Assessment: Fully Successful                                  modeling to support future assessments of weapons
                                                              safety, reliability, and performance.
NS 2-2 DEVELOPING NEW EXPERIMENTAL
                                                              ”    Success will be measured by conducting three to
       CAPABILITIES FOR UNDERSTANDING
                                                                   four subcritical experiments to provide
       WEAPONS SCIENCE
                                                                   information about the behavior of nuclear
Assessment: Fully Successful                                       materials during the implosion phase of a nuclear
                                                                   weapon.
Description: Develop new nuclear weapons physics
experimental test capabilities.                               Results: Subcritical experiments are designed to provide
                                                              an improved understanding of certain dynamic material
”     Success will be measured by beginning the
                                                              properties of plutonium, the fissile material in most
      physical construction according to schedules in
                                                              primaries, and are considered essential for assessing
      the Project Execution Plan for the National
                                                              nuclear warhead performance, reliability, and safety in
      Ignition Facility (NIF).
                                                              the absence of nuclear testing. These experiments also
Results: The NIF Project is essentially on schedule and       make a significant contribution to maintaining nuclear
on cost, and all aspects of the Project are making            test readiness, required by Safeguard C of the
satisfactory progress. All of the Project's firm fixed        Comprehensive Test Ban Treaty and Presidential
price building contracts have been awarded. In June,          Decision Directive. On March 25, 1998, we conducted
major concrete pours for the Target Building and              the first subcritical experiment of FY 1998, Stagecoach,
Switchyard floors were completed essentially on               a Los Alamos National Laboratory experiment. On
schedule. Construction of the Laser Building and Central      September 26, 1998, Bagpipe, a Lawrence Livermore
Plant, which are on the critical path for Conventional        National Laboratory subcritical experiment, was
Facilities, is currently delayed 2-4 weeks, but the Project   successfully executed. Extensive preparatory work has



112
                                                                      Performance Measure Results: National Security




been completed for Cimarron and Clarinet, the third and      functions) has been delayed and rescheduled to
fourth subcritical experiments planned for FY 1998.          November 1998. The final phase (phase B) of
Planned execution for Cimarron is November 1998, and         resumption provides chemical processing capabilities, is
Clarinet is planned to follow one or two months              scheduled for completion in calendar year 1999.
thereafter. The Stagecoach subcritical experiment was
                                                             The Pit Production Program successfully demonstrated
used to obtain additional data on the equation of state of
                                                             on schedule the first major step in its plan to reestablish
high explosively shocked plutonium materials at high
                                                             a pit production capability. In February 1998 the first
pressures and to develop diagnostic instrumentation for
                                                             early development unit pit was successfully produced.
future experiments. In addition to providing information
                                                             While not meeting the full certification requirements to
that will be used on future subcritical experiments,
                                                             enter the stockpile, this pit did successfully demonstrate
Bagpipe was also used to further understanding of the
                                                             the first series of capabilities needed to produce a fully
effects on plutonium of aging, the use of different
                                                             certified pit. The downsizing and modernization of
coating materials, and the effects of different
                                                             production facilities are planned under the Stockpile
manufacturing methods. Data from subcritical
                                                             Management Restructuring Initiative. This includes the
experiments will be used to develop the science-based
                                                             tritium facilities at the Savannah River Site near Aiken,
stewardship computer models.
                                                             South Carolina; uranium machining, recycling and
Assessment: Partially Successful                             storage facilities at the Y-12 Plant at the Oak Ridge
                                                             Reservation, Oak Ridge, Tennessee;
NS 3-1 DOWNSIZING AND MODERNIZING THE                        assembly/disassembly and high explosive fabrication
       NATIONAL SECURITY ENTERPRISE                          facilities at the Pantex Plant near Amarillo, Texas; and
                                                             non-nuclear production facilities for electronic,
Assessment: Partially Successful                             electro-optical devices, plastic and machined parts at the
Description: Provide an appropriately-sized,                 Kansas City Plant in Kansas City, Missouri.
cost-effective, safe, secure, and environmentally sound      Construction funds for the downsizing at Savannah River
national security enterprise. Ensure that sufficient         and Y-12 were received in FY 1998 and construction
scientific and technical personnel are available to meet     funds for Pantex and Kansas City have been requested in
DOE's long-term national security requirements.              the FY 1999 Budget. Title I design for the project at
                                                             Savannah River, scheduled to commence the second
”    Success will be measured by:                            quarter of this fiscal year was delayed to the third
• Ensuring that all facilities required for successful       quarter. Physical construction started in the third quarter
  achievement of the Stockpile Stewardship and               on schedule. Due to rescoping, the start of the Title I
  Management Plan remain operational, and the                design of the Y-12 project was delayed from the first
  established schedules for downsizing and                   quarter of this fiscal year to the fourth quarter. For the
  modernization of the production facilities are met.        projects at Pantex and Kansas City, critical decision two
                                                             (approval of baselines) was not approved in the fourth
Results: Two key activities are underway to provide          quarter as scheduled.
operational production facilities for the successful
implementation of the Stockpile Stewardship Plan.            Assessment: Partially Successful
These two activities are the reestablishment of a Pit
Production Program at the Los Alamos National                • Conducting Security System Reviews and Joint
Laboratory in New Mexico and resumption of Enriched            Tactical System Analyses at six major DOE facilities
Uranium Operations (EUO) at the Y-12 Plant near Oak            and validate through that process that adequate
Ridge, Tennessee. During FY 1997, shipping/receiving,          security measures exist.
assembly/disassembly, depleted uranium operations, and
                                                             Results: As of September 30,1998, eight physical
evaluation of canned subassemblies operations were all
                                                             security system reviews and six Joint Tactical System
restored. Phase A1 of the enriched uranium operations
                                                             Analyses have been conducted.
resumption process (resuming casting, rolling and
forming, and machining operations) restarted in June         Assessment: Successful
1998. Phase A2 (materials control and accountability


                                                                                                                     113
Department of Energy FY 1998 Accountability Report




• Working in cooperation with other Departmental                 vulnerabilities identified by the President's
  elements to add at least 90 protective force personnel         Commission on Critical Infrastructure Protection.
  at various DOE field sites to enhance protection of
                                                             Results: Presidential Decision Directive 63 on Critical
  SNM; start S&S upgrades at five facilities; and
                                                             Infrastructure Protection was signed by the President and
  complete S&S upgrades at two facilities.
                                                             issued in May 1998. The DOE Critical Infrastructure
Results: As of September 30, 1998, a total of 73             Protection Task Force was established in June with the
additional protective force personnel had been hired.        organizational structure approved in July. Plans for the
Upgrades have been initiated at Idaho, Los Alamos            DOE Critical Infrastructure Protection and a national
National Laboratory, Savannah River, and Headquarters.       plan that incorporates the energy sector protection
S&S upgrades are nearing completion at Pantex and            requirements have been drafted and are under review.
Lawrence Livermore National Laboratory.                      Completion was delayed until just after FY 1998.
                                                             Submission of plans to the National Security Council
Assessment: Successful
                                                             was accomplished on November 18, 1998.

• Continuing shipment of Rocky Flats plutonium pits to       Assessment: Partially Successful
  Pantex with the goal of completing all shipments by
  FY 1999.                                                   NS 3-5 MAINTAINING READINESS FOR
                                                                    NUCLEAR EMERGENCIES
Results: Shipments of surplus weapons pits from the
Rocky Flats Environmental Technology Site (RFETS) to         Assessment: Fully Successful
the Pantex Plant are ongoing. Non-recurring budgetary
                                                             Description: Maintain nuclear test readiness and
and technical problems, since resolved, have caused a
                                                             enhance emergency management capabilities to address
one-time delay in the shipping rate with the result that
                                                             any nuclear weapons, radiological, or other emergency in
completion is scheduled for mid FY 1999.
                                                             the United States or abroad.
Assessment: Successful
                                                             ”     Success will be measured by:
NS 3-3 PROTECTING NUCLEAR MATERIALS,
                                                             • Ensuring that the capability to resume underground
       INFORMATION, AND FACILITIES
                                                               testing is maintained in accordance with the
Assessment: Partially Successful                               Presidential Decision Directive and Safeguard C of
                                                               the CTBT through a combined experimental and test
Description: Ensure and enhance protection of nuclear
                                                               readiness program.
materials, sensitive information, and facilities. Provide
DOE-related intelligence and threat assessment support       Results: Maintaining the capability to resume nuclear
to members of the national security community.               testing requires DOE to maintain (1) test facilities and
                                                             equipment at the Nevada Test Site (NTS) and (2) nuclear
”     Success will be measured by:
                                                             testing skills of personnel at both the NTS and the
• Developing and field testing an advanced vehicle           nuclear weapons laboratories. Experiments requiring
  portal test bed designed to prevent entry of               large quantities of high explosives or small amounts of
  unauthorized personnel and contraband.                     special nuclear materials driven by small amounts of
                                                             high explosives, the latter referred to as subcritical
Results: The vehicle portal test bed is currently
                                                             experiments, are conducted at the NTS. These
undergoing full scale development and testing. Test
                                                             experiments and specially designed test readiness
reports are due this fiscal year. The project is on track,
                                                             exercises maintain NTS personnel test readiness skills
with respect to project plans, and is expected to meet all
                                                             including containment, security, assembly, storage and
recorded milestones.
                                                             transportation, insertion and emplacement, timing and
Assessment: Successful                                       control, arming and firing, diagnostics, test control center
                                                             activities, and postshot drilling. Two subcritical
• Completing plans and preparations for initiating in        experiments, Stagecoach and Bagpipe, and 29
  FY 1999, the correction of DOE infrastructure              high-explosive experiments have been conducted at the



114
                                                                     Performance Measure Results: National Security




NTS in FY 1998. In September 1998, we conducted             maintained primarily through participation in national,
VENTEX98, a table-top exercise that simulated a mass        state and local operations, exercises, and training.
venting of an underground nuclear test at the Nevada
                                                            The Department's emergency response program
Test Site for the purpose of exercising the emergency
                                                            performed at a Fully Successful level for FY 1998.
response systems that could be needed during a nuclear
                                                            Highlights of these activities for the fiscal year are as
test. The NTS also has an ongoing archiving program
                                                            follows: During FY 1998, DOE radiological emergency
capturing on videotape the knowledge and testing
                                                            response assets participated in 32 U.S. and overseas
experience of departing personnel as well as data,
                                                            exercises and 17 real-world events. Also, REAC/TS
photos, drawings, procedures, nuclear explosive safety
                                                            responded to 67(60 U.S.- 7 Foreign) calls for medical
studies, containment evaluation plans, lesson learned,
                                                            assistance for 224 individuals and provided radiation
and other information. In FY 1998, almost 84 hours of
                                                            accident management training to 399 health
video taping of subject matter experts discussing 11
                                                            professionals. During June 1998, emergency response
functional areas was completed; over 32,000 pages of
                                                            assets participated in an interagency exercise ELLIPSE
documents were scanned and indexed into the archiving
                                                            ALPHA in Virginia Beach, Virginia. The objective of
database; and encyclopedic-style CD-ROMs covering
                                                            the exercise was to evaluate the federal capabilities of
five functional areas were produced. Hundreds of
                                                            responding to a domestic radiological Weapon of Mass
stockpile stewardship experiments have been conducted
                                                            Destruction. In September 1998, Departmental
this fiscal year at nuclear weapons laboratory facilities
                                                            emergency assets also participated in a major overseas
such as the Flash X-Ray, Pulsed High-Energy
                                                            exercise ELLIPSE BRAVO. The objective of the
Radiographic Machine Emitting X-Rays, Pegasus, Los
                                                            exercise was to evaluate and validate the U.S. federal
Alamos Neutron Science Center, Nova Laser, High
                                                            response to a radiological Weapon of Mass Destruction
Explosive Applications Facility and PBFA Z which
                                                            in an international environment. On October 15, 1997,
exercise many nuclear testing related skills and
                                                            emergency response support was provided to the
technologies, including nuclear design, experiment
                                                            National Aeronautics and Space Administration for the
integration, nuclear chemistry, and weapons engineering.
                                                            launch of the Cassini Space Mission to Saturn. The
Assessment: Fully Successful                                Department participated with multiple agencies to
                                                            identify support requirements and develop ground
• Maintaining robust emergency response assets in           operations and emergency response plans and procedures
  accordance with Presidential Decision Directive 39,       in the event of a launch accident and the release of
  The Atomic Energy Act of 1954, and Executive Order        radioactive material. On board generators contained
  12656 to ensure Departmental response to any              32.8 kilograms of plutonium dioxide. Over 100
  nuclear weapons or radiological emergency in the          personnel and equipment from RAP, ARAC, REAC/TS,
  United States or abroad.                                  and FRMAC, capable of providing onsite and offsite
                                                            radiological support, participated in the launch. A joint
Results: The Department's Emergency Response                U.S./U.K. nuclear weapon accident command post
program provides a national capability to respond to any    exercise DIAGONAL GLANCE was conducted in the
radiological emergency or nuclear accident within the       United Kingdom during the period September 15-18,
United States and abroad. The all-volunteer force that      1998. The scenario involved a U.S. Air Force aircraft
makes up the cadre of deployment forces is mostly from      carrying nuclear weapons crashing on U.K. soil. The
the nuclear weapons laboratories. The seven major           primary objective of DIAGONAL GLANCE was to
capabilities/assets maintained are the Aerial Measuring     evaluate international, national, and local government
System (AMS), the Accident Response Group (ARG),            agreements, policies, procedures, and interfaces as they
the Atmosphere Release Advisory Capability (ARAC),          apply to a U.S. nuclear weapon accident occurring on
the Federal Radiological Monitoring & Assessment            U.K. soil. Between April 2-8, 1998, RAP teams were
Center (FRMAC), the Radiological Assistance Program         deployed to provide assistance to the State of
(RAP), the Nuclear Emergency Search Team (NEST),            Connecticut and the Environmental Protection Agency
and the Radiation Emergency Assistance Center &             (EPA) in conducting surveys for radioactive
Training Site (REAC/TS). These capabilities are             contamination in buildings previously used in the clock



                                                                                                                  115
Department of Energy FY 1998 Accountability Report




manufacturing and the radium dial painting industry.         Description: Implement the disposition of surplus
Ten buildings in four different cities were surveyed.        highly enriched uranium (HEU) and plutonium and
Contamination was found in four of the five occupied         provide technical support to attain reciprocal actions for
buildings. As lead Federal Agency, the EPA                   the disposition of surplus Russian plutonium. Minimize
recommended follow-up resolutions and protective             the future demand for HEU in civilian programs through
actions. With respect to Domestic Preparedness               the development of alternative low enriched uranium
Training in support of the Nunn, Lugar, Domenici             (LEU) fuels for research reactors and targets for medical
legislation, RAP and REAC/TS elements participated in        isotope production. Support international efforts to
29 city visits and training activities. In April 1998, the   place excess fissile materials under International Atomic
Department of State requested DOE radiological               Energy Agency (IAEA) safeguards.
advisory assistance to the United Arab Emirates to
                                                             ”    Success will be measured by:
validate either the presence or absence of radiological
contamination threat at the crash site of an airliner. The   • Successfully completing irradiation of advanced LEU
Departmental assets performed an assessment of the             research reactor fuel test assembly to medium
threat of "Red Mercury" being aboard the aircraft which        burn-up level at the ATR reactor in Idaho by March
had crashed in the desert on December 16, 1997, killing        1998.
77 individuals. No evidence of radiological
                                                             Results: Successfully completed in March 1998, the
contamination was detected.
                                                             irradiation of advanced LEU research reacator fuel test
Assessment: Fully Successful                                 assembly to medium burn-up level at the ATR reactor in
                                                             Idaho.
NS 4-1 REDUCING THE WEAPONS STOCKPILE                        Assessment: Fully Successful
Assessment: Fully Successful
                                                             • Completing the dilution of 13 metric tons of excess
Description: Dismantle nuclear warheads that have been
                                                               HEU (approximately 3.5 metric tons in FY 1998) to
removed from the U.S. nuclear weapons stockpile in a
                                                               LEU and implementing international safeguards at
safe and secure manner.
                                                               the Portsmouth Gaseous Diffusion Plant by August
”     Success will be measured by adhering to                  1998.
      schedules for the safe and secure dismantlement
                                                             Results: Approximately 3 metric tons uranium (MTU)
      of approximately 1,000 nuclear warheads that
                                                             were blended down during FY 1998. Of this total, the
      have been removed from the U.S. nuclear weapons
                                                             IAEA was present to verify the blending down of more
      stockpile.
                                                             than 1.33 MTU. The project was completed in July,
Results: In FY 1998, 1,062 U.S. nuclear warheads were        ahead of its August 1998 scheduled completion date.
dismantled versus a fiscal year goal of 1,004. The           Portsmouth was able to blend down a total of
majority of dismantlements were W69 Short-Range              approximately 14 MTU, nearly 1 MTU more HEU than
Attack Missile warheads, in addition to some W79             originally calculated in the 13.198 MTU amount because
Artillery-Fired Atomic Projectile warheads and               of successful operations practices at the plant. This
surveillance units.                                          additional material did not jeopardize the end date of this
                                                             task.
Assessment: Fully Successful
                                                             Assessment: Fully Successful
NS 4-2 REDUCING INVENTORIES OF SURPLUS
       WEAPONS-USABLE FISSILE                                • Conducting international inspection of the dilution of
       MATERIALS WORLD-WIDE IN A SAFE,                         7 metric tons of HEU by September 1998.
       SECURE, TRANSPARENT, AND
                                                             Results: Conducted international inspection of the
       IRREVERSIBLE MANNER
                                                             dilution of 7 metric tons of HEU by September 1998.
Assessment: Successful                                       USEC/DOE Memorandum of Agreement governing the
                                                             disposition/downblending schedule for 50 metric tons of



116
                                                                      Performance Measure Results: National Security




excess HEU (including 7 metric tons referenced above )       • Beginning the transfer of U.S. surplus HEU to the
was signed on April 21, 1998. The dilution of the 7            United States Enrichment Corporation for dilution
metric tons of HEU will take place at a commercial             and subsequent sale.
downblending facility contracted by USEC. Due to
                                                             Results: The Department shipped the first installment of
delays in signing the MOA and certification of shipping
                                                             surplus highly enriched uranium (HEU) from the
containers, the current schedule is to ship the 7 metric
                                                             Portsmouth Gaseous Diffusion Plant to the BWX
tons of HEU to the commercial downblending facility by
                                                             Technologies blending facility in Lynchburg, VA, on
September 30, 1999.
                                                             September 15, 1998. A total of 50 metric tons of surplus
Assessment: Fully Successful                                 HEU will be transferred to the United States Enrichment
                                                             Corporation over the next six years.
• Ensuring 100 percent completion of progress reports        Assessment: Fully Successful
  on technical, legal, and financial issues of the
  Trilateral Initiative and conduct evaluation of
                                                             • Completing initial demonstration of a prototype
  verification and monitoring technology by August
                                                               integrated plutonium pit disassembly and conversion
  1998.
                                                               system.
Results: Progress reports completed and approved on
                                                             Results: The initial demonstration of the prototype
technical, legal, and financial issues of the Trilateral
                                                             integrated plutonium pit disassembly and conversion
Initiative. Conducted evaluation of verification and
                                                             system was completed in October 1998, with "hot"
monitoring technology in August 1998.
                                                             operations scheduled to begin in November 1998. The
Assessment: Fully Successful                                 prototype system is located at Los Alamos National
                                                             Laboratory and will serve as the basis for the design of a
• Fully implementing all transparency monitoring             full-scale pit disassembly and conversion facility. This
  tasks associated with the dilution of 24 metric tons of    capability will enable the United States to convert
  HEU from dismantled Russian nuclear weapons to             plutonium in surplus weapons components to forms
  low enriched uranium (LEU) for purchase by the             suitable for disposition and international inspection.
  United States Enrichment Corporation.                      Assessment: Successful
Results: The DOE has completed all allowable                 • Completing procurement for a private sector
monitoring trips to the five processing facilities at four     consortium to provide MOX fuel fabrication and
locations covered by Agreements. This included the             irradiation services.
newly added conversion facility at Mayak Production
Assoc. in Ozersk and the fluorination and blending           Results: The Request for Proposals for obtaining mixed
facility in Seversk. We also maintained a permanent          oxide (MOX) fuel fabrication and irradiation services to
monitoring presence at the Ural Electrochemical              dispose of surplus weapons plutonium was released on
Integrated Plant in Novouralsk for a second year.            May 19, 1998. Proposals from the private sector were
                                                             received on September 4, 1998, with contract award
The HEU Transparency Implementation Program                  expected in December 1998.
demonstrated the operation of Blend Down Monitoring
System (BDMS) equipment at the Paducah Gaseous               Assessment: Successful
Diffusion Plant to a Russian delegation. This allowed us
to ship 44 crates of equipment to the Ural                   • Initiating development of a Russian plutonium
Electrochemical Integrated Plant in preparation of             conversion and nondestructive assay prototype
permanent installation on their blending pipes. We are         system.
supporting UEIP in their efforts to secure licensing and
                                                              Results: The first phase of a feasibility study to
approval for the installation and operation of the BDMS
                                                             determine the technology to be used to convert Russian
at the plant.
                                                             plutonium to a form suitable for disposition and the
Assessment: Successful                                       conceptual design of the nondestructive assay component



                                                                                                                    117
Department of Energy FY 1998 Accountability Report




of the plutonium conversion system were completed in         • Leading, via Joint Chairmanship, the interagency
mid-FY 1998. The Russian system, when built, will              task force on warhead and fissile material to create
convert plutonium metal to an oxide form suitable for          START III options for warhead elimination by
disposition and international inspection.                      January 1998.
Assessment: Fully Successful                                 Results: Preliminary report was provided to the National
                                                             Security Council in January 1998, with the final report
NS 5-1 STRENGTHENING THE NUCLEAR                             being provided to the National Security Council in March
       NONPROLIFERATION REGIME                               1998.

Assessment: Successful                                       Assessment: Fully Successful

Description: Strengthen the nuclear nonproliferation
                                                             • Providing equipment, technologies, and expertise to
regime through support of treaties and international           the IAEA and the United Nations Special Commission
agreements.                                                    (UNSCOM) to perform monitoring and intrusive
                                                               inspections in North Korea and Iraq sufficient to
”     Success will be measured by:
                                                               verify compliance with their obligations under the
• In support of a Comprehensive Test Ban Treaty                NPT.
  (CTBT), finalizing a plan for joint cooperation with
                                                             Results: Equipment, technologies, and expertise have
  the Russians to conduct a confidence- building
                                                             been provided to the IAEA and the United Nations
  activity by September 1998.
                                                             Special Commission (UNSCOM) to perform monitoring
Results: Plans for a bilateral test site verification CTBT   and intrusive inspections in North Korea and Iraq
were put on hold. By the end of September 1998, plans        sufficient to verify compliance with their obligations
for a joint U.S.-Russian Federation Comprehensive Test       under the NPT.
Ban Treaty On-Site Inspection Table Top Exercise in
                                                             Assessment: Fully Successful
Chelyabinsk, Russia, in October, are near completion. In
August, DOE sponsored a conference commemorating
the 10-year anniversary of the Joint Verification            NS 5-2 MINIMIZING THE RISKS OF
Experiment between the United States and the former                 PROLIFERATION
Soviet Union. Delegations from Russia and Kazakhstan         Assessment: Fully Successful
participated.
                                                             Description: Work with the states of the former Soviet
Assessment: Partially Successful                             Union and others to minimize the risks of proliferation.
                                                             ”    Success will be measured by:
• Beginning a long-term nuclear spent fuel
  maintenance program in the Democratic Peoples              • Making progress in material protection, control and
  Republic of Korea (DPRK) by June 1998, assuring a            accounting (MPC&A) upgrades at each of the 53+
  stable, non-corrosive storage for the duration of the        facilities in Russia, the Newly Independent States
  program.                                                     (NIS), and the Baltics that use or store weapons-
                                                               usable nuclear material.
Results: The work was put on hold temporarily due to
DPRK's concerns about U.S. commitment to the U.S.             Results: MPC&A work is continuing at each of the 53+
DPRK Agreed Framework, especially their frustration          facilities in Russia, the NIS, and the Baltics that use or
with the absence of a firm schedule for deliveries of        store weapons-usable nuclear material. Rapid site-wide
heavy fuel oil to DPRK. However, DOE staff is now on         upgrades have been completed at 19 locations, and we
the ground in North Korea and will be allowed to resume      expect six more sites to be completed by the end of the
canning work by October 1, 1998. Discussions will            calendar year.
commence on the long-term maintenance program.
                                                             Assessment: Partially Successful
Assessment: Partially Successful



118
                                                                      Performance Measure Results: National Security




• Commissioning the MPC&A system at the                      • Completing technical assistance initiatives in Russia,
  Chelyabinsk-70 pulse research reactor by July 1998.          Ukraine, and Kazakhstan by May 1998 to develop a
                                                               cadre of export control and technical advisors on
Results: Completed commissioning of the MPC&A
                                                               supplier policy and nuclear transfer activities.
system at the Chelyabinsk-70 pulse research reactor in
July 1998.                                                   Results: Core technical teams in Russia, Ukraine, and
                                                             Kazakhstan have been identified and will continue to
Assessment: Fully Successful
                                                             provide support to government authorities on supplier
                                                             policy and nuclear transfer activities.
• Completing the rapid security upgrades on at least
  l/2 of the 35 rail cars used to transport                  Assessment: Successful
  weapons-usable nuclear materials in Russia by
  September 1998.                                            • Commencing prototypic fuel testing by July 1998 to
Results: Completed 80 percent of the rapid security            support the core modifications required for the
upgrades on at least 1/2 of the 35 rail cars used to           cessation of plutonium production at three Russian
transport weapons-usable nuclear materials in Russia.          reactors.
The remaining security upgrades on the rail cars will be     Results: Prototype fuel and absorbers were loaded into
completed by November 1998.                                  one of the plutonium production reactors at Seversk for
Assessment: Successful                                       testing in August 1998. Additional test cells are planned
                                                             to be loaded into the reactor in November 1998.
• Developing and implementing 12 commercial                  Assessment: Successful
  development projects at six primary biological and
  chemical weapons research and production facilities        NS 5-3 ADVANCING NONPROLIFERATION
  in Russia and Kazakhstan engaging an estimated 80                 TECHNOLOGY
  weapons experts. At least six projects will have
  subcontracts in place by April 1998 with the               Assessment: Successful
  remaining six subcontracts in place by September           Description: Develop technologies and systems for
  1998.                                                      detection of nuclear weapons proliferation and treaty
Results: Developed and implemented 18 commercial             verification.
development projects at biological and chemical weapons      ”    Success will be measured by:
research and production facilities in Russia and
Kazakhstan engaging an estimated 80 weapons experts.         • Transferring to the FBI newly developed technology
All subcontracts were in place by September 1998.              which will provide a capability for rapid, sensitive,
                                                               in-field analysis of hazardous biological materials
Assessment: Fully Successful                                   and quick determination of associated terrorist
                                                               threats.
• Developing and implementing 30 commercial
  development projects at nuclear weapons research           Results: The joint DOE/FBI science and technology
  and production facilities in Russia, Ukraine, and          development and transfer initiative has 18 funded
  Kazakhstan engaging approximately 1,000 weapons            projects underway, representing an investment of nearly
  experts. All subcontracts will be in place by              $8M of FBI funding over a two-year period. These
  September 1998.                                            advanced measurement and detection technologies,
                                                             developed by DOE national laboratories, will be
Results: Developed and implemented 34 commercial             integrated into the FBI Crime Laboratory and a new
development projects at biological and chemical weapons      national network of technical centers to support forensics
research and production facilities in Russia, Ukraine, and   investigations and to counter biological weapons of mass
Kazakhstan engaging approximately 1,000 weapons experts.     destruction.
All subcontracts were in place by September 1998.
                                                             Assessment: Partially Successful
Assessment: Fully Successful


                                                                                                                     119
Department of Energy FY 1998 Accountability Report




• Delivering to the CTBT U.S. National Data Center a         in the applicable technology areas to ensure the safe and
  commercializable prototype of an ultrasensitive            reliable operation of reactor plants in Navy warships. A
  near- real-time analyzer for nuclear explosion             key indicator of the success of these efforts is that, in FY
  produced Xenon isotopic gases.                             1998, nuclear-powered warships have safely
                                                             accumulated an additional 100 reactor years of operation,
 Results: The DOE prototype is ready for delivery.
                                                             resulting in over 114 million miles steamed without a
Actual delivery will occur upon the imminent completion
                                                             reactor incident. Development of the next generation
of the Air Force procurement process with the
                                                             reactor for the Navy's New Attack Submarine is
commercialization contractor.
                                                             progressing on schedule. Testing and development is
Assessment: Successful                                       proceeding on components and systems, such as the
                                                             mechanical test cell and control drive mechanism units to
• Completing an airborne demonstration of a                  demonstrate design acceptability. Reactor assessments
  one-of-a-kind, quantitative chemical plume                 are supporting the Navy's Analysis of Alternatives for a
  characterization capability, that uses lasers for          new aircraft carrier.
  weapons production facility monitoring.                    Assessment: Fully Successful
Results: Field tests of the airborne system were
completed successfully in June and July 1998.                NS 7-1 ENHANCING THE SAFETY OF
                                                                    SOVIET-DESIGNED REACTORS AND
Assessment: Fully Successful
                                                                    PROMOTING INTER-NATIONAL
• Delivering to the U.S. Air Force spacecraft                       NUCLEAR SAFETY
  integrating contractor the first five flight units of an
                                                             Assessment: Successful
  extended-energy-range X-ray sensor for monitoring
  of nuclear explosions in space.                            Description: Assist countries in reducing the risks from
                                                             Soviet-designed nuclear power plants and implement a
Results: The first five flight units have been delivered:
                                                             self-sustaining nuclear safety improvement program
one each on March 30, April 28, June 16, June 25, and
                                                             capable of reaching internationally accepted safety
August 26, 1998.
                                                             practices. Promote nuclear safety culture improvements
Assessment: Fully Successful                                 internationally by providing strong leadership in
                                                             international nuclear safety organizations and centers.
NS 6-1 PROVIDING SPECIAL NUCLEAR                             ”    Success will be measured by:
       POWER SYSTEMS FOR NATIONAL
       SECURITY                                              • Completing development of plant models and
                                                               descriptions, conducting training programs, and
Assessment: Fully Successful                                   performing safety analysis calculations at the South
Description: Provide the U.S. Navy with safe, militarily-      Ukraine Unit 1 in Ukraine and the Kola Unit 4 in
effective nuclear propulsion plants and ensure their           Russia, as part of in-depth safety assessments at
continued safe and reliable operation. Meet ongoing and        nuclear power plants in Ukraine and in Russia.
future national security requirements for special nuclear    Results: This success measure was met for the projects
power systems.                                               at both plants. Plant models and descriptions were
”     Success will be measured by developing new             developed, training programs were conducted, and safety
      reactor plants, including the next generation          analysis calculations were performed as scheduled at
      reactor, the design of which will be 75 percent        South Ukraine Unit 1 and Kola Unit 4. The completion
      complete in FY 1998 and ensuring the safety,           of these plant specific models and descriptions and the
      performance reliability, and service-life of           associated training provides a safety significant resource
      operating reactors.                                    to the plant engineers on the operation and safety
                                                             functions of the nuclear power plant.
Results: Naval Reactors continues to meet Program
goals in carrying out testing, development, and analyses     Assessment: Successful



120
                                                                     Performance Measure Results: National Security




• Completing nuclear power plant simulator projects         Results: This success measure is on track for completion
  at Novovoronezh in Russia and at Khmelnytskyy and         in FY 1999. Significant milestones were met to-date,
  Chornobyl in Ukraine.                                     and equipment originally planned has been purchased
                                                            and delivered. Additional requests received in late FY
Results: This success measure was met for the projects
                                                            1998 have been accepted and will be fulfilled during
at all three plants. The full-scope simulator for
                                                            early FY 1999. Repairs were completed in July 1998 to
Khmelnytskyy and the analytical simulators for
                                                            the structure supporting the ventilation stack located
Chornobyl and Novovoronezh were completed and are
                                                            between the operating Unit 3 and the Shelter over the
being used for training reactor operators. The simulators
                                                            destroyed Unit 4. These repairs returned the badly
provide a superior state-of-the-art tool for conducting
                                                            damaged stack to its design strength, removing risks to
realistic operator training on plant operations and
                                                            both the Shelter and to Unit 3 posed by the possibility
emergency control procedures.
                                                            that the damaged stack might collapse. Electronic
Assessment: Successful                                      personnel dosimeters, portable radiation work
                                                            enclosures, dose modeling and shielding software,
• Completing the installation of Safety Parameter           radiation monitoring instruments, radiation zone access
  Display Systems at the Zaporizhzhya plant in              control and dose tracking software, and HEPA filter test
  Ukraine and at the Novovorenezh plant in Russia.          equipment were delivered to Ukraine. The lead shielding
                                                            blankets provided were instrumental in reducing dose
Results: This success measure was met for the projects      rates from "hot spots" on the Unit 3/4 ventilation stack
at both plants. The Zaporizhzhya Unit 5 safety              repair projects. Trial quantities of portable HEPA air
parameter display system was installed and site             filtration units (for localized control of airborne
acceptance testing was successfully completed.              radioactive particles), airborne radioactivity sampling
Installation and testing of the Novovoronezh Unit 3         equipment, and HEPA filter-equipped vacuum cleaners
safety parameter system equipment were completed in         were delivered to Ukraine. Based on evaluations of this
the September/October outage of the plant. The safety       equipment, the balance of required quantities were
parameter display system provides an excellent tool both    defined and procurements initiated. Nuclear criticality
to prevent accidents by alerting the operators of the       safety monitoring equipment was delivered to Ukraine
approach to abnormal conditions, and also to reduce the     assembled and tested during FY 1998. It is scheduled to
consequences of accidents by assisting the operators in     be installed in the Shelter n early FY 1999, followed by a
interpreting and responding to accident conditions.         final check out by U.S. personnel. Dust suppression
Assessment: Successful                                      equipment was delivered to Ukraine to assist in
                                                            maintaining good radiological cleanliness in peripheral
                                                            areas of the shelter. This equipment consists of airless
NS 7-3 ASSISTING IN THE SHUTDOWN OF
                                                            sprayers for decontamination solution and strippable
       THE CHORNOBYL NUCLEAR POWER
                                                            coating applications, portable HEPA filter vacuum
       PLANT
                                                            cleaners, and sophisticated steam/vacuum cleaning
Assessment: Successful                                      equipment. Various equipment to support improvement
                                                            in the industrial safety protection of Chornobyl Shelter
Description: Work closely with the United States
                                                            workers is also being provided. Equipment delivered to
Agency for International Development to assist in the
                                                            Ukraine includes: video remote surveillance equipment,
multi-national effort to shut down Chornobyl Units 1, 2,
                                                            photo digitizing and processing software, hearing
and 3 in Ukraine before January 2001 and reduce the risk
                                                            protection, first aid equipment, portable radios, gas
of possible collapse of the Unit 4 sarcophagus.
                                                            bottle carts, welding gloves and curtains, hard hats, a
”    Success will be measured by:                           CPR training mannequin, fall protection devices, a rebar
                                                            locator, portable electrical generators, air compressors
• Providing the Chornobyl plant with equipment for
                                                            and jack hammers, ladders and scaffolding, and concrete
  dose reduction, nuclear safety monitoring, dust
                                                            drilling and sawing equipment.
  suppression, and industrial safety.
                                                            Assessment: Successful



                                                                                                                  121
Department of Energy FY 1998 Accountability Report




• Reaching an agreement with the Ukrainians on                crisis, defueling of both the Unit 1 reactor and storage
  Chornobyl Unit 1 defueling.                                 pool is likely to be delayed. However, the Chornobyl
                                                              NPP Deputy General Director for International Projects
Results: Activities are being implemented in support of
                                                              and Decommissioning continues to emphasize in
the necessary safety documentation and shutdown
                                                              informal discussions that defueling of the Unit 1 reactor
program that will facilitate obtaining an agreement from
                                                              will begin as scheduled, although completion of
Chornobyl NPP for the defueling of Unit 1. The Ukraine
                                                              defueling is likely to be delayed due to the reasons
Cabinet of Ministers and Nuclear Regulatory
                                                              discussed previously. The first planned defueling
Administration (NRA) require that a shutdown program
                                                              campaign is for 190 assemblies from the Unit 1 reactor.
for Unit 1 be developed and approved prior to the start of
                                                              These assemblies will be shipped to Unit 3 for use as
defueling of Unit 1. The shutdown program identifies
                                                              fuel in that reactor.
the activities to be conducted during the shutdown stage
at Unit 1, including defueling of the Unit 1 reactor          Assessment: Successful
building. Also provided in the shutdown program are the
schedule and funding requirements for the activities to be
conducted. The shutdown stage for Unit 1 encompasses
the period up until all spent fuel has been removed from      Environmental Quality
the reactor building, at which point the decommissioning
stage begins. The Unit 1 Shutdown Program has been
developed by the Chornobyl NPP and Slavutych                  EQ 1-1 REDUCING WORKER, PUBLIC, AND
Laboratory of International Research and Technology                  ENVIRONMENTAL RISKS
(SLIRT), with technical assistance by the Pacific             Assessment: Partially Successful
Northwest National Laboratory (PNNL). The Unit 1
Shutdown Program has been approved by Chornobyl               Description: Identify and fund projects to reduce the
NPP and Energoatom management, the NRA, the                   most serious risks first and prevent further increases in
Ukraine Ministry of Energy, and the Ukraine Ministry of       relative risk at all sites.
Environmental Protection and Nuclear Safety. The              ”    Success will be measured by:
Program remains to be approved by the Ukraine
Ministries of Finance and Economy. Approval by these          • Stabilizing and safely storing about 3.7 metric tons
two ministries is being delayed because of the current          of heavy metal of spent nuclear fuel (SNF). [Note:
Ukraine government budget/financial crisis. The Unit 1          SNF data excludes information that is controlled or
Shutdown Program requires funding by the Ukraine                classified.]
government to implement. Given the current financial          Results: Spent nuclear fuel stabilization progress at the
crisis in the Ukraine, neither the Ministry of Finance nor    Idaho National Engineering Laboratory is behind
Economy is willing, at this time, to approve a document       schedule due to the bankruptcy of a sub-tier contractor
that commits additional Ukraine government resources.         under Newport News Shipbuilding (NNS). This
The Unit 1 Shutdown Program provides a schedule for           bankruptcy caused a delay in the design and fabrication
defueling of the Unit 1 reactor building. Defueling of        of the Heated Vacuum Drying System. The spent fuel
1,417 assemblies from the Unit 1 reactor is scheduled to      drying campaign, which relies on this equipment,
begin by the end of 1998 and to be completed by the end       impacted 55 percent of the spent fuel scheduled to be
of 1999. Defueling of 1,353 assemblies from the Unit 1        stabilized in FY 1998. The scheduled delivery date for
storage pool is scheduled to begin in early 2000 and to       the Heated Vacuum Drying System was missed and the
be completed by the end of 2003. The extended schedule        system did not arrive until February 1998. Once the
for defueling of the storage pool is due to the lack of
available storage capacity at the Chornobyl NPP interim
spent fuel storage facility. A new interim storage facility             Results are classified as “FULLY SUCCESSFUL”,
is being provided with funding by the EBRD, but will not      “SUCCESSFUL”, “PARTIALLY SUCCESSFUL”, or
be available for receipt of spent fuel until August 2001 at   “UNSUCCESSFUL” for performance judged to be effectively
the earliest. Because of the Ukraine government funding       100% or better, 80-100%, 50-80%, or less than 50%
                                                              respectively.



122
                                                                Performance Measure Results: Environmental Quality




equipment arrived, functional testing identified several     This safety concern caused a delay in the system draining
deficiencies. Other work associated with this                operation. Nevertheless, the site developed a new
performance measure was affected by safety analysis          strategy to strip out the piping systems immediately
issues which required resolution and by equipment and        following the draining evolutions to address the safety
crane failure, which required repair by the DOE prime        concern. This new approach was implemented in July
contractor.                                                  1998, optimizing the use of existing trained crews,
                                                             controls, and procedures used in draining activities.
Assessment: Partially Successful
                                                             While not achieving the desired commitment from
                                                             draining of the Pu liquid systems, some additional work
• Stabilizing approximately 20,000 kilograms bulk of         scope, involving the stripout of piping, was accelerated
  plutonium residue and approximately 7,000 liters of        and accomplished in FY 1998.
  plutonium solution, and safely storing stabilized
  material.                                                  Assessment: Partially Successful

Results: A number of issues have impacted solid and
                                                             • Closing one high-level waste storage tank at the
liquid stabilization activities under this commitment.
                                                               Savannah River Site.
Based on a hold on movement and stabilization of
plutonium (Pu) in FY 1998 at the Plutonium Finishing         Results: The Savannah River Site closed one high-level
Plant (PFP) due to criticality safety concerns, the          waste storage tank in December 1997.
Richland Operations Office did not achieve any Pu
                                                             Assessment: Fully Successful
stabilization. Nevertheless, PFP passed a DOE
Operational Readiness Review that was conducted
during December 1-10, 1998. After correcting pre-start       EQ 2-1 ACCELERATE AND COMPLETE
findings, plutonium oxide stabilization is scheduled to             GEOGRAPHIC SITE CLEANUP
resume during the first week of January 1999.                Assessment: Successful
Rocky Flats was only able to achieve about one-quarter       Description: Clean up as many as possible of the
of their commitment (about 5,000 kilograms (kgs) of the      Department's 53 remaining contaminated geographic
19,500 kgs) to stabilize solid plutonium residues due to     sites by 2006. Accelerate and complete cleanup of nine
safety issues and construction delays. The safety issues     large geographic sites by 2006, including the Fernald
at Rocky Flats included Building 707 Operational Safety      Environmental Management Project, Mound Plant,
Requirement violations, an administrative criticality        Rocky Flats Environmental Technology Site, Portsmouth
safety operating limit infraction, problems with             Gaseous Diffusion Plant, West Valley Site, Weldon
measurement tolerance in criticality analysis and            Spring Site, Brookhaven National Laboratory, and
capability to conduct non-destructive assay of stabilized    Lawrence Livermore National Laboratory (Main Site and
material. To allow acceleration of the work on these         Site 300). Cleanup 34 of the remaining 36 smaller
residues, the Residue Program at Rocky Flats was             geographic sites by 2006, including the Uranium Mill
rebaselined in FY 1998 to implement a program that           Tailings Remedial Action (UMTRA) Project. Accelerate
allows direct packaging of most of the solid residues for    cleanup at the remaining seven large sites (Hanford,
disposal in the Waste Isolation Pilot Plant. Rocky Flats     Savannah River, Idaho, Oak Ridge Reservation, Los
achieved almost half of the projected liquid residue         Alamos National Laboratory, Nevada Test Site, and
stabilization, about 3,000 liters of the 7,000 liters        Paducah) where overall completion will not be achieved
committed. The lower number resulted from the                by 2006, and ramp up disposal operations at the Waste
termination of draining operations in Building 771 earlier   Isolation Pilot Plant (WIPP) to facilitate this accelerated
in the year due to unexpected safety issues. The original    cleanup. Remediation progress will be measured by
plan had been to drain the 38 piping systems in Building     completion of release sites (i.e., discrete areas of
771 in FY 1998 and then go back in to strip out the          contamination) and facilities (i.e., contaminated
piping systems. However, during draining, the site           structures) that will ultimately lead to the completion of
identified unexpectedly high levels of hydrogen in the       the entire geographic site.
piping systems due to internal corrosion of the pipes.



                                                                                                                    123
Department of Energy FY 1998 Accountability Report




”     Success will be measured by:                       approval) and maximize timely shipment of waste from
                                                         DOE sites.
• Completing remediation at six geographic sites. This
  will bring the total number of completed geographic    ”    Success will be measured by shipping between 388
  sites to 66 out of a total of 113 contaminated              and 592 cubic meters of transuranic (TRU) waste
  geographic sites.                                           to WIPP for disposal from three DOE sites (Los
                                                              Alamos National Laboratory, Rocky Flats
Results: Five geographic sites were completed during
                                                              Environmental Technology Site, and Idaho
FY 1998. This included the remediation of the Center
                                                              National Engineering and Environmental
for Energy & Environmental Research in Puerto Rico,
                                                              Laboratory).
two UMTRA sites in Colorado (Maybell & Naturita),
and the revocation of the designation of two UMTRA       Results: On May 13, 1998, the Department received
sites in North Dakota (Belfield & Bowman).               certification from the U.S. EPA that WIPP met the
                                                         standards for the disposal of TRU waste and Secretary
Assessment: Successful
                                                         Peña notified Congress by declaring WIPP open for the
                                                         disposal of TRU waste. Shipment of TRU waste to
• Making progress on release site completion:            WIPP did not commence in FY 1998 because of the
    - Completing about 575 release site assessments.     pending reviews by the New Mexico Environment
                                                         Department (NMED) regarding the DOE's application
    - Completing about 280 release site cleanups. This   for a Resource Conservation and Recovery Act (RCRA)
      will bring the number of completed release site    Part B permit for mixed waste, the NMED's technical
      cleanups to approximately 4,130 out of a total     analysis supporting the determination that the waste at
      inventory of about 9,300 release sites.            the Los Alamos National Laboratory was non-mixed,
Results: Approximately 585 release site assessments      and existing litigation (1992 Permanent Injunction).
and about 288 release site cleanups were completed       Assessment: Unsuccessful
during FY 1998.
Assessment: Fully Successful                             EQ 3-2 MAKING DISPOSAL READY AND
                                                                DISPOSING OF WASTE GENERATED
• Making progress on facility decommissionings:                 DURING PAST AND CURRENT DOE
                                                                ACTIVITIES
    - Completing about 90 facility decommissioning
      assessments.                                       Assessment: Fully Successful

    - Completing about 70 facility decommissionings.     Description: Safely and expeditiously make
      This will bring the number of completed facility   disposal-ready and dispose of waste generated during
      decommissionings to approximately 520 out of a     past and current DOE activities.
      total inventory of about 2,950 facilities.         ”    Success will be measured by:
Results: Approximately 89 facility decommissioning       • Disposing of about 4,000 cubic meters of mixed low
assessments and about 82 facility decommissionings         level waste (MLLW).
were completed during FY 1998.
                                                         Results: Through September 30, 1998, approximately
Assessment: Fully Successful                             11,000 cubic meters of mixed low-level waste have been
                                                         disposed.
EQ 3-1 OPENING THE WASTE ISOLATION
                                                         Assessment: Fully Successful
       PILOT PLANT
Assessment: Partially Successful                         • Disposing of about 30,000 cubic meters of low level
Description: Declare the Waste Isolation Pilot Plant       waste (LLW).
(WIPP) geologic repository open for disposal of
transuranic wastes in May 1998 (subject to regulatory


124
                                                                   Performance Measure Results: Environmental Quality




Results: Through September 30, 1998, approximately              Results: DOE sites reduced/avoided a total of 14,000
30,000 cubic meters of low level waste have been               cubic meters of waste during FY 1998.
disposed.
                                                               Assessment: Fully Successful
Assessment: Fully Successful
                                                               EQ 5-1 CONTINUING WITH YUCCA
• Producing 200 canisters of high level waste (HLW)                   MOUNTAIN SITE CHARACTERIZATION
  at the Defense Waste Processing Facility (DWPF) at
                                                               Assessment: Fully Successful
  the Savannah River Site.
                                                               Description: Complete the scientific and technical
Results: The Defense Waste Processing Facility
                                                               analyses of the Yucca Mountain site, and if it is
exceeded the commitment of 200 canisters. A total of
                                                               determined to be suitable for a geologic repository,
250 high-level canisters were produced as of
                                                               obtain a license from the Nuclear Regulatory
September 30, 1998.
                                                               Commission.
Assessment: Fully Successful
                                                               ”    Success will be measured by completing the
                                                                    viability assessment analyses for licensing and
• Producing approximately 88 canisters of HLW at the                constructing a geologic repository at the Yucca
  West Valley Demonstration Project (WVDP).                         Mountain site. The assessment will consist of four
Results: The WVDP produced 81 high-level waste                      key components:
canisters in FY 1998. While the canister count goal was             -    A design and operational concept of the
not reached, the canisters were filled to a higher level and            repository;
the number of curies in the 81 canisters exceeded the
forecast for curies to be loaded into the 88 canisters.             -    An assessment of the performance of that
                                                                        concept in the geologic setting;
Assessment: Fully Successful
                                                                    -   A plan and cost estimate to construct and
                                                                        operate the repository; and
EQ 4-1 PREVENTING FUTURE POLLUTION
                                                                    -   A plan and an estimate of the costs to complete
Assessment: Fully Successful
                                                                        a license application.
Description: Incorporate pollution prevention, including
                                                               Results: The viability assessment was completed as of
waste minimization, recycling, and reuse of materials
                                                               September 30, 1998, and included the requisite four key
into all DOE activities.
                                                               components described in the success measure. As of
”    Success will be measured by:                              October 1998, the viability assessment is being reviewed
                                                               by the Secretary of Energy, and its release is planned for
• Reducing routine waste generation by 40 percent,
                                                               the first quarter of FY 1999. Completion of the viability
  compared with 1993 waste generation rates.
                                                               assessment also satisfies the corresponding critical
Results: According to the Annual Report of Waste               milestone for FY 1998 in the Federal Managers'
Generation and Pollution Prevention Progress 1997,             Financial Integrity Act Fiscal Year 1997 Report.
published in September 1998, DOE sites reduced their
                                                               Assessment: Fully Successful
routine waste generation by 54 percent compared to
1993 waste generation rates.
                                                               EQ 5-2 DEVELOPING WASTE ACCEPTANCE
Assessment: Fully Successful                                          AND TRANSPORTATION CAPABILITY
                                                               Assessment: Fully Successful
• Reducing/avoiding the generation of radioactive,
  mixed, and hazardous wastes by about 4,000 cubic             Description: Maintain the capability to respond to
  meters.                                                      potential statutory direction that may include




                                                                                                                      125
Department of Energy FY 1998 Accountability Report




transportation of spent nuclear fuel and high level waste   minimization techniques, privatization, systems
to a designated interim storage facility.                   engineering, and benchmarking.
”     Success will be measured by:                          ”       Success will be measured by:
• Completing generic, non-site-specific interim storage     • Achieving productivity enhancement targets (Targets
  facility work and addressing long lead-time issues          to be established as part of the Accelerating
  related to storage of waste including design,               Clean-up: Focus on 2006).
  engineering, and safety analyses.
                                                            Results: Accelerated site closure targets have been
Results: A design and safety analysis for a Centralized     established for Rocky Flats Environmental Technology
Interim Storage Facility (CISF) was completed and a         Site (2010 to 2006) and Fernald Environmental
Topical Safety Analysis Report (TSAR) was submitted         Management Project (2008 to 2005). The Department is
to the Nuclear Regulatory Commission for final review       working to accelerate the closure of Mound (2005 to
on September 23, 1998. The CISF was designed as an          2004). The Department is continually working to
above-ground facility, but without a specific site for      achieve productivity enhancements, which are integral to
construction.                                               achieving site closure targets. For example, the
                                                            Department continues to pursue support cost reductions
Assessment: Fully Successful
                                                            across the complex and has initiated a bench marking
                                                            study at the Fernald site. In addition, the Department
• Developing a market-driven approach that uses             continues to pursue opportunities for achieving enhanced
  private sector management and operational                 performance through business closure activities, such as,
  capabilities to provide waste acceptance and              property disposition, post contract benefits, along with
  transportation services. Issuing a revised draft          integration opportunities and contracting enhancements.
  request for proposals.
                                                            Assessment: Successful
Results: A revised draft Request for Proposals (RFP)
was issued for comments in November 1997. A revised
                                                            • Increasing the dollar value and/or number of
draft incorporating comments was Noticed in the Federal
                                                              competitively awarded fixed price contracts,
Register on September 17, 1998.
                                                              including privatization contracts. Continuing the
Assessment: Fully Successful                                  development of the privatization strategy by:
                                                                - Awarding the Oak Ridge Transuranic Waste
• Completing a revised Policy and Procedure for                   Treatment Privatization contract;
  implementation of Section 180© of the Nuclear
  Waste Policy Act.                                             -   Authorizing commencement of the Tank Waste
                                                                    Remediation System (TWRS) contract Phase 1B at
Results: A Notice of Revised Proposed Policy and                    Hanford Site in Washington; and
Procedure for implementation of Section 180(c) of the
Nuclear Waste Policy Act was issued on April 30, 1998.          - Awarding the Carlsbad Area Office
                                                                  Contact-Handled Transuranic Waste
Assessment: Fully Successful                                      Transportation Privatization Contract.
                                                            Results: (1) A successful Oak Ridge TRU Waste
EQ 6-1 REDUCING ENVIRONMENTAL
                                                            Treatment Privatization Contract was awarded to Foster
       CLEANUP COSTS THROUGH
                                                            Wheeler Environmental Corporation on August 20,
       ENHANCED PERFORMANCE
                                                            1998. The Department will transfer remote-handled
Assessment: Successful                                      (RH) sludge from 13 different tanks at the Oak Ridge
                                                            National Laboratory (ORNL) to eight storage tanks.
Description: Significantly enhance performance,             These tanks, located in the Melton Valley area, contain
increase efficiency, and reduce costs through increased     the majority of the waste sludge. Foster Wheeler will
use of fixed-price competitive contracting, optimized       remove and treat the sludge and supernate in an on-site
project sequencing, recycling, and other waste              facility from the tanks to meet disposal requirements


126
                                                                Performance Measure Results: Environmental Quality




thereby satisfying the State of Tennessee Commissioner's     • Accomplishing 49 innovative technology
Order requirements. All TRU solids will be delivered to        deployments.
the private vendor for treatment/repackaging, followed
                                                             Results: 122 deployments were accomplished.
by disposal at WIPP. Due to the successful awarding of
this contract, an assessment of "Fully Successful" is        Assessment: Fully Successful
warranted. (2) The first phase of the TWRS
privatization contract was awarded in September 1996.        • Demonstrating 35 alternative technology systems
Two contractors were selected to develop the technical,        that meet the performance-specification based needs
operational, regulatory, business and financial elements       as identified by the Site Technology Coordinating
required to provide treatment and immobilization               Groups (STCG).
services on a fixed price contract. On August 24, 1998,
DOE authorized only one contractor, BNFL, Inc., to           Results: 40 full scale demonstrations were reported from
proceed forward with the project. Under the project,         the Focus Areas.
work will proceed in two parts. During the initial 24        Assessment: Fully Successful
months, BNFL will complete 30 percent of the facility
design, prepare to start construction, and obtain
                                                             • Making 40 alternative technology systems available
financing. This phase of the contract is worth up to $350
                                                               for implementation with full cost and engineering
million. At the conclusion of the design phase period,
                                                               performance data.
DOE will make a decision whether to proceed with
BNFL into a construction operation phase. During this        Results: 42 Innovative Technology Summary Reports
phase, BNFL would complete design and construction           will be published that include full cost and engineering
and provide both high-level and low-activity waste           performance data.
treatment and immobilization services. Approximately
                                                             Assessment: Fully Successful
10 percent of the Hanford waste (by mass) would be
immobilized which accounts for 20 to 25 percent of the
radioactivity. Due to the successful awarding of this        • Completing the final Programmatic Environmental
contract, an assessment of "Fully Successful" is               Impact Statement for selecting the long-term
warranted. (3) Since the Waste Isolation Pilot Plant           management strategy for the depleted UF6.
(WIPP) was unable to receive waste due to ongoing            Results: Public comment hearings were held in February
negotiations with the regulators, the Carlsbad Area          and March 1998. Close of comment period was April
Office Contact-Handled Transuranic Waste                     23, 1998. Industry meetings were held in June and
Transportation privatization contract was not awarded        August 1998. Draft Programmatic Environmental
during FY 1998. It is anticipated that the contract will     Impact Statement revisions were completed September
be awarded in February 1999; therefore, this milestone       30, 1998. The Final Programmatic Environmental
is rated as "Partially Successful."                          Impact Statement is on schedule to be completed in
Assessment: Successful                                       February 1999 with a Record of Decision to be issued in
                                                             March 1999.
EQ 6-2 DEVELOPING AND DEPLOYING                              Assessment: Successful
       INNOVATIVE CLEANUP
       TECHNOLOGIES                                          EQ 6-3 COMPLETING DEACTIVATION OF
Assessment: Fully Successful                                        SURPLUS FACILITIES

Description: Develop and deploy innovative                   Assessment: Fully Successful
environmental cleanup, nuclear waste, and spent fuel         Description: Reduce operating costs by completing
treatment technologies that reduce cost, resolve currently   deactivation of surplus facilities and placing them in a
intractable problems, and/or are more protective of          safe and environmentally sound condition, requiring
workers and the environment.                                 minimal surveillance and maintenance.
”    Success will be measured by:


                                                                                                                    127
Department of Energy FY 1998 Accountability Report




”     Success will be measured by completing about 60      Results: Eighty seven percent of the sites initiated
      surplus facility deactivations.                      mission justification analysis and provided a schedule for
                                                           reporting excess land.
 Results: Seventy facility deactivations were completed
in FY 1998.                                                Assessment: Successful
Assessment: Fully Successful

EQ 7-1 MAKING DOE LANDS AND FACILITIES
       AVAILABLE FOR OTHER USES
                                                           Science and Technology
Assessment: Successful
                                                           ST 1-1 PURSUING INNOVATIVE RESEARCH
Description: In conjunction with stakeholders, develop            RELEVANT TO DOE'S MISSION
comprehensive land use plans for DOE sites that provide
                                                           Assessment: Fully Successful
information on alternative uses, ownership,
environmental requirements, and implementation             Description: Conduct relevant, high quality, innovative
schedules.                                                 research that responds to the needs of the DOE mission.
”     Success will be measured by:                         ”    Success will be measured by:
• Submitting to Congress a future use plan for DOE         • Maintaining the high quality and relevance of DOE's
  sites, and an analysis of related long-term                science as evaluated by annual peer reviews and
  stewardship issues by October 1998. The plan and           advisory committees.
  analysis will include the Hanford Site, Savannah
                                                           Results: Research projects have undergone regular peer
  River Site, Rocky Flats Environmental Technology
                                                           review and merit evaluation based on procedures set
  Site, and Idaho National Engineering and
                                                           down in 10 CFR 605 for the extramural grant program
  Environmental Laboratory.
                                                           and on analogous procedures for the laboratory programs
Results: The original submittal date in the 1997           and scientific user facilities. All new projects have been
National Defense Authorization Act (NDAA) for the          selected by peer review and merit evaluation. The five
future use plans for Hanford Site, SRS, RFETS, and         Energy Research advisory committees have met regularly
INEEL was March 15, 1998. The Office of                    and have issued timely reports that have had a positive
Environmental Management (EM) was subsequently             impact on improving the quality and relevance of the
granted an extension for submittal of these plans to       program.
Congress by October 15, 1998. EM submitted the
                                                           Assessment: Fully Successful
"Planning for the Future - An Overview of Future Use
Plans at Department of Energy Sites" and individual site
plans (with the exception of the Hanford site's plan) in   • Completing initial clinical trials of Boron Neutron
October 1998. The "Hanford Remedial Action                   Capture Therapy (BNCT) to evaluate its safety and
Environmental Impact Statement and Comprehensive             feasibility as an alternative method of treating
Land Use Plan" (HRA-EIS) will be submitted to                cancers that resist conventional methods of
Congress when it is published.                               treatment.

Assessment: Successful                                     Results: Early clinical trials of BNCT against brain and
                                                           skin cancers are continuing at Brookhaven National
• Initiating mission justification analysis and
  providing a schedule for reporting on the amount of                Results are classified as “FULLY SUCCESSFUL”,
  excess land and facilities at each site by July 30,      “SUCCESSFUL”, “PARTIALLY SUCCESSFUL”, or
  1998.                                                    “UNSUCCESSFUL” for performance judged to be effectively
                                                           100% or better, 80-100%, 50-80%, or less than 50%
                                                           respectively.




128
                                                                 Performance Measure Results: Science and Technology




Laboratory and at the Beth Israel Deaconess Medical          also able to deliver polarized beam to any of the
Center, with a total of 38 patients having been treated at   experimental halls. The research program is underway in
Brookhaven and 15 at Beth Israel as of March 1998.           all three halls, and the facility may selectively turn beam
                                                             off in one area while leaving simultaneous beams in the
Assessment: Fully Successful
                                                             other two, to allow access for removal of equipment or
                                                             for experimental set-up.
• Initiating a new Climate Change Technology
  program that will underpin new opportunities and           Assessment: Fully Successful
  technologies in carbon capture.
Results: With the passage of the FY 1999 budget, and         • Commencing research in collaboration with
the development of guidance regarding the scope of the         international research community at the new
program, solicitations can be planned.                         Sudbury Neutrino Observatory (SNO) in Ontario,
                                                               Canada, to understand why neutrino detection from
Assessment: Fully Successful                                   the sun is much less than expected.
                                                             Results: The SNO neutrino detector, which sits in a
• Advancing the state of human genome research by
                                                             nickel mine about 6000 feet below the surface of the
  reducing cost and increasing speed and quality of
                                                             earth, is complete. The filling of the region around the
  DNA sequencing, and submitting 20 million subunits
                                                             detector with water, and the central part of the detector
  of finished human and mouse DNA sequence to
                                                             with expensive "heavy water" (D2O), is underway. A
  publicly accessible databases.
                                                             major dedication of the laboratory took place in Sudbury,
 Results: In FY 1998, the DOE Joint Genome Institute         Ontario, on May 28, 1998. A large number of
(JGI) determined the sequence of more that 20 million        internationally known scientists were present including
units of humen DNA and submitted data to the public          Stephen Hawking. The laboratory will spend the next
sequence database. This achievement represents a             few months filling the detector. Initial measurements
9.7-fold increase in the combined DNA sequencing             using the detector will probably commence about the end
output of the three laboratories that make up the JGI.       of calendar year 1998.
This level of human DNA sequencing also makes the JGI
                                                             Assessment: Fully Successful
the second leading public sequencer of human DNA in
the U.S. and third in the world.
                                                             ST 1-3 IDENTIFYING AND EMPLOYING THE
Assessment: Fully Successful                                        BEST SCIENTIFIC TALENT

ST 1-2 FURTHERING OUR KNOWLEDGE OF                           Assessment: Fully Successful
       ENERGY AND MATTER                                     Description: Search for and utilize the best talent from
Assessment: Fully Successful                                 all sources to perform DOE research.

Description: Provide new insights into the fundamental       ”     Success will be measured by establishing
nature of energy and matter.                                       partnerships for Academic-Industrial Research
                                                                   (PAIR) Program to enhance opportunities for
”    Success will be measured by:                                  research partnerships between academic
• Commencing full operation of all three experimental              researchers, their students, and industrial
  halls at the Thomas Jefferson National Accelerator               researchers.
  Facility to explore the structure of atomic nuclei.        Results: A solicitation for the PAIR program resulted in
Results: All three experimental Halls at the Thomas          168 preproposals, 60 of which were encouraged. The 67
Jefferson National Accelerator Facility are now              full proposals that were received underwent merit review
operational for research. The laboratory is able to          by the procedures set down in 10 CFR 605, and 16 new
deliver simultaneous beams of widely differing energies      awards were made.
and currents to each of the Halls to meet the specific       Assessment: Fully Successful
requirements of the experiments. The laboratory is now


                                                                                                                    129
Department of Energy FY 1998 Accountability Report




ST 1-4 PROVIDING SCIENCE TO SUPPORT                          has been the use of high performance computing to better
       NATIONAL POLICY MAKING                                understand and model the molecular mechanisms of
                                                             scintillator fluorescence. These advances have resulted
Assessment: Partially Successful
                                                             in the development of a portable gamma camera
Description: Develop science to support DOE's                (prototype) that can be used to detect breast cancer.
participation in energy and other National policy            Progress has also been made in the development of new
formulations.                                                algorithms to rapidly process and merge the large volume
                                                             of imaging data collected from the various imaging
”     Success will be measured by developing a
                                                             modalities (i.e., PET, MRI, and X-ray CT).
      comprehensive Departmental policy for
      laboratory technology transfer in order to             Assessment: Fully Successful
      leverage science and technology for our Nation's
      economic competitiveness with a stronger               ST 1-6 LEVERAGING RESOURCES THROUGH
      partnership with the private sector.                          INTERNATIONAL COLLABORATIONS
Results: A position paper proposing principles, criteria,           ON SCIENCE PROJECTS
and roles and responsibilities for DOE technology            Assessment: Successful
partnership activities has been prepared by a group of
technology transfer specialists at Headquarters, the field   Description: Leverage research opportunities through
offices and the laboratories. The draft position paper has   science partnerships and pursue international science
been circulated for comment and the policy implications      collaborations.
have been discussed with the laboratory directors.           ”    Success will be measured by:
Assessment: Partially Successful                             • Signing the international agreement to participate in
                                                               the construction and management of the Large
ST 1-5 SUPPORTING RESEARCH                                     Hadron Collider accelerator and the two major
       COLLABORATIONS IN EMERGING AND                          detectors.
       INTERDISCIPLINARY AREAS
                                                             Results: All three documents have been signed. The
Assessment: Fully Successful                                 International Cooperation Agreement between DOE and
                                                             NSF and the European Organization for Nuclear
Description: Support emerging sciences that are
                                                             Research (CERN) was signed on December 8, 1997.
important to the future of DOE and the Nation, including
                                                             Both the Accelerator Protocol and the Experiments
interdisciplinary research that addresses the Nation's
                                                             Protocol were signed on December 19, 1997.
most pressing problems.
                                                             Assessment: Fully Successful
”     Success will be measured by applying advances in
      instrument miniaturization, computational data
      processing, and molecular and structural biology       • Completing the memorandum of understanding with
      to advance the development of highly sensitive           the National Science Foundation concerning the
      medical imaging systems used in the detection of         management of the U.S. Large Hadron Collider
      diseases.                                                activities.

 Results: DOE sponsored researchers have applied             Results: The Memorandum of Understanding between
technological advances from other research areas, such       the DOE and The NSF for joint oversight of the U.S.
as the semi-conductor field, to develop very small data      Large Hadron Collaborative Program with CERN was
processing components which can process the large            approved by both DOE and NSF in August 1998 and has
volume of imaging data in record breaking time.              been effect since that time.
Progress has also been made in developing new advanced       Assessment: Fully Successful
imaging detectors that are much smaller and many times
more efficient at detecting radioisotopes within the body    • Completing and transmitting to Congress a Strategic
than current imaging systems. A major accomplishment           Plan for U.S. International Collaborations in Fusion



130
                                                               Performance Measure Results: Science and Technology




  Science and Technology Research fulfilling a House       Results: The PUAE agreement covers literally hundreds
  Science Committee requirement.                           of activities under four major Memoranda of
                                                           Cooperation (MOC). Major progress continues in terms
Results: The "Strategic Plan for International
                                                           of high energy and nuclear physics (including work on
Collaborations in Fusion Science and Technology
                                                           the D-O Detector at FERMILAB), fusion science
Research" has been completed and forwarded to the
                                                           (including the International Thermonuclear Experimental
Congress.
                                                           Reactor), nuclear reactor safety upgrades at Russian
Assessment: Fully Successful                               Soviet-era reactors, and research into the factors
                                                           affecting environmental restoration and waste
• Reaching an agreement on the first annual program        management of materials associated with nuclear fission.
  of bilateral fusion activities between U.S. and Korea.   On the question of renewal of the PUAE umbrella
                                                           agreement, DOE is proposing a 12-18 month extension
Results: The first program of work under the U.S.-Korea    of the umbrella.
Bilateral Fusion Meeting has been signed by Dr. N. Anne
Davies, Associate Director for Fusion Energy Sciences,     Assessment: Partially Successful
and Mr. Hun-Gyu Lee, Director General, Basic Science
and Manpower Bureau, Korean Ministry of Science and        ST 2-1 DEVELOPING DOE MISSION CRITICAL
Technology.                                                       TECHNOLOGIES
Assessment: Fully Successful                               Assessment: Fully Successful
                                                           Description: Develop the technologies required to meet
• Completing the review of proposals and initiating        DOE's energy, national security, and environmental
  projects in FY 1998 to design and develop advanced       quality goals.
  catalysts, electrodes, and membranes, as well as
  advanced separator plates and high temperature           ”     Success will be measured by:
  sealants under the Russian-American Fuel Cell            • Establishing cost and schedule baselines for the
  Consortium.                                                three components (ATLAS Detector, CMS Detector
Results: Since the beginning of FY 1998, we have nine        and LHC Accelerator) of the planned U.S.
R&D projects funded and underway, which cover the full       contribution to the Large Hadron Collider as
array of key fuel cell technologies--from molten             specified in the DOE/NSF/CERN Agreement.
carbonate, to solid oxide, phosphoric acid and PEM. The    Results: The ATLAS Cost and Schedule Baseline has
overall goal of these R&D projects is to help reduce the   been completed and approved. The baseline for the LHC
cost of fuel cell technology by testing less expensive     Accelerator has been completed and approved by DOE;
materials that make up the component parts of fuel cells   it is awaiting approval by NSF. A review of the CMS
and by finding useful employment for former Russian        detector on May 19-22, 1998, will determine the CMS
nuclear weapons scientists in commercial R&D               baseline.
activities.
                                                           Assessment: Fully Successful
Assessment: Fully Successful
                                                           • Executing a multi-year contract for development of
• Continuing cooperative research efforts with Russia,       highly efficient radioisotope power systems in
  begun in 1973, on fundamental properties of matter,        support of NASA's future mission requirements.
  fusion energy science, nuclear reactor safety,
  environmental restoration, and nuclear waste             Results: Lockheed Martin Astronautics (LMA) was
  management by renewing the existing umbrella             selected as the system integration contractor to develop
  Peaceful Uses of Atomic Energy Agreement (PUAE),         an advanced radioisotope power system (ARPS) for
  which will expire December 1998, for 12-18 months        possible use on the Europa Orbiter, Pluto-Kuiper
  and beginning negotiations of a new and expanded         Express and other future NASA missions. The goal of
  PUAE Agreement.                                          the contract is to design a smaller and more efficient



                                                                                                                 131
Department of Energy FY 1998 Accountability Report




power system. A letter contract was executed on              ST 2-2 PURSUING PARTNERSHIPS TO
March 6, 1998, and the multi-year contract was                      DEVELOP AND DEPLOY NEW
negotiated over the next several months and executed on             TECHNOLOGIES
July 31, 1998.
                                                             Assessment: Fully Successful
Assessment: Fully Successful
                                                             Description: Pursue technology research partnerships
                                                             with industry, academia, and other government agencies
• Completing 80 percent of the Sandia Hot Cell               and proactively accelerate the transition of technologies
  Facility construction modifications and processing         to end users.
  equipment installation activities needed to achieve
  the facility capability to process 100 percent of the      ”    Success will be measured by:
  U.S. demand for molybdenum-99.                             • Initiating 15 multi-year Laboratory Technology
Results: Work completed at the end of FY 1998                  Research projects by April 1998 that address the
included the removal of the existing Hot Cell Facility         Department's top priorities for science and
windows, demolition activities, decontamination and            technology and are cost-shared with industry
construction preparation, construction engineering             partners.
designs, the design and procurement of the HCF Zone          Results: CRADA negotiation on all 17 projects was
2A shielding steel and window sleeves, and the design        completed by September 17, 1998. Research on all 17
and issuance of a request for bids for the steel             projects was underway by the end of FY 1998.
containment boxes for installation inside the HCF.
Additionally, by the end of October all HCF shielding        Assessment: Fully Successful
steel and sleeves will be installed, the design of
processing conveyer systems will be completed and the        • Review and select for Phase II follow-on funding
concrete poured for the new HCF airlock shield. Based          approximately 80 Small Business Innovative
on current progress of the remaining tasks in the heavy        Research proposals that satisfied proof of concept
construction activity, the requirements for the 80 percent     under Phase I funding, and select approximately 200
completion milestone were met at the end of FY 1998.           proposals for Phase l funding.
Assessment: Fully Successful                                 Results: Phase II proposals were selected in June 1998,
                                                             and Phase I proposals were selected in July 1998. Small
• Supplying quality stable and radioactive isotopes for      Business Innovation Research projects not only satisfy
  industrial, research, and medical applications that        the Department's research needs, but also lead to
  continue to meet customer specifications and               technological innovation. Based on data received from
  maintaining 95 percent on-time deliveries in FY 1998       previous awardees, half of the projects have led to
  and beyond.                                                commercial sales of products and services derived from
                                                             the research.
Results: Although the High Flux Isotope Reactor
(HFIR) experienced several unscheduled outages early in      Assessment: Fully Successful
the fiscal year and scheduled deliveries increased 41
percent over FY 1997, the Department was able to             ST 3-1 MANAGING THE DEPARTMENT'S
accomplish greater than 97 percent of the scheduled                 NATIONAL LABORATORIES AND
deliveries on time. During the outages, the                         RESEARCH FACILITIES
Departmentwas unable to fill 33 orders of medical and
                                                             Assessment: Fully Successful
industrial isotopes. Several organizations within the
Department are working together to attempt to develop        Description: Manage the National Laboratories,
an annual HFIR reactor operating schedule and also with      science-user facilities, and other DOE research providers
other suppliers to avoid future unscheduled interruptions    and research facilities in a more integrated, responsive,
in the supply of isotopes.                                   and cost-effective way, building on unique core strengths
Assessment: Fully Successful



132
                                                               Performance Measure Results: Science and Technology




and corresponding roles. Design, construct, and operate      • Beginning assembly and installation of the National
research facilities in a timely and cost-effective manner.     Spherical Tokomak Experiment at Princeton Plasma
                                                               Physics Laboratory in FY 1998.
”    Success will be measured by:
                                                             Results: The assembly and installation of National
• Completing a facilities roadmap which will
                                                             Spherical Tokomak Experiment (NSTX) has begun.
  determine the needs and provide direction to the
                                                             Major systems are being fabricated and tested for quality
  scientific facilities through the year 2020.
                                                             assurance. Site preparations and modifications are being
Results: A facilities roadmap has been finalized,            carried out on schedule. Assembly of subsystems and
incorporating input from stakeholders, and presented to      diagnostics is being completed as components become
the Laboratory Operations Board.                             available.
Assessment: Fully Successful                                 Assessment: Fully Successful

• Reducing laboratory operating costs by an                  • Preserving a U. S. leadership role for the utilization
  additional $330 million (relative to FY 1994) without        of synchrotron facilities by providing increased user
  reducing research outputs. This will be applied to           support personnel for beam lines at the National
  the goal of saving $1.4 billion by FY 2000.                  Synchrotron Light Source at Brookhaven National
                                                               Laboratory.
Results: Laboratory operating costs for FY 1998
(relative to FY 1994) were reduced by at least $330          Results: Additional funding of $2 million was provided
million, subject to final determination after issuance of    to the National Synchrotron Light Source in FY 1998 for
this report.                                                 increased user support personnel.
Assessment: Fully Successful                                 Assessment: Fully Successful

• Completing Critical Decision II and issuing the draft      • Making progress at the following new research
  Environmental Impact Statement (EIS) to initiate             facilities:
  construction of the Spallation Neutron Source.
                                                               - B-factory at Stanford Linear Accelerator Center:
Results: Critical Decision II - approval of baselines -          begin operations;
was signed by Secretary Peña on December 23, 1997.
                                                               - Main Injector at Fermilab: complete construction
The draft Environmental Impact Statement (EIS) is
                                                                 and begin commissioning;
scheduled to be available for public comment before the
end of 1998.                                                   - High Flux Beam Reactor at Brookhaven: Initiate
                                                                 EIS;
Assessment: Fully Successful
                                                               - Joint Genome Institute's Production Sequencing
• Completing the agreed upon ITER Engineering                    Facility: begin operations; and
  Design Activities and reaching an agreement on               - William R. Wiley Environmental Molecular
  whether to continue into the three-year transition             Sciences Laboratory (EMSL): begin operations.
  phase leading to construction decision.
                                                             Results: The B-factory Project at SLAC is on schedule
Results: Critical Decision II -- approval of baselines --    and at cost. It is currently undergoing commissioning,
was signed by Secretary Peña on December 23, 1997.           and it is expected that it will begin operations by the end
The draft Environmental Impact Statement (EIS) is            of FY 1998. The Main Injector Project at Fermilab is on
scheduled to be available for public comment before the      schedule and at cost. Construction of the Main Injector
end of 1998.                                                 was completed and commissioning to begin in August
Assessment: Successful                                       1998. The Environmental Impact Statement (EIS)
                                                             process was initiated on November 24, 1997.
                                                             Renovations and outfitting of the DOE Joint Genome



                                                                                                                    133
Department of Energy FY 1998 Accountability Report




Institute's Production Sequencing Facility (PSF) for high     ST 3-4 IMPROVING THE EVALUATION
throughput DNA sequencing was completed. This                        PROCESS FOR DOE'S RESEARCH
facility will be a state-of-the-art DNA sequencing facility          PROGRAMS
that will be used to meet DOE's DNA sequencing
                                                              Assessment: Fully Successful
commitments to the U.S. Human Genome Project. The
PSF will include robotics and automation to increase          Description: Improve peer and program review
production and decrease costs of DNA sequencing. The          processes.
William R. Wiley Environmental Molecular Sciences
                                                              ”    Success will be measured by having programs
Laboratory is operational. Information about the EMSL
                                                                   reviewed by independent advisory committees to
is available through the EMSL web site at:
                                                                   analyze issues and recommend research direction,
http://www.emsl.pnl.gov:2080/homepage.html
                                                                   specifically completion by the:
Assessment: Fully Successful
                                                                   -   Energy Science Advisory Committee, of a
                                                                       review of the advanced fusion materials
ST 3-3 MANAGING THE DISSEMINATION OF                                   program by September 1998; and
       SCIENTIFIC AND TECHNICAL
       INFORMATION                                                 -   High Energy Physics Advisory Panel, of a Plan
                                                                       for the Future of U.S. High Energy Physics.
Assessment: Fully Successful
                                                              Results: 1)The Fusion Energy Sciences Advisory
Description: Improve the management, dissemination,           Committee (FESAC) has completed its review of the
sharing, and use of scientific and technical information.     advanced fusion materials program. The committee's
”     Success will be measured by negotiating and             report contains recommendations for future research
      implementing an agreement with the U.S.                 directions that have been accepted by the Department
      Government Printing Office to provide electronic        and included in FY 1999 plans. 2)The High Energy
      public access to over 25,000 full-text reports          Physics Advisory Panel's Subpanel completed its study,
      containing scientific and technical information         and the resulting report entitled, "Planning for the Future
      through the DOE Information Bridge.                     of U.S. High-Energy Physics" was published in February
                                                              1998.
Results: In April 1998, the DOE Office of Scientific and
Technical Information (OSTI) and the U.S. Government          Assessment: Fully Successful
Printing Office (GPO) jointly unveiled the DOE
Information Bridge, a new-age information system that         ST 4-1 CONTRIBUTING TO THE NATION'S
provides the public with electronic access to both                   SCIENCE AND MATH EDUCATION AND
bibliographic citations and full text of the Department's            PROMOTING SCIENCE AWARENESS
scientific and technical information resulting from its
                                                              Assessment: Fully Successful
R&D activities. Designed, developed, and maintained by
OSTI, this web-based system is accessible at no charge        Description: Develop and promote technologies and
to the user at http://www.doe.gov/bridge. The site            programs that deliver information and contribute to
currently includes full text of over 27,000 DOE reports       learning in science, math, engineering, and technology,
and accompanying records and abstracts in such                and in general, expand access to DOE's technical
disciplines as physics, chemistry, materials, biology,        information. Leverage DOE's human and physical
environmental cleanup, energy technologies, and other         research infrastructure, working with the National
topics. The number of reports in the system is growing        Science Foundation and other Federal agencies, to
daily. Based on interest and activity to date, it is          promote science awareness, enable advanced educational
estimated that over 50,000 full-text documents a year         research opportunities, build capabilities at educational
will be downloaded via the public access DOE                  institutions, and improve educational opportunities for
Information Bridge.                                           diverse groups.
Assessment: Fully Successful                                  ”    Success will be measured by:



134
                                                                  Performance Measure Results: Corporate Management




• Expanding sponsorship of collaborations for local           applications received in response to this notice were peer
  and regional science awareness events.                      reviewed, and two awards were made.
Results: More than 8,000 students from 1,600 high             Assessment: Fully Successful
schools participated in 48 regional science bowl
competitions across the country and in the Virgin
Islands. This is an increase over previous years and
demonstrates the popularity of the Department's National      Corporate Management
Science Bowl and the support of both the DOE and
non-DOE sites to this effort. Over 5,000 volunteers
from DOE sites, other Federal agencies, local colleges        CM 1-1 INSTITUTING A SOUND ES&H
and universities, technology companies and sponsors                  CULTURE
served as officials for all the competitions. For the first   Assessment: Fully Successful
time, the winning team from the 1998 National Science
Bowl will attend the 48th Meeting of Nobel Laureates in       Description: Integrate and embed risk-based outcome
Chemistry in Lindau, Germany.                                 oriented environment, safety, and health (ES&H)
                                                              management practices into the performance of DOE's
Assessment: Fully Successful                                  day-to-day work.
                                                              ”     Success will be measured by:
• Supporting young outstanding scientists through:
                                                              • Preventing fatalities, serious accidents, and
  - Department's minority colleges and universities
                                                                environmental releases at Departmental sites.
    (MC&U) program - support for at least teams of
    faculty and students;                                     Results: DOE had one work-related fatality during
                                                              FY 1998. A Type A Investigation was completed and
  - Hollaender Distinguished post doctoral
                                                              corrective action plan implemented. DOE's work-related
    fellowship program - support for at least eight
                                                              fatality record for FY 1998 was the lowest rate since
    postdoctoral students;
                                                              FY 1994.
  - Multi-agency Significant Opportunities in
                                                              Assessment: Successful
    Atmospheric Research and Science (SOARS)
    Program - support for at least two students;
                                                              • Initiating Integrated Safety Management Systems at
  - Continuing the Departmental award program for               all 10 high priority facilities by April 1998.
    Junior investigators in Plasma Science; and
                                                              Results: All 10 DNFSB priority facilities have begun
  - Department's outstanding Junior Investigator              implementation of integrated safety management
    program which provides research opportunities             systems.
    for early-career high energy physicists.
                                                              Assessment: Fully Successful
Results: Eight awards were made for FY 1998. These
awards involve collaborations between minority students,
                                                              • Completing documentation of ES&H roles and
their faculty advisors, and scientists in DOE laboratories.
                                                                responsibilities for all appropriate DOE offices and
Five new Hollaender two-year fellowships were awarded
                                                                sites by July 1998.
in FY 1998. Ten fellowships awarded in FY 1997 were
continued into FY 1998. Thus 15 students are being
supported in FY 1998. Five of the 19 SOARS proteges
are being supported by DOE. (Since these are
predominantly minority students, this enhances diversity                Results are classified as “FULLY SUCCESSFUL”,
while recruiting well-qualified students for careers in the   “SUCCESSFUL”, “PARTIALLY SUCCESSFUL”, or
atmospheric sciences and global change.) An                   “UNSUCCESSFUL” for performance judged to be effectively
announcement of opportunity for Junior Investigators in       100% or better, 80-100%, 50-80%, or less than 50%
Plasma Science was published in December 1997,                respectively.



                                                                                                                     135
Department of Energy FY 1998 Accountability Report




Results: The FRAMs for the ten 95-2 priority sites (the      Address Environmental Justice in Minority Populations
responsibility of six DOE Operations/Field Offices) were     and Low-Income Populations," which requires all
first issued in July 1997. The DOE Corporate                 agencies to consider environmental justice in the conduct
(Headquarters) FRAM was first issued in October 1997.        of their mission.
These FRAMs have been updated over the past year and
                                                             Prepared Risk Management Planning Guidance. EH-41
are currently being reconciled to resolve potential
                                                             developed and has made available, both in electronic and
conflicts, with a scheduled date for completion of
                                                             in hardcopy form, substantial guidance to the Field to
October 1998. In the meantime, several other offices
                                                             help it comply with CAA requirements to help reduce the
have issued their FRAMs (e.g., Chicago Ops Office,
                                                             risk to human health and the environment from large
Yucca Mountain Project Management Office, etc.). As
                                                             quantities of toxic, flammable or similarly hazardous
the DOE missions evolve, the FRAM updating process
                                                             materials at our sites.
would continue, in order to reconcile all of the perceived
conflicts between them.                                      Assessment: Successful
Assessment: Partially Successful
                                                             • Through independent oversight, provide information
                                                               and analysis of the effectiveness, vulnerabilities, and
• Publishing guidance for incorporating
                                                               trends of the Department's environment, safety,
  environmental justice principles into the
                                                               health, and safeguards and security policies and
  Comprehensive Environmental Response,
                                                               programs to the Secretary and senior line
  Compensation and Liability Act (CERCLA)
                                                               management.
  implementation process.
                                                             Results: Conducted and successfully completed two
Results: The Office of Environmental Policy and
                                                             Integrated Safety Management Evaluations: the
Assistance (EH-41) has engaged in a partnership with
                                                             Lawrence Livermore National Laboratory (November
the EM Center for Risk Excellence (CRE) in providing
                                                             1997) and the Miamisburg Environmental Management
policy, guidance, and assistance on environmental dose
                                                             Project (July 1998). Conducted and successfully
and risk assessment issues of relevance to DOE Program
                                                             completed six special reviews: The Albuquerque
and Operations Offices. This partnership is expected to
                                                             Operations Office's Transportation Safeguards Division
improve the coordination, effectiveness, and leveraging
                                                             Radiation Protection Program (November 1997).
of risk assessment resources and services, and will allow
                                                             Aviation safety programs throughout the DOE complex
each organization to be more responsive to DOE
                                                             (October 1997); the Albuquerque Operations Office's
Program and Operations Office needs. EH-41 has
                                                             Transportation Safeguards Division Training and
participated in CRE strategic planning sessions, and has
                                                             Performance Testing Programs (February 1998); and
provided input to the development of the CRE Strategic
                                                             Fissile Material Assurance in the DOE complex (July
Plan. Several collaborative initiatives in the strategic
                                                             1998). Also successfully initiated a complex-wide
areas of environmental standards, long-term stewardship,
                                                             review of DOE unclassified computer systems. An
science and technology, and stakeholder partnerships are
                                                             interim status report was issued in March 1998. In
on-track or being pursued.
                                                             August 1998, completed a complex-wide review of
EH published and made available in electronic form, a        emergency management at the request of the Secretary of
guidance document entitled: "Incorporating                   Energy. Implemented a comprehensive follow-up
Environmental Justice Principles into the CERCLA             program and successfully conducted and completed eight
Process." The guidance describes the activities within       Follow-up Reviews.
the CERCLA response process where data gathering,
                                                             Conducted and successfully completed one Safeguards
analysis, or procedures may need to be extended or added
                                                             and Security Independent Oversight Evaluation at Rocky
in order to ensure that low-income and minority
                                                             Flats Environmental Technology Site (May 1998).
communities play a meaningful role in the agencies
CERCLA process. This document includes information           Conducted and successfully completed four Safeguards
for communicating health risks and was written to meet       and Security Profiles describing and monitoring the
the goals in Executive Order 12898, "Federal Actions to      status of safeguards and security programs and issues at



136
                                                                Performance Measure Results: Corporate Management




DOE sites. Successfully updated and issued revisions of     Savannah River Site (production and construction
three safeguards and security site profiles: Pantex (June   workers), Los Alamos National Laboratory and INEEL.
1998). Implemented a comprehensive Accident                 They were completed by the end of FY 1998. The initial
Investigation program and successfully conducted and        six phase I pilots at Richland, Oak Ridge, Nevada Test
completed Accident Investigation Board Chairperson          Site, Paducah and Portsmouth have now moved to the
Training in December 1997 using distance learning           phase II category (identification, notification/worker risk
techniques to simultaneously reach 10 DOE sites, and        communication and screening) and medical screening is
Accident Investigator Training in January and April         expected to begin this fiscal year.
1998 at Albuquerque and Chicago Operations Offices
                                                            Assessment: Fully Successful
respectively. The Office of Oversight successfully
served in the following capacities during accident
investigations: board chairperson and board members on      CM 1-2 ENSURING DOE PROGRAMS
a Type A of a fatality at Idaho National Environmental             APPROPRIATELY ADDRESS ES&H
Engineering Laboratory (July 1998); deputy board                   PRIORITIES
chairperson and board members on a Type B of an             Assessment: Fully Successful
electrical arc blast at Fermi Laboratory (October 1997);
board members on a Type B of improper shipment of           Description: Clearly identify and fund ES&H priorities
radiological samples from the Oak Ridge National            and ensure resources are appropriately spent on those
Laboratory (February 1998); and advisors on two Type        priorities.
B accident investigations: a tanker truck leak at Fernald   ”     Success will be measured by beginning to
Environmental Management Project (December 1997)                  annually monitor and report on ES&H
and an injury related to a rotating shaft at Ames                 expenditures and improve related internal
Laboratory (March 1998).                                          controls.
Office of Oversight personnel also successfully led an      Results: Successful. The FY1999 Environment, Safety,
assessment of the Oak Ridge Operations Office               and Health Budget Plan was issued in May 1998. The
investigation of worker respiratory illnesses at Eastern    issuance of this report of planned expenditures relating
Tennessee Technology Park (K-25) (April 1998).              to ES&H completed the planned action for FY 1998.
Developed and successfully completed the 5th update of      The Unicall guidance issued by the Chief Financial
20 ES&H Profiles describing and monitoring the most         Officer for FY 2000 contains a requirement that field
significant ES&H issues at the sites.                       organizations report in October 1998 the status of
Conducted and successfully completed 28 EH Resident         "execution year" budgeting for prior ES&H
Surveillance at seven DOE sites to evaluate performance     commitments. The review of this information by EH-73,
relative to significant ES&H issues.                        in FY 1999, will provide the foundation for determining
                                                            what kind of improvements to present internal controls
Successfully developed Office of Oversight progress         are appropriate.
reports that assessed the safety management of 18
programmatic and technical areas and 20 DOE sites.          Assessment: Fully Successful
These results were further integrated into an assessment
of complex-wide safety.                                     CM 1-3 ENSURING EMPLOYEES ARE
                                                                   QUALIFIED IN THEIR ES&H
Assessment: Fully Successful
                                                                   RESPONSIBILITIES

• Completing an additional four needs assessments to        Assessment: Fully Successful
  continue building the basis for a more detailed           Description: Ensure that all DOE employees are
  program of medical surveillance, in order to address      appropriately trained and technically competent
  the health risks to former DOE workers.                   commensurate with their ES&H Responsibilities.
Results: Since October 1997, four new phase I (needs
assessments) pilot studies have been initiated at


                                                                                                                    137
Department of Energy FY 1998 Accountability Report




”     Success will be measured by making progress on       March 31, 1999, outlining the results of the Lawrence
      implementing the Technical Qualifications            Berkeley pilot.
      Program, by increasing the percentage of
                                                           The pilots have highlighted a number of significant,
      employees who are certified from 65 percent in
                                                           unresolved issues including: ascertaining whether DOE
      FY 1997 to 75 percent in FY 1998, towards a goal
                                                           or its contractor should most appropriately hold a
      of 90 percent of the 1,750 covered employees by
                                                           license; difficulties in assessing facility design under
      FY 2000.
                                                           NRC standards in some older facilities because we lack
Results: Working with senior technical managers            original construction plans; the extent to which older
throughout the Department, Human Resources produced        facilities can be “retrofitted” or upgraded to meet NRC
a revised Implementation Plan for the Defense Nuclear      standards; applicable requirements for safeguards and
Facilities Board Recommendation 93-3 which was             security, and deactivation and decommissioning; and
approved by the Secretary. The revision focuses on         cost.
improving technical workforce competency and includes
                                                           Next steps are to work with the NRC, Congress,
periodic assessments of HQ and Field Office Technical
                                                           stakeholders, and others to reexamine the extent of
Qualifications Programs by an independent Federal
                                                           unresolved issues.
Technical Capability Panel which reports to the Deputy
Secretary. Initial assessments will be completed by the    Assessment: Fully Successful
end of October 1998.
Assessment: Successful                                     CM 2-1 INVOLVING STAKEHOLDERS IN THE
                                                                  POLICY-MAKING PROCESS
CM 1-4 INVESTIGATING FEASIBILITY OF                        Assessment: Fully Successful
       INDEPENDENT EXTERNAL
                                                           Description: Foster strong partnerships with
       OVERSIGHT OF SAFETY AND
                                                           neighboring DOE communities, regulators, and other
       HEALTH AT DOE SITES
                                                           stakeholders to determine priorities and solutions.
Assessment: Fully Successful
                                                           ”    Success will be measured by:
Description: Work with the Nuclear Regulatory
                                                           • Performing an analysis of public participation
Commission and the Occupational Safety and Health
                                                             training needs at all 11 Operations/Field Offices,
Administration to evaluate the costs and benefits of
                                                             and initiating a public participation training
independent external regulation of safety and health.
                                                             program for Headquarters and field managers to
”     Success will be measured by conducting three           enhance stakeholder involvement in DOE decisions.
      NRC/DOE pilot projects to assess the DOE
                                                           Results: The needs assessment was conducted and a
      facilities against the standards that NRC believes
                                                           DOE-wide training program has been developed and
      would be appropriate to ensure radiological
                                                           initiated. Between June and August 1998, six training
      safety.
                                                           courses in communicating with the public and managing
Results: The Department and the Nuclear Regulatory         public participation were conducted at Headquarters and
Commission (NRC) have worked closely on a joint pilot      in the field (Savannah River, Albuquerque, Oak Ridge
program to determine the costs and benefits that would     and Rocky Flats) for the Deputy Assistant Secretaries,
be associated with external regulation of DOE nuclear      technical staff members, program/project managers, and
facilities. Three pilots are nearing completion: one at    public affairs and public participation staff.
the Lawrence Berkeley National Laboratory, and two
                                                           Assessment: Fully Successful
others at facilities at Oak Ridge and Savannah River.
DOE has also worked with the Occupational Safety and
Health Administration (OSHA) to address worker safety      • Conducting a series of regional and national
issues, particularly at the Lawrence Berkeley pilot. The     stakeholder workshops to increase public
Department will forward a report to the Congress by          involvement in crosscutting EM issues. The
                                                             workshops will be attended by advisory board



138
                                                              Performance Measure Results: Corporate Management




members, State and local governments, Native              However, the average case age of requests has only been
American Tribes, and other stakeholders across the        reduced by 15 percent through September 30, 1998. The
country.                                                  cases effecting this success measure involve information
                                                          that is classified and requires reviews by other agencies
Results: During FY 1998, national meetings for
                                                          which slows down our process. Therefore, we were
soliciting public involvement in the EM program were
                                                          unable to fully achieve this part of the commitment.
conducted for the EM Site-Specific Advisory Board
Chairs, State and Tribal Government Working Group,        Assessment: Successful
National Association of Attorneys General, and National
Governors' Association. In June 1998, two regional        • Improving the quality and volume of information on
"Intersite Discussions" for DOE stakeholders across the     DOE's World Wide Web site as indicated by
country provided a unique opportunity for stakeholders      user-interest through numbers of home page visits.
from advisory boards, Native American Tribes, State and
local governments, interest groups, and members of the    Results: We have achieved an increase each quarter this
public to discuss upcoming DOE decisions on nuclear       fiscal year over last fiscal year in the number of DOE
materials and waste management from a national            Home Page visits. For example, the first quarter showed
perspective.                                              an increase of over 34 percent, second quarter 38
                                                          percent, 3rd quarters increased 32 percent, and 4th
Assessment: Successful                                    quarter increased 39 percent. Users have been impressed
                                                          with the quality of our Home Pages.
• Responding to an estimated total of 500,000 public
                                                          Assessment: Fully Successful
  requests for information and documents from the
  Center for Environmental Management Information
  within an average of two business days per request.     CM 2-3 INCREASING OPENNESS WITH THE
                                                                 PUBLIC
Results: As of September 30, 1998, the Center for
Environmental Management Information responded to         Assessment: Partially Successful
1,176,581 public inquiries on the EM Program within       Description: Increase openness with the public by
two business days.                                        prudently declassifying information about the
Assessment: Fully Successful                              Department's activities while maintaining a balance with
                                                          the Nation's security.
CM 2-2 IMPROVING COMMUNICATIONS                           ”     Success will be measured by:
       WITH CUSTOMERS AND THE PUBLIC
                                                          • Reviewing for possible declassification and release,
Assessment: Successful                                      3,950,000 pages of DOE documents under Executive
                                                            Order 12958 bringing the total pages reviewed to
Description: Increase customer and public awareness of
                                                            8,460,000 which is 60 percent of the DOE's
DOE's mission areas by improving the quality,
                                                            historically significant records 25 years or older.
timeliness, frequency, and sufficiency of information
disseminated on the Department's functions, successes,    Results: We estimate that approximately 1,600,000
lessons learned, and future activities.                   pages will be completed by fiscal year end out of the
                                                          anticipated 3,950,000 pages for possible declassification
”    Success will be measured by:
                                                          and release. We were not completely successful because
• Reducing the Freedom of Information Act backlog by      of the unforeseen reduction in funding, diversion of
  15 percent and the average case age by 25 percent.      critical resources to ongoing litigation, and new reviewer
                                                          training. This measure of success was established prior
Results: The Freedom of Information backlog has been
                                                          to the Congressional reduction in the FY 1998 budget
reduced by 15 percent through September 30, 1998,
                                                          and the diversion of resources to other critical efforts
which meets the goal.
                                                          (e.g., litigation).
                                                          Assessment: Partially Successful


                                                                                                                 139
Department of Energy FY 1998 Accountability Report




• Implementing "National Security Information,               established performance-based oversight objectives and
  Classification and Declassification"(Title 10 Code of      measures for FY 1997 between Headquarters functional
  Federal Regulations, Part1045) through conducting          offices and the field offices. As part of the process, the
  two on-site reviews of other agency Restricted Data        field offices conducted self-assessments and reported on
  programs.                                                  them by January 31, 1998.
Results: This performance measure was not                    The Policy Office is working with a CFO-led team to
accomplished in FY 1998 due to the resignation of the        integrate annual reporting into an "Accountability
"Outreach Coordinator," who was responsible for              Report" per OMB's recommendation.
conducting the onsite reviews. At present, the Office of
                                                             Finally, the Policy Office has been hosting the Strategic
Declassification is in the process of filing this critical
                                                             Management System (SMS) steering group's weekly
vacancy.
                                                             meetings to coordinate strategic direction for the
Assessment: Unsuccessful                                     Department. The SMS steering group is establishing the
                                                             process for the FY 2000 internal review budget (IRB)
CM 3-1 IMPROVING MANAGERIAL                                  decision-making.
       PERFORMANCE AND                                       However, we cannot demonstrate enhanced
       ACCOUNTABILITY                                        programmatic integration or improved operations.
Assessment: Partially Successful                             Assessment: Partially Successful
Description: Improve decision-making, ensure
accountability, maximize Departmental resources, and         • Establishing annual Secretarial Officer Performance
achieve intended results by corporately managing the           Agreements that are linked to the Secretary's
Department's mission, functions, and activities.               Performance Agreement with the President.
”     Success will be measured by:                           Results: The development and finalization process for
                                                             the FY 1998 agreements was slow. By the end of
• Utilizing mechanisms such as senior level corporate
                                                             January 1998 only three offices (NN, RW, and HR) had
  and business line management councils, a DOE chief
                                                             submitted their proposed agreements, and it took nearly
  operating officer, and performance- based
                                                             nine months of the year to sign nine agreements out of
  management to foster strategic direction, enhance
                                                             the 20 expected. In addition to these nine, six
  programmatic integration, and improve
                                                             agreements were developed but were not reviewed and
  Headquarters and field operations.
                                                             signed. The agreements were expected to include
Results: The Policy Office is actively pursuing both         commitments made in the agreement with the President,
internal and external advice and consultation on SMS         but were to include additional commitments that
improvement. The Assistant Secretary for Policy              Secretarial Officers were willing to make to the
solicited such information from all Departmental             Secretary. With a few exceptions, these agreements were
elements in May 1998. Additional meetings were               redundant with the Secretary's Agreement with the
scheduled with the Deputy Secretary and the Secretary’s      President. Having the same information in two places
Executive Advisory Board.                                    posed the problem of ensuring all changes made in the
                                                             President's agreement were incorporated in the
The Policy Office has been sponsoring the
                                                             Secretarial Officer agreement. Many offices resisted the
Performance-Based Management Special Interest Group
                                                             development of these agreements as they did not see it
(PBM-SIG) of the TRADE organization. That group
                                                             adding value. The agreements were not used to discuss
sponsored a two-day workshop on performance-based
                                                             management issues, do performance appraisals, or hold
management in Washington, DC, attended by
                                                             managers accountable.
approximately 60 people.
                                                             We are recommending that the Department not continue
The Policy Office also participated on the Business
                                                             with Secretarial Officer Agreements in FY 1999, and
Management Oversight Process (BMOP) steering group
                                                             instead, devote greater emphasis and resources on
and is leading the assessment of BMOP. The BMOP has



140
                                                                 Performance Measure Results: Corporate Management




evaluating what is reported against the Secretary's          final FY 1999 commitments, and proposed FY 2000
Agreement with the President.                                commitments.
Assessment: Partially Successful                             The FY 1999 Congressional Budget was developed by
                                                             linking the Department's strategic planning process to
• Expanding the Corporate Executive Information
                                                             performance-based planning and budget proposals. The
  System to provide senior management at
                                                             CFO's FY 2000 Field budget guidance required the Field
  Headquarters and field offices with timely and useful
                                                             to submit performance-based budgets. Field offices were
  management information.
                                                             directed to work closely with Headquarters programs in
Results: Further deployed the Corporate Executive            developing supporting performance measures. Guidance
Information System to Headquarters and field offices to      required that construction projects be independently
provide senior management immediate access to                validated before approval of funding during the CRB
Departmental Business Information for analyses to            process. Cross-cutting program evaluations will also be
support the decision making process as well as summary       appraised on their fulfillment of the President's strategic
level reporting and inquires. Utilization of the Corporate   objectives during the CRB.
EIS has been expanded during FY 1998 to include a total
                                                             Assessment: Partially Successful
of 11 Headquarters’ Program Offices, 10 Headquarters’
Administrative Offices, and 14 field offices.
                                                             CM 3-2 USING PRUDENT CONTRACTING AND
The CFO's Financial Data Warehouse is currently                     BUSINESS MANAGEMENT
completing their pilot phase and expanding its user base.           PRACTICES
Once the user base is expanded, the Financial Data
Warehouse will provide an additional resource to satisfy     Assessment: Fully Successful
internal reporting requirements.                             Description: Use prudent contracting and business
A Business Management Information System (BMIS)              management approaches that emphasize results,
Strategic Information Management (SIM) process was           accountability, and competition; improve timeliness;
initiated in FY 1998. The purpose of the SIM process is      minimize costs; and ensure customer satisfaction.
to look at business processes and develop an Information     ”     Success will be measured by:
Technology Investment Business Case.
                                                             • Preparing and submitting Department-wide audited
Assessment: Fully Successful                                   financial statement with an unqualified opinion to
                                                               the Office of Management and Budget by March 1,
• Developing annual performance-based budgets by               1998.
  using DOE's corporate Strategic Management
                                                             Results: The Department-wide audited financial
  System to link resource requirements to five-year
                                                             statements were provided to OMB by March 1, 1998,
  plans, make independent project validations, and
                                                             and received an unqualified audit opinion. The
  perform cross-cutting program evaluations.
                                                             Department was one of only two Federal agencies to
Results: The Chief Financial Officer and the Assistant       receive an "A" on our report card.
Secretary for Policy and International Affairs published
                                                             Assessment: Fully Successful
guidance for the preparation of five-year planning
summaries in support of the FY 2000 Corporate Review
Budget (CRB). This guidance was endorsed by the              • Increasing the number of competitively awarded
Deputy Secretary and published on March 30, 1998.              contracts for major DOE sites and facilities from 13
The issues identified in this process were partially used      to 16 by September 1998.
to shape the FY 2000 budget. Cross-cutting program            Results: As of the end of FY 1998, over 20 competitive
evaluations were not performed. However, the budget          contracts for major DOE sites were awarded which
was prepared and submitted to OMB on time with an            exceeds our goal.
annual performance plan addressing FY 1998 results,
                                                             Assessment: Fully Successful



                                                                                                                    141
Department of Energy FY 1998 Accountability Report




• Converting all management and operating contracts          and more user friendly to the Department's Contracting
  awarded in FY 1998 to performance-based                    Officers.
  management contracts.
                                                             Assessment: Fully Successful
Results: All Management and Operating (M&O)
contracts extended or competed in FY 1998 were               CM 3-3 CONTINUING THE STRATEGIC
converted to performance-based contracts.                           ALIGNMENT INITIATIVES TO
Assessment: Fully Successful                                        STREAMLINE AND RE-ENGINEER
                                                             Assessment: Fully Successful
• Hiring a privatization director, developing a
                                                             Description: Continue to streamline and improve
  Department-wide privatization strategy, and
                                                             operations, further reduce overhead expenditures, and
  identifying and pursuing privatization opportunities.
                                                             facilitate additional workforce reductions while aiding
Results: The Secretary named a Director of the newly         affected employees and communities.
restructured Contract Reform and Privatization Project
                                                             ”    Success will be measured by realizing annual
Office in March 1998.
                                                                  Strategic Alignment Initiative savings
Assessment: Fully Successful                                      commitments totaling $1.7 billion by the end of FY
                                                                  2000 by:
• Applying business process reengineering to the             • Achieving DOE staffing target of 10,874 by the end
  highest priority procurement processes by September          of FY 1998, a reduction of 294 FTEs from the FY
  1998 with a goal of reducing cycle time by 30                1997 end-of-year level.
  percent.
                                                             • Consolidating Headquarters personnel into six
Results: We have been applying business process                locations by the end of FY 1998 and achieve $3.8
reengineering efforts for all of our procurement processes     million savings in rent.
and have achieved a 40 percent cycle time reduction for
support services competitive procurements and a 50           • Saving $61 million by reengineering information
percent reduction for 8A procurements.                         management business processes.

Assessment: Fully Successful                                 • Reducing technical and support service contracting
                                                               obligations below $ 610 million.
• Improving Federal procurement and property                 • Returning to the Treasury at least $15 million
  management employee skills by establishing a                 through the sale, transfer, re-use, or disposal of
  contracting workforce development program by                 unneeded materials, facilities, land, and other assets.
  September 1998.
                                                             Results: We are ahead of schedule with savings of over
Results: Career development programs have been               $1.4 billion against the FY 2000 goal of $1.7 billion.
established for both procurement and property                Following is the status of the five key measures: (1) The
professionals and courses started being offered in the       On-board SAI staffing count, excluding the Power
summer of 1998.                                              Marketing Administrations and Federal Energy
                                                             Regulatory Commission, was 10,355 as of
Assessment: Fully Successful
                                                             September 12, 1998, which is 519 below the end-of-year
• Implementing an automated system to track and              goal of 10,874; (2) We reduced the Headquarters
  measure contractor performance by September 1998.          building inventory from eight to six locations and saved
                                                             $3.83 million in rent; (3) Savings from reengineering
Results: The Automated Past Performance Data Base,
                                                             information management business processes is over
which tracks DOE contractor performance, has been
                                                             $69 million for FY 1998; our cumulative savings of
installed throughout the Department. We have enhanced
                                                             $259 million has already exceeded the five-year goal of
the system by web enabling it to make it Internet based
                                                             $245 million; (4) We reduced our use of support service
                                                             contracts $200 million below the $610 million ceiling


142
                                                                Performance Measure Results: Corporate Management




goal in FY 1998; and, (5) The Office of Worker and          • Expanding the use of Alternate Dispute Resolution by
Community Transition (WT) has been monitoring the             30 percent compared to FY 1997 in mediation of
Department’s sale of excess assets with regard to             workplace disputes such as EEO complaints and
meeting the $15M goal by the end of FY 1998. The sale         grievances.
of the Naval Petroleum Reserve alone yielded over $3
                                                            Results: The use of Alternate Dispute Resolution has
billion and exceeded the original goal. The Deputy
                                                            been expanded and the Office of Dispute Resolution has
Secretary, in an August 17, 1998, Memorandum,
                                                            had over 40 cases referred for mediation through the end
refocused and modified the original SAI goals for this
                                                            of FY 1998. This is an increase of almost 100 percent
effort and has closed this out as of the end of FY 1998.
                                                            which exceeds the fiscal year goal.
Assessment: Fully Successful
                                                            Assessment: Fully Successful

CM 3-4 IMPROVING HUMAN RESOURCE
                                                            • Using the Malcom Baldrige, President's, or Energy
       PRACTICES
                                                              Quality Award Criteria, demonstrating continuous
Assessment: Fully Successful                                  organizational improvement by achieving
                                                              self-assessment scores of at least 300.
Description: Implement quality management principles,
value diversity, and continue to improve human              Results: We increased our average score from 359 in FY
resources systems and practices.                            1997 to 457 in FY 1998 which exceeded the goal. The
                                                            metric used is a composite score calculated from using
”    Success will be measured by:
                                                            the median scores of each applicant for each category,
• Hiring 20 Welfare-to-Work recipients by the end of        and then summing over the seven categories. In this way,
  FY 1998 towards the goal of hiring 55 by FY 2000.         we get a consistent measure from year to year.
Results: Through the end of FY 1998, the Department         Assessment: Fully Successful
has hired 40 former welfare recipients (FERC has hired
an additional one), which exceeds the goal of 20. We are    CM 3-5 APPLYING BUSINESS-LIKE
on track to hire 55 by the end of FY 2000.                         PRACTICES TO MANAGEMENT OF
Assessment: Fully Successful                                       DOE PROJECTS AND ASSETS
                                                            Assessment: Successful
• Implementing a DOE-wide employee accessible
                                                            Description: Strengthen the management of projects,
  automated personnel system by December 1998.
                                                            materials, facilities, land, infrastructure, and other assets,
Results: Implementation of the Corporate Human              to ensure safe, sound, and cost- effective operations,
Resource Information System (CHRIS) is on target for        appropriate maintenance of sites, and to ensure intended
providing a new automated system for processing             project results.
personnel actions. With the completion of Phase I
                                                            ”     Success will be measured by:
activity, a solid foundation of employee and position
information will exist from which employees and             • Meeting established project scope, schedule, and cost
managers can access a variety of information by               baselines by adopting systems based on industry and
December 1998. A phased approach to direct                    government best project management practices.
information access, to include employee self-service
                                                            Results: The Department's field offices are using CM3-5
centers at appropriate locations across the DOE
                                                            to strengthen project management systems using best
complex, will be utilized until program and field offices
                                                            practices in planning and control of project scope,
have the hardware and software infrastructure in place to
                                                            schedule, and cost baselines. Currently, operations
enable desktop access for every employee and manager.
                                                            offices are reporting they are attaining their annual
Assessment: Successful                                      project scope, schedule, and cost goals on projects; the
                                                            overall average 94.1 percent calculated is an indicator
                                                            that best practices based on systems used in industry and


                                                                                                                      143
Department of Energy FY 1998 Accountability Report




government are in use. Several examples of best               Results: The Executive Committee for Information
practices being used include:                                 Management (ECIM) approved the Charter in April
                                                              1998 assigning the Capital Planning Information
- a site-wide configuration management system has been
                                                              Technology Investment Board responsibilities to the
  implemented at Savannah River Office;
                                                              ECIM. In addition, they approved a two-tier approach to
- bi-weekly safety and performance site walk-through          capital planning at the Department. The
  audits are conducted at area offices in the Chicago         recommendation will be presented to the Office of
  Operations Office;                                          Management and Budget (OMB) in October 1998. The
                                                              Department is implementing the DOE Information
- a site wide system to measure progress toward meeting
                                                              Technology capital planning process.
  the baselines for both current (execution year) as well
  as life cycle is in use at the Richland Operations          Assessment: Successful
  Office;
- a first-of-its-kind contract which takes advantage of       • Starting the implementation of a five-year
  existing material assets to offset the cost of doing work     information management plan and producing annual
  by the contractor is now underway at Oak Ridge                operational plans as part of the Department's budget
  Operations Office .                                           process.

Assessment: Successful                                        Results: The five-year plan for information management
                                                              is reflected in the Department’s Information
                                                              Management Strategic Plan which was prepared in
• Conducting annual business management
                                                              September 1997. It is updated approximately every three
  self-assessments to ensure that sites are maximizing
                                                              years. Implementation was begun the first quarter of FY
  their resources and maintaining safe and secure
                                                              1998 with teams established for each goal and status
  operations.
                                                              given on the implementation at the quarterly Information
 Results: All operations offices report employing             Management (IM) Council meetings. Annual operating
on-going project management systems self-assessment           plans are prepared in the September timeframe and we
and review processes.                                         produced one in September of 1998 for FY 1999.
Assessment: Successful                                        Assessment: Fully Successful

CM 3-6 ENSURING THE DEPARTMENT'S                              • Implementing, by January 1998, a Department- wide
       INFORMATION SYSTEMS ARE BASED                            information architecture with supporting standards
       ON COST EFFECTIVE TECHNOLOGY                             to foster $100 million in cost avoidances over the
       SOLUTIONS                                                next five years.
Assessment: Successful                                        Results: The Department-wide Information Architecture
                                                              (defined in Volumes I-IV and 3 Standards documents)
Description: Utilize, under the auspices of the Chief
                                                              began implementation with the publication of the
Information Officer (CIO), an integrated
                                                              Guidance document in April 1997. Information
Department-wide framework for planning, budgeting,
                                                              architectures are being completed in four programs and
evaluating, and implementing information management
                                                              five field sites. Additionally, information architectures
requirements to reduce costs and improve operations.
                                                              are being developed/implemented at seven contractor
”     Success will be measured by:                            sites. Cost savings/avoidances attributed to the
                                                              Departmental information architecture include savings
• Establishing, by October 1997, the Capital Planning
                                                              from using the TELIS contract, the Corporate Human
  Information Technology Investment Board and
                                                              Resource Information System (CHRIS), etc. We are on
  operationalize the requirements of the
                                                              track to save $100 million over the next five years.
  Clinger-Cohen Act of 1996.
                                                              Assessment: Successful




144
                                                               Performance Measure Results: Corporate Management




• All Departmental elements implementing Year 2000         At this time, it is too early to assess the outcome
  century date change compliant mission-essential          provided.
  computer systems in accordance with the milestones,
                                                           Assessment: Unspecified
  guidance, and procedures established by the CIO.
Results: The Department is slightly ahead of its           • Diversifying America's science workforce by
implementation timeline. Each Program Office is aware        enhancing opportunities for minority educational
of the importance of the year 2000 effort and is working     institutions and increasing their awards by 20
to be compliant according to our timeline. Secretarial       percent over FY 1997.
Officers will inform the Deputy Secretary of milestones
that have been missed or are projected to be missed        Results: The Department was committed to achieving its
based on discussion at the Executive Committee for         long-term goal to enhance opportunities for minority
Information Management (ECIM). The CIO will                educational institutions by targeting $93,494,400 (a 20
continue to report year 2000 status. The next reporting    percent increase in funding over 1998) to diversify
cycle for the Office of Management and Budget is           America's science workforce. The intent was to integrate
November 15, 1998.                                         more minority educational institutions with our technical
                                                           and scientific operations. However, the goal was
Assessment: Successful                                     unsuccessful because Departmental program offices
                                                           failed to meet the projected funding goal for the overall
CM 3-7 MANAGING DIVERSITY TO ACHIEVE                       program. As a result, actual funding levels indicated a
       THE DEPARTMENT'S MISSION                            significant decrease from the FY 1998 target levels.
Assessment: Partially Successful                           However, more effective goals and strategies will be
                                                           developed with the objective of achieving our overall
Description: Create a model organization that fosters      targets.
and embraces diversity by committing to equity,
inclusion, opportunity, accommodation, and                 Assessment: Unsuccessful
non-discrimination.
                                                           CM 3-8 MANAGING CONTRACTOR WORK
”    Success will be measured by:                                 FORCE RESTRUCTURING
• Conducting an employee needs survey in order to          Assessment: Successful
  enhance diversity and determine future strategic
  direction.                                               Description: Mitigate the impacts on workers and
                                                           communities from contractor work force restructuring
Results: We have conducted a random sampling of            and assist community planning.
approximately 300 HQ employees, with approximately
more than one-half returns. We must now review the         ”     Success will be measured by:
survey responses and analyze the results. This analysis    • Implementing a single Department-wide automated
will play a key role in determining future diversity         contractor workforce employment data system.
strategies.
                                                           Results: The Work Force Information System is in its
Assessment: Partially Successful                           final development stage. User training has been
                                                           provided to DOE and contractor employees in
• Evaluating contractor plans and performance to           Washington, D.C.; Oak Ridge, TN; Las Vegas, NV; and
  assure full implementation of the Diversity Contract     Albuquerque, NM. The user training conducted at
  Clause.                                                  Albuquerque included DOE and contractor personnel
Results: One new management and operating contract         from the following Federal sites: Albuquerque, Idaho,
awarded January 1, 1998. Evaluation of contractor's        Oakland, and Ohio. Also, several contractor personnel,
plan and performance is scheduled for January 1999. ED     reporting to Richland, Rocky Flats, and Savannah River
will gather data on Diversity Contract Clause              Offices, were in attendance.
implementation on new contracts as they are awarded.       Assessment: Successful


                                                                                                                   145
Department of Energy FY 1998 Accountability Report




• Achieving annual recurring cost savings from             • Supporting local community transition activities that
  separated workers that are at least three times the        will create 8,000 to 12,000 new private sector jobs by
  one time cost of separation.                               the end of FY 1998.
Results: The Department estimates that within this         Results: As of June 30, 1998, over 14,000 jobs have
fiscal year there have been approximately 3,000            been created or retained. These figures were verified by
separations across the complex with separations costs of   the independent assessment performed by Booz-Allen &
approximately $50 million and an estimated total cost      Hamilton, Inc., at the direction of the U.S. Congress.
savings of $215 million, a ratio of 4.3 to 1.
                                                           Assessment: Fully Successful
Assessment: Fully Successful




146
                                               Mapping of Legal Requirements




Mapping of Legal Requirements

Legal Requirement                                              Page
Government Management Reform Act
    Report Sections
    Overview - Introduction                                    3- 6
    Overview - Business Lines                                  7 - 36
    Financial Overview                                        39 - 43
    Financial Statements                                      45 - 96
Government Performance & Results Act
    Report Sections
    Overview - Introduction                                    3- 6
    Overview - Business Lines                                  7 - 36
    Performance Measure Information                           97 - 146
Federal Managers’ Financial Integrity Act
    Report Sections
    Message From the Secretary                                   1
    Overview - Business Lines                                  7 - 36
    Message From the Chief Financial Officer                    37
Clinger-Cohn Act
    Report Sections
    Performance Measure Results - CM 3-6                     144 - 145




                                                                         147
Department of Energy FY 1998 Accountability Report




Reference Index
                                                               Page
DOE Business Lines                                             7 - 36
  Energy Resources                                             7 - 11
  National Security                                           12 - 17
  Environmental Quality                                       18 - 22
  Science & Technology                                        23 - 27
  Corporate Management                                        28 - 36
DOE History and Mission                                         3-6
Financial Overview                                            39 - 43
    Highlights of Financial Activities
Financial Performance Measures                                41 - 43
    Payment Performance                                         41
    Functional Support Costs                                  41 - 42
    Balances of Uncosted Obligations
     & Unobligated Appropriations                                42
    Effective Audit Resolution                                   43
Financial Statements                                          45 - 96
    Principal Statements:                                     46 - 50
        Balance Sheet                                           46
        Statement of Net Costs                                  47
        Statement of Changes in Net Position                    48
        Statement of Budgetary Resources                        48
        Statement of Financing                                  49
        Statement of Custodial Activity                         50
    Notes to the Financial Statements                         51 - 85
    Consolidating Schedules                                   86 - 90
    Supplemental Information                                  91 - 96
        Required Supplementary Stewardship Information
           Stewardship Information - Research & Development   92 - 95
           Deferred Maintenance                                  96
Performance Measure Results                                   97 - 146
FMFIA Reportable Items
      Summary of FMFIA Reportable Items                         36
      Departmental Challenges
      Management Control Attestation                             1
      Financial System Attestation                              37
      Surplus Fissile Materials                                 16
      Environmental Compliance                                  19
      Waste Isolation Pilot Plant                               20
      Yucca Mountain                                            21
      Safety and Health                                       29 - 30
      Contract Management                                       31
      Project Management                                        31



148
                                                                         Reference Index


    Inadequate Audit Coverage                                               31
    Unclassified Computer Security                                          31
    Financial Management System Improvements                              31 - 32
    Emerging Issues
    Declining Oil Import Protection                                          8
    Counterintelligence                                                   14 - 15
    Workforce Planning                                                      33
    Prior Departmental Challenges
    Infrastructure                                                          32
    Property Controls                                                     32 - 33
Management’s Response to Inspector General Audit Reports                    35
Map of DOE Major Facilities                                                  4
Message From the Chief Financial Officer                                    37
Message From the Secretary                                                   1
Performance Measure Results by Business Line (Detailed GPRA Reporting)    97 - 146
    Energy Resources                                                      98 - 109
    National Security                                                    110 - 122
    Environmental Quality                                                122 - 128
    Science & Technology                                                 128 - 135
    Corporate Management                                                 135 - 146
Year 2000 Status                                                             34




                                                                                     149
Department of Energy FY 1998 Accountability Report




ACCOUNTABILITY REPORT READER RESPONSE SHEET

We ask your opinion on whether the financial and program information presented is clear, conside and useful. We
solicit your ideas to make the presentations more effective. Please fax (301) 903-2550 or mail to : Department of
Energy, CR-30, 19901 Germantown Road, Germantown, MD 20874. We value your opinion and will try to improve
next year’s report based on your response. Thanks for your help.
Please identify yourself by checking appropriate box:
    [ ] CFO/Deputy CFO                                [ ] Program Official
    [ ] OMB/Treasury/GAO                              [ ] Congressional Staff
    [ ] IG                                            [ ] Other _______________________________
Please rate the following on a scale of 1 through 5 by checking appropriate box.
    Totally Disagree                               Totally Agree              No Opinion
           1-----------------------------------------------5                        X
I. OVERALL IMPRESSION:
1. The report is easy to read.
    1[ ] 2[ ] 3[ ] 4[ ]              5[ ]    X[ ]

2. The report is balanced, presenting both positive and negative results.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

3. The report compares favorably with private sector corporate reports.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

II. PROGRAM PERFORMANCE:
4. The Department’s missions and goals are prominently displayed leaving the reader with a view of “where the
    Department is going.”
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

5. The Department’s performance information gives the reader a view of “where the Department currently is”
   in accomplishing its missions and goals.
   1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

6. Management Control Weaknesses (FMFIA) are integrated with the mission performance data.
   1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

7. Audit Follow-ups (IG Act Amendments) are integrated with the mission performance data.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

8. The report leaves you with a feeling of whether the Department is “achieving its mission.”
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

9. The Prompt Payment Act, Civil Monetary Penalty, and Debt Management Data are integrated well into the
   report.
   1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]




                                                                                                               151
                                                                                          Reader Response Sheet




III. GRAPHICS:
10. The graphics are easily understood.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ]                X[ ]

11. The trends presented graphically are adequately explained in the accompanying narrative.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

IV. FINANCIAL:
12. The report gives you a clear understanding of the financial condition of the Department’s appropriations
    and funds.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

13. Financial Statements and Footnotes are informative and understandable.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

14. The Consolidating/Combining Statements and Supplemental Data sections are useful.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

15. The auditor’s opinion is clear, concise, and understandable.
    1[ ] 2[ ] 3[ ] 4[ ] 5[ ] X[ ]

V. BEST AND WORST FEATURES:

16. Is there anything you especially liked about the report?




17. Is there anything that can be improved upon in future reports?




152
